<html>
<title> - IMPLEMENTING THE COMPREHENSIVE EVERGLADES RESTORATION PLAN [CERP]</title>
<body><pre>[Senate Hearing 107-1009]
[From the U.S. Government Printing Office]



                                                       S. Hrg. 107-1009

   IMPLEMENTING THE COMPREHENSIVE EVERGLADES RESTORATION PLAN [CERP]

=======================================================================

                                HEARING

                               BEFORE THE

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS
                          UNITED STATES SENATE

                      ONE HUNDRED SEVENTH CONGRESS

                             SECOND SESSION

                                   ON

             OVERSIGHT OF THE RESTORATION OF THE EVERGLADES

                               __________

                           SEPTEMBER 13, 2002

                               __________


  Printed for the use of the Committee on Environment and Public Works


                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
83-721                      WASHINGTON : DC
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001
               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                      one hundred seventh congress
                             second session
                  JAMES M. JEFFORDS, Vermont, Chairman
MAX BAUCUS, Montana                  BOB SMITH, New Hampshire
HARRY REID, Nevada                   JOHN W. WARNER, Virginia
BOB GRAHAM, Florida                  JAMES M. INHOFE, Oklahoma
JOSEPH I. LIEBERMAN, Connecticut     CHRISTOPHER S. BOND, Missouri
BARBARA BOXER, California            GEORGE V. VOINOVICH, Ohio
RON WYDEN, Oregon                    MICHAEL D. CRAPO, Idaho
THOMAS R. CARPER, Delaware           LINCOLN CHAFEE, Rhode Island
HILLARY RODHAM CLINTON, New York     ARLEN SPECTER, Pennsylvania
JON S. CORZINE, New Jersey           BEN NIGHTHORSE CAMPBELL, Colorado

                 Ken Connolly, Majority Staff Director
                 Dave Conover, Minority Staff Director


                            C O N T E N T S

                              ----------                              
                                                                   Page

                           SEPTEMBER 13, 2002
                           OPENING STATEMENTS

Graham, Hon. Bob, U.S. Senator from the State of Florida.........    29
Inhofe, Hon. James M., U.S. Senator from the State of Oklahoma...     1
    Articles, Washington Post....................................  5-29
    Excerpt, Congressional Record statement......................     2
Jeffords, Hon. James M., U.S. Senator from the State of Vermont..     1
Voinovich, Hon. George V., U.S. Senator from the State of Ohio...    31

                               WITNESSES

Brownlee, Hon. R.L., Assistant Secretary of the Army for Civil 
  Works, Department of the Army..................................    36
    Prepared statement...........................................    70
    Responses to additional questions from:
        Senator Chafee...........................................    82
        Senator Graham...........................................    73
        Senator Inhofe...........................................    83
        Senator Smith............................................    87
        Senator Voinovich........................................    88
Estenoz, Shannon, Director, World Wildlife Fund..................    61
    Prepared statement...........................................   134
Gastesi, Roman, Federal Coordinator, Miami-Dade County, Office of 
  the County Manager, Miami, FL..................................    55
    Prepared statement...........................................   132
Gibson, Tom, Associate Administrator for the Office of Policy and 
  Reinvention, Environmental Protection Agency...................    39
    Prepared statement...........................................    89
Gosa, Mary Ann, Assistant Director of Government Affairs, Florida 
  Farm Bureau, Gainesville, FL...................................    60
    Prepared statement...........................................   146
    Responses to additional questions from:
        Senator Graham...........................................   149
        Senator Inhofe...........................................   151
Klee, Ann, Counselor to the Secretary of the Interior and Chair, 
  South Florida Ecosystem Restoration Task Force.................    41
    Prepared statement...........................................    92
    Responses to additional questions from:
        Senator Graham...........................................    97
        Senator Inhofe...........................................   100
        Senator Smith............................................   105
        Senator Voinovich........................................   106
Lehtinen, Dexter, General Counsel, Miccosukee Tribe, Miami, FL...    52
    Prepared statement of Chairman Billy Cypress.................   120
Nelson, Hon. Bill, U.S. Senator from the State of Florida........    34
Power, Patricia A., Seminole Tribe of Florida....................    53
    Prepared statement...........................................   127
    Responses to additional questions from Senator Graham........   130
Struhs, David, Secretary, Florida Department of Environmental 
  Protection.....................................................    49
    Prepared statement...........................................   107
    Responses to additional questions from:
        Senator Graham...........................................   108
        Senator Inhofe...........................................   111
        Senator Smith............................................   118
        Senator Voinovich........................................   119

                          ADDITIONAL MATERIAL

Poem, River of Peace, Moses Jumper, Jr...........................   128

 
   IMPLEMENTING THE COMPREHENSIVE EVERGLADES RESTORATION PLAN [CERP]

                              ----------                              


                       FRIDAY, SEPTEMBER 13, 2002

                                       U.S. Senate,
                 Committee on Environment and Public Works,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:30 a.m. in room 
406, Senate Dirksen Building, Hon. James M. Jeffords [chairman 
of the committee] presiding.
    Present: Senators Jeffords, Graham, Inhofe, Voinovich and 
Chafee.

OPENING STATEMENT OF HON. JAMES M. JEFFORDS, U.S. SENATOR FROM 
                      THE STATE OF VERMONT

    Senator Jeffords. The committee will come to order.
    I am pleased to be here this morning for the Environment 
and Public Works Committee's oversight hearing on the 
implementation of the Comprehensive Everglades Restoration 
Plan.
    I want to thank Senator Graham for requesting this hearing 
and for his long-standing dedication to this project. I also 
want to recognize the leadership of Senator Smith on the 
Everglades restoration. I understand that it was in large part 
his role as the chairman of the committee in the year 2000 that 
helped move the Everglades restoration through the Congress.
    I am pleased to welcome our colleague Senator Bill Nelson 
of Florida who will be making a statement before the committee. 
He is not here yet. I will turn to the esteemed Senator from 
Oklahoma.

 OPENING STATEMENT OF HON. JAMES M. INHOFE, U.S. SENATOR FROM 
                     THE STATE OF OKLAHOMA

    Senator Inhofe. Thank you, Mr. Chairman. I know that a 
number of our colleagues worked very hard on this legislation, 
including our distinguished Ranking Member, Bob Smith. I 
commend him for working toward the goal of restoring the 
Everglades.
    However, now we know we are wasting money that could have 
gone toward sensible plans to restore the Everglades into a 
plan that may never fix a thing.
    As many of you know, I was the lone vote against in 
opposition of the Everglades Restoration Act. I think the vote 
was 98 to 1, and I was the one. Despite some of the claims made 
by the environmentalist community, my vote did not mean that I 
think that the Everglades should not be restored.
    Rather, I felt that Congress was not being prudent in 
writing a check for $14 billion taxpayers' dollars before we 
knew that the money would actually restore the Everglades.
    I ask everyone to go look in the Congressional Record and 
look at my statements and they can see for themselves. In fact 
when the legislation was attached to the WRDA bill on the floor 
of the Senate, I said, and I quote now, Mr. Chairman, ``While I 
recognize the Everglades as a national treasure, S. 2797 sets 
precedents which I cannot in good conscience condone.''
    I would like to submit my full floor statement from 2000 
for the record at the conclusion of these opening remarks.
    Senator Jeffords. That will be done.
    [The referenced materials follow:]
          [From the Congressional Record, September 21, 2000]
    Mr. Inhofe. Mr. President, I rise in support of the Warner 
amendment. In my dissenting view on S. 2797, the ``Restoring the 
Everglades, An American Legacy Act,'' I outlined my concerns with this 
legislation. I would like to submit my dissenting view for the Record.
    While I recognize the Everglades as a national treasure, S. 2797 
sets precedents, which I cannot, in good conscience, condone.
    I would also like to reiterate my objection to the marriage of the 
Everglades and WRDA legislation. I know many advocates of this plan 
argue that the Everglades should be a part of WRDA 2000. However, the 
Everglades plan is hardly a typical WRDA project. Because of the scale 
and departure from existing law and policy of the Everglades 
legislation, it should be considered as a stand alone bill--not a 
provision in the Water Resources Development Act of 2000. This is a 
precedent setting bill. With other plans of this nature in the works, 
the Everglades will be a model for how we handle these enormous 
ecological restoration projects in the future. We are entering new and, 
in my opinion, dangerous territory.
    No. 1. This legislation violates the committee policy concerning 
the need for a Chief of the Army Corps of Engineer's report before 
project authorization. This legislation authorizes 10 projects at a 
cost of $1.1 billion with no reports of the Chief of Engineers on these 
projects. Since 1986, it has been the policy of the Committee on 
Environment and Public Works to require projects to have undergone full 
and final engineering, economic and environmental review by the Chief 
of Engineers prior to project approvals by the committee. This process 
was established to protect taxpayer dollars by ensuring the soundness 
of all projects. While I understand that, under this legislation, no 
appropriation can be made until a ``Project Implementation Report'' is 
submitted by the Corps, this legislation is still breaking committee 
policy--it is authorizing projects without a Chief's report.
    No. 2. Everglades restoration is based on unproven technology. I 
have serious concerns about the wisdom of a Federal investment in 
unproven technologies--particularly a $7.8 billion investment. The 
project approval process, described above, was established to prevent 
exactly what is happening with this legislation--a gamble with the 
American taxpayers' money.
    No. 3. The open-ended nature of costs of this project. The total 
cost of the Comprehensive Everglades Restoration Plan is estimated at 
$7.8 billion over 38 years. This is the current estimate. I have 
serious concerns about this potential for cost over runs associated 
with this project. GAO agrees with me. In a report--released today--GAO 
stated, ``Currently, there are too many uncertainties to estimate the 
number and costs of the Corps projects that will ultimately be needed . 
. . . .'' As with almost all Federal programs, this project will 
probably cost much more at the end of the day. For example, in 1967, 
when the Medicare program was passed by Congress, the program was 
estimated to cost $3.4 billion. In 2000, the costs of the program are 
estimated to $232 billion. No one could have foreseen this exponential 
growth! The future cost of projects of this magnitude must be taken 
into consideration by Congress before we pass legislation. Once 
projects like these get major investments, they are funded until the 
end--no matter what the cost. There should be a cost cap on the entire 
Everglades project--not just on portions.
    No. 4. This legislation sets a new precedent which requires the 
Federal Government to pay for a major portion of operations and 
maintenance costs. The Warner amendment will remedy this problem.
    Since 1986, water resource projects, including environmental, 
navigation, flood control, and hurricane restoration are financed 
partially by the Federal Government and partially by the local and 
State governments. And all of the costs of operations and maintenance 
of the projects has been the non-Federal entities--usually State or 
local governments responsibility. We should not forget that this 
critical cost-share policy was a key factor in breaking a 16 year 
stalemate on water resources development authorization legislation.
    This Everglades legislation splits the cost of operations and 
maintenance of the Everglades--\1/2\ to the Federal Government and \1/
2\ to the State of Florida. The O&M expenditures for these prematurely 
authorized projects is expected to cost $20 million, and, according the 
Corp, when the Everglades project is completed, O&M costs are projected 
to be in excess of $170 million a year.
    At the end of fiscal year 2000, there will be a $1.6 billion 
backlog of Federal O&M costs nationwide of which $329 million is 
considered ``critical'' because, if O&M is not performed on these 
facilities, they will not be able to maintain current performance. In 
the Tulsa district, which includes Oklahoma, there is a $80 million 
backlog in O&M. The $170 million needed for O&M of the Everglades--
which is almost half of the this year's critical backlog--will drain 
resources--creating a larger backlog around the rest of the Nation. How 
can we fund local O&M expenses when we can't fund Federal O&M expenses.
    States and localities have enormous backlogs of operations and 
maintenance costs due to lack of funding. The precedent, which the 
Everglades legislation sets, could open a Pandora's box--having the 
Federal Government take on expenses for the operations and maintenance 
of many projects. There are a number of Oklahoma projects that could 
use Federal funds for operations and maintenance costs. My hometown of 
Tulsa pays in excess of $3 million a year in O&M costs.
    The Everglades legislation is also unfair because the Corps will be 
conducting annual inspections on all flood control projects turned over 
to the local sponsors for 100 percent O&M. Though they try very hard, 
many localities, which cannot afford O&M costs, will not be able to 
keep their projects properly maintained. When it comes time for more 
Federal projects, they will not be favorably looked upon. the Federal 
Government will say, well, if the local sponsor cannot afford the 
current cost-share agreement, how could they afford a new one--even if 
the community desperately needs the new project. How can the Federal 
Government fund Florida's Everglades O &M bill; while other community's 
projects are denied because they cannot afford proper O&M and we will 
not help them? How is this fair?
    Again, I recognize the Everglades as a national treasure--as I do 
many treasures in Oklahoma. As Congress considers the Everglades 
restoration legislation, all I ask is that Congress play by the rules.
    Mr. President, to reiterate, I commend the Senator from Virginia 
for bringing to our attention what is happening here. I am concerned. 
This is a major piece of legislation. As I said yesterday in committee, 
it would be my preference not to have it as part of the water bill but 
to have it as a stand-alone bill. Because of the size, the magnitude, 
and nature of it, it should be. It is true what Senator Warner has said 
about how this violates both the letter and the intent of what we 
decided in 1986. I remember when it happened. But it is not just in 
this area. Let me mention briefly three other areas where we are having 
the same problem.
    First of all, this legislation violates the committee policy 
concerning the need for the Chief of the Army Corps of Engineer's 
report before project authorization. This was decided back in 1986. To 
my knowledge--and I had my staff research this--we have not gone 
forward with any other projects that have not had a recommendation and 
a report completed by the Chief of the Corps of Engineers.
    I can see what is going to happen after this because every time 
something comes up they are going to say: Wait a minute, you didn't 
require it then. They are overworked. So why should we require it now?
    We have two right now in the State of Oklahoma, in my State, 
awaiting those reports.
    The second thing is the unproven technology. If you go back to 
1986, repeated again in 1996, we said we will only use proven 
technology when these projects are authorized. Admittedly, during the 
committee meeting they said--in fact even the chairman of the committee 
said--we know a lot of this technology is not proven.
    The third thing is it is open-ended. I want to mention we are 
talking about $7.8 billion over 38 years. Yesterday, the GAO came out, 
and after pressing on this, said it could be higher. How much higher? 
It could be as high as $14 billion. I am old enough to remember--I 
think there are a couple of us in this Chamber who might remember, 
too--back in 1967 when we started out on the Medicare program. They 
said at that time it was going to cost $3.4 billion. I suggest to you 
this year it is $232 billion. I do not like these open-ended things. 
They say we are only talking about the first year. Once you start, you 
are committed.
    The last thing, of course, is what this amendment addresses. I 
believe very strongly that when we open up the O&M accounts, the 
operation and maintenance costs will be borne by the Federal 
Government. It is not just going to be that on future projects that 
come up we will say we don't have to worry about O&M accounts because 
50 percent of it can be provided by the Federal Government; there is 
now a precedent for it. Not only that, I can see right now coming back 
on existing projects and saying: Look, we are undergoing that as a 
State expense. Why should we do that when we are not doing it for this 
particular project?
    I think the amendment is very good, but I think the amendment 
should be broadened to cover these other violations of both the intent 
and letter of the 1986 law.
    Senator Inhofe. Thank you, sir.
    When the Everglades bill was being considered, I stated, 
and quoting again, ``The new precedent requires the Federal 
Government to pay for a portion of operation and maintenance 
costs. Though Federal funds are used to construct water 
development projects, the cost of operations and maintenance of 
the project has always been non-Federal entities, usually the 
State or local government's responsibility.''
    The committee should not forget that this is a critical 
cost-sharing policy and it was a key factor in breaking the 16-
year stalemate on the water resources legislation. I think we 
all remember that.
    The Everglades Restoration Act splits the cost Federal 
operations and maintenance of the Everglades, one-half the 
Federal Government and one-half the State of Florida.
    Furthermore, because the Federal Government has not paid 
for operations and maintenance costs, States and localities 
have enormous backlogs of operation and maintenance costs due 
to the lack of funding.
    I still have three concerns. I cannot stay for the 
questions today because we have, and I think that is where 
Senator Warner is right now, a Senate Armed Services 
Subcommittee obligation.
    But I would like to have the Corps submit figures to me, 
not only on the O&M costs that have been to date, but also what 
they are projected to be. I would also like to have figures on 
what this entire project is expected to cost, as near as they 
could determine it now, because they couldn't determine it 2 
years ago.
    I also stated 2 years ago, and I am quoting again, ``The 
violation of the Committee on the Environment and Public Works 
Policy concerning the need for a Chief of the Army Corps of 
Engineers before project on authorization and the basis of the 
restoration project on unproven technology.''
    It is not being pro-environment to throw money out the 
window. Congress is pouring billions of dollars into a project 
that is not protecting or restoring the environment. Elaine 
Hall, head of the External Affairs for the Everglades Project 
was quoted in the Washington Post article June 23, 2002 as 
saying, ``In 10 years I am afraid they are going to wonder what 
they bought with their billions.''
    Well, I couldn't agree more. It was my concern then and it 
is my concern now. In the same article, Bob Gassaway of Fish 
and Wildlife Service Biology has stated, and this is a quote, 
``I do not see a shred of evidence that all this money will 
help the environment.''
    I would like to submit the Washington Post series, a four-
part series on the Everglades in June of this year for the 
record right at the conclusion of my remarks.
    Senator Jeffords. That will be done.
    Senator Inhofe. Again, I did not vote against the 
Everglades legislation because I dislike the Everglades. I love 
the Everglades. I have been there. I was there as a small 
child. But I think it is anti-environmental to waste money and 
our precious resources on unproven plans.
    This is money that could have been spent on proven 
environmental projects.
    Finally, I will just make the four points that I stated 2 
years ago and then get the response that was in the article 2 
years later in the Washington Post.
    I said 2 years ago on the floor of the Senate, ``This 
legislation violates well-grounded Federal policy which 
requires that the U.S. Army Corps of Engineers submit a report 
carefully reviewing the engineering, the economic, and so 
forth.''
    The Washington Post quoted Stewart Applebaum as saying, 
``We have no idea that this will work.''
    Second, it is based on unproven technology. I said on 
September 26 of 2000, ``This legislation is based on huge 
Federal investments in unproven technologies.''
    Again, 2 years later in the Washington Post, ``The plan 
relies on four highly speculative technological gambles.''
    Third, it sets a bad precedent. I said 2 years ago, ``This 
legislation breaks the sound tradition in whether operations 
and maintenance costs for such projects are properly borne by 
the State and local governments and not by the Federal 
Government.''
    Again, that was repeated in the Washington Post.
    Last, the open ended costs. ``The costs of this project,'' 
quoting again from 2 years ago, ``is estimated at $7.8 billion 
over 38 years. But it is open ended.''
    I remind my colleagues that 35 years ago when Medicare was 
set in they were estimating the cost to be $3.4 billion a year 
and now it is approaching $350 billion.
    I didn't bring this up to say that I was right and you guys 
were wrong on this. But it is something that I think we need to 
learn a lesson from because we are going to be faced with other 
opportunities to go out and do good jobs at restoration 
projects and I think we can do it and not violate those four 
principles that have kept us in proven technology in the past.
    Thank you, Mr. Chairman.
    Senator Jeffords. Thank you.
    [The referenced Washington Post articles follow:]

               [From the Washington Post, June 23, 2002]

   A Rescue Plan, Bold and Uncertain; Scientists, Federal Officials 
            Question Projectts Benefits for Ailing Ecosystem
            (Michael Grunwald, Washington Post Staff Writer)

    President Bill Clinton and Governor Jeb Bush met in the Oval Office 
on December 11, 2000, to launch a $7.8 billion effort to revive the 
Florida Everglades. Vice President Al Gore, the plan's leading White 
House advocate, stayed home to watch CNN. That morning, the Supreme 
Court was hearing final arguments in the Florida vote-count case 
pitting him against Bush's brother George.
    None of the power brokers who did attend the Everglades ceremony 
mentioned dimpled chads or butterfly ballots, but they were clearly 
thinking more about Florida's political swamp than its actual one. 
``What a surreal scene,'' recalled former Clinton chief of staff John 
Podesta. ``It took a heroic effort to keep the fake smiles plastered on 
our faces.''
    It was an oddly muted debut for the widely trumpeted Comprehensive 
Everglades Restoration Plan. This rescue mission for wading birds, 
panthers and gators is, after all, the largest environmental project in 
American history. The plan is already the national model for future 
restorations, from a $15 billion proposal for Louisiana coastal 
wetlands to a $20 billion plan for California rivers and deltas. It is 
becoming the restoration blueprint for the world, studied in south 
Brazil's Pantanal and sub-Saharan Africa's Okavango Delta. And at a 
moment when partisanship reigned, the plan was an example of rare 
political unity in Florida and Washington. ``We're here to talk about 
something that is going to be long-lasting, way past counting votes,'' 
Jeb Bush said that day. ``This is the restoration of a treasure for our 
country.''
    But it's not remotely clear whether the Everglades restoration plan 
will actually restore the Everglades. Most of the plan's ecological 
benefits for the Everglades are riddled with uncertainties and delayed 
for decades, though it delivers swift and sure economic benefits to 
Florida homeowners, agribusinesses and developers.
    A Washington Post investigation, based on more than 200 interviews 
and thousands of pages of documents and e-mails, found that the plan 
has been shaped by intense political pressures brought by commercial 
interests. All Florida and Federal agencies formally support the plan, 
but many government officials and scientists expressed serious doubts 
about its viability and impact in on-the-record interviews.
    Marketed as the ultimate restoration project, the plan is really a 
multipurpose plumbing project--committed to expanding water supplies 
and ensuring flood control for South Florida's exploding population as 
well as to improving water flows to the Everglades. It will build 18 
reservoirs for a State that already leads the Nation in per-capita 
water consumption, subsidizing more of the development that degraded 
the River of Grass in the first place.
    The plan also relies on four highly speculative technological 
gambles that account for nearly half its price tag--half State money, 
half Federal--of $7.8 billion in 1999 dollars. Officials say that cost 
estimate, already about 4 years of spending on all national parks, will 
surely rise--as much as tenfold, according to one former restoration 
leader. Even if all the questionable technologies pan out and all the 
funding arrives, there will still be numerous roadblocks to 
restoration.
    ``We have no idea if this will work,'' said Stuart 3. Appelbaum of 
the Army Corps of Engineers. And Appelbaum is in charge of the 
restoration.
    Others expressed even stronger concerns about the restoration and 
its execution. Richard Harvey, the Environmental Protection Agency's 
South Florida director, said the plan was looking more and more like 
``a massive urban and agricultural water-supply project,'' an 
unprecedented Federal bailout for a State living beyond its ecological 
means.
    ``It's falling apart before my eyes,'' said Harvey, who is trained 
as a biologist and an engineer. ``We were all singing `Kumbaya.' Now 
we're singing `Can't Get No Satisfaction.' ''
    Half the Everglades has been paved for development or drained for 
agriculture. The other half is a shrunken, fragmented, convoluted mess, 
sucked dry when it needs water and flooded when it doesn't.
    The restoration plan's goal is to capture 1 trillion gallons of 
rainwater that now gets flushed out to sea every year, store it in new 
reservoirs and newfangled injection wells, then distribute it to farms, 
people and the Everglades in the right amounts at the right times. 
``The Everglades is a test,'' the legendary author and activist Marjory 
Stoneman Douglas used to say. ``If we pass, we may get to keep the 
planet.'' The Corps and its State partners in the South Florida Water 
Management District hope that ``getting the water right'' will re-
create the original mix of flora and fauna, as Douglas had always 
dreamed.
    But while the Federal interest in the restoration plan is primarily 
environmental, the State interest is more complex. Jeb Bush and his 
aides--backed by developers, agribusinesses, water utilities and, at 
times, Indian tribes--have fought consistently and successfully to make 
sure the plan does not put nature ahead of his constituents.
    Even though South Florida's population is growing faster than 
Haiti's or India's--and enjoying some of the nation's cheapest water--
the plan commits to supplying enough water for its population to double 
again as baby boomers retire to its condos and golf courses. Florida 
will have a veto over all 52 of the plan's projects, and one clause 
stipulates that no aspect of the plan can harm anyone in any way.
    Meanwhile, internal documents call some of the plan's environmental 
promises into doubt. For example, the restoration's leaders pledged to 
send 80 percent of the project's water to nature rather than to people, 
but a water budget obtained by The Post falls hundreds of
    billions of gallons short. Even Jayantha Obeysekera, the water 
district's top hydrology modeler, says the 80 percent assurances are 
based on ``gross assumptions that I don't like at all.''
    The plan's leaders secured environmental support by promising major 
environmental improvements by 2010, the project's $4 billion mark. But 
Richard Punnett, chief Everglades hydrologist for the Corps, recently 
said he expected no significant water flow changes by then. ``It could 
be a lot longer than that,'' conceded Tommy Strowd, the water 
district's operations director. Robert Johnson, Everglades National 
Park's top scientist, said he did not expect the plan to help the park 
until 2020--if at all. Many scientists fear it could actually damage 
the turquoise bay and coral reefs of Biscayne National Park.
    ``We sold it big to get it passed, but the real environmental fixes 
won't happen for many, many years,'' acknowledged Corps biologist 
Stephen Traxler.
    The official cost--about 20 years worth of the Federal program to 
control the former Soviet Union's nuclear weapons--is equally suspect, 
and it does not include another $7 billion worth of separate Everglades 
projects. Michael Parker, the Corps' civilian chief until President 
Bush ousted him in March, predicted in January that Everglades 
restoration could cost ``$60 billion, $80 billion, easy.'' This is 
likely to become America's most expensive public works project ever.
    Still, the plan does not assure pristine water quality, even though 
rehyd rating the Everglades with anything less could simply poison it 
more efficiently. ``I mean, duh. That would defeat the whole purpose,'' 
said Florida International University microbiologist Ron Jones.
    The plan barely addresses the exotic plant species that have 
invaded 1.5 million acres of the ecosystem: melaleuca that sucks the 
wet out of wetlands, Old World climbing ferns that spread like viruses. 
One of the plan's top stated priorities is expanding the ``spatial 
extent'' of the Everglades, but its own dirt-moving will destroy 34,000 
acres of Everglades wetlands. And it offers only ``limited help'' for 
Lake Okeechobee, the diseased heart of the ecosystem, according to Karl 
Havens, the water district's own Lake Okeechobee scientist.
    ``I don't see a shred of evidence that all this money will help the 
environment,'' said Fish and Wildlife Service biologist Bob Gasaway.
    The nightmare scenario for many biologists and conservationists is 
that South Florida will get its new reservoirs for irrigation and 
growth, but that a disillusioned Congress will cutoff the money flow 
before the water flow can reach the Everglades. Congress passed less 
ambitious Everglades restoration projects in 1989 and 1994, but both 
have been paralyzed by infighting and litigation, and neither has 
delivered a drop of water to the Everglades.
    ``In 10 years, I'm afraid, they're going to wonder what they've 
bought for their billions,'' said Elaine Hall, head of external affairs 
for Everglades National Park.
    The plan's leaders acknowledge that it is not perfect. They say 
they simply can't afford to wait for perfection. Douglas warned that 
the Everglades was in its ``eleventh hour'' in her 1947 book ``River of 
Grass,'' and the clock is still ticking. ``Maybe this plan is 
premature, but I don't want to do a post-mortem on the Everglades,'' 
Appelbaum said.
    If the Everglades is the ultimate test of man's ability to undo the 
damage he has inflicted on nature, the restoration is also a test of 
the Corps, a 227-year-old public works agency that is under 
unprecedented scrutiny for building wasteful and destructive water 
projects.
    A half-century ago, the Corps built the water-moving system that 
enabled South Florida to grow and thrive but also ravaged the 
Everglades. Today, as the Corps prepares to replumb its replumbing, its 
restoration managers hope to reinvent an agency known for damming, 
diking and dredging rivers. They're working more closely with 
environmental agencies. They're hiring more scientists like Traxler, a 
ponytailed nature-lover who used to train dolphins at Sea World.
    ``This is not the usual Corps mumbo-jumbo,'' Appelbaum said. 
``We've got a real environmental ethic here.''
    The restoration's leaders have already bought enough land to cover 
four Manhattans, and hundreds of scientists and engineers are at work 
on everything from surveys mapping the bumps and dips of the Everglades 
to equations modeling how sea grasses synthesize nitrogen. But many 
scientists believe the 4,000-page plan reflects an engineer's bias for 
fancy engineering, clinging to man's control of nature instead of 
removing man-made structures and letting nature heal itself. Many 
environmentalists are increasingly skeptical that the highly political 
agencies that nearly killed the Everglades can save it now.
    ``I'm getting angrier by the day,'' said Shannon Estenoz, an 
engineer who is Everglades coordinator for the World Wildlife Fund and 
co-chair of the Everglades Coalition, the network of environmental 
groups that led the fight for restoration. ``I'm starting to think we 
were suckers for supporting this.''
    The Everglades restoration has enjoyed nearly universal political 
support from its inception. Lobbyists for the sugar industry and the 
Audubon Society literally walked the halls of Congress arm-in-arm to 
promote it. It was the centerpiece of Clinton's and Jeb Bush's eco-
legacies; President Bush has called it the prime example of his ``new 
environmentalism for the 21st century.''
    But to understand the gap between the rosy perception and murky 
reality of Everglades restoration, it helps to understand the 
Everglades, what mankind has done to it and how consensus politics 
created this plan to fix it.
    ``If the Devil ever raised a garden the Everglades was it--the 
biggest and meanest swamp you're ever likely to see, bigger than some 
States of the Union,'' James Carlos Blake wrote in the 1998 novel ``Red 
Grass River.'' ``It's pineywoods and palmetto scrubs and cypress heads 
and tangled vines but mostly it's a river, a river like none other on 
earth.''
    Some people romanticize the Everglades: the ancient wilderness, the 
exquisite experience, the magnificent beauty. In fact, it's only a bit 
older than the Pyramids, not so ancient in wilderness time. As 
experiences go, it's a sweltering slog, full of mosquitoes, snakes, 
quicksand and sharp-edged sawgrass as well as the snub-nosed alligators 
and skinny-legged wading birds on the postcards. And while it's 
beautiful in a subtle way, like a waterlogged wheat field, it's mostly 
a vast expanse of green and brown marsh with some teardrop-shaped tree 
islands. To the west, graceful cypress stands do give the feel of a 
primeval forest, but as a natural spectacle, it's not the Grand Canyon 
or Mount McKinley.
    ``To put it crudely, there is nothing in the Everglades that will 
make Mr. Johnnie Q. Public suck in his breath,'' Everglades National 
Park's first leader wrote in 1938.
    But the Everglades is unique. That's why the national park, 
covering 40 percent of the remaining Everglades, was the first 
established for biology rather than scenery. That's why the United 
Nations designated it a World Heritage Site and an International 
Biosphere Reserve.
    For a subtropical marsh, the Everglades is unusually flat, 
unusually wet and unusually low in nutrients. Those characteristics 
produced its singular biodiversity, from the algae mats at the bottom 
of its food chain to the storks, herons and other wading birds the 
19th-century naturalist John James Audubon observed ``in such numbers 
to actually block out the light of the sun.'' The park is the only 
place on Earth where alligators and crocodiles live side by side; 
President Bush has joked that Congress should study its example.
    The original free-flowing Everglades began where Lake Okeechobee 
spilled over its lower lip during summer downpours, sending a shallow 
60-mile-wide sheet of water on a leisurely 100-mile journey through 
table-flat grasslands. The land declined only a few inches per mile, so 
this ``sheet flow'' crept south toward the mangrove fringes of Florida 
Bay at just a few inches per second, spreading across millions of acres 
of absorbent prairies. This kept the spongy marsh perpetually wet--
during the winter, it dried down just enough to concentrate fish into 
pools for feeding frenzies by wading birds--while replenishing its 
underground aquifers.
    This liquid garden--really, a river obscured by grass--did not 
change much for 5,000 years. ``In our very midst, we have a tract of 
land . . . that is as much unknown to the white man as the heart of 
Africa,'' the explorer Hugh Willoughby wrote in 1898.
    Only the Seminole and Miccosukee Indians lived in the Everglades. 
They traveled its grassy sloughs in dugout canoes, hunting deer and 
bobcats for subsistence, sleeping in open-faced chickee huts built on 
stilts. Americans fought three Seminole wars in the 1800's, but the 
tribes retreated ever deeper into the bog and were never conquered.
    Miccosukee tribal chairman Buffalo Tiger, 82, remembers the 
Everglades as The Breathmaker created it, teeming with turtles and 
turkeys, following natural patterns of flood and drought. His people 
used to be able to feel the rains coming. But as he listened one recent 
afternoon to the cars roaring past his airboat-tour business off 
Tamiami Trail--the east-west highway that blocks the old Everglades 
sheet flow as solidly as any dam--he sighed that Miccosukees must check 
the radio now like everyone else. The natural patterns had been lost.
    ``We believe we are part of nature,'' said Tiger, who recently 
wrote a book titled ``A Life in the Everglades'' but lives in Miami 
now. ``The white man always tries to control nature.''
    The white men who did venture into the Everglades almost all had 
the same reaction: They wanted to drain the swamp.
    Florida gained statehood in 1845, and one of its legislature's 
first acts was to petition Congress to ``survey the Everglades, with a 
view to their reclamation.'' This was a long time before Earth Day. 
Most Floridians saw the Everglades as an impenetrable tract of soggy 
land on which they couldn't farm or build, and they were determined to 
civilize it. They believed, as the legendary Governor Napoleon 
Bonaparte Broward declared, that water was ``the common enemy of the 
people of Florida.''
    The history of Everglades drainage, however, is a history of 
spectacular failures and scandals, the stuff of enduring jokes about 
Florida real estate sold by the quart. In 1881, a Philadelphia 
industrialist named Hamilton Disston paid $1 million for 4 million 
acres of the Everglades; he managed to drain only 50,000 acres before 
committing suicide in his bathtub in 1896. Broward, a boat captain who 
had smuggled guns for Cuban revolutionaries, stumped for Governor in 
1904 on a drain-the-bog platform, unfurling giant maps of his plan to 
turn a ``pestilence-ridden swamp'' into an Empire of the Everglades. 
``It would indeed be a commentary on the intelligence and energy of the 
State of Florida, to confess that so simple an engineering feat . . . 
was above their power,'' Broward taunted his audiences.
    Broward's empire spawned a frenzy of real estate schemes, fueled by 
corrupt surveyors, credulous reporters and huckster salesmen pitching 
the Promised Land, the Tropical Paradise, the Land of Destiny. ``In the 
Everglades you simply tickle the soil and bounteous crops respond to 
feed hungry humanity,'' one newsman gushed. The lure of cheap 
homesteads and
    easy money sparked an Everglades land boom, but the drainage was 
rarely efficient enough for good farming or dry housing. A series of 
floods left millions of developed acres underwater and thousands dead, 
their corpses piled up and incinerated at roadsides.
    It turned out that draining the Everglades was indeed above the 
power of Florida. This was a job for the Army Corps of Engineers. After 
horrific floods in 1926 and 1928, the Corps began building the Herbert 
Hoover Dike, the forbidding wall of earth and grass that encircles Lake 
Okeechobee. After another disaster in 1947, Congress ordered up the 
flood-control and water-supply project that today includes 1,700 miles 
of levees and canals, 150 control structures and 16 pump stations--some 
powered by engines cannibalized from nuclear submarines--to shuttle 
water around the region. The northern Everglades was drained by canals 
into 550,000 acres of fertile farmland that now produce one-fourth of 
America's sugar. The central Everglades was carved with levees into 
five isolated ``water conservation areas'' that are still sawgrass 
plains but are used as glorified sumps and reservoirs.
    The project now keeps 6 million residents dry during floods, and 
helps them water their lawns twice a week during droughts. It supports 
37 million annual tourists and snowbirds. ``The project reflected the 
values of its time,'' said Punnett, the Corps hydrologist.
    It also crippled the Everglades.
    The signs of decline are all over Florida's southern thumb.
    A Chicago-size blob containing 50,000 tons of phosphorous sits at 
the bottom of Lake Okeechobee. Gin-clear Florida Bay has turned a 
sickly green. Fish in the St. Lucie estuary have lesions so wide their 
entrails drag behind them. Muck fires are rampant because the 
Everglades is too dry. Tree islands wash away because the Everglades is 
too wet. Sawgrass prairies turn to dense cattail plains because the 
Everglades is polluted with nutrients.
    The arena for the Florida Panthers of the National Hockey League 
sits so close to the edge of the Everglades that an errant slap shot 
could almost land in the swamp; the actual Florida panther is at the 
edge of extinction because runaway sprawl has wiped out its habitat.
    The most-repeated Everglades statistic is that 90 percent of its 
wading birds are gone. Ornithologist John Ogden, the water district's 
chief Everglades scientist, explains that the unnatural pooling of 
water in man-made compartments of the Everglades ``sends confusing 
messages to their little pea brains,'' luring them into areas where 
they drown, starve or fail to feed their young. Their decline is 
typical; South Florida is home to 69 endangered plant and animal 
species, from the Okeechobee gourd to the Everglade snail kite to the 
Cape Sable seaside sparrow. ``The crayfish and otters crashed, too. The 
entire food base collapsed,'' Ogden said.
    The main problem in the remnant Everglades--an area the size of 
Delaware plus Rhode Island--is that the water is all wrong.
    The natural southerly sheet flow has been blocked and rerouted by 
levees, highways and canals. The overdrained and overpaved marsh can no 
longer hold water all year long. Sugar farms and urban areas dump 
excess water into the natural system in wet seasons and suck needed 
water out of the natural system in dry seasons. That runoff from farms 
and cities contains nutrients--exactly what the Everglades can't 
tolerate. Since Lake Okeechobee can no longer overflow naturally to the 
south, water managers regularly send huge pulses of lake water east and 
west during storms to avoid a catastrophic dike collapse, destroying 
the delicate balance of freshwater and saltwater in the St. Lucie and 
Caloosahatchee estuaries.
    ``We know we're creating huge environmental impacts, but there's 
nothing we can do,'' said Strowd, who moves water around South Florida 
from a West Palm Beach control room full of flashing lights and 
satellite images. ``We can't put lives or property in jeopardy.''
    An internal e-mail exchange obtained by The Post illustrates how 
economic interests--in this case, the sugar industry, which pollutes 
the Everglades, blocks its flow and sucks away its water--outmuscle 
nature when their demands collide.
    During the drought of 2000, water district managers decided that 
Lake Okeechobee was so low that they could not release any more water 
for irrigation. Tom MacVicar, a former district deputy director who 
represents sugar growers, warned district supervising engineer Luis 
Cadavid: ``Users will never sit still for zero water-supply releases.''
    Cadavid replied that he had to be consistent with district 
guidelines, that any releases ``can be seen as a priority switching.'' 
MacVicar demanded a meeting, and on the next business day--while 
Clinton signed the Everglades restoration plan into law and the Supreme 
Court heard Bush v. Gore--he got one.
    The district promptly agreed to switch priorities without a public 
hearing, giving the industry half its usual releases. ``Thanks for all 
your work and for continuing to improve the process,'' MacVicar wrote. 
``We . . . really appreciate your kind words and recognition,'' Cadavid 
replied.
    In the end, Lake Okeechobee dropped below nine feet for the first 
time. A third of the lake disappeared until the summer rains, along 
with most of its bass fishing and boating. The region was battered so 
badly that Jeb Bush declared an economic state of emergency.
    The sugar industry enjoyed its fourth-largest harvest ever.
    The historical Everglades can never be restored.
    That's because millions of people live and farm in it. Suburbs such 
as Sweetwater and Kendall and Wellington have sprouted in the swamp, 
which is why Floridians filed a record 17,000 complaints about nuisance 
alligators last year. The city of Weston, for example, is bordered by 
the Everglades on three sides. But its population has increased tenfold 
in the 1990's, and no plausible plan could convert the properties of 
former Miami Dolphins star Dan Marino and 53,000 of his neighbors back 
to wilderness. This dilemma, restoration-plan documents acknowledge, 
must ``preclude any serious consideration of achieving true 
restoration.''
    Instead, the plan envisions a new Everglades, an unnatural 
Everglades that would look and act more like the real thing. The 
official goal is to ``Get the Water Right''--quantity, quality, timing 
and distribution--for the ecosystem, while also capturing enough water 
for sugar fields, citrus groves, sprinklers and faucets.
    This emphasis on human needs is no coincidence. The plan's 
blueprint was first floated in 1996 by Governor Lawton Chiles's 
Commission on a Sustainable South Florida, an assortment of homeowners 
and home builders, sugar and citrus growers, business and tribal 
leaders, water managers and environmentalists. Chairman Richard 
Pettigrew, a former speaker of the Florida House, knew the State 
legislature would never pass an Everglades plan opposed by developers 
or agribusinesses. With blandishments and compromises, he engineered a 
unanimous vote.
    ``That was the key: Everybody had to be on board,'' Pettigrew said. 
``We wanted the wars to end. We had to come up with something for 
everyone.''
    The Federal Government is not usually in the local water-supply 
business, but Federal officials decided to turn the commission's 
something-for-everyone vision of ``sustainable growth'' into a plan to 
reduce human reliance on the Everglades. They figured the more water 
they could
    supply for people, the less water people would have to draw from 
the Everglades.
    The plan's basic idea is to stop squirting so much storm water from 
summer rains out to tide and start storing it in 180,000 acres worth of 
reservoirs--the size of more than four District of Columbias--for use 
in the dry season. The plan also calls for 333 Aquifer Storage and 
Recovery wells to pump water 1,000 feet underground for use in later 
years.
    With the extra storage space, water managers hope they won't have 
to use the central Everglades and Lake Okeechobee as holding tanks, and 
won't have to blow out the estuaries with mini-tidal waves of fresh 
water. The goal is to manage the natural system for nature, while 
capturing new water to serve 6 million additional South Floridians and 
protecting them all from floods.
    Still, the reality of rerouting South Florida's water without 
offending anyone proved far messier than the commission's tidy outline.
    ``CERP isn't brain surgery,'' Appelbaum likes to say. ``It's much 
more complicated.''
    The most serious technical challenge is the plan's unprecedented 
reliance on the aquifer wells. Restoration planners had hoped to store 
more water in big reservoirs, but they were stymied by $40,000-an-acre 
land prices in the south, the sugar industry's reluctance to sell land 
in the north and high evaporation rates everywhere.
    So they will spend $1.7 billion on wells, more than one-fifth the 
plan's cost. The wells are supposed to store 20 times as much water as 
the world's largest aquifer storage site in Las Vegas, and many 
geologists fear the proliferation of wells could fracture the aquifer's 
rock formations and contaminate South Florida's drinking water. No one 
is even sure how much of the stored water will be recoverable.
    ``Obviously, there are a lot of unknowns, a lot of serious 
concerns,'' said William Logan, a groundwater geologist at the National 
Academy of Sciences.
    The plan relies on three other technological risks as well: a $1 
billion plan to convert two limestone quarries into reservoirs, a $280 
million subterranean ``seepage barrier'' designed to stop water from 
escaping the Everglades underground, and an $800 million effort to 
recycle wastewater into Biscayne Bay that even Appelbaum describes as 
``problematic.'' The plan does include $100 million worth of pilot 
projects to test these technologies, but by the time they're done, 
billions of dollars will already have been spent.
    ``Hopefully, they'll work,'' said MacVicar, the former district 
official. ``If they don't, uh-oh.''
    U.S. Geological Survey ecologist Ronnie Best calls the restoration 
a SWAG. That stands for Scientific Wild-Ass Guess. And Best is co-chair 
of the restoration's science team.
    On December 31, 1998, officials at Everglades National Park flagged 
an even more fundamental problem with the plan: It wouldn't get the 
water right. They declared in a letter that it ``does not represent a 
restoration scenario for the southern, central and northern 
Everglades.'' Environmentalists began threatening to torpedo the plan 
unless major ecological improvements were assured by 2010.
    The Clinton Administration scrambled to insert environmental 
commitments into the plan's final draft, from a promise of 79 billion 
more gallons for the park to a pledge that restoration would be the 
primary goal. In response, Corps officials quietly declared war on 
their bosses, skipping meetings and ignoring requests for data. ``The 
recalcitrance of Corps headquarters,'' Clinton aide Michael Davis wrote 
in a memo, ``is unacceptable.''
    The commitments were made. But they wouldn't last long.
    ``Let's get it done!''
    It was July 1, 1999, and Vice President Gore had just delivered the 
10-volume, 23-pound plan to Congress. Robert Smith (R-N.H.), then 
chairman of the Senate Environment and Public Works Committee, had once 
quit the GOP because he thought it had strayed too far left. But Senate 
Bill 2437--and the Everglades--was so popular that Smith led the charge 
with throwback liberal rhetoric, dismissing the cost as ``just a can of 
Coke per U.S. citizen per year.''
    ``The Everglades became motherhood and apple pie,'' Smith said. 
``Everybody wanted to be seen as a supporter of the Everglades.''
    There was one major sticking point: the late environmental 
additions.
    At a Senate hearing in May 2000, Jeb Bush, a former Miami 
developer--flanked at the witness table by Florida Sens. Bob Graham 
(D), whose family runs a prominent South Florida development firm, and 
Connie Mack (R)--ripped the Clinton Administration for shattering a 
fragile consensus, for subjecting the State to a ``master-servant 
arrangement.''
    Florida's legislature had just approved the plan with only one 
dissenting vote, but Bush hinted it would withdraw its support if 
Congress insisted on the new language putting restoration first, while 
only providing flood control and water supply ``to the extent 
practicable.''
    Senator John W. Warner (R-Va.), irked that the Everglades was in 
line for 50 times as much money as he had ever wrangled for the 
Chesapeake Bay, argued that restoration of South Florida's 11 Federal 
parks and refuges should trump local water demands. But Mack countered 
that imposing a ``number-one objective'' could be ``disastrous to this 
effort.''
    ``The foundation of [the plan] was that there would be an equal 
commitment to the natural system, to flood protection and to water 
supply,'' Bush said.
    Senators and Clinton aides, all desperate to pass an Everglades 
bill before the session's end, hashed out a compromise, a series of 
assurances to be converted into legal documents later. ``This was a 
political plan, and we had to deal with that,'' said former interior 
secretary Bruce Babbitt. ``Some of the big decisions were pushed down 
the road.''
    So the promise of 79 billion gallons to the park was downgraded to 
a study. The battles over how to allocate the project's water and 
ensure ecological progress by 2010 were punted to a future Federal-
State agreement--now known as the Agreement Between the Bushes--and a 
crucial set of future regulations that would ``ensure the protection of 
the natural system.'' While restoration was enshrined as the plan's 
``overarching purpose,'' the plan was legally committed to meeting the 
``water-related needs'' of South Florida--practicable or not.
    Those needs, however, were rarely mentioned during the Washington 
lobbying campaign for the plan. Instead, the focus was ``America's 
Everglades,'' a slogan Graham invented to dispel the notion of a 
parochial Florida project. Strategists figured lawmakers from drier 
States might wonder about a multipurpose water project for a 
subtropical mecca that gets 55 inches of rain per year.
    ``We were told not to talk about water supply,'' recalled Fred 
Rapach, a Palm Beach County water official. ``Everyone said: `Don't 
worry. You'll get what you need. If you want to get this through, just 
talk about the environment.' ''
    The bill breezed through the Senate, 85 to 1.
    In the House, the plan's main skeptics were Speaker J. Dennis 
Hastert (R-Ill.) and then-Rep.
    Bud Shuster (R-Pa.). Hastert relented after an Everglades trip with 
Representative E. Clay Shaw Jr. (R-Fla.), who was in a tight race for 
reelection at a time when the GOP majority--and Hastert's speakership--
was at risk. Shuster, a noted dispenser of pork, agreed to paste S. 
2437 into a Corps bill in exchange for a slew of local water projects. 
His aides called the result the Altoonaglades, after a city in 
Shuster's district. It passed the House, 394 to 14.
    So on that icy December day at the White House, Republicans and 
Democrats set aside an electoral crisis to celebrate something they had 
in common.
    ``In a time when people are focused on politics, and there's a 
little acrimony--I don't know if y'all noticed--this is a good example 
of how bipartisanship is still alive,'' Jeb Bush said.
    Everglades restoration, the plan's leaders say, is like the moon 
mission--a bold leap into the unknown, backed by a fervent commitment 
to the destination. They hope to start moving dirt in 2004, but they 
don't pretend to know exactly how to get to their moon.
    ``We don't know if the moon is made of cheese,'' Ogden said. And 
he's the plan's top scientist.
    Even if the plan's questionable technologies all work wonders, no 
one is sure the funding will continue long enough to restore the 
original hydrology. No one is sure restoring the original hydrology 
would really bring back the biology. No one is even sure what the 
original hydrology was, and in floor-flat South Florida, warned Corps 
project manager Michael Ornella, ``uncertainties of even a tenth of a 
foot can lead to gross miscalculations.''
    Developers and speculators--and in one case, the Miccosukee tribe--
are already buying up land needed for the restoration. Babbitt even 
fretted about rising seas: ``What do we do when the Everglades migrates 
north?''
    Still, Ogden described the plan as a noble effort to save a dying 
wonderland, unavoidably constrained by Florida politics and the limits 
of scientific knowledge: ``I'm as familiar with the uncertainties as 
anyone, but I've convinced myself there's a chance this can work.''
    The plan, after all, is not etched in stone. Congress specifically 
noted that it did not expect ``rigid adherence to the plan,'' and the 
plan's leaders emphasize their commitment to ``adaptive management,'' 
science-speak for flexibility.
    ``We know there will be rocks and shoals along the way,'' said John 
Fumero, the district's general counsel. ``People are going to have to 
trust us to do the right thing.''
    But many conservation groups argue that trust has failed the 
Everglades in the past, that the plan's success depends on the 
strongest possible legal assurances that restoration will come first. 
The moon launch, after all, was not a multipurpose project. And the 
behind-the-scenes fights over the plan's assurances, postponed in 2000, 
are resurfacing now.
    On January 9 of this year, Jeb Bush returned to the Oval Office--
this time, on better terms with the occupant. Before heading to a 
$5,000-a-plate fundraiser for Jeb's campaign, the two brothers signed 
the Agreement Between the Bushes, designed to force Florida to reserve 
water for the Everglades. ``We're going to do this the right way,'' Jeb 
Bush said.
    But now President Bush's aides are finalizing the regulations 
required by the plan to ensure ``restoration success,'' and Jeb Bush's 
aides--backed by almost every Florida interest except environmental 
ones--are lobbying to keep them as vague as possible.
    The initial Corps draft of the regulations was almost devoid of 
restoration assurances. One section even created water-supply and 
flood-control assurances. Reps. Joe Skeen (R-N.M.) and Norman D. Dicks 
(D-Wash.), the chairman and ranking member of the plan's funding 
subcommittee, wrote that it fell ``far short of meeting the 
congressional intent.'' The members of the Everglades Coalition--
including Audubon, the plan's most reliable environmental cheerleader--
threatened to withdraw their support unless the rules are strengthened.
    ``The great amount of discretion granted the Corps and the State, 
and the lack of meaningful restoration standards, perpetuates the 
dominance of political influence over science, which has historically 
allowed the destruction of the Everglades,'' the coalition wrote.
    President Bush's administration will unveil the rules soon. But the 
plan's leaders argue that trust and broad discretion will be the keys 
to averting a repeat of their old mistakes, that strict mandates would 
just lead to more litigation. The point, they say, is that this is a 
new era. They stand ready to take the Marjory Stoneman Douglas test, 
ready to help save the planet. They are willing to learn as they go 
along.
    ``We don't have 100 years of experience on this,'' Appelbaum said. 
``If people can show us problems, we'll fix them.''
                                 ______
                                 
               [From the Washington Post, June 24, 2002]
 Between Rock and a Hard Place; Wetlands Shrink Before Growing Demands 
                         of Industry, Consumers
          (By Michael Grunwald, Washington Post Staff Writer)

West Miami, FL: The bulldozers come first, tearing up the Everglades 
and stripping away its soil. Then comes the dynamite, blowing up the 
limestone that sits beneath the sawgrass. Then a 3 million-pound 
dragline scoops up the boulders in a bucket strong enough to lift 40 
Lincoln Navigators at once. Soon the rock will end up in sidewalks and 
sewer pipes, highways and driveways.
    ``That rock is money,'' said Johnny Arellano, manager of CSR Rinker 
Co.'s quarry here. ``It would be nice if it wasn't under the 
Everglades, but we go where the rock is.''
    Half the Everglades has been eliminated. Now the rest is supposed 
to be resuscitated. But here at the western frontier of Miami sprawl, 
rock-mining firms are digging up another 21,000 acres of Everglades 
wetlands. The Army Corps of Engineers, the agency in charge of wetlands 
protection, has warned that the mining plan ``will have an irreversible 
significant impact on the environmental resources of this region.'' It 
will destroy more wetlands in the Everglades than the Corps permitted 
to be destroyed nationwide last year.
    But the Corps is not blocking the plan--or even fighting the plan. 
The Corps is promoting the plan as a key element of its $7.8 billion 
Everglades restoration project.
    The ``Lake Belt'' mining plan is the starkest evidence that 
Everglades restoration is not just about restoring the Everglades. It 
calls for the Corps to wait until the rock pits are mined out in 35 
years or so, then spend $1 billion to convert two of them into huge 
storage reservoirs: one for drinking water and additional flows to 
Biscayne National Park and one for Everglades National Park. The 
premise is that sacrificing Everglades fringes as big as the city of 
Miami can help save the ecosystem.
    But no one is sure the 80-foot-deep pits won't implode, or burst, 
or contaminate Miami-Dade County's drinking water with deadly bacteria. 
A study by the South Florida Water Management District suggested the 
pits would make more water seep out of the Glades--in an area in which 
the Corps plans to spend hundreds of millions more to prevent that.
    Other agencies have blasted the plan's technical uncertainties and 
ecological risks. Even an internal Corps e-mail called it ``a steal'' 
for the miners, noting that ``political entities play an enormous role 
in this particular beast.''
    For example, Gerardo Fernandez, Governor Jeb Bush's Lake Belt 
Committee chairman, is a former vice president of Rinker, which has 
donated $90,000 to the Florida Republican Party since
    1996.
    ``We did the best we could,'' said Fernandez, who is also a Bush 
appointee on the water district's board. ``We went out of our way to 
balance all the interests: economic development, property rights and 
the environment. It wasn't easy.''
    In many ways, the Lake Belt plan is a microcosm of all that is 
questionable about America's largest, most complex and least understood 
environmental project.
    It promises clear and quick economic benefits to well-connected 
Florida interests, but only speculative and faraway ecological benefits 
that rely on an expensive technological gamble. It was grounded in 
environmental concepts, but it lost environmental support as details 
emerged.
    And it was justified by a key assumption: that it is unrealistic to 
expect this state of Disney dreams and Cape Canaveral ambitions to 
change the land-use patterns that obliterated so much of the Everglades 
in the first place.
    Similar objections have been lodged about the overall Comprehensive 
Everglades Restoration Plan that President Bill Clinton signed into law 
December 11, 2000, with wide bipartisan support. But to the Corps and 
its water district partners, the Lake Belt is a perfect example of the 
plan's allure, an everybody-wins solution to a difficult situation.
    They say the plan will respect the property rights of miners who 
already own land in the area, while steering their quarries as far from 
the park and the county's wellfields as possible. It will harvest 1.7 
billion tons of limerock that will promote economic growth. It will 
create rectangular water bodies that won't be true biological ``lakes'' 
but will block Miami-Dade's seemingly unblockable westward sprawl. If 
the new technology works, the Lake Belt will eventually boost local 
water supplies and help rehydrate the Everglades.
    The vision, as one Lake Belt report put it, is ``Making a Whole, 
Not Just Holes.''
    ``This innovative, comprehensive, cutting-edge approach will be a 
win-win for the environment and the public needs of Southeast 
Florida,'' the Corps says on its Web site.
    The Corps has even contended the plan will help remove exotic 
melaleuca trees that have invaded Everglades wetlands--which is true. 
But it's a bit like promoting mountaintop-removal coal mining to reduce 
hiking accidents. On a recent Lake Belt tour, biologist George 
Dairymple said with a smirk that the plan offers everything but the 
formula for a tastier Hershey bar.
    Dairymple is a scientist, a Staten Island native who has spent his 
career doing academic research in Florida's swamps. But the Lake Belt 
has turned him into an activist. As he slogged through a sawgrass 
prairie designated for digging, Dalrymple showed off a flock of snowy 
egrets, a clump of grayish algae, a zebra butterfly. Then he pointed to 
the roaring machinery at work nearby--framed by a gray moonscape of 20-
foot-high piles of crushed pebbles that might end up paving over more 
sawgrass prairies someday.
    ``Does that look like a restoration project?'' he asked. He wasn't 
smirking anymore.
    Joe Podgor was a confidant of the late Marjory Stoneman Douglas, 
the bard of the Everglades; he used to run her grass-roots group, 
Friends of the Everglades. It was Podgor who ghostwrote her most famous 
line: ``The Everglades is a test. If we pass, we may get to keep the 
planet.'' And it was Podgor who dreamed up the Lake Belt.
    His story, and the Lake Belt's, helps illustrate how the road to 
the Everglades restoration plan was paved with good intentions.
    Podgor, 56, describes himself as a ``fat jerk from Miami Springs.'' 
He became an activist in the 1960's because pollution was ruining his 
favorite fishing canal. Soon he founded a group called Save Our Water 
to try to protect Miami-Dade's wellfields and underground aquifers.
    He helped stop some condo projects, some strip malls, a Blockbuster 
theme park. But there were many more projects Podgor couldn't stop. He 
says he got sick of power politics and rubber-stamp regulators and 
enviros who cared more about birds and bunnies than their own water. 
Mostly he got sick of losing. It seemed like nothing but the ocean ever 
blocked development in South Florida.
    That's when he had a gloomy epiphany. ``It just hit me,'' Podgor 
said. ``We needed an ocean on the west side of town.''
    The mining firms, he decided, were too powerful to stop. They 
donate hundreds of thousands of dollars to State campaigns; the 
Legislature specifically exempted them from State wetlands laws. Their 
product also is the fuel for Florida's development-driven economy. 
South Florida limestone has helped build the State's roads, bridges, 
homes and parking lots, not to mention Disney World and Cape Canaveral. 
Every day, 3,200 trucks and 400 rail cars full of crushed rock leave 
the Lake Belt, carrying 40 percent of the aggregate used in Florida's 
concrete.
    ``Yeah, the miners are influential. That's because we need those 
holes in the ground,'' said State Senate Majority Whip J. Alex 
Villalobos, a Miami Republican whose father has lobbied for Rinker. 
``What are we going to do, import bricks from a castle in Europe?''
    So in 1990, Podgor met with a group of miners at Rinker's corporate 
offices to present his plan for a Drinking Water Protection Zone, the 
precursor to the Lake Belt (``Dwpz. Like a faucet--get it?''). The idea 
was to define where the miners could and couldn't mine.
    The miners would get the go-ahead to turn a massive strip of 
shallow wetlands into deep artificial lakes. But when they finished 
digging, they would have to give the lakes to the public for 
recreation. They could not convert unmined areas into lakefront 
subdivisions. And land around the weilfields would be off-limits, as 
would the area's westernmost tract of wetlands, known as the Pennsuco 
after the Pennsylvania Sugar Co. (Senator Bob Graham, the Florida 
Democrat, and Philip Graham, the late Washington Post publisher, were 
among the Pennsuco's few human residents when they were young.)
    Today, Podgor bristles when activists who were on the sidelines 
during his earlier battles call him an ``industrial sympathizer'' for 
trading away Lake Belt wetlands. He notes that regulators had never 
shown the slightest interest in protecting those wetlands. The wetlands 
were on the wrong side of the Everglades levee that usually marks the 
outer limit of westward
    sprawl. They had been invaded by melaleuca, the thirsty Australian 
tree that was imported to help drain the Everglades. Podgor figured his 
plan at least would leave the Pennsuco wetlands and his man-made ocean 
as a buffer between development and the levee.
    And even fake lakes can support decent bass fishing.
    ``What the hell were we supposed to do?'' he asked. ``If you can't 
lick 'em, you gotta join 'em.''
    So the miners took Podgor's idea to Tallahassee, with a dear friend 
of former Governor Lawton Chiles leading their lobbying effort. The 
Legislature set up a committee of the stakeholders, and soon had the 
outlines of a consensus plan. In 1997, the Legislature approved a 50-
year mining blueprint, over few objections.
    That consensus, said Tom MacVicar, is a key point to remember. 
MacVicar was once a deputy director of the water district; he helped 
develop the Everglades hydrology model that is being used in the 
Everglades restoration plan. Now he is a consultant to the mining 
industry--as well as the sugar industry and other clients--and he 
believes it's time for environmentalists to accept the inevitable.
    ``Look around: This is a growing State, and it needs rock,'' he 
said.
    But the Lake Belt consensus has unraveled. The caustic Podgor was 
ousted as director of Friends of the Everglades and replaced on the 
Lake Belt Committee by a former Drexel Burnham Lambert broker named 
Barbara Lange.
    She didn't pay much attention at first because she was busy 
fighting a nearby airport proposal. But in 1999, the Corps unveiled its 
Lake Belt environmental analysis, noting that the plan would eliminate 
15,000 acres of ``irretrievable'' wetlands, in addition to 6,000 that 
already had been permitted. The analysis predicted ``significant 
negative impacts'' to native vegetation, wildlife, water flows and 
water quality.
    Nevertheless, the Corps proposed to issue permits approving 50 
years worth of mining. Suddenly Lange was paying attention.
    ``I was like: What? Are you out of your mind?'' said Lange, the 
Sierra Club's Everglades coordinator. ``You read the details, and it's 
just one outrage after another.''
    Lange wasn't the only one worried about the Lake Belt, which she 
insists on calling the Rock Pit Belt. National Park Service officials 
have described the area as ``the last remnant of the short-hydroperiod 
marshes that are critical to the proper functioning of the Everglades 
ecosystem.'' The U.S. Fish and Wildlife Service, Environmental 
Protection Agency, Miccosukee Tribe and Miami-Dade County aired 
concerns as well. So did the Everglades Coalition, the voice of local 
environmental groups--even though some activists fretted in e-mails 
that alienating the rock miners would be dumb politics.
    But the decision was up to the Corps, which oversees wetlands 
protection under the Clean Water Act, even though it has destroyed more 
wetlands than any developer.
    nationwide, the Corps approves 99 percent of all requests to drain 
or fill marshes, streams and other wetlands. This mind-set was on 
display after Sept. 11, when the chief Corps regulator sent out an e-
mail to staff nationwide: ``The harder we work to expedite issuance of 
permits, the more we serve the Nation by moving the economy forward.''
    In Florida, developers sometimes withdraw applications for damaging 
projects after Corps
    regulators raise objections, but when they don t, the Corps 
approval rate is well above 99 percent. A recent e-mail from a 
frustrated Corps regulator here alleged that his bosses no longer even 
consider blocking projects, because the district commander, Col. James 
G. May, refuses to sign denials.
    ``All we do is document the destruction of the aquatic 
environment,'' the regulator wrote. ``If we have no denial power we 
have no power and I am wasting my time and your money.''
    May said he has no blanket policy against denials, but prefers to 
work with applicants to reduce the impact of their projects. In the 
Lake Belt, the Corps did scale back its proposed 50-year, 15,000-acre 
mining permit to a first phase of 10 years and 5,400 acres. But the 
entire 50-year plan remains in place, and May approved the first-phase 
permit on April 11.
    ``This is one of the most complex decisions I've made,'' May said. 
``We re taking a balanced approach.''
    Not everyone thinks so. For example, Corps regulators are supposed 
to ensure ``no net loss'' of wetlands, requiring enough ``mitigation'' 
to compensate for any destruction. In the Lake Belt, the Corps approved 
an unusual mitigation deal the mining firms extracted from the State, 
requiring them to pay 5 cents to an environmental fund for every ton of 
rock they sell
    --less than 1 percent of the usual price. ``That's sinfully 
cheap,'' Dalrymple said.
    May said the fund should help remove melaleuca from 7,200 acres of 
the Pennsuco marsh in a decade. Still, in an internal e-mail, Corps 
regulator Charles Schnepel called it ``the cheapest mitigation since 
sliced bread.''
    ``It's like they're in two parallel universes: one for Everglades 
destruction, one for their supposed Everglades restoration,'' Lange 
said.
    The critics are equally skeptical that the money will help the 
Pennsuco. Fish and Wildlife warned in a 2000 letter that ``the long-
term viability of the Pennsuco wetlands is questionable.'' The water 
district's own computer models found the Lake Belt mines would increase 
seepage from the Pennsuco by up to 34 percent, which would drain the 
marsh and could attract more melaleuca.
    Meanwhile, a separate $730 million component of the restoration 
plan envisions higher water levels for the Pennsuco, which could drown 
the marsh. And most Miami-Dade developers are already using the 
Pennsuco for their mitigation, so the mining money may be redundant.
    ``It's a blizzard of contradictions,'' said Richard Grosso, 
director of the Environmental and Land Use Law Center in Fort 
Lauderdale. ``The American people should be up in arms about this. It's 
an absolute scandal.''
    Increasing seepage is a particularly serious contradiction, because 
one key goal of the restoration plan is to reduce the water seeping out 
of the Everglades through its porous underground aquifers; the Corps 
even wants to build an impermeable ``seepage barrier'' extending far 
below the levee. The Lake Belt literally undermines those efforts. And 
with one mine proposed just 1,000 feet from Everglades National Park, 
park officials have warned that the Lake Belt could ``rob'' their water 
and ``pose a serious threat to the restoration.''
    ``You re going to have extremely high rates of seepage,'' said 
Kevin Cunningham, the U.S. Geological Survey's Lake Belt 
hydrogeologist. ``The only question is how high.''
    Scientists from EPA and Miami-Dade County have another question: 
Will the Lake Belt contaminate the wellfields with potentially deadly 
microbes, such as giardia or cryptosporidium? A crypto outbreak in 
Milwaukee's water supply killed 100 people in 1993. ``That's a very 
serious concern,'' said Pedro Hernandez, assistant Miami-Dade County 
manager.
    More than 1 million people drink from those wells, which would be 
far more susceptible to bacteria once rock removal exposed the 
groundwater to the air. The county may have to spend $75 million to 
$250 million to upgrade its treatment facilities. That's why Miami-
Dade's water and sewer department drafted a proposal last year for a 
15-cent-per-ton mining fee, but it was withdrawn after mining lobbyists 
met with county leaders.
    ``The miners clearly know how to play the game,'' said Mario Diaz-
Balart, a GOP State legislator from Miami who hopes to join his brother 
Lincoln in Congress.
    Similarly, when Miami-Dade zoning officials discovered that Rinker 
had mined an off-limits area, county environmental officials quickly 
asked them not to ``put anything in writing,'' a memo shows. When a 
Miami-Dade task force was investigating whether Lake Belt blasting was 
damaging homes, Diaz-Balart and other legislators pushed through an 
amendment insulating the miners from liability. In one internal e-mail, 
National Park Service mining engineer Phil Cloues complained that the 
Lake Belt plan was infected with ``Chamber of Commerce bias.''
    ``The power and politics that drive these plans have enormous 
momentum,'' Cloues wrote. ``I would suggest that Everglades National 
Park has more national and international importance (even economic) 
than depletable limestone mining. . . . Florida is in a state of 
cannibalism, eating itself to increase its infrastructure.''
    John Hall, the top Corps regulator in Florida, does not exactly 
disagree. He got to Florida in 1979, and he has watched the 
disappearance of the Everglades with dismay. Hall knows that Corps 
permits have enabled this growth: ``When I fly over Florida, and I see 
these developments I helped approve, I just say, ``Oh my God.'' But he 
believes the Corps reflects societal values, and since the 1950's, 
society has encouraged rock mining in western Miami-Dade. And he 
doesn't want to get sued for infringing on property rights.
    ``We could keep this area pristine if we had a dictatorship,'' Hall 
said. ``Or if Congress decided it was so interested in Everglades 
restoration it was going to buy this land. But that hasn't happened, so 
we re making the best of the situation.''
    The Lake Belt began as a simple mining plan. Now it accounts for 
one-eighth of the showcase environmental project of the new millennium, 
a project officially committed to expanding the ``spatial extent'' of 
the remaining Everglades. The Corps plans to spend $1 billion--eight 
times the entire Federal budget for endangered species--to turn two 
depleted Lake Belt quarries into storage tanks. ``They were looking for 
new places to park water, so they figured, hey, why not?'' MacVicar 
recalled. It was cheaper than buying land.
    But only if it works. To understand this engineering challenge, 
imagine a leaky in-ground swimming pool. Then imagine sinking a 
concrete wall or rubber barrier around it to contain leaks. Then 
imagine it were 120,000 times the size of an Olympic pool.
    ``I'd say the major concern is that we don't know if they'll hold 
water,'' said Cunningham, the geological survey's Lake Belt expert. 
Sydney Bacchus, a hydrologist who studies the effect of Florida's 
aquifers on wildlife, was less circumspect: ``It's a scam! A farce!''
    The Corps hopes to save money by leaving the bottoms of the pits 
unlined, but it's not sure the bottoms won't leak. It hopes to let 
water fluctuate up to 36 feet inside the reservoirs, but it's not sure 
their walls won't disintegrate. It hopes this underground activity 
won't damage the aquifer, but it's not sure about that, either. The 
Corps is not even sure the reservoir water will be clean enough to 
deliver to Everglades Park.
    ``There's a lot we don't know yet,'' said Richard Punnett, the 
chief Everglades hydrologist for the Corps. Then he paused. ``We do 
know it's going to be expensive.''
    The Everglades plan includes a $23 million pilot project to test 
the quarry-to-reservoir technology. But it won't be finished until 2011 
at the earliest. By that time, half the Lake Belt should be mined. 
MacVicar said his clients don't particularly care whether their pits 
will work as reservoirs, anyway. ``They just want to mine, and they 
have that right,'' he said.
    Everglades National Park, on the other hand, will have to wait 35 
years for its Lake Belt water--assuming the miners do not go out of 
business or slow down their schedule. The restoration plan will create 
several other reservoirs in the area much sooner, but only to store 
water for farms and communities.
    The park must pin its hopes on the quarry-to-reservoir scheme, one 
of four untested technologies at the heart of the plan. The point, says 
chief park scientist Robert Johnson, is that the much-ballyhooed 
restoration of the River of Grass is a faraway if, while the little-
noticed benefits for miners, farmers and drinkers are tangible whens.
    ``I hate to be rude, but isn't this supposed to be a restoration 
plan?'' he asked. Today, even Podgor thinks the Lake Belt is a bust.
    He wanted public design and ownership of the lakes, along with 
wide, grassy banks to attract wildlife and security berms to discourage 
dumping. He didn't get them. He calls the idea of sending quarry water 
to the Everglades an ``idiotic'' effort to disguise the giveaway as a 
boon to the environment. Podgor has left activism; he sells computers 
for a living now.
    ``They fouled up the deal of the century,'' he said. ``They gave 
the miners their cake and let them eat it, too.''
    In a way, the point of the Everglades restoration plan is to let 
people have their cake and eat it, too. Corps officials prefer a 
similar confectionary analogy: ``expanding the pie.''
    Stuart Appelbaum, the agency's top Everglades manager, readily 
acknowledged that as long as nature must compete with agricultural and 
urban users for the same water, nature will suffer. ``We don't want to 
fail like that,'' Appelbaum said. The only way to break the cycle, he 
said, is to expand the pie, to capture enough excess water to keep 
everyone happy and rescue the Everglades.
    The promise of an expanded pie forged the remarkable coalition that 
pushed the restoration plan through Tallahassee and Washington--a 
promise that united developers, sugar barons, citrus growers, water 
utilities, Indian tribes and rock miners with a host of environmental 
groups. Now the restoration's leaders say the strange bedfellows who 
came together in 2000 must stay together to help them keep the promise. 
And EPA and Fish and Wildlife recently backed off longstanding threats 
to fight the mining permits.
    ``The key to everything is preserving the coalition,'' said Michael 
Parker, who was the civilian head of the Corps until President Bush 
ousted him in March for complaining about budget cuts. ``If we get 
stuck in litigation, Everglades restoration is doomed.''
    If Parker is right, restoration is in trouble; environmentalists 
can't wait to litigate the Lake Belt.
    Bradford Sewell, a senior attorney at the Natural Resources Defense 
Council, believes the plan violates a slew of environmental laws. For 
example, the Corps concluded there was no Endangered Species Act 
problem because an industry consultant reported no wood storks in the 
area. But a recent water district study found 1,400 of the park's 1,600 
storks nesting five miles from the Lake Belt edge. On many issues, the 
Corps proposed future studies, but the miners can start digging now.
    ``Common sense and the law requires--at a bare minimum--a lot more 
study,'' Sewell said. ``Otherwise, we re going to be horrified when we 
look back in 10 years.''
    The Corps is trying to shed its reputation as an enemy of nature, 
and the Everglades is its Exhibit A. Hall said he ``can really 
empathize with the environmentalists on the Lake Belt.'' But Hall also 
empathized with the miners, who have invested in draglines and 
railroads and mills with the expectation that they would be allowed to 
keep mining. ``They've spent hundreds of millions of dollars, and they 
deserve to be heard,'' he said.
    For decades, development has been the norm in South Florida. Just 
last month, Jeb Bush's former business partner persuaded the county to 
extend its urban boundary to approve a massive warehouse in the Lake 
Belt area. It is unfair, Hall said, to expect the Corps to overturn 
those norms overnight; it is not a purely environmental agency, and it 
cannot focus exclusively on Everglades restoration. The Corps, he said, 
must strike a balance.
    ``I'm not trying to put a smiley face on this,'' he said. ``But I m 
not the king or the land-use czar. We might not like what's happening 
here, but this is how it is.''
                                 ______
                                 
               [From the Washington Post, June 24, 2002]
             Water Quality Is Long-Standing Issue for Tribe
          (By Michael Grunwald, Washington Post Staff Writer)

Miccosukee Indian Reservation, FL: Richard Harvey sits through the 
``task force'' meetings, the ``working group'' meetings, the ``science 
subgroup'' meetings, all kinds of Everglades restoration meetings. He 
listens, he seethes and then he blurts out his mantra: T What is it 
about water quality you don't understand?''
    The goal of the $7.8 billion Comprehensive Everglades Restoration 
Plan is to ``get the water right''--quantity, quality, timing and 
distribution. But the plan focuses almost entirely on hydropatterns--
just quantity, timing and distribution. Critics such as Harvey, the 
Environmental Protection Agency's South Florida director, as well as 
environmentalists, Federal investigators and Miccosukee Indians, all 
warn that if the restoration plan's leaders ignore the need for 
pristine water quality, they will just create a more efficient 
pollution-delivery system for the Everglades. And they will end up in 
court.
    Of the plan's many pitfalls, this may be the most daunting. One 
defining characteristic of the original Everglades was its low nutrient 
content--even lower than Evian--and no one has figured out how to get 
it that way again. ``If you don't fix the water quality, it's a waste 
of time and money,'' said Terry Rice, a former Army Corps of Engineers 
colonel who works for the Miccosukee tribe.
    Harvey was even harsher in an internal e-mail: ``Getting the water 
quality right is critical to the restoration of the ecosystem and yet 
the two lead agencies--the Corps and the [South Florida] Water 
Management District--don't seem to have a clue about how to do it--and 
therefore choose to virtually ignore it/hope it will go away--unless 
they are sued.''
    In fact, litigation has dominated the recent history of Everglades 
water quality--most of it involving the irrepressible Dexter Lehtinen, 
a former Army lieutenant who lost a chunk of his face to shrapnel in 
the 1971 invasion of Laos. Lehtinen, the husband of Cuban American 
firebrand Representative Ileana Ros-Lehtinen (R-Fla.), is not the type 
to back down from a fight.
    In 1988, when Lehtinen was the Republican U.S. attorney in Miami--
he had just indicted Panamanian strongman Manuel Noriega--an Everglades 
National Park official told him phosphorous pollution from the sugar 
fields below Lake Okeechobee was killing the River of Grass. Lehtinen, 
a Homestead native who had fished in the Everglades as a boy, doubted 
the Reagan Administration would support a landmark environmental 
lawsuit against Florida and the politically influential sugar industry. 
So he waited until the October campaign season, when then-Vice 
President George H.W. Bush was blasting Massachusetts Governor Michael 
S. Dukakis over the dismal health of Boston Harbor. Lehtinen then sued 
without telling his bosses in the Justice Department.
    ``What were they going to do, tell me to take it back?'' he said.
    His key witness was Ron Jones, a proudly nerdy Florida 
International University microbiologist who studies periphyton, the 
ubiquitous globs of one-celled algae at the bottom of the Everglades 
food chain. Periphyton consists mostly of mucus; it's not charismatic 
megafauna. But Jones's research has documented that the Everglades is 
``oligotrophic,'' that even minuscule traces of phosphorous--anything 
over 10 parts per billion (ppb)--begin to transform the ecosystem.
    The most obvious change is that wide swaths of sawgrass--a plant 
that usually flourishes here because it needs so little phosphorous to 
grow--turn into dense plains of cattails that Jones calls ``the markers 
on the grave of the Everglades.'' Phosphorous also eliminates 
periphyton, which hurts the fish and snails that eat it, and the birds 
that eat them, and so on.
    Anyway, Lehtinen won. In 1991, Lawton Chiles, who was then 
Governor, dramatically announced in court that he wanted to ``surrender 
my sword'' and settle the landmark case. Now the State is building 
45,000 acres of artificial marshes that filter pollution out of runoff 
from sugar fields, suburbs and Lake Okeechobee before it flows into the 
Everglades. The $800 million effort--one-third paid by the sugar 
industry--has already reduced phosphorous levels in some cases from 
more than 100 ppb to less than 30 ppb.
    But less than 30 is not 10. In December, Governor Jeb Bush's 
administration endorsed 10 ppb as the appropriate limit, but no one has 
floated--much less funded--a plan to achieve it. And the water 
district's latest report notes that phosphorous inflows increased last 
year.
    It also says that ``while tremendous progress is being made, 
significant uncertainties remain that may prevent the District from 
complying'' by its legal deadline of 2006. Bush's top environmental 
official, David Struhs, told the Palm Beach Post that ``there are going 
to be extreme problems in some cases in meeting those permit 
conditions,'' and declined to speculate when the cleanup might be done: 
``It depends on how long you live, I guess.''
    But Jones says reducing pollution to levels above 10 ppb would not 
save the Everglades; it would just poison the Everglades more slowly. 
If the restoration plan rehydrates the Everglades with less-than-
pristine water, that could poison the Everglades more quickly. ``Until 
you get to 10, you re making it worse,'' Jones said.
    In recent years, the Justice Department has been content with the 
State's progress. But not the 492 members of the Miccosukee tribe, who 
live here in the central Everglades and have used casino proceeds to 
become the most aggressive enforcers of Everglades water purity. Their 
lawyer is one Dexter Lehtinen, and their consultant is Ron Jones. Rice 
and his wife, Joette Lorion--a former president of Friends of the 
Everglades, the environmental group founded by the late Marjory 
Stoneman Douglas--work for the tribe, too.
    ``The Everglades has become a cesspool,'' says Billy Cypress, the 
Miccosukee tribal chairman. ``We won't rest until it's clean.''
    Struhs, secretary of the Florida Department of Environmental 
Protection, says the State is doing all it can. Phase One of its marsh 
construction project far exceeded expectations, and Struhs says the 10 
ppb standard is nonnegotiable. ``No backsliding,'' he said.
    The Miccosukees are skeptical. They want to see how the State will 
measure phosphorous, and what it plans to do about Phase Two. Lehtinen 
just persuaded a Federal judge to hold hearings. ``I am convinced FDEP 
will do all within its power to find a compliance system which ensures 
minimum risk for the State . . . such is typical of human nature, but 
means relaxed protection for the Everglades,'' Rice wrote.
    The restoration plan calls for 36,000 more acres of artificial 
marshes, but it does not claim to fix the water-quality problem; it 
simply assumes Florida will do so. An investigation by the General 
Accounting Office warned that the plan may require many more water-
quality projects to succeed. For example, it aims to stop only about 
one-fourth the phosphorous entering Lake Okeechobee from cattle 
pastures and Orlando sprawl. The GAO warned that the lake alone could 
require another $1 billion worth of water-quality work.
    Lehtinen and the Miccosukees won another legal victory in February 
that could have even deeper implications. The U.S. Court of Appeals 
ruled that the water district had violated the Clean Water Act by 
pumping polluted stormwater from Weston into the Everglades. It wasn't 
huge news, because the tribe didn't ask the judges to shut down the 
pump. But the district plans to appeal to the Supreme Court. That's 
because the decision could set a major precedent if new structures 
sending water to the Everglades--such as many of the restoration plan's 
83 new pumps--are required to meet the 10 ppb standard.
    ``I don't think the taxpayers are going to like it if we build a 
bunch of pumps we can't even turn on,'' Harvey said. ``They d be 
perfect monuments to stupidity.''
                                 ______
                                 
               [From the Washington Post, June 26, 2004]
  An Environmental Reversal of Fortune; The Kissimmee's Revival Could 
              Provide Lessons for Restoring the Everglades
          (By Michael Grunwald, Washington Post Staff Writer)

Lorida, FL: The Kissimmee River used to run wild, rambling from Orlando 
down to Lake Okeechobee, zigzagging across its floodplain like a 
drunken unicyclist. Then the Army Corps of Engineers tamed it, slicing 
off its hairpin turns, locking it into a straight and reliable channel 
that never overflowed its banks.
    It wasn't really a river anymore. It was renamed the C-38 Canal.
    Now the Corps and its partners in the South Florida Water 
Management District are setting some of the Kissimmee free again. In 
June 2000, Lou Toth, the water district's top Kissimmee biologist, 
stomped on a detonator and blew up one of the dams holding the C-38 in 
place. Today, the seven-mile stretch of canal that Toth turned loose is 
a 14-mile stretch of river, twisting and turning and doubling back 
again, re-creating wetlands and rejuvenating wildlife. This $518 
million project is the most ambitious river restoration ever attempted. 
It has been visited by Japanese, British, Brazilian, Italian and 
Hungarian officials hoping to fix their own rivers. And Corps and water 
district leaders call it a model for their $7.8 billion Comprehensive 
Everglades Restoration Plan a few miles south. If the Everglades is the 
test of how ecological mistakes can be fixed, they say, the Kissimmee 
is proof that success is possible.
    ``The lesson of the Kissimmee is that restoration works,'' said 
Stuart Appelbaum, who is managing Everglades restoration for the Corps. 
``It's the laboratory for a lot of what we redoing in the Everglades.''
    But many scientists warn that the Everglades project's leaders have 
ignored the lessons of the Kissimmee's success--that America's largest 
effort to restore an entire ecosystem may give ecosystem restoration a 
bad name. And one of those scientists is Lou Toth, who was named the 
water district's 2001 employee of the year for his leadership on the 
Kissimmee.
    He believes Everglades restoration is on a path to failure--because 
it's led by engineers instead of scientists, it's a multipurpose water 
project instead of a clear restoration project and it tightens human 
control of nature instead of letting nature heal itself.
    ``They just don't get it,'' says Toth, who has worked on the 
Kissimmee since 1984. ``I hate to say it, but these guys haven't 
learned anything about restoring an ecosystem.''
    In their 1950's film ``Waters of Destiny,'' Corps officials boasted 
in stentorian tones about taming ``water that once ran wild.'' Today's 
Corps officials laugh off ``Waters of Destiny'' as kitsch; after 
presiding over the deterioration of the Everglades for decades, they 
say they are ready to engineer its recovery. The question is whether 
they can replicate their Kissimmee achievements without reprising their 
Kissimmee methods.
    There is no doubt that restoring the River of Grass amid 
subdivisions and strip malls will be harder than restoring a normal 
river amid cattle pastures. Leaders of the Everglades restoration say 
they can't just get rid of man-made barriers to flow and let nature run 
its course--not when the barriers include such cities as Weston and 
Wellington and the entire Florida sugar industry.
    ``The Kissimmee restoration is like: Oops, we dropped something, 
let's pick it up. It's immediate,'' said Tommy Strowd, the water 
district's operations director. ``But the Everglades is different. We 
can't just go back to nature.''
    No one is asking the restoration's leaders to evacuate the 
developed half of the historic Everglades. But many scientists believe 
the remaining half can be far more natural than it is, that a more 
natural restoration would provide faster, cheaper and more certain 
ecological results than the current plan. The Everglades restoration 
plan is flexible, but it is scheduled to start moving dirt in 2004; now 
is when it would be easiest to fix.
    ``This is an unbelievably expensive restoration plan. There ought 
to be restoration in it,'' said Columbia University ecologist Stuart 
Pimm, who studies Everglades sparrows.
    For now, the plan's benefits to the Everglades remain backloaded 
and uncertain, while its water-supply benefits to people and farms are 
relatively swift and sure. Senator Bob Graham (D-Fla.), a key 
Everglades advocate who is also the Kissimmee's political godfather, 
compares the Everglades plan to open-heart surgery. He's afraid that if 
the ecosystem is hemorrhaging on the operating table after 10 years and 
$4 billion, Congress will try to pull the plug.
    ``You look at the Kissimmee, and you see it can be done,'' he said. 
``Now we have to do it.''
    In 1886, a Harper's writer discovered ``the wild beauty of the 
Kissimmee River,'' describing ``grasses and vines as graceful as 
Nature's hand could fling abroad.'' On the restored stretch of the 
Kissimmee, newly released from its man-made straitjacket, the wild 
beauty is back.
    The river's long-buried sandbars are re-emerging. Scores of gators 
sun themselves on its banks. The wax myrtles that invaded its drained 
floodplain are dying now that the wetlands are wet again. On a recent 
airboat tour, Toth--who looks like a sunburned and long-haired version 
of the TV action hero Nash Bridges--showed off a shallow broadleaf 
marsh that has reappeared alongside the river, a green tangle of willow 
shrubs and knee-high plants.
    ``Two years ago,'' he said, ``this was a dry cattle pasture.''
    If the floodplain is this transformed already, he was asked, what 
will it look like in a decade? ``Like this!'' Toth laughed. ``It's 
natural again. All we had to do was get out of its way.''
    The Corps has channelized rivers nationwide, often with devastating 
environmental results. But its conquest of the Kissimmee stands out as 
a marvel of engineering brilliance and ecological folly, described by 
the late Everglades author Marjory Stoneman Douglas as ``among the most 
radical alterations of a river in human history.'' At the request of 
the State of Florida, the Corps wrestled a meandering and unpredictable 
103-mile river into a 56-mile ditch that never overflowed its banks. 
The $35 million project was designed to whisk floodwaters away from 
Orlando, Disney World and the upper Kissimmee basin, and it succeeded.
    But the project destroyed the basin's biology; it dried up 35,000 
acres of its wetlands, chased away 92 percent of its waterfowl and 74 
percent of its bald eagles and ruined its sport fishing. The project 
also conveyed tons of filthy cattle runoff into Lake Okeechobee.
    Immediately after the project's completion, in 1971, activists such 
as Art Marshall, a crusading biologist, and Douglas, the grande dame of 
the ecosystem, began agitating to undo it. The first meeting of the 
Everglades Coalition--now the official network of South Florida 
environmentalism--was held along the Kissimmee; restoring the river was 
the coalition's top priority for years.
    ``People said: `Oh, my God. What have we done?' '' recalled Graham, 
who was a young State legislator at the time. In 1976, he helped get 
the State to study a possible restoration project. But the Corps, a 
Federal waterworks agency that had never worked on restoration, 
concluded in 1985 that the State's plan, ``while generally beneficial 
for environmental concerns, would not contribute to the nation's 
economic development.''
    So Graham, who had served as Florida's Governor and then moved on 
to the Senate, rammed through language authorizing the Corps to take on 
environmental projects, which are now one-fifth of its total workload. 
In 1992, Congress approved the State's plan to backfill 22 miles of the 
C-38 and demolish two of its six control structures, in order to 
restore 43 miles of river and 40 square miles of wetlands. The one 
constraint on restoration was that the plan could not increase the 
flood risks to anyone in the basin.
    Initially, there was vocal opposition from property owners who 
feared flooding. Local ranchers distributed a video of a leisurely boat 
trip down the canal, with ``Let It Be'' playing in the background. 
Realists Opposed to Alleged Restoration, a group of residents of a 
subdivision and two trailer parks at the canal's edge, vowed a furious 
fight. But as Toth put it, ``the objections of most landowners were 
bought off with pure cash.'' The project's leaders have acquired 90,000 
acres from willing sellers. ROAR has quieted to a whisper.
    ``We re not too active anymore,'' said ROAR's president, Helen 
Jordan. ``The project isn't as bad as we thought. We still think it's a 
waste of money, but we ve accepted it.''
    After 12.5 million cubic yards of fill were moved--imagine a 
football field piled more than two miles high--the project's leaders 
completed Phase One 2 years ago. The benefits to the restored stretch 
of river have been instant and obvious. Oxygen levels are increasing, 
so native fish such as largemouth bass and black crappie are returning. 
So are skinny-legged wading birds--great blue and tricolor and black-
crowned night herons, glossy and white ibis, roseate spoonbills with 
dazzling pink coats. Shorebirds and waterfowl are back, too. By 
contrast, in the unrestored ditch, there are few fish but gar and 
bowfin, and few birds but cattle egrets.
    ``It's an amazing achievement,'' said Col. James G. May, the Corps 
commander in Florida. Toth, however, believes the Kissimmee's success 
has been achieved despite the Corps.
    The water district developed the plan; the Corps resisted for 
years. Toth said he still battles Corps engineers who ``just see this 
as a construction project. You know--move the dirt.''
    Corps engineers wanted to armor some of the restored river with 
rock; he insisted on natural banks. They wanted to dump excess fill 
into nearby wetlands; he argued that the whole point of restoration is 
to preserve wetlands. Toth jokes about one Corps contractor who kept 
asking about ``the old river''--by which he meant the canal. Phase Two 
is already 2 years behind schedule, in part because the Corps has 
shifted personnel to the Everglades.
    ``The Kissimmee restoration is a tremendous bright spot,'' said 
John Marshall, who runs an environmental foundation named for Art 
Marshall, his uncle. ``But the Everglades restoration is still an 
irrational mess. The Corps hasn't learned anything.''
    ``It's a wonderful project,'' said Juanita Greene, vice president 
of Friends of the Everglades, the grass-roots group founded by Douglas. 
``I wish I could say the same about Everglades restoration.''
    Toth hates to offend his bosses after they made him employee of the 
year, but he agrees that the Everglades restoration's leaders have 
missed the point of the Kissimmee. In fact, the dirt-moving alone from 
the Everglades project will destroy more wetlands than the entire 
Kissimmee project will restore. ``They re doing the opposite of what we 
did,'' he said.
    A closer model, the critics warn, is a project called Modified 
Water Deliveries.
    In 1989, Congress authorized the $85 million ``Mod Waters'' to 
produce more natural water flows to Everglades National Park. It was 
the first Everglades restoration effort by the Corps, and it was 
supposed to herald a new era.
    ``We have fashioned balanced bipartisan legislation which will help 
restore an international treasure,'' Graham announced at the time.
    Thirteen years later, Mod Waters has yet to deliver a drop of water 
to the park, and its price tag has risen to $191 million. It has been 
bogged down by lawsuits over flood control, property rights and 
endangered species. Its two hulking floodgates along the Tamiami Trail 
have never been used; they loom above the highway, concrete monuments 
to bureaucratic paralysis. In 1999, Representative James V. Hansen (R-
Utah) groused at a hearing that ``we will all be pushing up daisies 
before you fully get it resolved,'' and nothing has proved him wrong.
    Terry Rice, who approved Mod Waters when he was a Corps colonel but 
now works for the Miccosukee tribe, called the project ``a terrible 
quagmire.'' His wife, Joette Lorion, a former Friends of the Everglades 
president who works with him, called it an ``absolute catastrophe.''
    ``If they can't do Mod Waters, how on earth will they do 
[Everglades restoration]?'' she asked.
    Mod Waters was designed to shift flows from the flooded west side 
to the parched east side of Shark River Slough, the park's main flowway 
through the southern Everglades. It was also supposed to provide flood 
protection to the 8.5 Square Mile Area, a community of 350 homes and 
small farms on the wet side of the Everglades protective levee. The 
project would also relieve flooding on Miccosukee land in the central 
Everglades.
    Here's a summary of the 13-year saga: Park officials and many 
environmentalists have pushed to buy out the entire 8.5 community, 
arguing that the waterlogged area never should have been homesteaded in 
the first place, and that building levees to protect it would dry out 
30,000 acres of marshes and defeat the whole purpose of Mod Waters.
    Community leaders and the Miccosukees have fought for the original 
plan, accusing park officials of arrogance, extremism and even racism 
against the area's Cuban Americans. The plight of a homely endangered 
bird called the Cape Sable seaside sparrow--dubbed Goldilocks because, 
like the Everglades itself, it needs just the right amount of water--
has complicated everything.
    The result is that no one is getting along--even though the Corps 
has hired dispute resolution experts--and nothing is getting restored.
    The Corps, said Natural Resources Defense Council attorney Bradford 
Sewell, has balanced the warring interests ``with all the grace of a 
megatanker in a bathtub.'' Sewell sued to protect the sparrow. The 8.5 
residents sued to keep their homes. The Miccosukees sued to stop 
flooding on their lands. A Federal magistrate accused the Corps of 
having ``driven a Mack truck'' through Federal regulations. In an 
internal e-mail, Corps hydrologist Michael Choate accused park 
scientists of declaring a ``jihad'' against the Corps and the water 
district in order to flood Indians, homeowners and farmers.
    ``They think they are fighting a holy war against the infidels,'' 
Choate wrote. ``It's going to take strong leadership and possibly a 
chopped-off hand or firing squad to get out of this.''
    Ultimately, the Corps proposed a partial buyout of the 8.5 area and 
pledged to complete the project next year. But last month, the 
magistrate recommended that the Corps go back to the drawing board. 
Environmentalists wonder: If the government can't get a few families to 
move to help restore a vital slice of the Everglades, how is it going 
to restore the entire 18,000-square-mile ecosystem?
    Meanwhile, the C-ill Project, a related 1994 plan designed to boost 
flows to the park's other key flowway, Taylor Slough, has been stymied 
by similar flood-control wars pitting the park against farmers. C-ill 
hasn't sent a drop of water south, either.
    ``I could not think of worse advertisements for Everglades 
restoration,'' Sewell said.
    So why has the Kissimmee restoration worked so well? Toth's first 
lesson could be summarized as: Just do it. His second lesson is: Let it 
flow.
    Toth said he made one major design compromise, agreeing to leave 
eight extra miles of the ditch in place to make sure the project 
maintained flood control around Orlando's chain of lakes. His point is 
that the Kissimmee's designers didn't worry much about appeasing 
political interests. They just focused on reviving the river. Their 
solution was simple: Buy out ranches in the floodplain, blow up control 
structures and let nature run its course. It's an expensive solution--
about $20,000 per acre of restored wetlands--but it's delivering as 
promised.
    ``This is about as pure as a restoration project can get,'' Toth 
said. ``It's not about making all the stakeholders happy. It's not 
manipulating nature and managing different parts of the system for 
different things. We just went out and did our best for the 
environment.'' Everglades restoration, by contrast, is a highly complex 
creature of consensus.
    Its original blueprint was unanimously approved by a commission 
including representatives of just about every Florida interest group; 
their lobbyists and consultants still battle over just about every 
decision. The restoration plan is designed to supply water to farms and 
people as well as to the Everglades, and it is committed to providing 
enough for people to help South Florida's population double. One water 
district report from 2000 predicted that the plan would satisfy urban 
needs by 2010 and agricultural needs by 2015, but would reach only 
``minimum flows and levels'' to stop environmental damage to the 
Everglades by 2020.
    The plan's leaders say it's unfair to judge them by the Kissimmee's 
standards. It's one thing to buy out the cattle pastures in the 
Kissimmee floodplain, but millions of people live in the Everglades 
floodplain. The Florida Legislature never would have passed the plan if 
it were purely environmental.
    ``The politics are very tricky. We walk a fine line,'' said John 
Ogden, the water district's chief Everglades scientist. ``I m not 
saying we ve got a perfect plan. I m saying that some very idealistic 
ecologists have worked on this for 10 years, and this is where we 
are.''
    But many ecologists believe that the plan ignores the Kissimmee's 
second lesson: that it will be impossible to fix the Everglades without 
restoring more of the slow-moving sheet flow that once crept south 
across its sawgrass plains from Lake Okeechobee to Florida Bay.
    There is no way to remove such communities as Miami Springs and 
Kendall Lakes and Sweetwater from the historic Everglades. Rather, the 
ecologists want to remove a diagonal levee and raise Tamiami Trail, th? 
two biggest barriers inside the existing Everglades, and buy more sugar 
fields below the lake for water storage. They want to undo as much as 
possible of what man has done.
    While official brochures say the restoration plan will remove 240 
miles of levees and canals, they do not mention that it will add 500 
miles of levees and canals. Most of the new structures will be outside 
the Everglades, but the plan mostly seeks to restore natural depths 
rather than natural flows, shipping water wherever it's needed from 
wherever it's stored instead of reconnecting a fragmented ecosystem. 
Strowd said the district's water-moving system for South Florida is 
about to get ``much, much, much more complex.''
    The project's leaders say they would love to obliterate obstacles 
in the Everglades, just as Toth did on the Kissimmee. The problem, they 
say, is that their advanced computer models show that a freer and more 
connected Everglades would not be a healthier one. They say that when 
they ran these ``let it rip'' scenarios through their advanced computer 
models, the north of the Everglades got too dry and the east got too 
wet. Now that the natural area has been narrowed and its soil has 
eroded, they say, the Everglades can never really flow properly again.
    ``It feels so right to remove those barriers,'' Appelbaum said. 
``It just doesn't work.''
    ``It comes down to values,'' Corps hydrologist Richard Punnett 
said. ``Do you believe it should be natural, or do you believe it 
should be more like the Everglades?''
    But many scientists believe a more natural, more connected and less 
complex system would be more like the Everglades. The restoration's own 
science team has warned that the plan seriously underestimates the 
value of flow and connectivity. One of the water district's own studies 
has found that unfettered flow was vital to the life-nourishing 
topography of the historic Everglades, sculpting minuscule but crucial 
shifts in elevation between six-inch-high ridges and sloughs. Pimm, the 
Columbia ecologist, snorts that only an engineer could use a phrase 
like ``let it rip'' to describe the almost glacial pace of an unblocked 
River of Grass.
    ``Nature was doing fine before we started messing with it,'' he 
said. ``This needs to be a free-flow system. But the engineers won't 
let it go.''
    In fact, technical documents show that the plan's own hydrology 
modelers found that a more natural water regime could provide more 
benefits to the Everglades.
    The documents date to June 1999, not long after Everglades National 
Park officials had warned that the plan ``does not represent a 
restoration scenario for the southern, central and northern 
Everglades.'' Environmentalists were threatening to torpedo the 
restoration unless it provided solid environmental benefits by 2010, 
the halfway mark of the project's spending schedule. ``The deal was, 
real progress in the first $4 billion, or no deal,'' said Tim 
Searchinger, a senior attorney at Environmental Defense.
    So the modelers agreed to test a scenario that more closely 
mirrored the original flow, sending more water south to the Everglades 
from sugar land instead of using it for irrigation, moving more water 
through the diagonal levee.
    The new scenario wasn't perfect. It mildly reduced water supply 
benefits and pooled more water in a troublesome corner of the central 
Everglades. But the modelers concluded it would produce ``a series of 
improvements to the ecosystem'' by 2010, including ``vast 
improvements'' to the park. It would also reduce the plan's reliance on 
expensive and speculative technologies. This model helped persuade some 
skeptical environmentalists to support the plan in Congress.
    But the new scenario didn't make it into the final plan, and hasn't 
shown up in any planning documents since.
    ``It's never been heard from again,'' Searchinger said.
    ``It's just been sort of left out there,'' said Robert Johnson, the 
park's top scientist. ``Hopefully, it will be addressed at some 
point.''
    Appelbaum said the new scenario has never been abandoned. After a 
series of interviews, he said the Corps was committed to pursuing it. 
``We want to help the environment as fast as we can,'' he said.
    Michael Ornella is the Corps manager who's supposed to make the 
restoration's engineers run on time. His office walls in Jacksonville 
are covered with flow charts that look like spaghetti, with schedules 
tracking 52 projects over 38 years. There are constant meetings with 
the water district, with other agencies, with the public. Ornella 
understands why some people don't trust the Corps to save the 
Everglades, but he believes times are changing.
    ``The Corps has never done business like this,'' he said. ``Our 
outreach used to be: `Here's our 1,000-page report.' The weakness of 
the organization has been adjusting to the reality of an open society. 
What we re doing flies in the face of the traditional Corps.''
    But there was a sign of the traditional Corps in Ornella's office, 
too. On an easel near his desk, someone had outlined a presentation in 
red marker, including a reminder to ``manipulate, massage data to get 
reports we need.''
    ``The Corps has made a career out of losing people's trust,'' said 
Melissa Samet, who runs a Corps reform program for the group American 
Rivers. ``We d all be happy if they could turn that around on the 
Everglades, but it will take more than meetings to do that.''
    A Post series in 2000 detailed how the agency's leaders pushed to 
``grow the Corps'' with wasteful and destructive water projects 
justified by skewed analyses. The General Accounting Office, the 
National Academy of Sciences and Pentagon investigators have documented 
similar problems.
    Corps critics at environmental agencies and the Office of 
Management and Budget have been emboldened, and in March President Bush 
ousted Corps civilian chief Michael Parker for complaining about budget 
cuts. The Corps remains popular in Congress--politicians love to bring 
home water projects--but a new Corps Reform Caucus has begun pushing 
for an overhaul.
    Now the Everglades restoration is supposed to showcase the Corps of 
the future, undoing its errors of the past. It is a mammoth challenge, 
full of technical, biological and political uncertainties. But Corps 
officials say they are eager to redeem themselves. They say they re 
committed to ``adaptive management'' and will fix the current plan as 
they go along.
    ``There are a lot of things we don't know that make us say 
`whoa','' Ornella says. ``Nobody's ever done this before. We're going 
to have to adjust.''
    There is one sign that the Corps and the district can adapt the 
plan to the benefit of nature: the Indian River Lagoon Project, a $1 
billion component designed to store water and restore North America's 
most biologically diverse estuary.
    Environmentalists hated the original design of the project, which 
relied entirely on structural reservoirs, levees and pumps. But Corps 
project manager Laura Mahoney took time to listen to critics and get to 
know them; she stripped to her skivvies to go swimming with activist 
Maggie Hurchalla, the sister of Democratic gubernatorial candidate 
Janet Reno. The project was redesigned to restore 90,000 acres of 
wetlands and uplands, plug drainage ditches and mimic the area's 
natural flow. Environmentalists love it now.
    ``There was a basic distrust of the Corps: How can people who did 
so much harm find an environmentally sensitive solution?'' Mahoney 
says. ``But we meant it when we said we were going to be 
environmentalists on this. This won't just look natural; it will be 
natural.''
    But the Indian River project, like the Kissimmee, is in a sparsely 
developed area, and its emphasis on nonstructural solutions has been a 
rare exception. ``We can't expect everything to go that well,'' 
Appelbaum said.
    It hasn t. The National Academy of Sciences concluded in March that 
a $6 million Corps water-quality study in the Florida Keys was riddled 
with errors. Corps officials recently underestimated the price of a 
southwest Florida project because they assumed in calculations that 
muck at the bottom of a lake would be dry.
    Today, 23 of the restoration's 52 projects are underway. 
Construction is scheduled to begin in 2004, but work is already behind 
schedule. Sens. Robert C. Smith (R-N.H.) and Russell Feingold (D-Wis.) 
have vowed to block a bill approving new Corps projects--including 
several in the Everglades--unless it includes overhauling the Corps.
    The next few years will be crucial for the restoration. Its leaders 
must choose whether to start building a vital reservoir for the 
Everglades now, or to let sugar firms keep farming land the government 
has already bought. They must move pilot projects forward to test 
whether the plan's four uncertain technologies work. They must set 
``water baselines'' that will help determine how much water people, 
farms and the Everglades will get. And they must scramble to acquire 
land needed for restoration before it gets snapped up.
    Just last week, the Miccosukee tribe bought a 223-acre West Miami 
parcel within the project's footprint, then took out advertisements 
warning restoration managers: ``We will make sure you do your job, even 
though it's quite obvious you don't have the slightest idea how to do 
it.''
    But the most important decisions the restoration's leaders face now 
are more structural choices about how it will work. For one thing, they 
must decide how much power to cede to scientists. Everyone seems to 
agree that for the Everglades to recover, ``sound science'' must be its 
salvation, but there are tensions over money and methods. The plan's 
legislation required an independent scientific panel, but the Corps and 
the district are trying to promote a panel led by the Corps and the 
district.
    ``There's a lot of talk about sound science, but it doesn't seem to 
affect the high-level decisionmaking,'' said Charles Groat, director of 
the U.S. Geological Survey.
    The first major test of the plan should come soon, when Bush's 
administration unveils the regulations mandated by the plan to ``ensure 
restoration success.''
    Environmental groups have threatened to withdraw their support for 
the plan unless its rules include strong requirements for ecological 
action and goals for ecological progress, as well as a leadership role 
for Interior, which has jurisdiction over Everglades National Park.
    But the first draft of the rules had no goals and limited 
Interior's role to consultation. A new version of the rules circulating 
inside the administration would establish the plan's original model--
without the ``vast improvements'' for the park--as the ``expected 
performance level.''
    ``If we can't fix this plan, it might not just doom the 
Everglades,'' Pimm said. ``It might doom our chances of ever getting 
money to do restoration again.''
    The Everglades plan, after all, is already the model for a $20 
billion plan to replumb California rivers and deltas, and a $15 billion 
effort to restore Louisiana coastal wetlands. It is being watched 
worldwide. Rice, the former Corps colonel, used to think it would blaze 
an environmental trail. Now he doesn't know what to think.
    ``If we can't solve these problems here, with all this science and 
all this money, how are we going to solve them in the developing 
world?'' he asks. ``I know it can be done. Why aren't we doing it?''
                                 ______
                                 
               [From the Washington Post, July 24, 2002]
Everglades Project Revamped; New Rules Would Give Interior Greater Role 
                             in Restoration
          (By Michael Grunwald, Washington Post Staff Writer)

    The Bush Administration yesterday strengthened its proposed rules 
for the $7.8 billion replumbing of the Florida Everglades, saying the 
move will help make sure the largest project to restore an ecosystem in 
American history achieves its goal.
    Environmental activists had lambasted a December draft of the 
project's ``programmatic regulations'' as a recipe for ecological 
failure. They were not satisfied with yesterday's draft, but even the 
most skeptical among them called it an improvement.
    Lobbyists for other Florida interest groups--as well as Governor 
Jeb Bush (R)--also seemed pleased with the new rules, which will be 
subject to 2 months of public comment. ``We've spent months sifting 
through the comments and concerns, and we've tried to craft something 
that's going to be accepted across the board,'' said Stuart Appelbaum, 
the Army Corps of Engineers planner who is leading the Everglades 
restoration effort.
    The Corps and its State partners in the South Florida Water 
Management District will still lead the Everglades restoration effort, 
but the Bush Administration's proposal will bolster the role of the 
Department of Interior, a key demand of environmentalists.
    The new draft will also require the setting of measurable 
environmental goals by December 2003, and will redefine ``restoration'' 
to include better water quality and a revived ecosystem as well as 
restored water flows.
    ``The first draft was not good at all,'' said Terrence ``Rock'' 
Salt, a former Corps colonel who joined the Interior Department during 
the Clinton Administration and is now an Everglades adviser to Interior 
Secretary Gale A. Norton. ``But I'd take this in a heartbeat.''
    When Congress authorized the Everglades restoration plan in 2000, 
it specified that reviving the River of Grass should be the 
``overarching purpose,'' but that the plan should also provide for 
other ``water-related needs'' in South Florida, especially water supply 
and flood control.
    In a recent Washington Post series of articles on the project, many 
government officials and environmentalists expressed concern that the 
ecosystem was being left behind. Many pointed to the original draft 
regulations--which included virtually no environmental assurances--as 
evidence of a local water supply and flood control boondoggle 
masquerading as a national rescue mission for alligators, panthers, 
otters and wading birds.
    The new draft, said April Gromnicki, Everglades policy director for 
Audubon of Florida, is ``much better.'' Then again, she said, ``It 
couldn't have gotten any worse.''
    Gromnicki and other activists were pleased that Interior, which 
oversees Everglades National Park and 10 other South Florida parks and 
refuges, was given a coequal role in developing the plan's performance 
goals, and a stronger role overall.
    But they were not pleased that Interior still has a subordinate 
role on the project's science team, and that those goals will not be 
enforceable by law. They were also concerned over language suggesting 
the Corps would try to replicate water flows from its original plan 
when subsequent modeling found that a different approach could bring 
``vast improvements'' for the environment.
    ``I'd say we re about halfway there,'' Gromnicki said.
    The Federal and Florida governments are splitting the cost of 
Everglades restoration, and even with the two Bush brothers at the top, 
the politics can be complicated.
    The Federal interest in the project is fairly straightforward: 
restoring Everglades National Park and the rest of ``America's 
Everglades,'' as the project's supporters like to call it. But the 
State interest is more complex. The plan is supposed to supply enough 
water for agricultural and urban users to continue South Florida's fast 
population growth, and Jeb Bush's administration has fought to make 
sure the project does not neglect his constituents.
    So the White House, which coordinated the new draft through the 
Office of Management and Budget and the Council on Environmental 
Quality, faced a difficult task. It did not want environmentalists--who 
were so angry about the initial draft that Appelbaum joked about 
joining the Witness Protection Program--to withdraw support for the 
restoration. But neither did it want to alienate sugar growers, home 
builders or water drinkers during an election year for the president's 
brother.
    It may have succeeded.
    Robert Dawson, a lobbyist for Florida's agriculture industry, said 
that while his clients may object to the enhanced role for Interior, 
``things are moving forward well.'' Kathy Copeland, the water 
district's Federal liaison, said State officials were pleased as well.
    ``We re very happy,'' Copeland said. ``We think the Army and OMB 
did a great job.''
    Even Bradford Sewell, a Natural Resources Defense Council attorney 
who has been one of the plan's harshest critics, called the new draft 
``a clear improvement.'' But he also said there were still 
``fundamental flaws.'' The ultimate question, he said, is whether these 
rules will ensure the restoration of the world's most famous wetland.
    ``The bottom line is, this isn't going to do the job,'' Sewell 
said.
                                 ______
                                 
               [From the Washington Post, June 25, 2002]
 When in Doubt, Blame Big Sugar; Once the Everglades Chief Ecological 
                Villain, Industry Has Plenty of Company
          (By Michael Grunwald, Washington Post Staff Writer)

Clewiston, FL: First Carl Hiaasen skewered greedy sugar barons in such 
novels as ``Strip Tease.'' Then Marge led a campaign against the 
villainous Mother-Loving Sugar Corp. on ``The Simpsons.'' But now Big 
Sugar is in really big trouble on the pop culture front. On a recent 
episode of ``The West Wing,'' President Bartlett's political aides 
floated a $7.8 billion plan to save the Everglades. And if that sounds 
vaguely familiar, there's a twist: The money would come from ``the same 
place the pollution does--the sugar industry!''
    Big Sugar--like Big Tobacco and Big Oil--has a lousy image. It 
didn't get that image entirely by accident. But environmentalists have 
exploited the common caricature of Big Sugar--diabolical tycoons who 
buy politicians and ravage the Everglades to fatten their wallets--to 
distort an important debate over the sugar industry's future in South 
Florida.
    Even Dexter Lehtinen, who sued Big Sugar over Everglades pollution 
in 1988 when he was U.S. attorney in Miami, says the situation is much 
more complex than it looks on TV. ``The constant focus on sugar is a 
self-serving delusion,'' said Lehtinen, who is now the Miccosukee 
Indian tribe's attorney. ``People want to say: We re good guys, Big 
Sugar is the bad guy. It's not that simple.'' In the real world, sugar 
fields do pollute the Everglades, but they re not the sole source or 
even the main source of the ecosystem's decline. In fact, the sugar 
industry has dramatically reduced its impact on the Glades, and 
although Lehtinen's landmark lawsuit forced the industry's hand, sugar-
cane farming is one of the least damaging possible uses of its land. 
Big Sugar has become a scapegoat for the problems of the River of 
Grass--not a sympathetic scapegoat, perhaps, but a scapegoat 
nonetheless.
    ``We don't have horns and a tail,'' said Robert Coker, a vice 
president for U.S. Sugar Corp. here in America's Sweetest Town. 
``There's this evil myth of Big Sugar. We want people to know the 
facts.''
    Some of the facts resemble the caricature.
    There are 450,000 acres of sugar fields in the Everglades 
Agricultural Area below Lake Okeechobee, blocking the natural water 
flow of the Everglades. There is a Federal program that props up 
domestic sugar prices, costing American consumers $800 million to $1.9 
billion a year, according to the General Accounting Office. The Federal 
Government buys back sugar the industry can't sell, costing taxpayers 
hundreds of millions of dollars more. The industry also uses hundreds 
of billions of gallons of South Florida's water but pays minimal water 
taxes.
    These and other perks are the direct result of Big Sugar's 
extraordinary political clout, most famously illustrated in the Starr 
Report when President Bill Clinton interrupted his breakup with Monica 
Lewinsky to take a 22-minute phone call from Alfonso Fanjul Jr., chief 
executive of Florida Crystals Corp.
    The industry donates millions of dollars to State and Federal 
politicians, and almost invariably gets its way in public policy 
disputes. ``I saw firsthand how Big Sugar bought the Florida 
Legislature,'' said Barry Silver, a former Democratic assemblyman from 
Boca Raton.
    The industry gets its way in water disputes, too. During the 
drought of 2000, it persuaded the South Florida Water Management 
District to revise its guidelines to siphon water from an already 
parched Lake Okeechobee for irrigation.
    To environmental groups like Save Our Everglades, the biggest 
problem with Big Sugar is the phosphorous it pumps south to the River 
of Grass and backpumps north to Lake Okeechobee. The Everglades is a 
phosphorous-intolerant ecosystem, and phosphorous-rich sugar runoff has 
transformed some of its sawgrass plains into dense clumps of cattails. 
That's why Lehtinen filed his lawsuit.
    But the suit led to the Everglades Forever Act, which required the 
State to build the world's largest artificial marshes to filter 
nutrients out of runoff entering the Everglades, and the sugar industry 
to reduce its annual phosphorous output 25 percent. Over the last 6 
years, Big Sugar has far exceeded those mandates, reducing its output 
56 percent by retaining more water on its land, cleaning its ditches 
more often and using less fertilizer.
    Last year, sugar runoff averaged 64 parts per billion (ppb) of 
phosphorous, and dipped below 30 ppb after leaving the marshes. That's 
still higher than the almost imperceptible 10 ppb the Everglades needs 
to recover, but it isn't the green slime or oozing sewage that most 
people think of when they hear ``pollution.'' Miami's tap water 
registers more than 400 ppb.
    ``We weren't winning environmental medals for a long time. No one 
was,'' said U.S. Sugar executive Malcolm ``Bubba'' Wade, who served on 
the commission that developed the nonfiction $7.8 billion Comprehensive 
Everglades Restoration Plan. ``But you can't make us the villain 
anymore.''
    Many environmentalists contend that while Big Sugar may be doing 
its part, it's not paying its share; it's paying only one-third of the 
$800 million marsh project. In 1996, the industry spent $30 million to 
fight off a penny-a-pound sugar tax, but voters approved a ``Polluter 
Pays'' constitutional amendment declaring farmers ``primarily 
responsible'' for cleanup costs. However, the Legislature never 
translated the amendment into law, and the State Supreme Court recently 
upheld the status quo.
    ``Innocent taxpayers are paying to clean up Big Sugar's mess,'' 
said Save Our Everglades President Mary Barley.
    But it's not just Big Sugar's mess. The State has urged--but not 
forced--cattle ranchers above Lake Okeechobee to reduce runoff to 1,200 
ppb of phosphorous, but only half their pastures meet the target. 
Runoff from one ranch recently tallied 9,000 ppb. Yet no one complains 
about Big Cattle. Environmentalists howl when sugar farms backpump 
excess water to the lake, but sugar runoff is often the cleanest water 
entering the lake that doesn't come straight from the sky.
    No one complains about Big People, either. But runoff from 
development is far dirtier than runoff from sugar fields--and millions 
of people now live in the original Everglades.
    ``I tell people: Look in the mirror. You re the problem,'' said 
State Senator Lee Constantine, a Republican who works in real estate. 
``No one ever listens.''
    Environmentalists and sugar barons do agree on one thing: The worst 
thing that could happen to the Everglades would be the suburbanization 
of the sugar fields. Route 27 into Clewiston is now a four-lane 
highway, and sugar executives have warned that if their land can't grow 
sugar, it will grow golf courses and condos. It's only a half-hour 
drive from Fort Lauderdale or West Palm Beach.
    ``It's a very realistic threat to South Florida,'' Wade said.
    So there are decisions to be made. Vice President Al Gore once 
pledged to take at least 100,000 acres of sugar fields out of 
production, and many Florida activists want to buy out all sugar farms 
in the State.
    They say buying sugar land serves a quadruple purpose: more water 
storage and a more natural flow, less water demand and less water 
pollution. Nathaniel Reed, a former Nixon administration official who 
is a key environmental leader here, used his keynote speech at this 
year's Everglades Coalition meeting to denounce the industry for 
everything from low pay to cavities.
    ``The insatiable demands of the sugar barons can't be met without 
sacrificing Everglades restoration,'' Reed said.
    For now, though, the Everglades restoration plan will take only 
60,000 acres of sugar fields out of production. The industry has 
invested heavily in mills and refineries, and it wants to grow as much 
sugar as possible. Former Interior secretary Bruce Babbitt, who was 
pilloried by environmentalists for cutting deals with the industry, 
says policymakers must negotiate with sugar executives in good faith. 
Calling them names and twisting facts, he said, will not help the 
Everglades.
    ``I think, inevitably, more sugar land is going to have to go,'' 
Babbitt said. ``But that's not a statement that anyone is evil.''
    Senator Jeffords. Senator Graham, I welcome you. Of course, 
this is an important hearing for you. I want to thank you for 
inviting me down to the Everglades. In fact, you did such a 
wonderful job, you even arranged for Vermont weather when I was 
down. At 40 degrees, it didn't seem as attractive as I thought 
it would be. But, thank you. Please proceed.

  OPENING STATEMENT OF HON. BOB GRAHAM, U.S. SENATOR FROM THE 
                        STATE OF FLORIDA

    Senator Graham. Thank you very much, Mr. Chairman. We 
always try to be as hospitable as possible in Florida. I want 
to thank you and Senator Smith for holding this oversight 
hearing on the implementation of the Comprehensive Everglades 
Restoration plan.
    I want to particularly thank Senator Smith for the 
leadership that he has given to Everglades restoration over a 
number of years. His interest and dedication to restoring this 
natural treasure were instrumental in Congress' authorization 
of the restoration plan in 2000.
    I hope that Senator Jeffords, Senator Inhofe and Senator 
Voinovich as well as Senator Smith will accept our invitation 
to visit the Everglades again and personally see what is 
happening there.
    Over the years I have been asked by many people, ``What is 
so special about the Everglades?''
    First I will tell that, as I have just extended this 
invitation, they should come and visit in order to fully 
experience the Everglades. If that happens, I will share with 
them some of my memories as a young boy living on the edge of 
the Everglades.
    We have surrounding us today pictures from one of America's 
great outdoor landscape photographs, Clyde Boucher. Clyde, for 
many years, has been photographing the Everglades. He purposely 
photographs in black and white in order to capture the drama of 
the Everglades system.
    I want to thank him for sharing some of his photographs 
which help answer the question of why are the Everglades so 
special.
    Senator Inhofe has raised the question about the fact that 
there will be a significant degree of experimentation as we 
proceed with the restoration of the Everglades. In fact, there 
is a special process laid out by which projects will be tested 
before they are implemented on a full-scale basis.
    The reason for that is that unlike many other environmental 
systems where there is a large body of previous evidence of 
what techniques will be effective, the Everglades deserve the 
overused word ``unique.'' There is no other Everglades 
anywhere.
    So by definition when you are making decisions as to what 
steps will be most efficacious in restoring the Everglades, 
there is a degree of experimentation. I am confident that the 
process that has been developed for the experimentation, that 
it gives us the best experimentation of finding methods that 
are both effective and cost-effective in order to carry out 
their intended purpose.
    The path to the extinction of the Everglades accelerated in 
1948 with the authorization by Congress of the Central and 
Southern Florida Flood Control Project. This project unleashed 
a chain of events which culminated with the Everglades parks, 
including the Everglades National Park, the Big Cypress 
National Fresh Water Preserve ending up on the list of the ten 
most endangered parks in the country, a list annually developed 
by the National Parks and Conservation Association.
    The passage of the Water Resources Act of 2000 was a 
closing of the chapter in this history of natural resources in 
America. We have now turned the page to a new chapter of 
restoration of America's Everglades.
    The passage of the Comprehensive Everglades Restoration 
Plan and the authorization of the initial phases of the plan in 
the Water Resource Development Act of 2000 are the beginnings 
of this next chapter.
    There are several key components to this chapter. They 
include the Water Resource Development Act authorization of ten 
critical projects for Everglades restoration, programmatic 
authority and four pilot projects. These components are 
significant for the following reasons:
    Together they embrace a true Federal-State partnership in 
this restoration project by evenly splitting the cost of 
construction as well as operation and maintenance, 50-50 
between the Federal Government and the State of Florida.
    Second, they assure the result of our efforts in 
restoration by providing assurances, assurances that the water 
generated by the plan will in fact be delivered to the natural 
system.
    Third, they use a new paradigm for the Army Corps of 
Engineers, one that involves public participation and 
independent review. They acknowledge the technical 
uncertainties with our body of knowledge about the Everglades 
and accommodate this information into project execution by 
using pilot projects, adaptive management, oversight and 
scientific review.
    Today, we are focusing on the implementation of the Water 
Resource Development Act 2000 authorizations. In part we have 
asked our witnesses to provide a state of the environment for 
the Everglades report and their views on the execution of the 
plan. We also ask for their views on the programmatic 
regulations which have been released for public comment.
    This last item is critical. The programmatic regulations 
are one of the cogs in the assurances wheel of the Water 
Resource Development Act of 2000. The regulations are to be 
issued with the concurrence of the Department of Interior and 
the Governor of the State of Florida, a first in Federal 
statute.
    The statute balances both the restoration and the primacy 
of the State water law. My concerns with the initial draft of 
the programmatic regulations centered on issues of whether 
there should be interim goals, the role of the Department of 
Interior and restoration assurances regarding water supply to 
the natural system.
    I have some remaining concerns on each of these elements of 
the regulation and I will raise them during our question and 
answer period. I am also interested in hearing from each of our 
witnesses on the topic of the programmatic regulations.
    Of particular importance in the programmatic regulation 
will be the process created for developing project 
implementation reports. These are the engineering documents for 
each project in the plan. These reports require the State to 
issue a water reservation to protect water intended for the 
natural system from the consumptive use permitting process.
    The Federal Government is prohibited from beginning 
construction from any individual project until the water 
reservation process has been satisfactorily completed. If this 
set of checks and balances is followed completely in the 
programmatic regulation, the water developed by the restoration 
plan will be made available for the natural system.
    This committee has both the duty and the desire to see that 
this is successfully accomplished. Because of this commitment, 
we will ask difficult questions, demand progress, and we will 
see this project through to completion.
    Undoubtedly there will be challenges as we work through the 
detailed project execution. But we will work together to 
resolve those changes. We will find our commonalities and we 
will move this restoration project forward.
    Mr. Chairman, I appreciate your holding this oversight 
hearing today. I look forward to hearing from the witnesses. I 
am pleased that we are joined by my good friend and colleague, 
Senator Bill Nelson, and we look forward to working with each 
of you to an understanding and the execution of our role in the 
most significant environmental restoration project that the 
world has ever undertaken.
    Thank you, Mr. Chairman.
    Senator Jeffords. Thank you.
    Senator Voinovich.

  OPENING STATEMENT OF HON. GEORGE V. VOINOVICH, U.S. SENATOR 
                     FROM THE STATE OF OHIO

    Senator Voinovich. Thank you, Mr. Chairman and thank you 
for holding this hearing today on the implementation of the 
Comprehensive Everglades Restoration Plan.
    As the former chairman of the Transportation and 
Infrastructure Subcommittee, I am proud to be the sponsor of 
the Water Resource Development Act of 2000 which approved this 
ambitious plan to restore one of our nation's great national 
treasures.
    Mr. Chairman, I have not only invested a lot of time on the 
Everglades restoration, I've spent a lot of time in the 
Everglades as well as Governor, I spent a day observing the 
Everglades from Hovercraft, on foot and on a helicopter.
    It was brought to my attention the environmental impacted 
parts of the Everglades courtesy of the Florida Fish and 
Wildfire Conservation Commission.
    In addition, my wife, Janet, and I have made many visits to 
Florida's Loxahatchee National Wildfire Refuge and the 
Everglades National Park. I have done a lot of fishing in 
Florida Bay and in the Everglades. So I am very familiar with 
the Everglades and expect to be down there. I may take up your 
education in January. In fact, I have told my staff I want to 
stop over and spend some time there.
    In January of 2000 I had the opportunity to participate in 
an EPW Committee field hearing in Naples on the Everglades. Of 
course, when I was there we had a chance to visit the 
Everglades and again visit the Loxahatchee Wildfire Refuge. 
Without a doubt, the centerpiece of Water Resource Development 
Act 2000 is the Comprehensive Everglades Restoration Plan.
    Two years ago we worked hard to ensure that the Everglades 
title to the bill addressed the concern of all parties. Working 
on WRDA 2000 has been one of the highlights of my career in the 
Senate. The Everglades plan is not only the largest restoration 
project that the Corps has undertaken, as Senator Graham has 
said, it is the largest water quantity restoration project in 
the world.
    We have an enormous challenge ahead of us and we have to 
make sure that we do it right.
    My role in putting together the Everglades title was to 
ensure that we move the plan forward using the same criteria 
that apply to all projects in the WRDA bill.
    Originally, as you recall, the administration's Everglades 
proposal deviated substantially from Corps of Engineers and 
Environment and Public Works Committee policies for other water 
resource projects, particularly regarding the specificity 
required for project reauthorization.
    In addition to the lack of specificity in the Everglades 
plan, I was also concerned about the cost of Everglades 
restoration relative to the cost of all Army Corps of Engineers 
programs nationwide.
    The Everglades plan requires construction appropriations of 
$200 million during the peak years of construction, which is 12 
percent of the total budget appropriation for all of the Corps 
of Engineers construction projects. It could be more than that.
    In March of 2000, I asked the General Accounting Office to 
review the big picture of Everglades restoration and water 
quality issues to help answer questions about how much it would 
cost. In its report which was the subject of a Transportation 
and Infrastructure Subcommittee hearing in September of 2000, 
the GAO lists several uncertainties in the plan that would 
likely lead to additional water quality projects and increase 
the total cost of the plan over the Corps estimate of $7.8 
billion.
    It was clear from the report that there were too many 
unknowns and uncertainties in the plan to estimate what the 
final price tag would be. Senator Inhofe, I certainly hope that 
it is not as much as you think it is going to be.
    As we all know, the Corps faces a $44 billion backlog and 
it has insufficient construction funds. Everybody ought to 
understand that. Only about $1.7 billion per year. In addition, 
since we have improved the Everglades plan our nation's 
priorities have changed significantly. One of the things that 
has changed is that we are going to borrow $340 billion this 
year to keep the government going. It looks like next year it 
could go up as high as $370 billion.
    So if anybody here thinks that we are flush with money, 
they are mistaken. We have a tough row to hoe in terms of 
setting our priorities for this nation and we have some hard 
decisions that need to be made.
    As the Everglades plan is implemented, we will, as I say, 
have to prioritize Corps of Engineers projects and weed out 
projects that are no longer justifiable. That means we are 
going to have to get rid of some projects around here and step 
on some of our colleagues' toes, but it is about time we got on 
with it, Mr. Chairman. You know, we need to do that.
    Our most important accomplishment in WRDA 2000 was the 
requirement to apply the same level of congressional oversight 
to Everglades projects that apply to all other Corps projects. 
Before we instituted the new requirement, ten projects had been 
proposed for authorization at a cost of $1.1 billion, without 
customary feasibility report and without individual project 
justification.
    Under WRDA 2000 the Secretary of the Army must submit a 
project implementation report for each individual project and 
no appropriations may be made to construct any projects until 
they are approved by both the Senate Committee on Environment 
and Public Works and the House Committee on Transportation and 
Infrastructure.
    In addition, we reduced the level of programmatic authority 
for restoration projects that can be accomplished without 
congressional review. The levels we set are applicable to other 
parts of the Corps program.
    We also eliminated the provision that would have allowed 
reimbursement to the State of Florida for the Federal share of 
work accomplished by the State. However, the State retains the 
ability to receive credit, which is I think significant, for 
work in kind for up to 50 percent of the work, but only 
proportionate to appropriated Federal expenditures. In other 
words, they cannot move ahead of Federal appropriations.
    Finally, I appreciate the fact that the Bush Administration 
is upholding the Secretary of the Air Force's decision to block 
the development of a commercial airport at the site of the 
former Homestead Air Force Base, which is located within only a 
few miles of Everglades National Park, Biscayne National Park, 
and the National Marine Sanctuary.
    It would have been irresponsible for the Federal Government 
to approve an investment of billions of dollars to restore the 
South Florida ecosystem, while at the same time approving a 
reuse plan for Homestead Air Force Base which is incompatible 
with restoration objectives.
    WRDA contained a sense of the Congress provision expressing 
these concerns and, by golly, I'm pleased that the 
Administration is doing the right thing in terms of what they 
are doing there.
    When I take my grandchildren to visit the Everglades in the 
next couple of years and we look up at the sky, we won't see 
commercial aircraft disturbing the air space over the park or 
polluting the air.
    Today's hearing is the first oversight hearing on the 
implementation of the restoration plan. I am sure we are going 
to be having a lot more of them. I understand there has been a 
lot of debate about the Corps' proposed programmatic 
regulations for implementing the plan to ensure the goals and 
purposes of the plan are achieved.
    The primary and over-reaching purpose of the plan is to 
restore the South Florida ecosystem. That is why Congress is 
committed to paying 50 percent of the costs and we want to make 
sure that we make a sound investment.
    I look forward to today's witnesses, hearing from them 
about the progress that we have made during the last 2 years. I 
understand it has been significant. I am interested in hearing 
about what we have learned in terms of science and technology 
improvements, potential environmental benefits and cost 
estimates.
    I am glad the Department of Interior is here and will 
testify about the efforts to address another threat to the 
Everglades, invasive, exotic species which are a real threat to 
the Everglades.
    I understand that too well, coming from Lake Erie where 
invasive exotic species, the Zebra Mussel, Asian Carp and Sea 
Lamprey are threatening our great lake.
    Thank you, Mr. Chairman.
    Senator Jeffords. Thank you, Senator.
    Senator Chafee?
    Senator Chafee. Thank you, Mr. Chairman for holding this 
hearing. I certainly think it is appropriate that we have a 
hearing, considering the enormous amount of money we are 
investing in this worthwhile project and also it is so 
important to restore the health of a 17,000 square mile 
ecosystem. So I support this hearing and look forward to the 
testimony.
    Senator Jeffords. Thank you.
    Now I am pleased to welcome our colleague, Bill Nelson of 
Florida, who will be making a statement for the committee. If 
you would like to join us at the dais afterward, please be 
welcome to come up and help share your understandings with us.
    Go ahead, Bill.

STATEMENT OF HON. BILL NELSON, A UNITED STATES SENATOR FROM THE 
                        STATE OF FLORIDA

    Senator Nelson. Thank you, Mr. Chairman. I want to thank 
you for your leadership and the Senator from New Hampshire, 
Senator Smith, has been so important as a leader in helping 
Senator Graham recognize and do something about the 
preservation of this unique natural and international resource 
that we have.
    I am delighted to join my colleague from Florida to 
underscore the importance of the Everglades. Whereas Bob has 
brought in these beautiful photographs of the natural beauty of 
the Everglades that you would experience, I wanted to take you 
out into space and show you what it looks like as I looked at 
it from the window of a spacecraft.
    Mr. Chairman, the Everglades today is about a third of the 
size that Mother Nature had intended it to be because the 
waters supplying the Everglades actually start this far up, 
right near Orlando, in a place called Shingle Creek, flowing 
south into the Kissimmee River. The Kissimmee River flowing 
into Lake Okeechobee and then the waters from Lake Okeechobee 
flowing in a massive sheet flow as they flow south and 
southwest and empty into Florida Bay and in the area over on 
the southwest coast called the Ten Thousand Islands, a place of 
unique beauty with no beaches, but rather a shore of mangroves, 
and you can imagine the rich, ecological territory of the 
mangroves and the Gulf of Mexico coming together where so many 
of the species come in to hatch and to multiply.
    What happened over the years was that folks started coming 
to Florida. Henry Flagler, in the 1890's, brought his railroad 
south and the old Crackers, which are the old natives, used to 
say that during the summer we lived on fish and alligators and 
during the winter we lived off of the tourists.
    That has replicated itself over the years with an 
extraordinary explosion of population that occurred after World 
War II, when so many of the veterans had come to Florida. There 
were so many airfields that were built up and down the coast of 
Florida, the training occurred. So in the economic revival that 
occurred after the war, lo and behold, a lot of folks started 
coming.
    So what Mother Nature was suddenly confronted with is not a 
land of extraordinary beauty because it was uninhabited as it 
had been over the years, but now suddenly confronted with a 
population of six and a half million people today in that south 
Florida region that have to get water from some place.
    At the same time, in the early part of the last century, 
there were a series of mega-hurricanes which caused tremendous 
floods and as a result, there was one in the 1920's where some 
2,000 people were drowned in the Lake Okeechobee region. So as 
Florida was beginning to be developed and populated in the 
southern part the idea of flood control came in and the idea 
was that when the rains came, get the water out.
    So a series of dykes and huge drainage ditches were 
constructed which then the idea was when the water came, dump 
it to tidewater. Thus, for a half a century the Army Corps of 
Engineers, in a system that started way up there in central 
Florida, coming down through the Kissimmee River chain, 
straightening out the Kissimmee River so that it became a ditch 
instead of the meandering stream that Mother Nature had 
intended it to do, and by the way, let me say about my 
colleague, when he was Governor he started the process that 
would revive the Kissimmee River instead of being a ditch, a 
straight ditch, so that it could return to its natural 
meandering state with all of the ecological advantages that 
that would occur.
    Governor Graham offered leadership that is unparalleled and 
today that river is being restored as much as possible into its 
natural state.
    Then another phenomenon occurred because just south of this 
huge body of water there is some of the most fertile soil in 
the world. It became very apparent that this was exceptional 
soil for the growth of agricultural products. So over the 
course of that half century you had the development of six and 
a half million people on the southeastern and the southwestern 
coast, all demanding water, a major agricultural area basically 
to the south of Lake Okeechobee where the sheet flow used to 
occur further south and then each of those with their demands 
for water while at the same time the water was being dyked and 
drained out to the salt water of the Atlantic or to the Gulf.
    That is what this project is all about. The Everglades is a 
third of the size that it used to be. Trying to accommodate the 
six and a half million people that have to have water, trying 
to accommodate the legitimate agricultural interests, and at 
the same time preserve the Everglades and restore it as much as 
possible to the way that Mother Nature had intended it as you 
would see from the window of a spacecraft.
    Mr. Chairman, that is why Senator Graham and I are so 
vigorous in support of this project. There are innumerable 
groups that you will hear from today that support this project, 
not the least of which is the Army Corps of Engineers, the 
Department of Interior, the State of Florida, the Miccosukee 
and Seminole Tribes, the Everglades Coalition. If you will 
listen to their comments, continue to give us the support that 
you have given us and help us preserve this wonderful natural 
resource that is such a resource for Planet Earth.
    Thank you.
    Senator Jeffords. Thank you, Senator, for an excellent 
statement and the historical information that I appreciate and 
of which I was unaware.
    Will the next panel please come forward and be seated?
    Thank you for your appearance today. We deeply appreciate 
your being here.
    I will have to be leaving shortly, but I want to thank all 
the witnesses that are going to appear, that have appeared for 
this very important project. Yesterday, I introduced our 
counter project with Senator Clinton up in the Lake Champlain 
area and to make sure that we have a program and system as you 
have developed, Bob.
    Please proceed, Mr. Brownlee.

  STATEMENT OF HON. R.L. BROWNLEE, ASSISTANT SECRETARY OF THE 
       ARMY FOR CIVIL WORKS, U.S. DEPARTMENT OF THE ARMY

    Mr. Brownlee. Mr. Chairman and members of the committee, I 
am Les Brownlee, Under Secretary of the Army and Acting 
Assistant Secretary of the Army for Civil Works.
    I have a statement which, with your permission, I will 
submit for the record and summarize it for the committee.
    It is my pleasure to be here today along with my Federal 
agency partners from the Department of Interior and the U.S. 
Environmental Protection Agency to speak on the state of the 
Everglades and the plan to restore this national treasure 
unique in all the world.
    I would like to thank the committee for providing the 
necessary leadership and vision in helping to make this plan a 
reality.
    Over the past year I have learned a great deal about the 
Everglades, the factors that make it special, its importance to 
the world's ecology and the many challenges facing all those 
concerned with its restoration.
    I have enjoyed the opportunity of touring South Florida and 
meeting with the agencies and stakeholders that are meeting 
these challenges.
    People have been discussing the need to save the Everglades 
for many years. Now, after a great deal of debate and consensus 
building, the Army, through its Corps of Engineers, has been 
given the task of working with other Federal agencies, Native 
American tribes, the State of Florida, local governments and 
many other interests as we move from discussion to 
implementation of a bold innovative restoration plan.
    The Everglades Restoration Task Force has proven 
indispensable in coordinating the development and 
implementation of that plan. The counselor to the Secretary of 
Interior, Ann Klee, seated to my left, serves as the chair of 
this important task force. I would like to recognize her in 
front of this committee for her very able service as the chair 
of that task force.
    As Governor Jeb Bush recently said in a Washington Post 
editorial, ``While it would be hubris to suggest the 
Comprehensive Everglades Restoration Plan is perfect, I believe 
its goals can be achieved and are worth the effort to achieve 
them.''
    I share the Governor's view and I will continue to work 
with the Congress, the State of Florida and all the 
stakeholders during the implementation phase to improve the 
plan and turn goals into realities.
    I am impressed by the breadth of knowledge held by so many 
concerned parties, the thoughts they have to share and their 
unwavering commitment to the Everglades restoration effort are 
invaluable.
    As Governor Bush noted, there is a ``remarkable coalition 
brought together to restore the River of Grass.''
    There is a strong sense of accomplishment at having 
delivered the Comprehensive Everglades Restoration Plan to 
Congress and a strong commitment to ensuring that the plan is 
implemented successfully as authorized and intended by the 
Congress.
    Through this effort and with the cooperation of all 
concerned, the Everglades will be restored for future 
generations.
    Since becoming the Acting Assistant Secretary of the Army 
of Civil Works last March I have participated in the Everglades 
Restoration Task Force and have frequently met with the Corps 
of Engineers to learn more about the restoration effort.
    I can assure you that I have found the Corps staff to be 
extraordinarily capable and dedicated to helping restore the 
south Florida ecosystem.
    As specified by Congress, the overarching goal of the 
Comprehensive Everglades Restoration Plan is the restoration, 
preservation and protection of the south Florida ecosystem, 
while providing for other water-related needs of the region. 
The commitment to achieve restoration was reflected in the 
agreement signed last January by the President and the Governor 
of Florida that assures that water made available by this plan 
and necessary for restoration will be reserved for the 
environment.
    This initiative has been developed through consensus. 
Agreement about how the restoration will proceed is a result of 
contributions of many at the Federal, tribal, State and local 
level who participated in a well-structured, open and inclusive 
process. This is the most ambitious restoration initiative ever 
undertaken. Accomplishing this goal will take time, and we must 
be patient.
    South Florida has been severely affected by human 
activities for over 100 years. Restoration will not happen 
overnight. The commitment must be for the long term. We all 
know that the plan does not now contain all the details that 
will be required for implementation; nor does the plan answer 
each and every question raised. However, we believe that the 
plan establishes a clear and positive framework that can guide 
our efforts to restore the Everglades and the south Florida 
ecosystem.
    We will make modifications as needed to the plan as more 
information becomes available. Each project will be made better 
by our ability to monitor, assess and adapt and we are fully 
committed to the concept of adaptive management.
    The Army intends to fulfill the promise, the theme of the 
17th Annual Everglades Coalition Conference held in January 
2002, which you, Mr. Chairman, and Senator Graham attended. 
This is a daunting task, however, it is one to which the Army 
is fully committed.
    The Corps of Engineers, in close coordination with my 
office, will lead this important initiative for the 
administration. Since the passage of WRDA 2000 the Corps has 
made significant progress. On August 2, 2002, the Army 
published in the Federal Register the proposed programmatic 
regulations that will guide the development of the plan over 
the next several decades.
    Formal public comment on these proposed regulations ends on 
October 1, 2002, after which the Corps will evaluate the 
comments and finalize the rule. The Corps has not been working 
alone on drafting these programmatic regulations. There have 
been a series of meetings and workshops with Federal and State 
agencies, Native America tribes and many other stakeholders and 
all have helped.
    To address the scientific needs of the plan, the Corps and 
its primary cost-sharing partner, the South Florida Water 
Management District, have established six special multi-agency 
teams to refine performance measures, develop performance 
monitoring plans and assess the contributions of each project 
to the total restoration goals.
    The Corps has been working closely with the Department of 
Interior to better integrate the expertise of the U.S. Fish and 
Wildlife Service and the Everglades National Park into plan 
implementation and evaluation.
    They have also engaged the services of the National Academy 
of Sciences to review ongoing activities related to the aquifer 
storage and recovery features in the Florida Keys.
    The Army will continue to work closely with the Congress, 
especially this committee, to ensure successful completion of 
this project and restoration of the Everglades.
    Mr. Chairman, thank you for the opportunity to testify on 
this important endeavor and I will be happy to answer any 
questions the committee may have.
    Senator Jeffords. Well, thank you very much for an 
excellent statement. We will reserve the questions until all 
the witnesses have testified.
    Mr. Gibson.

STATEMENT OF TOM GIBSON, ASSOCIATE ADMINISTRATOR FOR THE OFFICE 
OF POLICY AND REINVENTION, U.S. ENVIRONMENTAL PROTECTION AGENCY

    Mr. Gibson. Good morning, Mr. Chairman, members of the 
committee. I am Tom Gibson, Associate Administrator for Policy, 
Economics and Innovation at EPA. I am also EPA's representative 
on the South Florida Ecosystem Restoration Task Force.
    I am pleased to be here on Governor Whitman's behalf this 
morning to discuss the progress restoring the Everglades. I 
would like to start by recognizing the members of the 
committee, the committee's leadership on this. It is good to be 
working with Senator Mack and Senator Voinovich again. I worked 
with them on the bill when I was here.
    I also really want to recognize my former boss, Senator 
Smith, who really had such a key role in getting this bill 
through. He gave me the opportunity to work on this. It was the 
highlight of my public service and I thank him for it. It was a 
privilege. I wish he was here today.
    EPA is a strong supporter and active participant in making 
CERP work. Our goal is to maximize the environmental benefits 
of all 68 strategic components in the plan. EPA provides 
technical, financial, legal and regulatory assistance in south 
Florida. We also contribute to restoration efforts through on-
going responsibilities under the Clean Water Act, the Safe 
Drinking Water Act and other Federal laws.
    I would like to use my time to highlight some of EPA's 
ongoing activities in support of CERP implementation. EPA had a 
major role in the development of CERP and we continue to play a 
role in its implementation.
    One of our first responsibilities was to provide input on 
the programmatic regulations which, as Mr. Brownlee noted, are 
currently undergoing public comment. These program regulations 
will in fact ensure that CERP components and CERP projects 
address water quality as required by WRDA 2000.
    The regulations recognize EPA's role by making the agency a 
partner on the key CERP implementation teams such as the 
recovery team as well as the project delivery teams. EPA is 
also heavily involved in the CERP pilot projects and the 
initial list of CERP authorized project components.
    We are assisting in the development of reclaimed water 
reuse criteria for several large wastewater treatment plants in 
Dade and Palm Beach Counties and in the review of individual 
projects under the National Environmental Policy Act.
    In addition, EPA is working with the State on the 
evaluation and permitting of the ASR wells. These wells provide 
underground capacity for water storage and can help replace the 
natural capacity that has been lost in the Everglades during 
the years of development and draining and ditching.
    Restoring at least a portion of this storage capacity is 
essential to accommodating the region's water needs and the 
plan's success. To this end CERP calls for the use of more than 
300 ASR wells. However, there are some issues to work through 
first and the ASR pilot projects will provide us with the 
answers we need to the technical and regulatory questions that 
we need to answer before a full-scale ASR implementation.
    Another priority is reducing phosphorus levels which can 
overwhelm aquatic ecosystems. The State must propose a numeric 
phosphorus criteria by the end of 2003. The proposed criteria 
then must be submitted to EPA for review and approval. In order 
for EPA to grant approval we must find the proposed criterion 
will provide adequate protection for Everglades waters.
    The Florida Department of Environmental Protection has 
initiated the rulemaking process and proposed a new criterion 
of ten parts per billion of phosphorous to their Environmental 
Regulatory Commission as required by State law before it is 
submitted to EPA. We anticipate this process will extent to 
2003.
    In southwest Florida, one of the fastest growing regions in 
the country, loss of wetlands is an issue that can impact the 
Everglades ecosystem. EPA has been working with the Corps of 
Engineers on the development of special permitting review 
criteria to be used specifically in the southwest Florida areas 
that will help both protect the wetlands, protect the receiving 
waters and give people certainty throughout the permitting 
process in southwest Florida.
    Another issue that we are working on is mercury 
contamination. We are finding that the highest mercury 
contamination levels in the Everglades occur in the remote 
portions of the Everglades and that the major sources of 
contamination are rainfall and atmospheric dry deposition.
    The estimated contributions from local versus global and 
regional mercury sources vary widely. To more accurately 
quantify these contributions and to better understand the 
ecological implementations of mercury contamination, EPA is 
participating in a multi-year Federal, State, private 
monitoring and research study.
    From 1989 through 1999 our partners contributed about $30 
million to this study and additional research is still 
underway. EPA is also actively involved in research that aims 
to restore Florida Bay. Over the past decade, numerous 
biological, chemical and physical changes have occurred in the 
bay.
    In 2001, a Florida Bay and Florida Keys Feasibility study 
team was organized in support of CERP. Its purpose is to 
determine the modifications that are needed to restore water 
quality and ecological conditions of the bay while maintaining 
or improving these consequence throughout the Florida Keys.
    The Florida Keys National Marine Sanctuary and Protection 
Act of 1990 requires EPA and NOAA to collaborate on a water 
quality protection program for the area, which includes the 
United States only living barrier reef.
    EPA and the State are now working to implement that plan 
and most of the monitoring, research, data management and 
educational initiatives are being funded by EPA. Through 2002, 
EPA has contributed more than $10 million to this initiative.
    Finally, EPA recently designated all State borders within 
the boundaries of the Florida Keys National Marine Sanctuary as 
a no-discharge zone. This rule prohibits the discharge of 
sewerage, whether treated or not, from all vessels into the 
State waters of the sanctuary.
    EPA will continue to provide funding and other resources to 
support implementation of the Water Quality Protection Plan for 
the Keys and the bay, including the on-going comprehensive 
monitoring and special studies projects.
    In closing, EPA continues to fill a variety of roles to 
advance the cause of Everglades restoration and protection. 
Believing that we are poised for significant progress, we are 
committed to working with our many partners that share the 
common vision of a healthy, thriving ecosystem.
    It is our hope that by working together we will see visible 
results in the near term and our progress will lead other 
regions and governments to undertake ecologically significant 
restorations of their own.
    I thank the committee. I ask that my full statement be 
placed in the record and I am ready to answer any questions you 
have.
    Senator Graham. [assuming the chair] Thank you, Mr. Gibson. 
Senator Jeffords had to leave for another commitment and has 
asked me to chair the meeting in his absence.
    Senator Graham. Ms. Klee?

   STATEMENT OF ANN KLEE, COUNSELOR TO THE SECRETARY OF THE 
 INTERIOR AND CHAIR, SOUTH FLORIDA ECOSYSTEM RESTORATION TASK 
                             FORCE

    Ms. Klee. Good morning, Mr. Chairman and members of the 
committee. My name is Ann Klee. I serve as Counselor to the 
Secretary of the Interior, Gale Norton. I am also the chair of 
the South Florida Ecosystem Restoration Task Force, which is an 
inter-governmental entity that was established by Congress in 
the Water Resource Development Act of 1996 to coordinate the 
restoration of the south Florida ecosystem.
    I am pleased to testify before the committee this morning 
and would like to recognize the committee's leadership and 
particularly the leadership of Senator Bob Smith to authorize 
the Comprehensive Everglades Restoration Plan in WRDA 2000.
    Were it not for Senator Smith's leadership on this issue 
and the efforts of Senator Graham, we would not be here today 
heralding the first successful steps to restore this unique 
ecosystem.
    The Department of Interior is committed to Everglades 
restoration. It remains one of our highest priorities. Our land 
management agencies, the Fish and Wildlife Service and the 
National Parks Service, manage 50 percent of the remaining 
Everglades. As such, they remain one of the primary 
beneficiaries of the restoration plan. The U.S. Geological 
Survey also provides important scientific expertise to support 
this effort.
    At the beginning of this year the United States and the 
State of Florida executed a binding and enforceable agreement 
to ensure that water captured by implementation of the CERP 
would be reserved by the State from consumptive use.
    This agreement, signed by President Bush and Governor Jeb 
Bush, represents a significant and lasting step toward 
achieving the restoration goals and objectives of the CERP to 
restore natural flows for the environment as promised during 
this committee's deliberation over the comprehensive plan.
    In addition, as you have heard from Mr. Brownlee, the 
programmatic regulations are well on their way toward 
completion. Key provisions of the draft regulations ensure a 
strong role for the Department of Interior and the restoration 
process involving the Department early in the project planning 
process and assigning shared responsibility for the development 
of interim goals.
    We believe that the proposed rule does indeed define a 
collaborative partnership between the Federal, State and local 
agencies as envisioned in this committee's report.
    In addition to efforts to implement WRDA 2000, the 
Department is actively implementing other actions to preserve 
and restore the Everglades ecosystem and recover endangered 
species. Let me highlight a few of the measures that we have 
taken in this past year. We have completed all land acquisition 
for the East Everglades expansion. We have reached an agreement 
in principle to acquire the mineral rights under the Big 
Cypress National Preserve, which will ensure long-term 
conservation of the western Everglades.
    We have renewed a 50-year lease with the State of Florida 
for the Loxahatchee National Wildfire Refuge and dedicated an 
additional $1 million to accelerate the eradication of invasive 
exotics at the refuge.
    We have entered into a Safe Harbor Agreement to enhance 
habitat for the Schaus swallowtail butterfly and we have 
designated a research natural area in Dry Tortugas National 
Park.
    Equally important is our financial partnership with the 
South Florida Water Management District to acquire lands for 
Everglades restoration purposes. Land is the single biggest 
physical constraint to implementation of the CERP. Last year, 
the Department of Interior provided $12 million for key land 
acquisition projects.
    Later this month, I expect Secretary Norton to approve an 
additional $15 million grant to the District for the purchase 
of high priority projects.
    Finally, speaking as the chair of the South Florida 
Ecosystem Restoration Task Force, I would like to briefly 
describe how the Task Force is contributing to this restoration 
effort.
    Most recently, the Task Force published its revised 
strategy for restoration of the South Florida ecosystem and 
biennial report to Congress. I am pleased to provide today 
copies of this document to the committee. The document updates 
information submitted by the task force in July of 2000 and 
describes the restoration and coordination efforts of the task 
force member entities.
    During the last year, the Task Force provided a 
constructive forum to discuss many of the issues that are 
critical to Everglades restoration, including the development 
of the Corps' programmatic regulations, water quality issues, 
and sound science.
    The Task Force provides an effective forum for candid 
discussions of differing views. It is my hope and the hope of 
the Secretary that the Task Force will continue to seek the 
views of all interested stakeholders on Everglades restoration 
and facilitate collaborative decisionmaking.
    In closing, Mr. Chairman, I would like to respond briefly 
to the skeptics who question whether Everglades restoration can 
be achieved. We believe that it can and we believe that we are 
well positioned to succeed.
    First of all, we have a high degree of collaboration among 
the State of Florida, the Federal Government and concerned 
citizens. We have venues including the Task Force and the South 
Florida Water Management District's Water Resources Advisory 
Committee to share ideas and to develop consensus-based 
restoration policies and resolve problems before they create 
insurmountable roadblocks to progress.
    Second, we have developed the important legal assurances, 
including the binding assurances agreement and the programmatic 
regulations to guide our efforts to achieve Everglades 
restoration goals.
    Third, we have made significant progress toward 
implementing specific project features. By acquiring the 
necessary lands for restoration, the State is undertaking 
efforts to improve water quality and we are protecting and 
restoring habitat for endangered species.
    In the last decade alone, together with the State, we have 
made significant progress on the road to a renewed Everglades, 
indicating that we have the tools to achieve restoration 
success. We need to encourage and continue the dialog among all 
affected parties and the entities that wish to restore the 
Everglades. Working together we can and will achieve our 
Everglades restoration goals.
    Mr. Chairman, that concludes my statement. Thank you for 
the opportunity to address the committee. I will be happy to 
answer any questions.
    Senator Graham. Thank you, Ms. Klee, Mr. Brownlee and Mr. 
Gibson. We have a vote underway with approximately 5 minutes 
left. So I am going to recess temporarily. We will try to 
reconvene in approximately 10 minutes.
    [Recess.]
    Senator Graham. We will call the meeting to order. I would 
like to ask two questions to each of the members of our panel. 
First, what, in your estimation, will happen to the Everglades 
if no action is taken, if we were to rescind the restoration 
effort and let events take their course? What kind of 
Everglades are we likely to be experiencing 20 years from now?
    Mr. Brownlee. I believe we can expect to see the health of 
the ecosystem in that area continue to decline. I think there 
would continue to be a decline in the population of the wading 
birds. The estuaries would continue to suffer. There would 
continue to be water problems and probably some water shortages 
would start to appear.
    That would be my assessment, sir.
    Ms. Klee. Senator Graham, I agree with what Mr. Brownlee 
has said. I think what we would see over the next 20 years and 
beyond is the continued slow death of the Everglades.
    Mr. Gibson. I agree with what my colleagues said. Up north 
would see a monoculture of cattails and water quality problems 
throughout the glades and spread of invasives. It would not be 
the glades we know.
    Senator Graham. The second question is: What actions would 
you recommend that Congress needs to take in the near or the 
distant future to move this project of restoration forward?
    Mr. Brownlee. Sir, I think the continuing support of 
committees like this is critical. The continued support to the 
program itself through the necessary authorization and 
appropriations for projects is vital to the health of it. Just 
to support the senior on this committee publicly, I think is 
very critical to the continuation of this program.
    Senator Graham. Ms. Klee.
    Ms. Klee. I would add to that, Senator, that the continued 
emphasis by this committee and others that this is a long-term 
project. It took us 50 years to see the effects and longer that 
we see today. It is going to take time to achieve full 
restoration and we need the patience and continued support of 
the Congress over the long haul.
    Mr. Gibson. Again, I agree and maybe a special focus from 
our perspective on some of the pilot projects and keeping the 
funding for those moving along so we can answer questions on 
wastewater reuse and on ASR, some of the technical questions 
that may or may not lead to permitting issues for the agency.
    Senator Graham. Mr. Brownlee, in your testimony you 
commented about the fact that there were areas of uncertainty 
in the plan, largely a function of the uniqueness of the 
project that you were undertaking. You mentioned several of the 
strategies that were being used including pilot projects to 
test out various technologies.
    Could you indicate how that process is proceeding and what 
you anticipate to be the commencement and termination date of 
these projects that are currently in a pilot phase? When will 
you b at a point to determine whether to move to actually large 
scale implementation?
    Mr. Brownlee. Sir, if it is OK with you I will provide the 
dates and all for the record, if that is OK. The pilot project 
is one part one way in which the Corps will work with others to 
prove the science required for these different areas.
    We will also use independent scientific research and we 
will use adaptive management on these projects. As far as 
specifically how we do them, it varies with the project, but we 
will endeavor through these kinds of strategies to monitor 
these, to verify these technologies as we move ahead to be sure 
they work. Then we will go back and examine how they are 
working after we put them in. That is generally the way we plan 
to do it sir.
    Senator Graham. If you could supplement the record with a 
written report on those that are currently in some stage of 
review and when that review might be finished and assuming that 
the result is positive, how you will propose to move forward on 
that.
    Mr. Brownlee. Sir, I might just mention one because the 
District Engineer down there is very proud of it. It is the 
Indian River Lagoon report which will be forwarded to this 
committee for authorization. The significance of this is not 
only that it provides a way to reserve water when there is 
plenty of water and then release it when it is needed, but it 
was the result of a collaboration of a number of diverse 
interests that were able to be brought together in a very good 
way and come up with this report. So that will be coming up to 
the committee so that the committee can authorize it and we can 
proceed with it.
    Senator Graham. Good.
    Mr. Brownlee. It is an irony of history that we hope to get 
that project authorized in the current WRDA bill so it would be 
effective for fiscal year 2003. The year 2003 is the 100th 
anniversary of the first National Wildlife Refuse being 
established. That was established in the Indian River Lagoon, 
Pelican Island.
    So it would be very fitting if we could celebrate the 100th 
anniversary of that historic environmental event with clear 
evidence that we are committed to maintaining the quality of 
that same environment.
    Senator Graham. I know that the study is complete and 
hopefully it will be forwarded to you soon, sir.
    Mr. Brownlee. You are probably learning more Florida 
history today than----
    Senator Graham. I was unfamiliar with some of that, sir, 
but it is nice to hear it.
    Ms. Klee, there have been some concerns raised, including 
at this hearing today, about the issue of cost and how to give 
some assurance that we are going to keep this project within 
the original cost estimates.
    Is that a subject that your task force is reviewing and if 
so, what steps are you going to take to monitor and hopefully 
avoid cost overruns?
    Ms. Klee. Senator, that is not an issue that the Task Force 
has addressed specifically at this point, although we are 
monitoring closely progress in terms of achieving the goals of 
the plan so that there is an oversight mechanism and 
accountability. But certainly that could be something that the 
Task Force could consider over time.
    Senator Graham. One of the provisions that Senator 
Voinovich was particularly interested in including was the 
standard Corps policy relative to cost overruns and that is if 
any component of the project gets to be more than 20 percent of 
its original estimate, then it has to come back to Congress for 
specific reauthorization.
    I would hope that between the Corps and your task force you 
would be monitoring, hopefully to avoid, but if in fact that 
occurs, to do so.
    Mr. Gibson, do you have any comments about what the role of 
EPA will be in the cost aspects of this project?
    Mr. Gibson. EPA's role will come on down the line. EPA is a 
permitting agency. We are providing technical assistance on 
issues like the ASR technology. If we can inject the so-called 
``raw water,'' surface water and shallow aquifer water directly 
into the underground strata without treatment, there could be 
considerable cost savings because I believe $500 million or so 
is budgeted for water treatment on ASR technology.
    If a lot of treatment is necessary before we can inject 
that water, there might be some cost issues associated with 
that. That is why we are doing the pilot projects now, to build 
that base of knowledge, so we will know if we are going to have 
significant treatment needs for either wastewater or for ASR. 
Those answers will come in the coming years.
    Mr. Brownlee. Senator Graham, I might add, sir, that the 
Corps is very sensitive to stay within the authorization levels 
set by the Congress. In fact, a little other bit of history, we 
look back and since 1986 of about 600 projects, the Corps has 
had to come back for additional authorization about 56 times of 
that. So it is a little less, it looks like, than 10 percent.
    So we will be very sensitive to that. I anticipate that 
there will be cases when we will have to come back. We will, as 
usual, try to avoid those.
    Senator Graham. Are there any aspects of this project 
which, to date; have raised concerns about cost overruns?
    Mr. Brownlee. Sir, I wouldn't identify one now. There are 
some, of course, that have been delayed recently, as you are 
well aware and any time we have delays in projects they are 
subject to overrun.
    Senator Graham. If you could give us for the record an 
indication of where those concerns that relate to delays in 
projects or for any other reason that you think should be on a 
monitor list for purposes of cost.
    Senator Graham. I mentioned in my opening statement that I 
had some concerns about the initiative draft of the 
programmatic regulations. Are these related to whether there 
should be interim goals or milestones along the route from 
where we are to our ultimate destination?
    Second, what will be the role of the Department of Interior 
in the evaluation of this project as it goes forward and the 
restoration assurances regarding water supply which will be 
available for the natural system?
    That last item is particularly important because the timing 
of the project, and this is a function of the engineering and 
ecology, is such that it will be toward the mid and later point 
of the process that the major water demands for the natural 
system are going to be met.
    The concern is that if the water has been already allocated 
to other uses before you get to that point, there won't be an 
adequate amount for the natural system. So that was one of the 
reasons that this complex process was inserted into the 
legislation which Mr. Gibson had so much to do with its 
actually drafting.
    I wonder if you could comment on those three issues of 
interim goals, Department of Interior and restoration 
assurances for the natural system.
    Maybe Mr. Brownlee, then Ms. Klee and then Mr. Gibson.
    Mr. Brownlee. Yes, the programmatic regulations do provide 
for the development of interim goals. Of course, as you know 
right now, the programmatic regulations are out for public 
comment. I expect that we will get some comments in that regard 
so there is a way to wrap those into the programmatic goals. I 
expect that we will do that.
    The Department of Interior is very much involved in this 
and has been. I think it has been a very inclusive process from 
our point of view. I know that there are several points in the 
process where the Department of Interior's concurrence is 
required for us to move forward on some of these intermediate 
steps.
    So the perception of the Corps is that it is very inclusive 
and they are very much involved and they are a very important 
partner on this and we rely on them greatly. I hope that is 
their perception also.
    The committee mentioned in its legislation that they 
expected about an 80-20 breakdown of the water, 80 to the 
restoration and 20 for other purposes. I can only tell you that 
the programmatic regulations reflect and everything I have 
heard from the Corps indicates that the Army is committed to 
providing the amount of water required for restoration. We 
realize that that is the overarching goal. The Corps is headed 
that way. Whether or not it will be slightly above or slightly 
below 80 percent, I wouldn't state categorically.
    But I would state very clearly that the Corps is committed 
to providing the amount of water required for restoration.
    Senator Graham. There was a rationale behind the 80-20 
numbers that were inserted in the original legislation. I think 
it is important that the Corps be sensitive to that and if 
there is reason that 80-20 should not be, for planning 
purposes, a goal of water allocation, I would like to get a 
report back from the Corps as to why they think that those 
numbers are not appropriate.
    Mr. Brownlee. This morning I would tell you, sir, they seem 
to be very appropriate. I am not suggesting in any way that 
they are not. I am only suggesting that I don't know if we will 
hit right on 80, but as a planning goal, I think they are 
perfectly appropriate.
    Senator Graham. Thank you.
    Ms. Klee.
    Ms. Klee. Senator, we worked very closely with the Corps in 
developing the process for how interim goals would be addressed 
in the programmatic regulations and we are supportive of that 
approach.
    What the programmatic regulations envision is that the 
Department of Interior and the State will actually jointly 
establish those interim goals with the Corps of Engineers. 
Because they are not included in this document, but rather will 
be developed over the next year, that will enable our 
scientists to take advantage of the latest and best available 
science.
    Another additional change that was made that we feel is 
very positive is a very clear expression that the interim goals 
will not only be based on hydrologic indicators, but also 
ecological responses. Therefore, they will be an accurate and 
meaningful way for us to evaluate whether or not the 
restoration effort is achieving the restoration and ecosystem 
benefits that we anticipate.
    So we are supportive of how the programmatic regulations 
address that issue.
    With respect to the role of Interior, we also worked very 
closely with Corps to ensure that we would have the ability to 
ensure accountability for the restoration of natural resources 
in south Florida. We are a key player on RECOVER. In fact, we 
are a co-chair of four of the sub-teams and we are on the 
leadership team as well.
    We have developed a very good collaborative relationship 
with the State, the District and the Corps, and feel that we 
will be able to play a very meaningful role there. Again, as 
Mr. Brownlee mentioned, we also have a concurrence role on the 
six guidance documents that will be developed to establish the 
more detailed framework for implementation of the CERP.
    So, again we think on that issue that we will continue to 
play a very important role in implementing CERP down the road.
    Mr. Gibson. Again, I concur with my colleagues. I think the 
Army Corps did a very good job on the programmatics of 
incorporating interim goals and making sure the two principal 
trustees, the State of Florida and the Department of Interior 
have the same role in the development of the interim goals as 
they do on the programmatic themselves. It is all tied back 
together.
    It is important that the programmatics are issued on time 
and the programmatics will be issued on time and also to give 
ourselves the time to develop the right interim goals. So I 
think the Corps has done a very good job there.
    EPA's particular interest is water quality, not our only 
interest, but a large interest is in water quality. Again, the 
programmatics answer the mail on water quality. They put them 
where they belong as part of the project implementation 
reports, its requirement that the water quality issues be 
addressed in the PIR right up front.
    As Ms. Klee mentioned, for the Interior Department, EPA is 
also a member of really important teams that are going to help 
develop the interim goals and monitor project progress. So we 
are strong supporters of the programmatics the Army Corps has 
developed. We think they are on the right track.
    Senator Graham. We are going to have to move on to the next 
panel. I want to express my appreciation for your very helpful 
contribution to the status of the project report today. Some of 
my colleagues, as well as myself, might wish to submit 
questions to you subsequently. I would hope that you would be 
able to respond to those should they been submitted.
    Thank you very much for your contribution today.
    Senator Graham. Would the third panel please come forward? 
On our third panel, Chairman Billy Cypress of the Miccosukee 
Tribe of Indians was unavoidably unable to attend today. He 
will be represented by Mr. Dexter Lehtinen who is the General 
Counsel for the Miccosukee Indian Tribe. Mr. Lehtinen is here.
    I will introduce the members of this panel and then call on 
them in the order in which they are introduced for their 
opening statement. First, Mr. David Struhs who is the Secretary 
of the Florida Department of Environmental Protection. Welcome, 
David.
    Mr. Dexter Lehtinen representatives the Miccosukee Tribe of 
Indians. Thank you, Dexter.
    Patricia A. Power, the Seminole Tribe of Florida. Thank 
you, Ms. Power.
    Mr. Roman Gastesi who is the Water Resource Manager for 
Miami-Dade County. I understood there was a possibility that 
Mayor Penelas might be with us today. If so, I wanted to 
recognize him.
    Mr. Gastesi. Sir, he couldn't make it. He is very busy down 
in Miami right now.
    Senator Graham. We have a few other issues going on in Dade 
County.
    Mr. Gastesi. Please don't ask me about those things.
    Senator Graham. I would not ask you. The Everglades is a 
relatively simple project compared to that.
    Mr. Struhs?

  STATEMENT OF DAVID STRUHS, SECRETARY, FLORIDA DEPARTMENT OF 
                    ENVIRONMENTAL PROTECTION

    Mr. Struhs. Thank you so much, Senator. It is a true honor 
to be here before you and representing our Governor Jeb Bush 
and the State of Florida, your full and equal partner in this 
endeavor.
    I am delighted to be joined this morning by the chairman of 
the South Florida Water Management District, Ms. Trudi Williams 
who is right behind me here. Trudi and I come bearing news, we 
think actually some pretty amazing news.
    Here we are only 18 months into a 30-year program and we 
have already acquired 75 percent of the land needed to build 
the ten authorized projects. Eighteen months into a 30-year 
project and we have secured a proven funding plan to pay our 
half of the multi-billion dollar bill for the first decade of 
the program.
    As has been mentioned earlier, we have already signed the 
legally binding agreement that requires Florida to reserve 
water for the environment before Federal dollars are released.
    Just recently we have finally put in place and adopted the 
dispute resolution plan required in WRDA 2000 to make sure that 
problems are resolved quickly so this great progress is not 
interrupted.
    The invitation you sent clearly said focus not just on this 
great progress, but also to focus on issues of process. I think 
that is very appropriate. There is, in fact, nothing 
conventional about the Everglades and that is certainly true 
when it comes to the process.
    In Florida we are learning a whole new way of doing 
business, trying to figure out how we are going to better fit 
into established Federal procedures and at the same time the 
Federal agencies have been very cooperative working with us to 
figure out how they are going to be able to integrate 
themselves into our processes, recognizing that neither one of 
us can move forward without the other. That is a fascinating 
process for a student of government.
    At this point the process that we have engaged in is having 
the Federal Government, the Federal agencies and the State of 
Florida developing the customs, the relationships and writing 
the rules that will make sure that what we describe as our full 
and equal partnership will in fact be practical and 
sustainable.
    We are asking questions like how will the Corps of 
Engineers actually know when Florida legally reserves water for 
the environment? How will the Federal resource agencies at the 
Department of Interior actually be consulted to make sure that 
we are getting the ecological restoration we all want? And how 
do parties get involved in making those adaptive management 
decisions?
    We all recognize that in the real world, and happily so, 
the most common answer to those questions is by picking up the 
phone or talking to each other because as partners in business 
do together, they make decisions by talking with one another. 
In fact, our goal is really nothing more or nothing less than 
just that.
    As we set about writing rules, though, to prescribe that 
kind of behavior, I think we need to be mindful of two things. 
That is, and I think we are and the Corps certainly has 
exhibited this, you typically write rules not for the usual 
scenario, the common scenario where everybody agrees, but you 
write it for those exceptional situations where in fact there 
is a difference of opinion.
    It is a daunting task because we all recognize it, in fact 
the thorniest problems of the future are the ones that we can't 
predict today. That is one of the reasons we are pleased that 
that dispute resolution agreement is now in place.
    Second, while we are consumed right at the moment with this 
issue of integrating our laws and policies and decisionmaking 
processes, we can't let that distract us from the fact that 
never before have so many diverse interests across governments, 
across agencies been so committed to a common environmental 
goal.
    We really give the Congress, particularly this committee, 
Senator Graham, the credit for accomplishing that. The Water 
Resource Development Act of 2000 clearly, clearly lays out the 
expectations that agencies must collaborate in decisionmaking.
    The committee and the Senate and the House together also 
recognize in WRDA 2000 that ultimately, if you are going to 
have accountability that the ultimate decisionmaking authority 
needs to rest with a single agent, a single voice, one for the 
United States and one for the State of Florida.
    We recognize, given some recent experiences that you are 
all familiar with that to do otherwise can actually put 
restoration at risk.
    As it relates to the procedural regulations as proposed, it 
is clear that the Corps of Engineers has in a number of 
instances gone a little bit beyond what WRDA 2000 anticipated. 
For example, requiring the concurrence of two different Federal 
agencies on six different guidance memorandum, memorializing 
the predominant role of the Federal resource agencies over 
other interests in the RECOVER program and establishing things 
like the pre-CERP water baseline and actually getting that put 
into the programmatic regs.
    Those things are slightly beyond what I think WRDA 
anticipated and yet we think that they were done for the right 
reasons and the State of Florida can in fact support the rule 
as it is currently proposed.
    We would urge, however, that the Corps make no additional 
changes that might move the procedural regulations further away 
from what we think was the carefully balanced and well-
considered WRDA 2000 statute.
    In fact, when President Clinton signed that bill less than 
2 years ago, all of us were there to cheer. I think in part 
what we are seeing now some almost 2 years later is a little 
bit of buyer's remorse. It is different interests looking 
backwards and suggesting, well, if only we could tweak the law 
or perhaps through regulation advance ideas that didn't quite 
make it into statute.
    We would try to resist that because it could in fact lead 
to the unraveling of this very broad and diverse coalition of 
interests that made CERP possible to begin with.
    I think it is important to remember that this is not the 
old-fashioned zero sum game of the world where we have winners 
and losers, that this restoration plan is different, it is 
holistic, provides water for both nature and people and it does 
so without artificially subsidizing water supplies.
    The buzz words, ``sustainable development'' have been ill-
defined for these last 10 years. This in fact may be the 
defining project as to what sustainable development really is 
all about. In fact, if you were to design a project exclusively 
for water supply in South Florida, it would look an awful lot 
like CERP.
    If you were to design a project only for environmental 
restoration in South Florida, it would look an awful lot like 
CERP. In fact, it is in fact the same program. The very water 
that will re-hydrate the Everglades also replenish the well 
fields.
    Most important, I think to this committee, this plan is 
built on an enforceable legal foundation. I know the way we 
like to think about it is while only half of the original 
Everglades ecosystem remains, the amount of rain that falls on 
South Florida is essentially unchanged. If you were to push all 
of that water into only half of what is left of the Everglades, 
you would actually drown it.
    The restoration plan in CERP recognizes this. The water 
that is currently flushed out to sea via canals will be 
recaptured. It will be reserved to ensure the right quantity, 
timing and distribution to the ecosystem. But if you were to 
force all of the water into the Everglades it would clearly be 
too much of a good thing.
    Finally, and the last point I would like to make as it 
relates to subsidizing water supplies, that is a charge against 
CERP that is wrong at several levels. We must remember, of 
course, that the Federal Government was in fact our full and 
equal partner generations ago when we began draining and 
destroying the Everglades. The fact that the Federal Government 
today is still a full and equal partner in fixing the problem 
in no way represents a Federal subsidy for water supply. It is 
just fixing a problem.
    Second, Florida's plan for funding our half of the project, 
and we are proud of the way we have done it with smart money 
management and without raising taxes. But nonetheless, it is 
based on a proven funding plan that allows growth, actually 
allows growth to pay for the environmental restoration, not the 
other way around.
    Finally, the restoration plan is all about capturing water 
that today is artificially lost to the sea and putting it back 
into the Everglades ecosystem. The plan clearly does not 
subsidize the infrastructure costs, the pumps, the pipes, the 
treatment facilities that make up the water supply service. 
Those costs appropriately will be and should be borne by the 
water consumer.
    Finally, the Comprehensive Everglades Restoration Plan that 
was passed out of this committee is in fact the defining 
environmental legacy of our generation and we recognize that. 
As your partner, please understand Florida's commitment to 
assuring that the plan in fact remains comprehensive, that it 
remains about restoration, we think we have that common goal.
    Thank you very much. I look forward to your questions.
    Senator Graham. Thank you, David.
    Mr. Lehtinen?

    STATEMENT OF DEXTER LEHTINEN, ESQUIRE, GENERAL COUNSEL, 
                MICCOSUKEE TRIBE, MIAMI, FLORIDA

    Mr. Lehtinen. Thank you, Mr. Chairman.
    Senator and committee members, Miccosukee Tribe members--
who are the only people to live in the Everglades and have 
adopted Clean Water Act water quality standards for the 
Everglades--want to emphasize that Everglades restoration needs 
to go forward despite what criticisms we have of immediate 
implementation.
    The priority should be on keeping the congressional 
commitment for restoration. WRDA 2000 was a quality, positive 
act, but the tribe does have problems with implementation since 
that time. Consider, for example, that in the last year alone 
on four different occasions in four different cases Federal 
courts have found government action in the Everglades to be 
unlawful. For example, in February 2002, a Federal court found 
that the Corps of Engineers had acted arbitrarily and 
capriciously on this interim operational plan for the Cape 
Sable Seaside Sparrow on some provide years.
    We think inherent in the future the Cape Sable Seaside 
Sparrow issues are the same problems that were found then. 
Also, in just this month the Federal court found, the Court of 
Appeals, that the Southern Everglades Restoration Alliance, 
which is a methodology of Federal and State agencies meeting to 
reach agreement on some Everglades issues was an illegal 
approach and in violation of the Federal Advisory Committee 
Act.
    This is relevant to the future because some of those 
decisions are still having reverberations now, but particularly 
recover in the programmatic regulations, we think, is subject 
to the same problem of unlawful delegation and improper 
policymaking that the Court of Appeals found this month.
    In July 2002 a Federal District Court found that the Corps 
of Engineers was not following the law with respect to 
implementation of the Mod Water Deliveries Act. In February 
2002, the Court of Appeals upheld a District Court finding that 
the State of Florida was illegally polluting the Everglades 
under Clean Water Act. That is the S-9 structure case, a Clean 
Water Act case.
    Now, one of those, of course, the Senate has taken action 
to ``correct'' that, but the tribe believes that action the 
Senate took last week to authorize the deviation from the 
existing modified water delivery law by the Corps simply sends 
the Corps the message. Whatever the merits, it sends the Corps 
the message that when you disregard the law for year after year 
after year there will be no consequence. Generally there is no 
consequence to any court finding government agency action to be 
illegal.
    Of particular importance is this interim operational plan 
in which we find agencies no longer committed to getting the 
water right. CERP hypothesizes that if you get water quality 
and water quantity right that you will restore the Everglades, 
getting the water right.
    Instead, and our charts are attached to the written 
testimony, which I guess should now be submitted in my name, 
show that as we all know the central and south Florida plan had 
north of Tamiami Trail increased water levels beyond natural 
level. That was a bad thing.
    South of Tamiami Trail, because of the blockage of the 
road, water levels in the western Everglades were below the 
natural levels. Our goal is to get them back to the natural 
levels. But future plans tomorrow, the Federal Government 
intends to move water levels north of Tamiami Trail even higher 
further away from natural levels than C&SF.
    South of the trail, even lower than the C&SF project had 
pushed them, even further away from the natural system model. 
This is, of course, so far away from our stated goals that the 
Fish and Wildlife Service has degenerated to saying that the 
natural system model on which the entire CERP plan is based 
can't be relied on when they don't like it. It can be relied on 
for most of the Everglades, but where their action is found to 
be moving away from restoration, then they say, well, let's 
disregard natural system model then.
    The problem the public will have with this is how can we 
ever control agencies if they are able to say, well, our goal 
with respect to a particular sub-species or our less than 
restoration goal, whether mandated by some law, the ESA, 
Endangered Species Act or not, but that their goal for some 
reason takes them away from natural levels, then the public and 
the tribe can have no confidence in those natural levels.
    One other thing, Judge Hubler, in a Federal case in 
Florida, not one of those I have listed so far, is holding 
hearings next week on the problems that may exist with respect 
to whether the State can actually reach its long-term deadlines 
of 2006 with respect to water quality. Those are considered to 
be pre-CERP goals that are assumed to be in place under CERP.
    In conclusion then, the tribe feels that we need to have 
tough love in the Everglades. We need to be committed to the 
right water level and the right quality and other biological 
conditions in the Everglades will follow from water level, 
hydroperiod restoration and water quality restoration.
    If we deviate from hydroperiod and water quality for short 
term sub-goals, then we will never get back to a hydroperiod in 
water quality. If somebody likes the unnatural conditions 
because the unnatural conditions are better for some species or 
some bird than natural, when you restore natural conditions, 
something that likes the unnatural conditions better will have 
to have some adjustments.
    So the tribe urges us to go to natural levels and natural 
quality and stick with those even if along the way there are a 
few short-term so-called negative consequences on some 
biological indicators.
    Thank you.
    Senator Graham. Thank you very much.
    Ms. Power?

   STATEMENT OF PATRICIA A. POWER, SEMINOLE TRIBE OF FLORIDA

    Ms. Power. Good morning, Senator Graham, Senator Voinovich. 
It is an honor to be here this morning to talk with you about 
Everglades restoration on behalf of the Seminole Tribe of 
Florida.
    We applaud the committee for bringing together a 
representative group of stakeholders to update you on CERP 
implementation. A consensus-based, balanced approach to CERP 
implementation will create the best prospect for successful 
restoration of the natural system while maintaining stability 
in flood control and water supply for south Florida.
    At the critical project groundbreaking ceremony on the Big 
Cypress Reservation this past January ribal leaders expressed 
their concerns about the current condition of the land and the 
water on the reservations, especially as compared to what they 
recalled from childhood. They spoke of the cypress and saw 
grass, rains and fires and wide open skies.
    They also spoke of the hardships caused by flooding and 
unreliable water supply. While acknowledging the tradeoffs, 
they cautioned against losing any more of their environmental 
culture and applauded restoration activities. Without CERP, as 
modified through the adaptive management process over the 
years, the tribe believes that the ecosystem will not be able 
to support either the natural or the built system.
    The tribe views the natural and built systems as 
intricately linked. As CERP projects are constructed and become 
operational the pressure from the built system on the natural 
system will be reduced.
    The tribe's greatest concern about CERP implementation is 
that it is done with balance. Lack of balance is the cause of 
the problems that CERP is directed to correct. The C&SF Project 
so efficiently met its goals of flood protection and water 
supply that it created an environmental crisis.
    As damage to the natural environment became evident, all 
entities began to recognize the interdependence of the natural 
system and the built environment. CERP acknowledges that while 
restoration of the environment is paramount, the other related 
water needs of the region as addressed by the C&SF project must 
be provided for as well.
    The success of CERP implementation to date results from the 
emphasis on obtaining input from a wide array of stakeholders 
and recognizing the importance of addressing natural and human 
water needs in a balanced way.
    Keeping all stakeholders committed to CERP will require 
careful project sequencing to guarantee that the benefits of 
the projects are equitably distributed over time and space, 
while ensuring that measurable benefits are produced in a 
reasonable time period.
    Careful scientific analysis completed through adaptive 
assessment will need to support well-informed policy decisions 
to accomplish productive adaptive management, all of which 
requires active participation by a broad cross-section of 
stakeholders.
    Modeling efforts as the basis for both prospective planning 
and retrospective monitoring and analysis must reflect that all 
components of the ecosystem, the natural system and the built 
environment are interdependent.
    The pace of both the Federal and State funding along with 
the tribe's funding on the Big Cypress Critical Project, the 
execution of the historic President-Governor agreement 
guaranteeing benefits to the natural system and the proposed 
programmatic regulations all indicate good process toward the 
end goals of CERP, in the tribe's opinion.
    The tribe notes the Corps' exemplary outreach efforts while 
developing the programmatic regulations. The Corps, along with 
the Task Force and the Department of Interior, worked very hard 
to ensure that the tribe had ample notice and opportunity to 
review, discuss and comment on the regulations.
    The tribe believes that it is critically important to 
clearly define policy versus technical decisions and to clearly 
assign responsibility and accountability for each.
    It is crucial also that the policy level consensus building 
be conducted in public with input from the public. For example, 
the project delivery teams, with the assistance of RECOVER, 
will formulate project alternatives to be selected for the PIR. 
The tribe believes that selecting the final alternative is a 
policy level decision. Therefore, the tribe recommends that the 
Task Force review the alternatives and make a recommendation to 
the project's managers.
    The tribe further believes that the regulations must 
address the issue of source switching as mandated by WRDA 2000. 
This requirement is unique to CERP and there is no historic 
counterpart in Florida law to guide how this process will 
occur. As a result, this issue has the potential to become a 
roadblock to CERP implementation until clear guiding principles 
for developing how and when the source switching will take 
place are established.
    While it may be too early in CERP implementation to define 
this process, at a minimum the regulations need to provide a 
framework for determining what constitutes an existing legal 
source. The tribe is working on language to be submitted to the 
Corps on this issue.
    Finally, the tribe supports the Corps setting interim goals 
in the regulation for restoration benefits and targets for 
other water-related goals. We urge that these measures, while 
analyzed separately, be done with similar procedures and 
weight. This is crucial if we are to maintain the balance that 
is so important to a successful CERP implementation.
    Thank you for listening to the concerns of the Seminole 
Tribe of Florida. I would be happy to answer any questions.
    Senator Graham. Thank you, Ms. Power.
    Mr. Gastesi?

  STATEMENT OF ROMAN GASTESI, FEDERAL COORDINATOR, MIAMI-DADE 
      COUNTY, OFFICE OF THE COUNTY MANAGER, MIAMI, FLORIDA

    Mr. Gastesi. Mr. Chair, member of the committee, thank you 
for the opportunity to comment on the CERP, especially, Senator 
Graham, for your diligence and passionate work on the 
Everglades has helped make the CERP a reality.
    Miami-Dade County would like to also recognize the efforts 
of this committee and of the South Florida Ecosystem 
Restoration Task Force for its coordination of the facilitation 
role.
    My name is Roman Gastesi and I am the Water Resources 
Manager for Miami-Dade County and also a member of the South 
Florida Ecosystem Restoration Task Force, as a working group 
member.
    Miami-Dade County is strongly committed to the CERP, so 
committed that Mayor Alex Penelas and County Manager Steve 
Shiver established the Office of Water Management in the County 
Manager's Office to ensure that the county's active 
participation and dedication of resources to the plan's 
implementation.
    The county recognizes that preserving the delicate balance 
between our environment, the urban areas and the agriculture is 
critical to all of south Florida. The long-term success of CERP 
relies on all interested parties working together within a 
comprehensive and inclusive process.
    The region consists of 16 counties, 150 municipalities, two 
Indian tribes, a multitude of State and Federal agencies, 
public and private utilities and agricultural and environmental 
interests.
    The county acknowledges the need to work together, 
coordinate efforts and come to a reasonable compromise to 
ensure that this vitally important project becomes a reality. 
Our policy body, the Board of Country Commissioners, has 
consistently expressed its commitment to the Everglades. For 
example, on November 20, 2001, the Commissioners approved a 
resolution recognizing that protecting and restoring, and I 
will quote, ``The valuable, unique, irreplaceable resources of 
the Everglades'' is in the best interests of the county and 
reaffirmed Miami-Dade Country's commitment to work in 
partnership with the Federal Government, the State of Florida 
and all other public and private interests.
    The county supports the fundamental concept of adaptive 
management which has been adopted for the implementation of 
this plan as part of an effort to achieve a balance of benefits 
as restoration progresses. Finding this balance while 
implementing the plan is the biggest challenge.
    Some of the restoration efforts, including increased canal 
and groundwater levels have the potential to negatively impact 
flood protection. Conversely, some flood mitigation projects, 
including lowering canal and groundwater levels, have the 
potential to negatively impact the health of our natural 
systems.
    Using the adaptive management approach will allow for 
continuous refinements as the CERP progresses. We are very 
encouraged by the progress made in recent years and have 
submitted written comments. I won't list them all, just in the 
interest of time.
    But we are especially encouraged by the work of the Army 
Corps of Engineers in providing early outlines and initial 
draft of the programmatic regs to ensure stakeholder 
participation. As this comment period for the proposed 
regulations draws to a close, the Corps continues to provide 
presentations on the subject at numerous meetings. In fact, 
they were in Miami this past Tuesday.
    While we continue to evaluate the proposed rule, the effort 
to address stakeholder concerns is obvious. We really 
appreciate that.
    Miami-Dade County is currently embarking on a landmark 
watershed plan that will utilize innovative land use tools in 
the final, undeveloped frontier of South Miami-Dade County, to 
ensure successful implementation of water management operations 
and capital improvements to be carried out through CERP.
    In closing, although some of the critics may focus on 
uncertainties and delays, we do not believe these are reasons 
to abandon our commitment to preserving and restoring this 
national treasure. We must not succumb to the will of the nay-
sayers. Nobody said it was going to be easy.
    Instead of dwelling on problems, we must maintain patience 
and courage to work through the challenges and come up with 
solutions. The consequences of not moving forward are great. We 
simply must continue to work together and move forward. The 
health of the natural system is directly linked to the health 
of the people and the ecosystem of Florida and the Nation.
    Thank you.
    Senator Graham. Thank you very much, sir.
    We will have a 5-minute questioning period.
    Mr. Struhs, I am concerned about the process which will be 
used or could be used to modify a water reservation after it 
has become part of a congressional authorization.
    Could you describe the circumstances under which you would 
anticipate that such a modification would be required?
    Mr. Struhs. I can. I can imagine a situation in which a 
component of CERP, a particular project in CERP is constructed 
and as the water needs are identified in the PIR, the State 
would then reserve the water at the required amount that would 
then be mutually agreed upon through the PCA process. The 
project would be built and indeed the water would be delivered 
as designed to the natural system.
    I could imagine a situation then where some years later, as 
other project components were to come on line, you would find 
other and better sources of water to meet a particular 
environmental, ecological need. As the new sources of water 
became available in the future, you would specifically want to 
back out of some of the water that was first reserved in the 
earlier completed project. That would be one scenario in which 
the adjustment of reservations could be an important part of 
actually achieving our restoration objectives.
    I think some of the concerns that surround this issue, 
though, frankly, are not related to the example that I just 
gave but are really more a fear of what happens if a future 
generation were to walk away from the ultimate restoration 
objectives of what you have all put into Federal law.
    We share that concern, but we are confident. We are 
confident that the way the law is constructed both at the State 
and Federal level, as well as the programmatic regulations as 
proposed before you today, actually put in plenty of safeguards 
to make sure that the reservations would never be changed in 
the future to the point where they would undermine or dilute 
the objectives of CERP.
    The programmatic regs as proposed allow changes to water 
reservations as identified in the PIRs only if mutually agreed 
upon by both the State and Federal Government. Obviously, the 
reservation process is one that is governed by State law, but 
as you know, having been Governor of our State, there are 
multiple points of entry for public review and challenge within 
the Florida law context.
    Above and beyond that, Congress obviously has multiple 
means of ensuring that the reservations are both adequate and 
that they are lasting for perpetuity. Clearly, the ability of 
the Congress to affect this through future authorizations and 
project components and future appropriations is very 
meaningful.
    The other thing I would point out is that the commitment to 
the 50-50 cost share on operation and maintenance is an ongoing 
future appropriations process by which the Federal Government 
and the Congress in particular, would have a specific 
controlling link, as well as other legislative direction that 
you can routinely provide the Corps through the normal budget 
process.
    The upfront agreement signed by the President and Governor 
is a lasting, enforceable agreement in Federal court. I guess 
that is the final and ultimate backstop, that if anybody in the 
future were to suggest that some alternation to a reservation 
well into the future diluted or minimized the project's 
authorized purpose, ultimately that could be pursued in Federal 
court.
    So I think for those who are concerned about the worst case 
analysis, I think the fears are a little bit overwrought. I 
think the more practical effects are the ones that I described 
earlier, which is minor adjustments to reservations to make 
sure that in fact the system is being optimized to best achieve 
our restoration goals.
    Senator Graham. Thank you, David.
    I only have a few seconds left, so I am going to ask my 
final question to Mr. Gastesi.
    What role do you see the county playing in implementing the 
6-D alternative which Mr. Lehtinen referred to in his comments 
for the eight and a half square mile area?
    Mr. Gastesi. Sir, recently we passed a resolution, frankly, 
putting $2 million on the table for the willing seller program, 
trying to get folks in the mitigation area. That is the area 
between the two levies that want to be bought out, to have some 
money on the table.
    The idea was to put $2 million and the district would also 
match that for an additional $2 million and then the Federal 
Government was going to match the $4 for a total of $8 million. 
We found some dollars for that purpose.
    Senator Graham. My 5 minutes is up.
    Senator Voinovich?
    Senator Voinovich. Thank you, Mr. Chairman.
    Mr. Struhs, welcome.
    Mr. Struhs. Thank you, Senator.
    Senator Voinovich. Your testimony states that the 
relationship between the Federal Government and Florida is very 
important. What challenges have arisen in Florida's efforts to 
ensure that type of collaboration? I am really interested in, 
are there some areas, do you think, where that relationship can 
be improved?
    Mr. Struhs. Yes, sir. I have to tell you that the 
relationships that already existed and have only grown and 
expanded these last 18 months have continued to delight all of 
us. We have had extraordinary collaborative partnerships with 
all the Federal agencies and really don't have a single 
complaint.
    To the extent I would express some reservation looking 
forward, it would be that we not become so focused on 
anticipating every potential problem that might ever arise in 
the future over the next 30 years, that we get so tied up 
writing detailed proscriptive, very specific rules, that that 
process in and of itself could become the distraction from what 
we all agree in the end we need to accomplish. I think that is 
just going to require leadership from the top and obvious 
leadership from this committee. Our guidance to ourselves to 
make sure we stay on the right track is to always go back to 
the landmark legislation that you all were so instrumental in 
passing and ultimately was enacted by President Clinton.
    I think as long as we return to those instructions we will 
do well.
    Senator Voinovich. Do you think that the regulations they 
proposed are a little too proscriptive and might lead to what 
you are talking about?
    Mr. Struhs. The State of Florida is happy and supportive of 
the procedural regulations as currently proposed by the Army 
Corps of Engineers. We identified not in the testimony some 
examples where I think they perhaps went a bit further in being 
more inclusive and more expansive than might have been 
originally anticipated in WRDA. But again, we think they did 
that for all the right reasons and the intentions were good.
    The fact of the matter is that on the ground, at the 
working level, it is working well. So we are comfortable with 
the approach they have taken. We just urge that no sort of 
additional excursions be built into the regs that might move us 
far afield from what we think was a very well-balanced, well-
written piece of legislation.
    Senator Voinovich. You are talking about the fact that you 
acquired 75 percent of the land. Has the Federal participation 
in that been what it should be?
    Mr. Struhs. Yes, sir.
    Senator Voinovich. I know that somebody mentioned another 
$15 million that has been earmarked is going to be that will 
help you get the rest of that land.
    Mr. Struhs. Yes, sir. We are very pleased with the way that 
partnership is working. Obviously, as is typically the case 
with this type of project, the upfront burden of the land 
acquisition for the footprints that are required for a project 
generally rest with the local sponsor. And in fact that is the 
case in Florida.
    But the assistance and support we have gotten from all the 
Federal agencies has been just exceptional. I would just 
clarify for the record, Senator, that the 75 percent 
acquisition achievement is for the ten projects that have been 
authorized.
    Senator Voinovich. The last one is that I would like to 
know about efforts that you are making to make sure that there 
is no further degradation of the Everglades, that you have a 
plan in place to make sure that the problem as you are 
restoring it there are other areas that seem to be, you know, 
deteriorating. Does the State have a plan on that?
    Mr. Struhs. Deterioration in the----
    Senator Voinovich. Just to make sure that in terms of land 
use planning that you are not--in terms of development--that 
you are trying to make sure that there isn't any further 
encroachment on the area.
    Mr. Struhs. We are. Obviously, the earlier question, I 
think, gets to the heart of it, which is recognizing that we 
need to move quickly to acquire the lands that are going to be 
necessary for this project. The development pressures in some 
areas are intense. Getting there first where the land is still 
affordable at a reasonable price and locking it up for the 
long-term restoration plan is in fact our goal.
    The other thing I would point out, Senator, is that in 
terms of the issue of degradation one of the things that is not 
necessarily a part of this discussion here, but I think is very 
important and related, is the issue of water quality.
    What we have done is gone to extraordinary efforts to make 
sure that our regulatory responsibilities under the Clean Water 
Act and the ancillary State water quality laws is being 
integrated and incorporated into the construction and land 
buying process as well so that we don't just have a 
construction project and a land acquisition project and a water 
quality project operating on separate paths, but in fact that 
they are integrated and move forward together. I think that has 
been an important part of our success.
    Senator Graham. Thank you, Senator. As I indicated to the 
previous panel, there may be questions from our colleagues or 
Senator Voinovich or I wish to submit. If we do so, I would 
appreciate your response.
    Thank you very much for your contribution to our hearing.
    Would the final panel please come forward? The next panel 
will be Ms. Mary Ann Gosa, the Assistant Director of Government 
Affairs for the Florida Farm Bureau and Ms. Shannon Estenoz, 
the Director of the World Wildlife Fund.
    In the order on the introduction, Ms. Gosa?

 STATEMENT OF MARY ANN GOSA, ASSISTANT DIRECTOR OF GOVERNMENT 
       AFFAIRS, FLORIDA FARM BUREAU, GAINESVILLE, FLORIDA

    Ms. Gosa. Good morning.
    Senator Graham. Good morning.
    Ms. Gosa. I am Mary Ann Gosa. I am with Florida Farm 
Bureau. We are a general farm organization and we represent all 
commodities throughout the State. We have 146,000 member-
families and on their behalf I really appreciate the 
opportunity to come and talk with you today.
    Let me start by saying that the progress and the success of 
the CERP, Comprehensive Everglades Restoration Plan, is 
essential, not only to the Everglades, but also to our millions 
of residents and, of course, agriculture. For our farmers, it 
is their land, it is their water and their financial resources 
that are at stake.
    Without the additional water provided by CERP projects, the 
future of our ecosystems, water for domestic purposes and 
agriculture's ability to survive is uncertain at best. We have 
been involved in these issues since the development of this 
plan began. We have found the Corps' public process to be open 
and accessible and provided an opportunity for all who are 
interested to provide input.
    As a result, we feel that WRDA 2000 is sound, it is 
implementable, and we continue to support it now just as 
strongly as we did in 2000.
    However, our support of this legislation is accompanied by 
a few concerns with its implementation. In the interest of time 
I am only going to touch on a few of these. My written 
statement includes others.
    A fundamental requirement in the CERP authorization is that 
the planning of future components is to addressed ecological 
and economic water uses in the region in a balanced way. For 
the plan to continue to maintain the broad political support, 
this principle must be honored throughout implementation.
    Now, one of the major milestones in the implementation of 
CERP will be the publication of programmatic regulations. 
Congress clearly and explicitly limited programmatic 
regulations to process matters. The Corps of Engineers has 
followed Congress's intent.
    The most important process, in our view, is the one that 
will guide plan formulation for CERP components. Success of 
CERP depends on a systematic planning process that will ensure 
the components are cost effective and produce benefits as they 
are completed.
    Also, the matter of how interim goals should be addressed 
has been a contentious one. We believe that interim goals 
should flow from the plan formulation process. We are concerned 
that any process that attempts to establish these interim goals 
in advance of the feasibility studies may drive development of 
project components that are not cost effective.
    The proposed programmatic regulations outline a process for 
establishing targets for evaluating progress toward achieving 
other water-related needs. Such targets are important to ensure 
that the balanced purposes of this plan are met and to assure 
full accountability during implementation.
    We also commend the Corps for responding to our concerns in 
that area.
    Now, I want to make one final comment and this is with 
regard to the role of the Department of Interior. The 
agriculture community support the CERP as a project to be 
implemented under the Civil Works Program under the Department 
of the Army.
    Authority and responsibility must rest with the Secretary 
of the Army and their local partner, the South Florida Water 
Management District. Any diffusion of that responsibility 
weakens accountability and creates a potential for indecision 
and delay.
    In summary, Title VI of WRDA 2000 is well-constructed 
legislation. It provides a framework for the responsible 
implementation of the Comprehensive Everglades Restoration 
Plan. The agencies should continue to proceed with the WRDA 
2000 charter.
    We pledge our continued support and willingness to work 
with all the stakeholders to ensure that all of south Florida's 
water needs are met in a timely and cost effective manner.
    Thank you. I will be glad to answer questions at the 
appropriate time.
    Senator Graham. Thank you.
    Ms. Estenoz?

  STATEMENT OF SHANNON ESTENOZ, DIRECTOR, WORLD WILDLIFE FUND

    Ms. Estenoz. Good morning. Mr. Chairman, Senator Voinovich, 
my name is Shannon Estenoz and I am the Director of World 
Wildlife Fund's Everglades Program. I am also the National Co-
chair of the Everglades Coalition.
    I want to thank the committee for the opportunity to 
address you today. I am pleased and proud to say that I do so 
on behalf of a unified Everglades conservation community. I 
want to thank the committee for its keen interest in this 
ecosystem and its restoration.
    In particular, I want to thank Senator Bob Graham for his 
leadership, Senator Bob Smith for the extraordinary leadership 
he has shown in moving this forward. Thank you to Senator 
Voinovich for his leadership as subcommittee chairman.
    I would be remiss if I didn't recognize the extraordinary 
work of the staff, the EPW staff in moving this project forward 
and to thank them for it.
    Mr. Chairman, the environmental community is unified in its 
support of a CERP implementation process that is consistent 
with the spirit and letter of WRDA 2000. the uncertainties 
associated with CERP that we have heard so much about in recent 
months and to which Senator Inhofe referred are not new. They 
are not new concerns. They are the same uncertainties that 
faced us in 1999 and in 2000. they are the same ones that we 
are convinced can be overcome as implementation moves forward.
    Uncertainties need not prevent us from acting to save the 
Everglades. We believed that in 1999 and we believe it today. 
Restoring the Everglades with CERP doesn't take miracles. It 
takes leadership and it takes clarity of purpose. Fortunately, 
this committee provided that leadership and clarity when it 
crafted WRDA 2000.
    WRDA 2000 provides the implementing agencies the tools 
necessary to overcome uncertainty and restore the Everglades. 
It is now up to the agencies to implement those tools 
accordingly.
    The assurances provisions of WRDA 2000 are intended to 
ensure that the goals and purposes of the plan are achieved. 
The cornerstone of those assurances is the programmatic 
regulations. Now the programmatic regulations are intended to 
bridge the gap between congressional intent and the day-to-day 
detailed implementation of CERP.
    But they are so much more than implementing regulations 
because they have the singular role to ensure that the Federal 
interest in this project is protected, protected in the face of 
conflicting priorities, scientific uncertainty and the need to 
continuously improve the plan.
    Now, unfortunately, the draft programmatic regulations 
don't succeed in this most fundamental respect. We believe they 
need to be substantially improved if they are to truly ensure 
that restoration benefits will be achieved. Now, we have 
identified four principles that must be reflected in the 
programmatic regs but aren't currently adequately reflected in 
the draft.
    First, the programmatic regulations don't implement the 
most fundamental requirement of WRDA 2000 to which Senator 
Voinovich referred in his opening remarks and that is that the 
overarching purpose of CERP is restoration. For example, the 
draft regulations introduce a new concept of water supply 
targets, but they don't prioritize between them and interim 
restoration goals in cases where those two come into conflict.
    Now, regulatory silence on this fundamental issue will 
leave CERP exposed to shifting priorities, shifting 
expectations in much the same way that the Modified Water 
Deliveries Project and the C-111 Projects are exposed today.
    Second, the draft regulations don't establish interim 
goals. Now, they do establish a process for developing interim 
goals, but these will reside in an outside inter-agency 
agreement and not in the regulations themselves.
    We believe that the standard by which these regulations 
should be judged is whether or not they ensure the protection 
of the natural system and that the goals and objectives of the 
plan will be reached. That is the standard we should judge them 
by. We shouldn't subject these regulations to an arbitrary 
rhetorical argument about substance or process. We should judge 
them by the standard that is in the law itself.
    We believe that these regulations can't ensure the 
protection of the natural system unless they contain interim 
goals.
    The draft regulation is not at all clear that the Corps is 
still committed to the 80 percent commitment of new water to 
the natural system. That broad planning goal needs to be 
restored to the regulations.
    Additionally, the Corps has tied the initiative set of 
interim goals to the 1999 modeling performance which we all 
know needs to be improved for the central and southern 
Everglades. In fact, the Corps demonstrated as far back as May 
in 1999 that that can be improved and at least that level of 
improvement should be reflected in the initial set of goals.
    Third, WRDA 2000 created a new role for the Department of 
Interior, a new concurrence role over the contents of the 
programmatic regulations. Yet the draft regulations only 
require the Corps and the district to give good faith 
consideration to this concurrence and allow the Corps and the 
district to act despite non-concurrence.
    We see this approach as not much more than the consulting 
role that Interior already has. Then in addition, the draft 
regulations elevate the role of the local sponsor to a role of 
leadership over issues that the statute clearly gives sole 
authority to the Secretary of the Army.
    Fourth and finally, the statute calls for the establishment 
of a science review panel and it requires that that panel 
submit a biennial report to the Congress. The deadline for the 
first report is approaching us, December 2002, and the panel 
hasn't been established yet.
    Furthermore, the programmatic regs need to specify how 
should the agencies in RECOVER interact with this panel. It 
standard give the panel a role in scientific dispute resolution 
and adaptive management.
    Mr. Chairman, the environmental committee is anxious, 
anxious to witness on-the-ground results in Everglades 
restoration. We look forward to seeing important projects like 
water preserve areas, Southern Golden Gate Estates, and in 
particular, the Indian River Lagoon feasibility study move 
forward at the earliest opportunity. We look forward to 
supporting an implementation process that gives assurances that 
restoration benefits will be achieved. We are concerns because 
the drafting process for the regulations hasn't gotten us there 
yet. It hasn't provided those assurances.
    We ask that this committee be engaged so that the Federal 
interest in this project will be protected.
    Thank you so much for this opportunity to present the 
Coalition, the Foundation and the Trust's views on these 
important issues. Thank you.
    Senator Graham. Thank you.
    Each of you commented on the role of the Department of 
Interior from somewhat different perspectives. Ms. Klee, in 
response to a question I asked her, outlined what her senses 
was of the role of the Department of Interior.
    I wonder if you could comment as to whether you are 
satisfied, dissatisfied and would have recommendations for 
changes in Ms. Klee's description of the current role of the 
Department of Interior?
    Ms. Gosa?
    Ms. Gosa. Before I could answer that, can you just remind 
me what Ms. Klee's recommendations were?
    Senator Graham. Well, I think she said, among other things, 
that the department had a position on most of the committees 
under her task force which had key decisionmaking and was a 
partner in what I believe she described as the management 
committee. What had at one point been requested, which was that 
the Corps have a more decisive role in specific decisionmaking 
on individual projects, the department does not have.
    She expressed satisfaction with the role that they 
currently occupy. Maybe you might want to reserve an answer to 
this question until you can see the transcript of what she said 
and then respond in writing.
    Ms. Gosa. That would be good, Senator, because I am not 
comfortable in responding to Ms. Klee's recommendations.
    The one thing I do want to say is that as far as Interior's 
role, we think when you are driving a plan as complicated as 
this you really need to make the decisions. The decisionmaking, 
if you cloud it up with too many bosses, then you have 
potential for delay and indecision.
    I think the State needs a head and the Federal Government 
needs a head. They have the court. They have the district and I 
think any time we add additional people into that final 
decisionmaking, then, you know, like I said before, we could 
cause more problems and delay.
    Senator Graham. Ms. Estenoz, we will supply you as well 
with a transcript of what Ms. Klee said. If you would like to 
supplement whatever you are about to say with the written 
comments, we will appreciate it.
    Ms. Estenoz. I certainly would. I appreciate that 
opportunity, Senator Graham. I think our response would be that 
we supported WRDA 2000 and we supported the roles that were 
constructed for the agencies in WRDA 2000, and in fact when 
this bill moved from the Senate to the House, the House further 
clarified that role by specifically restricting concurrence for 
Interior to a very specific set of types of issues that they 
could have concurrence over, in making it very clear that the 
Corps is ultimately accountable for carrying out the 
implementation of specific projects and that Interior clearly 
does not have concurrence over those kinds of project-specific 
issues.
    The programmatic regs, you know, both the devil and the 
promise are in the details. In our view the programmatic regs 
don't adequately reflect the structure that was actually 
established in the statute.
    I will just conclude by saying that if the Corps and the 
Water Management District can disregard the concurrence of 
Interior over even the set of issues that the statute clearly 
gives concurrence authority over, if it can just give that 
concurrence good faith consideration and then discard it, we 
don't believe that that is true to the structure that the 
statute establishes.
    Senator Graham. Both of you represent organizations of 
citizens who have interest in the Everglades. What is your 
evaluation of the degree to which you have been able to access 
the process? How open has it been to hear from you? How 
responsive to your concerns has the process, and that process 
includes all the agencies of government from the State of 
Florida to the Corps to the South Florida Water Management 
District to the Department of Interior which has some role in 
this?
    Ms. Estenoz and then Ms. Gosa.
    Ms. Estenoz. Yes, Mr. Chairman. The process has been, I 
think, extremely accessible. I certainly feel in some ways that 
I see these folks sitting behind me more often than I see my 
husband and my son. We spend a lot of time together. The Corps 
has always had a very open door process as far as we are 
concerned.
    The challenge for all of us, not just government, but NGO's 
and other stakeholders, is to reach out to those members of our 
communities that aren't professionals and don't work on this 
100 percent of the time and find a way to describe these very 
complex issues to those folks.
    That shouldn't be the sole responsibility of government in 
my view. My organization needs to find a way to communicate 
with our members and Ms. Gosa's organization needs to find a 
way to communicate effectively with hers. We are committed to 
helping government do that.
    Ms. Gosa. I would have to agree with Ms. Estenoz. I think 
this process has been very open. We have had a lot of access. 
We have had a lot of input. We have seen results in many cases.
    Not that I have been involved in a lot of these process, 
but, you know, on the Corps level and so forth, but the use of 
the Web sites and you know, being able to pull up information 
instead of waiting on the snail mail and, you know, there have 
just been a lot of innovative things that have been added to 
this process that have been very helpful and helped us in being 
able to participate in the process and provide our views and 
concerns.
    Senator Graham. I would like to take this opportunity, 
through the two of you, to compliment the large number of non-
governmental organizations such as the two that you represent 
which have been so constructive in developing this legislation, 
seeing it through the enactment and now your continued interest 
as it moves into implementation.
    The chances of achieving our goal are very much enhanced by 
the level of involvement that you have demonstrated. To Ms. 
Estenoz, you may have heard earlier that I extended an 
invitation to everybody, including everybody who is here, to 
participate in next winter's Everglades Conference. I know you 
will be chairing that conference. I hope I didn't overstep my 
boundaries, but I think the conference has served as an 
important opportunity.
    In fact, Senator Voinovich attended the conference. As he 
indicated, it was held in Naples. It has been a good 
opportunity for people who are interested in the Everglades 
from a variety of perspectives to share their views and become 
better informed and motivated to take necessary action. So I 
hope you won't mind if you have a few more guests this year.
    Ms. Estenoz. Senator Graham, we would be absolutely 
delighted to host every single member of this committee at the 
18th annual conference in January. Senator Voinovich, you can 
bring Ohio weather if you like. We actually appreciate it by 
that time in January.
    Senator Voinovich. When is it in January?
    Ms. Estenoz. It is the week of January 9th. It is Thursday, 
Friday and Saturday. We would be delighted to have you.
    Senator Voinovich. Where is it being held?
    Ms. Estenoz. It is in Del Ray Beach. It is on the ocean. We 
can arrange an ocean-front room, sir, if you like.
    Senator Voinovich. Del Ray is where we spent our honeymoon 
40 years ago.
    Senator Graham. I think Ms. Voinovich ought to come, too.
    Ms. Estenoz. Yes. We know that the Everglades is its own 
best advocate. So we would be delighted to have folks come. 
Thank you.
    Senator Graham. Before I have to leave, I want to also 
thank the South Florida Water Management District which has 
been the active host of a number of Members of Congress and has 
helped to supplement the Everglades conference with a very 
educational tour of the Everglades. I hope that we can call on 
you again for the same help this year.
    I am afraid I am going to have to leave for a noon meeting. 
Senator Voinovich, it is your time to question and I will ask 
if you would take the gavel and return to the leadership that 
he provided so effectively in this effort and then conclude the 
meeting with his questions.
    Thank you very much and thank you to all who participated.
    Senator Voinovich. [assuming the chair] Ms. Estenoz, as you 
know, we all work together very much on trying to make sure 
that the use of the Homestead Air Force Base will be consistent 
with the restoration of the Everglades.
    Could you bring me up to date on where you think that 
situation is? I know that the Secretary of the Army--we 
listened to the language that we had in the bill and they made 
some decisions. But where is that right now and do you 
anticipate that what will be done with that will be consistent 
with the restoration?
    Ms. Estenoz. Senator Voinovich, I may have to submit the 
answer to that question in writing. I am not as familiar with 
where we are in the process. I do know that there is a 
redevelopment plan out there. I am not quite sure where it is 
in the approval process.
    I think that Miami-Dade County and folks who are working on 
the redevelopment of Homestead Air Force Base are, I think, 
really committed to trying to come up with a redevelopment plan 
that is consistent with what we are trying to do in the 
Everglades and Biscayne National Park.
    I would say also that the county is just beginning to 
launch into a pretty massive watershed planning effort for the 
South Dade watershed. That effort is intended to look at the 
next 20 years. Part of the direction for developing that 
watershed plan is to support economic development that is 
consistent with the restoration of natural resources in the 
national parks. So we are optimistic at this point. Thank you.
    Senator Voinovich. In your testimony you say ``It is 
critically important that individual CERP projects be 
implemented expeditiously due to the encroaching urban 
development, escalation costs of delay and impending estuarian 
collapse.''
    When I asked the question to Mr. Struhs about trying to 
make sure that we don't have further encroachment, the answer 
was basically we have to buy more land. The question I have is, 
now you say that Dade County is doing this water management. Is 
there any effort at all by the surrounding communities, the 
counties, to try and put in place limitations that would 
preclude it from being used for things that are inconsistent 
with this restoration?
    Ms. Estenoz. Senator Voinovich, I think you have 
identified, you have put your finger on an issue where I think 
we have really got to turn our attention, and we haven't. That 
is linking up land use decisions, future land use decisions 
with water management planning and ecosystem restoration.
    I think everyone in Florida understands that it is 
necessary to do that, but it is how do we create those links 
that has been a challenge. We would argue that we have one of 
the most progressive land use statutes in the country. Yet it 
doesn't always get enforced. In fact, most of the time it isn't 
enforced in the way it needs to be.
    So we really look to the State of Florida to exercise its 
very important and critical oversight role over land use 
decisions. In the State of Florida it is not just up to local 
governments. The State of Florida has oversight over land use.
    Since they also have a 50-50 partnership in this project, 
those two interests should overlap. We would like to see 
stricter enforcement by the State of Florida of its growth 
management act in south Florida.
    That doesn't discount the need for land acquisition. I mean 
Secretary Struhs is absolutely right and we say that in our 
testimony, that we have to move forward and we have to move 
forward quickly. But you can't buy all the land in south 
Florida that is not developed. You can't do it.
    We have a Growth Management Act to protect those lands and 
we need to enforce it.
    Senator Voinovich. Well, Mr. Struhs is still here. I would 
like to know what laws are in place and what is the State doing 
to try and encourage land use planning and the proper use of 
that and what other things are in place, perhaps, on the county 
level that address themselves to this land use issue.
    Again, I am glad the regs are talking about the use of the 
water and that the water is going to be used to restore the 
water in the Everglades. From a very provincial point of view, 
I don't want to spend Federal money to take care of the water 
supply needs of a growing and expanding Florida. We want to 
take this water and use it to restore the Everglades.
    Ms. Gosa, you represent, you say, all the commodity groups 
in Florida?
    Ms. Gosa. No, sir. I represent the Florida Farm Bureau. All 
commodities are members. We are not specific.
    Senator Voinovich. You have all of it, the sheep, the cows, 
all the rest of them, the dairy? They all belong to the Farm 
Bureau?
    Ms. Gosa. Yes, if they grow it in Florida, they are members 
of us.
    Senator Voinovich. One of the concerns that I heard 
expressed in the last couple of years was the concern of the 
agriculture economy, from members of it, as to whether or not 
this is inconsistent with what they think is in the best 
interest of their selfish interest of their farms and their 
agriculture business.
    At this stage of the game, do you feel comfortable? You 
mentioned something in your testimony. Are we harmonizing what 
they are doing in the Everglades along with--do you feel as 
threatened as you did maybe 2 years ago or 3 years ago, let's 
put it that way.
    Ms. Gosa. I can easily say we are much more comfortable 
than we were 2 years ago. There was just a lot more 
uncertainty. I think that we have a balanced plan here. It 
really looks into other water-related needs. It is written into 
the law. It is written into programmatic regulations. So I can 
confidently say we are pretty comfortable.
    I don't think that restoration and a viable agriculture 
community are diametrically opposed. I think we can go hand in 
hand.
    Senator Voinovich. Well, that is encouraging to me because 
I know that there was some real concern about that at the time. 
You state in your testimony that the programmatic regulations 
set unrealistic deadlines. That is an interesting criticism of 
the regs.
    While a project of this scope requires time to ensure that 
it will be beneficial to people and organizations, they apply 
pressure to progress. They want to see something get done.
    In your opinion, how do you balance the uncertainty with 
goals and expectations for results? What is your suggestion on 
how that gets done?
    Ms. Gosa. Well, basically, what we are really thinking 
there is deadlines and timelines are critical. They are 
important. We like to see them, also. Our concern is we knew 
this was big when we started, but I don't think anyone had any 
idea just how big.
    I think as the different agencies have gotten into this the 
learning curve has been a lot larger than we thought. So 
basically, what we are saying is, when you have a 6-month 
deadline, you have a number of deadlines coming up that may or 
may not be attainable. We don't want the public to be looking 
at this plan as a failure because we have missed a few 
deadlines.
    It might have just been a little more ambitious because we 
didn't realize just how much was going to be entailed to get 
where we need to be to set those deadlines.
    Senator Voinovich. That is the point you are making, that 
you don't mind setting deadlines, but you are concerned that if 
they are ironclad and you need a couple more weeks or a couple 
more months to do it right, you would rather do it right rather 
than do it halfway where it wouldn't be as good as it should 
be. Is that the point you are making?
    Ms. Gosa. We want to do it right and we don't want the 
public to get a misconception that this is a dismal failure 
just because maybe we set our deadlines just a little too 
ambitiously.
    Senator Voinovich. Ms. Estenoz, you talked about the 
interim goals and making sure that we are moving along in the 
right direction so we don't get off track. Do you think through 
the regulations you are going to be able to get this coming 
together of this overall vision so that we don't go off on one 
project and in the process of doing that we end up doing harm 
to the overall effort?
    Ms. Estenoz. In the current draft, Senator Voinovich, we 
would like to see some improvements in that regard in the 
current draft. First of all, the current draft doesn't 
contemplate that when the interim goals are developed that they 
will be folded into the regs.
    We feel very strongly that the interim goals need to be 
part of the regulatory structure. I know that that may come 
across to some folks as draconian. You know, we don't want to 
lock ourselves into goals that we might not be able to meet.
    Senator Voinovich. Why don't you do me a favor? Why don't 
you explain to me, give me an example of what you are talking 
about, OK?
    Ms. Estenoz. OK. For example, if we develop some hydrologic 
targets, by the year 2010 we want to reach some hydrologic 
targets in the central Everglades and let's say those are 
expressed as frequency and duration of hydroperiod. That is an 
interim goal. We are in the process of developing those. I 
think that the regulations target that those goals will be 
completed by June of 2003, I believe. So we are close.
    Once those goals are completed and we are comfortable with 
them, we would like to see them become planning goals as part 
of the regulatory structure. In other words, we don't want them 
to reside in an outside agreement between agencies that can be 
sort of changed willy nilly. I am overstating slightly to make 
a point.
    We think that once you have decided where you are going you 
have to commit yourself. We have to get there. You shouldn't be 
able to change goals easily. You should be able to be flexible 
certainly. We think that it is completely possible to put 
planning goals inside of a regulatory structure and maybe 
flexibly enforced.
    I think an important point to remember is that State law 
contains at least one numeric planning goal for water supply 
planning and that one numeric planning goal has driven water 
supply planning since 1997. It even helped to shape the CERP. 
The reason it drove water supply planning, it has driven water 
supply planning for this long, is because it is in the statute. 
It is in the law. Agencies tend to do what is in the law first, 
particularly in times of fiscal stress or political tension. 
They do what is in the law first. They do what is in inter-
agency agreements second.
    So we feel really strong. We want to get the interim goals 
right. We don't want to run headlong and accept a bunch of 
goals that we are not comfortable with. But once we have got 
them right, they should be folded into the regulation 
structure, in our view.
    Senator Voinovich. Thank you.
    I want to thank all of you for coming here today. My 
presence here should indicate to you that I have an ongoing 
interest in this restoration. I have frankly considered it, 
thus far in my career in the Senate one of the most important 
things that I have done with my time.
    Because I put so much into it, now it is like having a baby 
and I am going to pay attention to how the baby comes along.
    I would like to let everyone know here that if you have 
some concerns that come along as we move through this, that I 
would be honored if you would personally contact my office and 
let me know of your concerns.
    I am going to be very interested. We are going to stay in 
touch with you on your concerns about the regulations. We will 
watch that very, very carefully.
    Thank you very, very much for being here today.
    The meeting is adjourned.
    [Whereupon, at 12:20 p.m., the committee was adjourned, to 
reconvene at the call of the chair.]
    [Additional statements submitted for the record follow:]
 Statement of Hon. Les Brownlee, nder Secretary of the Army and Acting 
Assistant Secretary of the Army for Civil Works, Department of the Army
    Mr. Chairman, members of the committee, I am Les Brownlee, Under 
Secretary of the Army and Acting Assistant Secretary of the Army for 
Civil Works. I am pleased to be here today and to have the opportunity 
to speak to you concerning one of the most innovative, challenging, and 
significant environmental restoration projects ever undertaken. With 
the passage of the Water Resources Development Act of 2000, Congress 
authorized the comprehensive restoration of America's Everglades. The 
Administration views this effort as vitally important and places a high 
priority on its implementation. We are working cooperatively together 
with the Department of the Interior, our colleagues from other Federal 
agencies, and with our non-Federal partners to ensure success.

Background
    The history of water in South Florida is long and complex. The 
wetlands ecosystem is one of the most unique and important in the 
world; however, after years of being impacted by human activity it 
desperately needs our help. Just over fifty years ago, Congress 
authorized the Central and Southern Florida Project. It was prompted by 
and set out to protect against the devastation and loss of life caused 
by the horrific storms and frequent flooding which at times afflict 
this area of our country. In carrying out the purposes of that 
legislation, there was an unintended and harmful impact on the natural 
ecosystem. The Army Corps of Engineers was directed by Congress in 1996 
to develop a plan to restore the natural system while maintaining the 
flood protection and water supply to the human population. That plan 
was submitted to Congress in 1999.
    As you know, the Comprehensive Everglades Restoration Plan (CERP) 
was approved by Congress in the Water Resources Development Act of 2000 
(WRDA 2000) as a ``conceptual framework'' to guide the efforts of the 
Army Corps of Engineers and its partners. It is a technically sound 
plan developed by scores of the Nation's best Everglades scientists and 
engineers, with the goal of ``getting the water right''. The CERP, 
which will be implemented over the next 30 years, will:

    <bullet>  Improve the health of over 2.4 million acres of the South 
Florida ecosystem, including the Everglades National Park;
    <bullet>  Improve the health of Lake Okeechobee;
    <bullet>  Virtually eliminate damaging freshwater releases to the 
estuaries;
    <bullet>  Improve water deliveries to Florida and Biscayne Bays;
    <bullet>  Enhance water supply and maintain flood protection; and
    <bullet>  Protect water quality.

    The CERP is the largest environmental restoration program ever 
undertaken, certainly in the United States and most likely in the 
world. It is a complex plan of interrelated projects capturing and 
delivering fresh water to the natural system. As a result of previously 
authorized projects focusing mainly on flood control, this water is 
currently being shunted quickly and deliberately to the sea without 
being used. Once captured, the majority of this unused water will be 
redirected and allowed to flow more naturally through the historic 
watershed which created the vast and amazingly vital natural ecosystem 
known as the Everglades. The remainder of this ``new'' water may be 
used to benefit the human population of South Florida, enhancing water 
supplies for cities and farmers and alleviating pressure on the natural 
system.
    Improving the quantity, quality, timing, and distribution of water 
in South Florida, while maintaining the current water supplies and 
level of flood protection, is a staggering task. The Department of the 
Army through the Army Corps of Engineers is working diligently to 
maintain the cooperation and consensus that will be necessary to 
implement this program.

Implementation
    Toward that end, WRDA 2000, not only adopted the CERP as the 
framework for implementing restoration, it added several provisions to 
guide the conduct of the program. As required by statute, the President 
and the Governor of Florida signed an agreement to ensure that the 
State would not allow consumptive use of water made available by 
projects under the Plan until such time as requirements for the 
sufficient reservations of water for the restoration of the natural 
system were codified under State law. In addition, I have recently 
signed with the Governor, a Dispute Resolution Agreement as required by 
statute, which will be used to resolve any disputes which may arise 
with the State over implementation of the Plan.
    While we do have a signed Dispute Resolution Agreement, I am happy 
to report that our working relationship with the State of Florida is 
very strong and cooperative. This relationship along with our other 
partners such as the Seminole and Miccosukee Tribes and the Department 
of the Interior, U.S. Environmental Protection Agency, and other 
agencies will be essential to the success of the program. Discussions 
with these stakeholders and several other groups were extremely 
important in the recent proposal of the Programmatic Regulations which 
are required under the statute.
    The Programmatic Regulations establish processes and procedures 
that will guide the Army Corps of Engineers and its partners in the 
implementation of CERP. The Administration is committed to finalizing 
these regulations as soon as possible after the close of the public 
comment period on the proposal. The current draft of these regulations 
is the result of exhaustive discussions with the many concerned parties 
interested in the CERP program. We believe that we have struck a 
balance between the interests and have created a process which will 
allow the Corps to move forward and adapt to challenges as they arise. 
These regulations are currently in the public comment period, which 
will end October 1st of this year. One Public Meeting was held this 
week in Florida on September 10th and a second will convene September 
19th. We will further refine the regulations based on the comments 
received and finalize the language for codification.
    In creating the requirement for these regulations, Congress 
recognized the need for flexibility in implementing such a complex 
program, which relies on scientific and engineering expertise that is 
still evolving. Environmental restoration is a relatively new concept 
and the Army does not pretend to have all the answers. Through ``the 
principles of adaptive management'' and by seeking input from many 
sources, the Army Corps will constantly evaluate, refine, and adjust 
the Plan to meet its goals.

Addressing Uncertainty
    In order to achieve the objectives of the Plan, several innovative 
techniques will be required to capture the water currently being 
diverted directly to the sea. This is not a simple process of dumping 
water into the natural system. It must be delivered at the correct 
times and in the correct amounts and be of acceptable quality in order 
to support the natural functions of the ecosystem. This means large 
capacities of water will have to be stored until the proper time for 
delivery. Storage of water is no easy feat given the porous geology of 
South Florida. There are several pilot projects which will test new 
technologies aimed at achieving this requirement.
    As information is developed regarding these innovative technologies 
and assessments are made of the projects as they come on line, 
refinements will be made to the program. Assisting the Corps with these 
assessments will be the Restoration Coordination and Verification or 
RECOVER Team. This is an interagency team in which the Department of 
the Interior, State of Florida, and Tribes are full members. This group 
will provide input for adaptive management of the Plan and assist in 
the development of the ``interim goals'' under the Programmatic 
Regulations. These interim goals will be used to assess progress of the 
restoration efforts.
    The science to be used in both establishing and assessing 
restoration of the natural system is also cutting edge. The Corps has 
engaged the services of the National Academy of Sciences (NAS) to 
review ongoing activities related to the aquifer storage and recovery 
(ASR) features. The NAS Committee on Restoration of the Greater 
Everglades Ecosystem (CROGEE) recently initiated a technical review of 
the draft project management plan for the Aquifer Storage and Recovery 
Regional Study prepared by the Army Corps of Engineers and the South 
Florida Water Management District. The CROGEE is evaluating the project 
management plan with respect to the adequacy of the proposed scientific 
methods to address key issues raised in the CROGEE's February 2001 ASR 
report and other issues previously raised by issue teams and the South 
Florida Ecosystem Restoration Task Force Working Group.

Initial Projects
    Although we are at the very beginning of this long journey, I 
thought that at this point it might be useful to give you just a brief 
status on the initial ten projects which have already been authorized 
by the Water Resources Development Act (WRDA) 2000 legislation.
    C-44 Basin Storage Reservoir ['601(b)(2)(c)(i)]--This project has 
been combined with the C-23, C-24, and C-25 component along with 
additional features detailed in the Indian River Lagoon--South 
Feasibility Study. The Division Engineers Notice will be signed in 
September 2002. It is expected that the features contained in the 
Indian River Lagoon--South Feasibility report will be ready for 
authorization as part of the next WRDA.
    Everglades Agricultural Area Storage Reservoirs--Phase 1 
['601(b)(2)(c)(ii)]--This project is scheduled to have a Division 
Engineers Notice in January 2004.
    Site 1 Impoundment ['601(b)(2)(c)(iii)]--This project is being 
pursued under the name Hillsboro Site 1 Impoundment project and is 
scheduled to have a Division Engineers Notice in February 2004.
    Water Conservation Area 3A/3B Levee Seepage Management 
['601(b)(2)(c)(iv)]--This project has been combined with the C-11 
Impoundment and Stormwater Treatment Area and C-9 Impoundment and 
Stormwater Treatment Area components and being pursued under the 
project name of ``Broward County WPA.'' The Division Engineers Notice 
is scheduled for February 2004.
    C-11 Impoundment and Stormwater Treatment Area ['601(b)(2)(c)(v)]--
This project has been combined with the Water Conservation Area 3A/3B 
Levee Seepage Management and C-9 Impoundment and Stormwater Treatment 
Area components and being pursued under the project name of ``Broward 
County WPA.'' The Division Engineers Notice is scheduled for February 
2004.
    C-9 Impoundment and Stormwater Treatment Area ['601(b)(2)(c)(vi)]--
This project has been combined with the Water Conservation Area 3A/3B 
Levee Seepage Management and C-11 Impoundment and Stormwater Treatment 
Area components and being pursued under the project name of ``Broward 
County WPA.'' The Division Engineers Notice is scheduled for February 
2004.
    Taylor Creek/Nubbin Slough Storage and Treatment Area 
['601(b)(2)(c)(vii)]--This project has been combined with the North of 
Lake Okeechobee Storage Reservoir, Lake Okeechobee Watershed Water 
Quality Treatment Facilities, Lake Okeechobee Tributary Sediment 
Dredging components and being pursued under the project name of ``Lake 
Okeechobee Watershed.'' The Division Engineers Notice for this project 
is scheduled for May 2006.
    Raise and Bridge East Portion of Tamiami Trail and Fill Miami Canal 
Within Water Conservation Area 3 ['601(b)(2)(c)(viii)]--This project 
has been combined with the Eastern Tamiami Trail, Canal & Levee 
Modification in WCA 3, and North New River Improvements components and 
being pursued under the project name of ``WCA 3 Decomp and Sheetflow 
Enhancement--Part 1.'' The Division Engineers Notice is scheduled for 
January 2006.
    North New River Improvements ['601(b)(2)(c)(ix)]--This project has 
been combined with the Eastern Tamiami Trail, Canal & Levee 
Modification in WCA 3, and North New River Improvements components and 
being pursued under the project name of ``WCA 3 Decomp and Sheetflow 
Enhancement--Part 1.'' The Division Engineers Notice is scheduled for 
January 2006.
    C-111 Spreader Canal ['601(b)(2)(c)(x)]--This project is scheduled 
to have a Division Engineers Notice in December 2005.
    As you can see we have only just begun this process. We are already 
learning important lessons about the complex interdependence of the 
individual projects which make up this plan. Perhaps the most 
significant first step toward actual implementation of the CERP is a 
project which was authorized outside of the CERP legislation. Congress 
authorized the Modified Water Deliveries (MWD) to Everglades National 
Park in 1989 as part of the Everglades National Park Protection and 
Expansion Act. WRDA 2000 actually requires that the Modified Water 
Deliveries provisions be implemented prior to the implementation of 
several CERP projects. As a result of litigation stemming from specific 
provisions in the authorizing legislation, the completion of MWD is 
currently on hold.
Conclusion
    It is important to recognize that there are many questions 
associated with the CERP program. New technologies, engineering, and 
science are being explored. The interests and concerns of the 
stakeholders involved are as diverse as the population of South Florida 
itself. Maintaining and restoring one of the most diverse and thriving 
ecosystems in the world is a daunting challenge in and of itself, but 
when that ecosystem must reside next door to a diverse and thriving 
human population the complexity of the challenge is compounded 
exponentially.
    The Army and this Administration are committed to working within 
this diverse culture and to saving one of America's most precious 
natural wonders. Despite all the questions that can be raised 
concerning this effort, we remain committed to moving forward. To wait 
will only exacerbate the degradation of the Everglades and make its 
restoration more difficult to achieve. The work that has been completed 
thus far is a solid foundation for proceeding. The flexibility, which 
is built into the CERP, allows us to meet the challenges presented by 
these questions and to answer them. The coalition supporting this 
effort is capable, resourceful, and committed. With a commitment to the 
long journey ahead and a recognition of the resources that will be 
required, we will be successful.
    Mr. Chairman, that concludes my statement. Again, I appreciate the 
opportunity to testify today before the committee. I would be pleased 
to answer any questions you or other members of the committee may have.
                                 ______
                                 
 Responses of R.L. Brownlee to Additional Questions from Senator Graham
    Question 1. Can you describe what will happen to the Everglades if 
no action is taken on the CERP?
    Response. One could expect to see the health of the ecosystem 
continue under great stress. The micro-and macrobiological health of 
the Everglades would continue to decline, estuaries would continue to 
suffer, water quality problems would continue, and repetitive water 
shortages and salt water intrusion would become more frequent.

    Question 2. What actions does Congress need to take in the near and 
distant future to move the CERP forward?
    Response. Continued support of the Congress through appropriations 
and authorizations are key to keeping the Comprehensive Everglades 
Restoration Plan (CERP) on track.

    Question 3. Can you describe the implementation schedule for the 
pilot projects--specifically, the anticipated start and end date and 
the start date of the actual project features that will use the results 
of the pilots.
    Response. Yes, sir, that information is provided in the attached 
table.

                        PILOT PROJECT SCHEDULES

    Pilot projects are considered complete when fully constructed and a 
Technical Data Report is completed. All dates shown are estimated, 
except as noted.


----------------------------------------------------------------------------------------------------------------
                                                                                Schedule
                       Project                        ----------------------------------------------------------
                                                                 Initiate                      Complete
----------------------------------------------------------------------------------------------------------------
Lake Okeechobee ASR Pilot............................  August 2000 *...............  November 2009
    Construction Physically Complete.................  ............................  November 2006
    Full Project: Lake Okeechobee ASR................  November 2009...............

Hillsboro ASR Pilot..................................  August 2000 *...............  April 2009
    Construction Physically Complete:................  ............................  June 2006
    Full Project: Hillsboro ASR (Phase 2)............  May 2009....................

Caloosahatchee River (C-43) ASR Pilot................  March 2001 *................  August 2008
    Construction Physically Complete:................  ............................  February 2006
    Full Project: Caloosahatchee River ASR (Part 2)..  August 2008.................

Lake Belt In-Ground Reservoir Technology Pilot.......  February 2001 *.............  September 2011
    Construction Physically Complete:................  ............................  April 2009
    Full Projects (2): Central Lake Belt Storage Area  March 2011..................
    North Lake Belt Storage Area.....................  March 2011..................

L-31 North Seepage Management Pilot..................  January 2001 *..............  June 2006
    Construction Physically Complete:................  ............................  October 2004
    Full Project: L-31 North Seepage Management......  September 2008..............

Wastewater Reuse Technology Pilot....................  April 2001 *................  November 2013
    Construction Physically Complete:................  ............................  February 2009
    Full Projects (2): West Miami-Dade Reuse.........
    South Miami-Dade Reuse...........................
----------------------------------------------------------------------------------------------------------------
 (* actual date)


    Question 4. What types of information will be gathered through 
these pilots?
    Response. The pilot projects will reduce technical uncertainties 
related to some of the CERP components by gathering and defining the 
physical, chemical and biological characteristics in affected areas. 
This information will be used to further clarify component storage 
efficiencies, construction technologies, project location, and the 
impacts of the proposed projects on local resources and will assist us 
in optimizing the design of components prior to their full-scale 
development.

    Question 5. Is WRDA 2000 the only time adaptive management has been 
authorized as a stand-alone line item in a Corps program?
    Response. Yes. The $100 million adaptive assessment and monitoring 
program authorized in the Water Resources Development Act (WRDA) of 
2000 is the first stand-alone authorization of its kind in a Corps 
program.

    Question 6. Can you describe your vision of how the adaptive 
management authorization will be executed?
    Response. The adaptive management program is described in the 
proposed programmatic regulations and consists of two elements, 
monitoring and assessment activities and management actions. The 
interagency Restoration Coordination and Verification (RECOVER) team 
will oversee the monitoring and assessment activities. These activities 
consist of implementation of a system-wide monitoring plan and the 
preparation of periodic assessment reports that document system 
responses and analyses to determine if measured responses are 
undesirable or fall short of achieving expected performance. Following 
review by the independent scientific review panel, the assessment 
reports will provide the basis for the implementing agencies, in 
consultation with others, to determine if management actions such as 
operational changes, sequencing and scheduling changes, or Plan changes 
are necessary to meet the goals and purposes of the Plan. Should 
changes to the Plan be necessary, a Comprehensive Plan Modification 
Report will be prepared and submitted to Congress.

    Question 7. Can you describe the current implementation schedule, 
focusing specifically on the project sequencing as it relates to the 
environmental benefit produced?
    Response. The current sequence and schedule was based on maximizing 
restoration benefits at the earliest possible date. The initial 
authorization package included in WRDA focused largely on those 
projects that could be implemented quickly based upon known technology 
and which would provide substantial environmental benefits. Remaining 
projects were sequenced based upon the physical and technical 
requirements for those projects. Specifically, the physical 
requirements are those associated with the sequencing of projects 
needed to support movement of new water. The technical requirements are 
those uncertainties related to projects such as aquifer storage and 
recovery and wastewater reuse. They were scheduled to follow the pilot 
projects. The proposed programmatic regulations envision that the 
sequence and schedule will be reviewed annually to incorporate new 
information. We have already begun to analyze the sequence and schedule 
to incorporate new information, including the requirements of WRDA 
2000. We remain committed to implementing CERP in a manner that 
maximizes restoration benefits at the earliest possible time.

    Question 8. Does the CERP provide water supply benefits under the 
guise of environmental restoration?
    Response. No. The approved Plan provides that most of the water 
generated will be used for restoration. Projections of future water 
demands without the Plan indicate serious levels of water supply 
cutbacks. Under the Plan, new storage facilities will be built 
throughout the region to ensure a more reliable water source. As are 
result, the frequency of water restrictions for agricultural and urban 
users will be significantly reduced. The ability to sustain the 
region's natural resources, economy, and quality of life depends, to a 
greater extent, on the success of the efforts to enhance, protect and 
better manage the region's water resources.

    Question 9. When do you anticipate that the first PIRs for the 
first 10 projects will come to Congress for authorization by 
resolution?
    Response. I will provide that information on the status of the 
initial ten components authorized in the Water Resources Development 
Act of 2000.
    Schedules are currently being reviewed to account for additional 
requirements set forth in WRDA 2000 and the draft programmatic 
regulations, which may require some adjustment to the manner in which 
we design and construct these initial projects. Specifically, certain 
components and/or projects may have to be combined which could result 
in a change in the scheduled completion of the PIR for these projects, 
as compared to the original project schedules reported in Chapter 10 of 
the Restudy Report. We are still evaluating the best way to proceed, so 
the information provided reflects the best information currently 
available.
    [Information provided below:]
    C-44 Basin Storage Reservoir--The C-44 Basin Storage Reservoir 
project has been merged into the Indian River Lagoon South Feasibility 
Study, along with the C-23, C-24, and C-25 CERP components, and 
additional features needed to restore the Indian River Lagoon region of 
the ecosystem. The Division Engineers Notice on that study was signed 
in September 2002 and the report is currently undergoing Washington 
level policy review. The Chief of Engineers Report, including a 
recommendation for C-44 project modifications, is scheduled for 
submission to the Congress in early 2003. The study contains the 
additional plan formulation required by WRDA 2000 for Project 
Implementation Reports, however, information on project assurances, 
savings clause, and the analyses to determine water needed for the 
environment are not available at this time pending completion of the 
Programmatic Regulations. The Project Implementation Report is 
scheduled to be submission to the Congress in the third quarter of 
2004.
    Everglades Agricultural Area Storage Reservoirs--Phase 1--The 
Project Implementation Report for this project will be submitted to the 
Congress in the third quarter of fiscal year 2005.
    Site 1 Impoundment--The Project Implementation Report is scheduled 
for submission to the Congress in the third quarter of fiscal year 
2005.
    Water Conservation Area 3A/3B Levee Seepage Management--The Project 
Implementation Report is scheduled for submission to the Congress in 
the third quarter of fiscal year 2005.
    C-11 Impoundment and Stormwater Treatment Area--The Project 
Implementation Report is scheduled for submission to the Congress in 
the third quarter of fiscal year 2005.
    C-9 Impoundment and Stormwater Treatment Area--The Project 
Implementation Report is scheduled for submission to the Congress in 
the third quarter of fiscal year 2005.
    Taylor Creek/Nubbin Slough Storage and Treatment Area--The Project 
Implementation Report is scheduled for submission to the Congress in 
the third quarter of fiscal year 2006.
    Raise and Bridge East Portion of Tamiami Trail and Fill Miami Canal 
Within Water Conservation Area 3--The Project Implementation Report is 
scheduled for submission to the Congress in the third quarter of fiscal 
year 2006.
    North New River Improvements--The Project Implementation Report is 
scheduled for submission to the Congress in the third quarter of fiscal 
year 2006.
    C-111 Spreader Canal--This Project Implementation report is 
scheduled for submission to the Congress in the third quarter of fiscal 
year 2006.

    Question 10. Will those documents be consistent with the 
programmatic regulations?
    Response. Yes. All documents will be consistent with the 
programmatic regulations,

    Question 11. Can you provide a list of the reviews/oversight 
reports that have been conducted by outside agencies?
    Response. Yes, sir. These reviews / reports are as follows:
    The National Academies of Sciences--National Research Council's 
Committee on Restoration of the Greater Everglades Ecosystem (CROGEE) 
has a number of activities completed or underway for the South Florida 
Ecosystem Restoration Task Force. These activities are listed below:
    A report entitled, ``Aquifer Storage and Recovery in the 
Comprehensive Everglades Restoration Plan''. This report was issued in 
February 2001.
    A report entitled, `` Florida Bay Research Programs and Their 
Relation to the Comprehensive Everglades Restoration Plan''. This 
report was issued in August 2002.
    A report entitled, ``Regional Issues in Aquifer Storage and 
Recovery for Everglades Restoration: A Review of the ASR Regional Study 
Project Management Plan of the Comprehensive Everglades Restoration 
Plan''. This report was issued in October 2002.
    Report on adaptive assessment and monitoring (ecological 
indicators). This report is being peer reviewed and should be issued in 
early 2003.
    Report on storage options and the CERP in the event that ASR is not 
feasible at the scale foreseen in the CERP. The draft report is 
scheduled early 2003.
    Report on ``Science and the Greater Everglades Ecosystem 
Restoration: An Assessment of the Critical Ecosystem Studies 
Initiative'' by the National Research Council, Water and Science and 
Technology Board. This report was released on 18 December 2002.
    The General Accounting Office (GAO) has undertaken several audits 
of the entire South Florida restoration effort. These efforts are 
listed below.
    An Overall Strategic Plan and a decision-Making Process Are Needed 
to Keep the Effort on Track. This report was completed in April 1999.
    A Land Acquisition Plan Would Help Identify Lands That Need to Be 
Acquired. This report was completed in April 2000.
    Additional Water Quality Projects May Be Needed and Could Increase 
Costs. This report was completed in September 2000.
    Substantial Progress Made in Developing a Strategic plan, but 
Actions Still Needed. This report was completed in March 2001.
    Audit underway on ``Science Supporting the Restoration of the South 
Florida Ecosystem.'' The final report is scheduled for completion in 
February 2003.
    The Army Audit Agency (AAA) has recently undertaken two audits 
which are expected to be completed in February 2003. These audits are 
as follows:
    Project Cost Sharing by the South Florida Water Management District
    Permitting Processes in South Florida

    Question 12. How can you ensure that this project does not have 
excessive cost overruns?
    Response. Each project authorized by Congress will be subject to a 
maximum project cost as prescribed by Section 902 of the WRDA 86. In 
addition, during all phases of the project's implementation, proposed 
changes to the project will be subject to a change control process as 
prescribed by the Corps business process. This change control process 
will be managed via the Design Coordination Team that has been 
established with each project sponsor and through the Corps Project 
Review Board. All changes will be reported to the Corps higher 
authority through the established Vertical Team which includes 
representatives from the Division, Headquarters, and the Office of the 
Assistant Secretary of the Army for Civil Works.

    Question 13. There are multiple requirements in the law related to 
outreach and assistance. Specifically, the Corps was required to allow 
opportunities for small business concerns owned and controlled by 
socially and economically disadvantaged individuals to participate in 
the project in accordance with the Small Business Act (15 U.S.C. 
644(g)). In addition, the Corps was to ensure that impacts on socially 
and economically disadvantaged individuals, including individuals with 
limited English proficiency, and communities are considered during 
implementation of the Plan, and that such individuals have 
opportunities to review and comment on its implementation. In addition, 
the Secretary was also to ensure that these individuals were provided 
with public outreach and educational opportunities. Can you describe 
how the Corps has complied with these three elements of the WRDA 2002 
authorization? Are South Florida businesses being targeted under the 
small business requirements?
    Response. The Corps of Engineers has worked diligently, in 
cooperation with the South Florida Water Management District and other 
project sponsors, to identify and assist small and small disadvantaged 
businesses to participate in the implementation of the Plan. The Corps' 
Jacksonville District has established and filled a new Assistant Deputy 
for Small Business position at its new Restoration Program Office, 
located in West Palm Beach, Florida. This person works to conduct 
business outreach activities such as small business trade fairs and 
conferences, technical assistance workshops, minority business 
networking/mentoring sessions, and identify existing Small Business 
8(a) certified firms qualified to participate in the Everglades 
restoration program, as well as firms that are not currently certified, 
but which may be good candidates for certification.
    The Corps' public outreach program includes a number of activities 
that target minority communities. Jacksonville District has established 
an Outreach Team that includes individuals located in both Jacksonville 
and in south Florida. The Outreach Team works at both the program and 
project levels to inform and engage minority communities. Activities 
conducted for the purpose of reaching out to minority communities 
include placing ads and articles in widely circulated newspapers, and 
producing and distributing newsletters, written in both English and 
Spanish. Other materials, including those translated into Creole, have 
been produced or are currently in production.
    In addition, the Outreach Team has participated in numerous African 
and Haitian community events, bringing information about the 
Comprehensive Everglades Restoration Program directly to the community. 
Another activity that takes the Corps to the communities is a new 
initiative called ``Community Dialogues.'' Through this program, the 
Corps will work with Small Business 8(a) certified firms to identify a 
network of community leaders who will assist the Corps in taking the 
Everglades restoration message to all people from all cultural 
backgrounds.

    Question 14. Within 180 days of passage of WRDA 2000, there was a 
requirement for the Secretary to submit to Congress a report on the 
Biscayne Aquifer Storage and Recovery project in Miami-Dade County and 
whether or not it has a substantial benefit to the South Florida 
ecosystem. Where is this report? Can you summarize its findings? Do you 
plan to submit it to Congress in accordance with the statute?
    Response. The Jacksonville District completed this report in May 
2002. The report determined that there is not enough information to 
determine whether the proposed project will provide substantial benefit 
to the South Florida ecosystem. The Corps' recommendation is that 
further study be initiated. The report is currently under review within 
the Administration.

    Question 15. Has the dispute resolution document been signed?
    Response. Yes. The Dispute Resolution Agreement between the South 
Florida Water Management District, the Governor of Florida and the 
Department of the Army was executed on September 9, 2002.

    Question 16. The programmatic regulations describe in some detail 
the process that you used to consult with other governmental entities, 
interested parties, and the general public in developing those 
regulations. Can you describe both the informal and the formal 
consultation process that you used?
    Response. Yes, I can. The Corps used an extensive process to 
consult with other governmental entities, interested parties, and the 
general public in developing the proposed regulations. Briefings on the 
programmatic regulations were provided to the Governing Board of the 
South Florida Water Management District and its Water Resources 
Advisory Commission, as well as the South Florida Ecosystem Restoration 
Task Force and its Working Group. In addition, programmatic regulations 
web pages were developed and posted on the Comprehensive Everglades 
Restoration Plan web site. The Corps held an opening round of meetings 
with agencies, interest groups, and the public in May and June 2001 to 
discuss the process that would be used to develop the programmatic 
regulations and to solicit comments on the major issues and concerns 
that should be addressed in developing the regulations. Following this 
initial round of meetings, they developed a draft outline of the 
programmatic regulations and then held a second round of meetings in 
September and October 2001 with agencies, interest groups, and the 
public to solicit comments on the draft outline. After the second round 
of meetings, the Corps developed an initial draft of the programmatic 
regulations that was distributed to the public on December 28, 2001 and 
allowed for informal public comment until February 15, 2002. During the 
comment period, the Corps held meetings with agencies, tribes, and 
interest groups, to discuss the initial draft. They also received 
written comments on the initial draft that was posted on the 
programmatic regulations web site. During this time, the Water 
Resources Advisory Commission formed a subcommittee on the programmatic 
regulations that met several times to discuss issues concerning the 
initial draft and potential solutions to these issues. The South 
Florida Ecosystem Restoration Task Force also met several times after 
the release of the initial draft to discuss the programmatic 
regulations. Based upon public comment and the comments of the Task 
Force and the Water Resources Advisory Commission, further revisions 
were made to the initial draft and the draft rule was formally 
published in the Federal Register on August 29 beginning a 60-day 
public comment period. During this period, numerous informal meetings 
were held with stakeholders to understand their concerns and two formal 
public meetings were held to enable the public to comment on the 
proposed regulations. Since October 1, when the public comment period 
closed, the Corps has posted all of the comments received to the 
programmatic regulations web site.

    Question 17. In the Senate Committee's report on WRDA 2000, we 
explicitly mentioned that we expected the water produced by the Plan to 
be divided between the natural system and the human environment with an 
80--20 split. The report language clearly indicated that this did not 
necessarily mean that the water from every project would be divided 
this way or that at all given moments in Plan execution the water would 
be divided this way. Instead, it meant that in the aggregate, the water 
would be divided 80-20. The programmatic regulations appear to take a 
huge step away from this requirement. Can you describe how this section 
of the programmatic regulations is consistent with the intent of WRDA 
2000?
    Response. The Army is committed to providing the water that is 
needed for restoration of the natural system. It is my belief that the 
proposed regulations are fully consistent with the intent of the Senate 
authorizing Committee.
    During the Restudy, the Corps estimated that approximately 80 
percent of the new water generated by the Plan would go to the natural 
system. The report of the Senate Committee recognized that the Plan 
contained a general outline of the quantities of water to be produced 
and communicated its intent that ``the water necessary for restoration, 
currently estimated at 80 percent of the water generated by the Plan, 
will be reserved or allocated for the benefit of the natural system.''
    Although those percentages were appropriate as an initial estimate 
for the purpose of evaluating the Plan, the proposed regulations 
anticipate that each Project Implementation Report will evaluate and 
identify the water to be reserved for the natural system and that which 
could be made available for other water-related needs of the region, 
and that the Plan itself will be continually evaluated through adaptive 
management. As I stated earlier, the adaptive management process will 
include monitoring of project implementation and an independent 
scientific review of the associated reports. This may result in further 
recommendations for adjustment of water reservations to ensure that the 
system receives neither too little nor too much water to sustain a 
healthy, viable environment. Accordingly, the water actually allocated 
to meet the needs of the natural system and the water available for 
other human uses may be greater or less than the initial Plan estimate. 
Therefore, the proposed regulations do not contemplate that water will 
be strictly allocated on an 80-20 basis, either system-wide or on a 
project-by-project basis. I want to emphasize again, though, that the 
Army is committed to providing the water that is needed for 
restoration.

    Question 19. During the hearing, we discussed the 80-20 split of 
water. Here is this portion of the transcript. In this exchange, I 
believe we agreed to use 80-20 as a planning goal for restoration. I 
would like to see the report I mentioned during my statements below, 
and I would also like to see the draft language revising the 
programmatic regulations to reflect this change.
    [Insert from the hearing transcript of September 13, 2002]

    Senator Graham. I mentioned in my opening statement that I had some 
    concerns about the initiative draft of the programmatic 
    regulations. Are these related to whether there should be interim 
    goals or milestones along the route from where we are to our 
    ultimate destination?
    Second, what will be the role of the Department of Interior in the 
    evaluation of this project as it goes forward and the restoration 
    assurances regarding water supply which will be available for the 
    natural system?
    That last item is particularly important because the timing of the 
    project, and this is a function of the engineering and ecology, is 
    such that it will be toward the mid and later point of the process 
    that the major water demands for the natural system are going to be 
    met.
    The concern is that if the water has been already allocated to 
    other uses before you get to that point, there won't be an adequate 
    amount for the natural system. So that was one of the reasons that 
    this complex process was inserted into the legislation which Mr. 
    Gibson had so much to do with its actually drafting.
    I wonder if you could comment on those three issues of interim 
    goals, Department of Interior and restoration assurances for the 
    natural system.
    Maybe Mr. Brownlee, then Ms. Klee and then Mr. Gibson.
    Mr. Brownlee. Yes, the programmatic regulations do provide for the 
    development of interim goals. Of course, as you know right now, the 
    programmatic regulations are out for public comment. I expect that 
    we will get some comments in that regard so there is a way to wrap 
    those into the programmatic goals. I expect that we will do that.
    The Department of Interior is very much involved in this and has 
    been. I think it has been a very inclusive process from our point 
    of view. I know that there are several points in the process where 
    the Department of Interior's concurrence is required for us to move 
    forward on some of these intermediate steps.
    So the perception of the Corps is that it is very inclusive and 
    they are very much involved and they are a very important partner 
    on this and we rely on them greatly. I hope that is their 
    perception also.
    The committee mentioned in its legislation that they expected about 
    an 80-20 breakdown of the water, 80 to the restoration and 20 for 
    other purposes. I can only tell you that the programmatic 
    regulations reflect and everything I have heard from the Corps 
    indicates that the Army is committed to providing the amount of 
    water required for restoration. We realize that that is the 
    overarching goal. The Corps is headed that way. Whether or not it 
    will be slightly above or slightly below 80 percent, I wouldn't 
    state categorically.
    But I would state very clearly that the Corps is committed to 
    providing the amount of water required for restoration.
    Senator Graham. There was a rationale behind the 80-20 numbers that 
    were inserted in the original legislation. I think it is important 
    that the Corps be sensitive to that and if there is reason that 80-
    20 should not be, for planning purposes, a goal of water 
    allocation, I would like to get a report back from the Corps as to 
    why they think that those numbers are not appropriate.
    Mr. Brownlee. This morning I would tell you, sir, they seem to be 
    very appropriate. I am not suggesting in any way that they are not. 
    I am only suggesting that I don't know if we will hit right on 80, 
    but as a planning goal, I think they are perfectly appropriate.
    Senator Graham. Thank you.

    Response. As I stated at the hearing, I see no reason at this time 
to suggest that the Corps' initial estimate of 80/20 be abandoned as a 
planning goal. However, it should be emphasized that this was only an 
estimate made during the Restudy at a time when it was recognized that 
more science would be needed to confirm the needs of the system. The 
Army recognizes that restoration is the overarching goal of CERP and is 
committed to providing the amount of water required to accomplish that 
goal.

    Question 20. Why are the performance targets for ``other water-
related needs'' of the region included in the programmatic regulations.
    Response. Since the Plan provides other water-related needs of the 
region in addition to the restoration, preservation, and protection of 
the South Florida ecosystem, the draft regulations also measure 
progress toward providing these other water-related needs of the 
region.

    Question 21. What is the statutory basis for this provision?
    Response. WRDA 2000 states that the overarching objective of the 
Plan is the restoration, preservation, and protection of the natural 
system, while providing for other water related needs of the region.

    Question 22. Why is the timetable for the other water related needs 
of the region accelerated when compared with that for the natural 
system interim goals--those that measure the overarching purpose of the 
Plan?
    Response. The timetable in the draft regulations for establishing 
targets for evaluating progress on achieving the other water-related 
needs of the region is the same as the timetable for establishing 
interim goals.

    Question 23. What will happen if there is a conflict between the 
two sets of goals? How will these conflicts be resolved to ensure that 
the natural system remains the top priority?
    Response. The draft rule states that the overarching objective of 
the Plan is the restoration, preservation, and protection of the 
natural system, while providing for other water related needs of the 
region. Based upon consideration of public comment received on the 
draft rule, the Army will make a final decision about how to resolve 
potential conflicts.

    Question 24. How do the programmatic regulations address this 
potential conflict?
    Response. The Corps has received a number of comments on this issue 
as a result of the public review of the draft rule for the programmatic 
regulations. They are currently analyzing the public comment that was 
received on the proposed rule before making a final decision about how 
to resolve potential conflicts.

    Question 25. Interior appears to be specifically excluded from 
concurring in decisions made by the Corps and the SFWMD as to whether 
or not water identified in the pre-CERP baseline is available at the 
time that water allocations are made for future projects. This could 
have an impact in the future, as water intended for the natural system 
could be re-allocated based on the fulfillment or lack of fulfillment 
of the pre-CERP baseline water quantities. Can you describe how this 
process would work and why Interior is excluded?
    Response. The draft regulations include a process for developing 
the pre-CERP baseline. The pre-CERP baseline will be developed by June 
30, 2003 in consultation with the Department of the Interior and other 
Federal, State, and local agencies and the Miccosukee and Seminole 
tribes. In addition, the regulations include a provision for the 
concurrence of the Secretary of the Interior on the pre-CERP baseline. 
Each Project Implementation Report, which is developed by the Corps of 
Engineers and the non-Federal sponsor, in consultation with the 
Department of the Interior and other Federal, State, and local agencies 
and the Miccosukee and Seminole tribes, will determine whether the pre-
CERP baseline quantity of water of comparable quality is still 
available. However, WRDA prohibits a requirement for concurrence by the 
Secretary of the Interior on Project Implementation Reports and any 
other documents related to the development, implementation, and 
management of individual features of the Plan.

    Question 26. The programmatic reg states that changes to a water 
reservation will require a change to the PCA. The original draft called 
for a return to Congress for authorization. I am aware of an argument 
being made that water reservations need to be fluid over time. However, 
this was not part of the debate in WRDA 2000, and the bill is 
specifically designed with the understanding that a reservation is a 
one-time, completed process. Congress authorizes these water projects 
using a PIR as the project description. That PIR includes a 
quantification of water to be developed that is then used by the State 
to issue a water reservation. That reservation is then an element of 
the contract between the Federal Government and the State for that 
project. Any change to the water reservation would indicate a change in 
the amount of water to be developed by the project or to be dedicated 
to the natural system. At this point, I believe that in most cases, 
Congress should review this type of change, but I am interested in 
learning more about why you have taken the approach you take in the 
draft regulations. Can you explain?
    Response. Yes, I can. Reservations will be made based on the water 
to be reserved for the natural system, as identified in the Project 
Implementation Report. That identification will be the result of the 
best modeling and analytical information available at the time the 
Project Implementation Report is developed. Subsequently, as new 
information becomes available after construction and operation of the 
project, and in accordance with the principles of adaptive management, 
it is possible that the reservation may need to be revised to better 
meet the goals and purposes of the Plan. If system-wide monitoring 
reveals undesirable effects, assessment reports, which are subject to 
independent scientific review, are required to be prepared and will 
serve as the basis for any proposed changes. While the statute does not 
provide any requirement that changes in reservations be reviewed by 
Congress, the draft regulations require the completion of a 
Comprehensive Plan Modification Report that is transmitted to Congress 
for approval of major changes to the Plan.

    Question 27. Can you describe with one example the movement of a 
PIR through the development and approval process using the programmatic 
regulation? At what points would the Department of Interior and other 
stakeholders are involved?
    Response. The Project Implementation Report will be developed by an 
interagency Project Delivery Team that includes [MEM1]the U.S. 
Department of the Interior. Prior to initiation of any activities, a 
Project Management Plan will be prepared by the team in consultation 
with other agencies, including the Department of the Interior and other 
stakeholders, and provide opportunities for public review and comment. 
The Project Management Plan will describe the activities to be 
conducted in preparing the Project Implementation Report, including 
outreach activities and required coordination with the Department of 
the Interior under the Fish and Wildlife Coordination Act. The Project 
Delivery Team will conduct all the technical activities necessary to 
prepare the Project Implementation Report. RECOVER, an interagency 
scientific and technical team that includes the Department of the 
Interior, will provide an analysis of the performance of alternatives 
toward achieving the system-wide goals and purposes of alternatives. 
Project Delivery Team meetings and RECOVER meetings are open to the 
public. Public information and involvement activities, including 
participation by socially and economically disadvantaged individuals 
and individuals of limited English proficiency, will be conducted 
throughout the development of the Project Implementation Report as 
described in the Project Management Plan. The Project Implementation 
Report will contain appropriate NEPA documentation and include the 
Coordination Act Report prepared by the Fish and Wildlife Service. The 
Project Implementation Report will include the identification of water 
to be reserved for the natural system and a draft Operating Manual. The 
results of the analyses conducted by RECOVER will be included in the 
Project Implementation Report. The draft Project Implementation Report 
and NEPA document will be provided to agencies and the public for 
review and comment. After the final Project Implementation Report has 
been completed, a public notice by the Division Engineer will be issued 
and the Project Implementation Report will be sent to Washington for 
review and approval. A 30-day State and agency review of the Project 
Implementation Report, which includes the Department of the Interior, 
will be conducted as required by law. Except for projects approved 
under the programmatic authority, the approved Project Implementation 
Report will be transmitted to the Congress for action.

    Question 28. The programmatic regulations call for the release of 
each guidance memorandum within 6 months. Is it really possible to get 
these completed in the time period? How are you planning to prioritize 
their completion?
    Response. The proposed regulations require the development of the 
guidance memoranda within 6 months of the promulgation of the final 
regulations. The proposed regulations also require that a concurrence 
process with the Secretary of the Interior and the Governor will begin 
after the development of the guidance memoranda. We have not 
prioritized the completion of the six required guidance memoranda at 
this time; however, preparation of many of these guidance memoranda is 
already underway. The Corps' goal is to get all of them completed as 
quickly as possible. Prior to publication of the final rule, we will 
review the schedule for completion of the guidance memoranda.

    Question 29. The regulations also lack amplification of how the 
Corps will verify that a reservation has been completed--can you 
describe how this would occur?
    Response. The Corps has not developed a specific process yet, but 
expects to be involved in the reservation process that will be 
undertaken by the State through its rulemaking process and plans to 
thoroughly analyze each reservation to determine that it has been made 
in accordance with the requirements identified in the Project 
Implementation Report. The Corps, as well as the Department of the 
Interior, has been involved in the development of a ``white paper'' by 
the South Florida Water Management District to address associated 
issues. This white paper is an initial effort to develop a methodology 
for identifying the water to be reserved for the natural system and for 
ensuring consistency between the procedures used in developing the 
Project Implementation Report, setting the reservation or allocation, 
and verifying that the reservation or allocation has been made.

    Question 30. There is a large section in the programmatic 
regulations on operating manuals. It calls for the development of a 
system operating manual and project operating manuals. Interior and 
other stakeholders have clearly identified consultation roles. There is 
a provision allowing for adjustments to operating manuals during the 
year based on departures from expected rainfall or adaptive management 
without any specified consultation roles. Can you describe under what 
circumstances you would use this authority to make adjustments? Can you 
define what you mean by adjustment?
    Response. The Corps has not developed specific guidelines for 
allowing adjustments based on departures from expected rainfall or 
adaptive management yet. However, in general, the authority would be 
used to make temporary, short-term operational changes to address 
problems resulting from excessive or insufficient rainfall that cannot 
be resolved using existing operating manuals and which often require a 
rapid response. Problems outside the scope of a temporary, short-term 
operational change will continue to be addressed under the adaptive 
assessment process involving preparation of an assessment report, 
subject to independent scientific review, and re-consultation with 
others before recommending changes to the current operating plan. In 
developing the final rule, we will consider providing a consultation 
role for others when we consider these temporary adjustments to the 
Operating Manuals.

    Question 31. According to the Administration's Climate Action 
Report 2002,``. . . the natural ecosystems of the Arctic, Great Lakes, 
Great Basin, and Southeast, and the prairie potholes of the Great 
Plains appear highly vulnerable to the projected changes in climate.'' 
In addition, that report says due to a projected rate of sea level rise 
from 4-35 inches over the next century, with mid-range values more 
likely, estuaries, wetlands and shorelines along the Atlantic and Gulf 
coasts are especially vulnerable. What consideration has been given in 
the development of the long-term plan for restoration of the Everglades 
to the effects of global warming and sea-level rise?
    Response. The Plan included a scenario on the effect of sea level 
rise on the without project condition. The RECOVER team is responsible 
for analyzing the potential effects of sea level rise on restoration as 
part of its adaptive management responsibilities.

    Question 32. WRDA 2000 provides for independent scientific review 
of CERP projects. Currently, the CROGEE functions in this capacity. 
What is the status of establishing a new panel?
    Response. The Department of the Army is consulting with the 
Department of the Interior, the State of Florida, and the South Florida 
Ecosystem Restoration Task Force to determine if using the National 
Academies of Science's CROGEE is the best way to implement the 
requirements of WRDA 2000 for independent scientific review. The Task 
Force is currently developing recommendations to the Secretaries of the 
Army and Interior and the State of Florida and is expected to present 
these in the near future.

    Question 33. Please describe how independent scientific review has 
impacted/will impact CERP projects.
    Response. To date, independent scientific review has been able to 
make some very positive contributions to CERP implementation. For 
example, independent scientific review of the CERP aquifer storage and 
recovery components has led to the development of a study to examine 
regional impacts resulting from implementation of ASR. This study will 
supplement the work already proposed under pilot projects and is 
expected to make significant contributions toward reduction of risks 
and uncertainties before full-scale implementation of these components.

    Question 34. What is the role of peer review in dispute resolution?
    Response. Peer review can play a critical role in verification of 
the science being relied upon during any decisionmaking process.
                                 ______
                                 
 Responses of R.L. Brownlee to Additional Questions from Senator Chafee

    Question 1. What is the expected finalization date for the 
Programmatic Regulations?
    Response. The Army expects to publish the final rule in the Federal 
Register in early 2003.

    Question 2. How are interim goals provided for in the Programmatic 
Regulations?
    Response. The process established by the draft regulations includes 
development of technical recommendations for interim goals by the 
interagency RECOVER team by June 30, 2003. The interim goals will be 
formally agreed to through an agreement to be executed by the Secretary 
of the Army, the Secretary of the Interior, and the Governor by 
December 31, 2003 that incorporates decisions made on the technical 
recommendations made by RECOVER and public comment on the draft 
agreement.

    Question 3. What types of parameters will be laid out in the 
interim goals?
    Response. The proposed regulations include principles for RECOVER 
to use in developing the technical recommendations for the interim 
goals. These principles include using indicators such as hydrologic 
indicators, improvement in water quality, and ecological responses.

    Question 4. How often will the interim goals be revised as new 
scientific data related to the Everglades system arises?
    Response. The proposed regulations specify that the interim goals 
be reviewed at a minimum of every 5 years, beginning October 1, 2005, 
to determine if the interim goals should be revised. This 5-year period 
was chosen to coincide with the periodic reports to Congress required 
by WRDA 2000. In addition, the Secretary of the Army, the Secretary of 
the Interior, and the Governor may revise the interim goals whenever 
appropriate as new information becomes available in accordance with the 
process described in the regulations.

    Question 5. What is the status of the Independent Scientific Review 
Panel as required under WRDA 2000? Has the establishment of this Panel 
been addressed in the Programmatic Regulations?
    Response. The Department of the Army is consulting with the 
Department of the Interior, the State of Florida, and the South Florida 
Ecosystem Restoration Task Force in determining if using the existing 
Committee on the Restoration of the Greater Everglades Ecosystem, 
established in 1999 by the National Academy of Science, would be the 
best way to implement the requirements of WRDA 2000 for independent 
scientific review or if a new panel should be established. I expect 
that the recommendations of the Task Force will be forthcoming very 
soon, which should facilitate establishment of this panel in the near 
future.

    Question 6. Has the establishment of this Panel been addressed in 
the Programmatic Regulations?
    Response. Yes, the draft regulations do provide for the 
establishment of the independent scientific review panel.
                                 ______
                                 
 Responses of R.L. Brownlee to Additional Questions from Senator Inhofe

    Question 1. Could Everglades restoration be accomplished with any 
of the flood protection alternatives for the 8.5 SMA?
    Response. All of the project alternatives examined in the General 
Reevaluation Report and Final Supplemental Environmental Impact 
Statement dated July 2000 met the mandatory project requirement of 
mitigating flood damages from increased flows from the Modified Water 
Deliveries project. Everglades restoration would be accomplished in 
varying degrees.

    Question 2. What Modified Waters components can go forward without 
completion of the construction of flood protection for the 8.5 SMA?
    Response. None of the remaining components of the Modified Water 
Deliveries Project can go forward without completion of the Eight-and-
One-Half Square Mile Area component.

    Question 3. Why are the other components dependent upon completion 
of the 8.5 SMA project?
    Response. All the remaining components of Modified Water Deliveries 
Project enable additional flows into North East Shark River Slough. 
Prior to providing additional flows into the Slough, flood mitigation 
measures must be provided to the Eight-and-One-Half Square Mile Area 
and acquisition of lands in the Everglades Expansion Area must be 
completed.

    Question 4. Is there any other way in which Everglades restoration 
is meaningfully dependent on completion of flood protection for the 8.5 
SMA?
    Response. Yes. WRDA 2000 requires completion of the Modified Water 
Deliveries Project before appropriations can be made to construct 
certain CERP components. Planning for some CERP components also 
requires certainty about which flood mitigation plan for the Eight-and-
One-Half Square Mile Area will be in place.

    Question 5. What is the timeline for completion of these 
components?
    Response. Until authorities are clarified on the Modified Water 
Deliveries Project, the timeline for completion of other related 
components is uncertain.

    Question 6. What was the original timeline for completion of 
Modified Waters? What alternatives for the 8.5 SMA would meet this 
timeline?
    Response. The 1992 General Design Memorandum projected a completion 
date of June 1997, so none of the Eight-and-One-Half Square Mile Area 
alternatives considered could meet this timeline.

    Question 7. Rank the alternatives in the July 2000 Final Supplement 
to the Final EIS on the 8.5 SMA (``FEIS'') for constructing flood 
protection for the 8.5 SMA project in terms of time for completion?
    Response. Unfortunately, this is not possible at this time since 
the outstanding authority issues will impact any of the alternatives 
analyzed and implementation schedules were never developed on 
alternatives not recommended for implementation. Some of the 
alternatives were determined to be impossible to implement because of 
lack of support.

    Question 8. How much acquisition of land is still required to 
implement each of the alternatives?
    Response. Eight tracts remain to be acquired to be able to 
implement Alternative 1 and five hundred thirty tracts remain to be 
acquired to implement Alternative 6D. Remaining alternatives did not 
reach the acquisition stage, so information on land requirements is not 
available for most. However, based upon maps of the entire area, about 
one thousand five hundred more tracts would need to be acquired to 
implement Alternative 5.

    Question 9. Explain the reasons for differences in time of 
completion. Assume when ranking these alternatives that Congress 
authorizes each alternative to commence immediately.
    Response. Project completion schedules will vary as a result of 
several factors, depending on the complexity of the alternative, 
including the length of time to complete engineering and design, land 
acquisition, and construction. While authorized to begin immediately, 
the funding source and amount can also be controlling factors. In this 
case, authority issues have raised questions about the need for sponsor 
funding to implement the project and sponsor willingness and ability to 
fund these potential requirements has not been determined.

    Question 10. How many residences, including those that are owner-
occupied and those that are occupied by someone other than the owner, 
would the Corps have to acquire to implement Alternative 6D?
    Response. Seventy-seven tracts include residences. Fifty-three of 
these are owner occupied and twenty-four are tenant occupied. Of the 
total, we estimate that only 10 residential tracks will have to be 
acquired by eminent domain.

    Question 11. Explain in detail why Alternative 6D relating to the 
8.5 SMA project is called the ``Buffer Plan'' in environmental 
documents?
    Response. Alternative 6D has been referred to as a buffer plan 
because the levee proposed in the 1992 report has been relocated 
eastward to higher ground elevations. This location represents the most 
definable break between short hydroperiod wetlands and traditional 
upland areas, thus creating a buffer between the wetlands and the 
majority of the current residents who would be able to remain in the 
Eight-and-One-Half Square Mile Area.

    Question 12. Explain what a ``buffer'' has to do with modifying 
water deliveries to Everglades National Park?
    Response. When waters are delivered to the park, the plan lessens 
the frequency of flooding of the residents who would remain and it 
decreases the effects of the seepage canal on restoration of natural 
water levels in the Everglades National Park (ENP) by moving the canal 
further to the east.

    Question 13. If Congress does not enact legislation to authorize 
Alternative 6D or otherwise direct the Corps' resolution of that issue, 
what courses of action can and will the Corps take to complete Modified 
Waters?
    Response. Without clarification of the Corps authority to proceed, 
I do not believe it is possible for the Corps to complete the project. 
We hope to receive this clarification either through congressional 
action or by pursuit of an appeal of the District judge's ruling.

    Question 14. Of the alternatives considered in the FEIS, what is 
the Corps' second choice after alternative 6D?
    Response. At the time the General Reevaluation Report was completed 
the alternatives were evaluated on functionality and were not ranked in 
order of priority.

    Question 15. What is the Corps' third choice?
    Response. The Corps did not choose one.

    Question 16. Does the FEIS state that each alternative, including 
Alternatives 1 and 2(b), meets the ecological goals of the Modified 
Waters project?
    Response. No, the FEIS does not cite that conclusion. Each 
alternative, including Alternatives 1 and 2(b) would meet some of the 
ecological goals of the Modified Water Deliveries project. Alternatives 
1 and 2B both performed better than the 1995 base condition that all 
alternatives were measured against. However, the recommended plan 
provides the greatest degree of environmental benefits for the lowest 
cost among all the alternatives considered.

    Question 17. Is it accurate to say that Alternative 6D will cost 
about $58,000,000 more than Alternatives 1 or 2(b)?
    Response. The difference between Alt 1 and 6D is $57.5 million and 
between Alt 2(b) and 6D is $54.2 million.

    Question 18. Why should the Federal Government force families to 
leave their homes and have the taxpayers pay for an incomplete flood 
protection alternative that costs $58 million more than a plan that 
provides full flood protection, meets the ecological goals of Modified 
Waters, and forces no one from their homes?
    Response. Residents in the 8.5 SMA do not have flood protection 
now. Those residents living below the 6.5-foot elevation are subject to 
frequent, often annual flooding. All of the alternatives provide the 
residents with flood mitigation for the higher flows of water from the 
MWD project. But, this mitigation will not improve the existing problem 
areas. The Army does not believe it prudent to spend millions of 
dollars and yet still leave those residents in a low area that will 
ultimately cause pressure to reduce water levels when restoration calls 
for higher levels.

    Question 19. If it is not accurate to say that Alternative 6D will 
cost $58 million more than Alternatives 1, and 2(b), why is that so?
    Response. Alternative 6D is estimated to cost $57.5 million more 
that Alternative 1 and $54.2 million more than Alternative 2(b).

    Question 20. What are the cost estimates of these alternatives?
    Response. Alternative 1 is estimated to cost $30.5 million, 
Alternative 2(b) is estimated to cost $33.8 million, and Alternative 6D 
is estimated to cost $88.1 million.

    Question 21. If you estimate the cost for Alternative 6D--which 
requires substantial property acquisition--is similar to or greater 
than the costs of the other alternatives--which do not--explain why and 
provide a detailed explanation of the basis for your cost estimates.
    Response. The 2000 General Reevaluation Report provides a good 
summary of the Alternative analysis completed during the study, 
including a breakdown of project costs. A copy of that summary (Table 
ES-1) is attached.

    Question 22. What has the Department of the Interior (``DOI'') told 
the Corps about whether DOI will release funds for the project if the 
Corps pursues Alternatives 1 or 2(b)?
    Response. To date, the Corps has not received any formal 
communication from the Department of the Interior on funding 
Alternative 1, the 1992 plan. However, on December 24, 1998, Richard 
Ring, then the Superintendent of the Everglades National Park indicated 
in a letter that he could not recommend funding Alternative 1, and I 
quote ``I cannot recommend that the Department of the Interior furnish 
the funding for the current mitigation component (the 1992 plan for the 
8.5 Square Mile Area) of the Modified Water Deliveries Project,'' end 
quote. Funding for Alternative 2(b) has not been discussed.

    Question 23. What has the DOI told the Corps about whether DOI will 
release funds for any alternative other than Alternative 6D?
    Response. The Department of the Interior has not contacted the 
Corps about funding any alternative, except Alternative 6D, which it 
has supported through recent budget submissions and funding.

    Question 24. Is one of the reasons that the Corps selected 
Alternative 6(d) that the Department of the Interior resisted funding 
Alternative 1?
    Response. The Department of the Interior, along with the South 
Florida Water Management District, our local sponsor on the project, 
did not support Alternative 1 and requested that the Corps evaluate a 
full array of alternatives.

    Question 25. What, if any, other obstacles exist to implementation 
of Alternatives 1 or 2(b)?
    Response. Implementation of Alternatives 1 or 2(b) would require 
clarification of the Corps' authority, completion and approval of a new 
decision document, a local sponsor, and project funding.

    Question 26. What are the hydrological differences between taking 
no action (no modified water deliveries) on the one hand, and adopting 
Alternative 1, Alternative 2(b), or Alternative 6D on the other hand. 
Specifically address for each alternative:
    How much more water will there be and where will that water be?
    How much of the additional water will be in the Park and how much 
will be outside of the Park?
    What measurable difference will that extra water make for plants, 
wildlife, and other environmental indicators?
    Where exactly will those measurable differences occur?
    What is the measurable ecological significance of those 
differences?
    Response. The table provided for the record in response to an 
earlier question summarizes the effects of each alternative in meeting 
the objectives of the analysis using various performance measures to 
evaluate those effects. Effects are not specifically identified as 
being inside or outside park boundaries. However, just as environmental 
deterioration outside the park can have a deleterious effect on park 
resources, the environmental improvements noted will have an impact 
both inside and outside the park.

    Question 27. Would building the levee and seepage canal another 
mile to the east in the 8.5 SMA change the hydrological results? Would 
acquiring the entire 8.5 SMA and constructing no flood protection 
change the hydrological results?
    Response. Yes. Each alternative evaluated in the General 
Reevaluation Report produces different hydrologic results.

    Question 28. When the Corps measures the costs and benefits of this 
project, how does it value hydrological benefits?
    Response. Hydrologic benefits are established through a comparison 
of depth, duration, seasonal variability and hydroperiod for an 
alternative against the conditions which existed in 1995. The 1995 
conditions were the existing conditions resulting from the authorized 
operating plan in effect at the time the General Reevaluation Report 
was initiated. These comparisons are presented in detail in the table 
provided for the record mentioned earlier.

    Question 29. How does it measure the costs of removing a person or 
family from their home?
    Response. The cost of acquiring an interest in property is based 
upon a fair market value analysis of that property, plus any relocation 
benefits which may be due the property owner.

    Question 30. What value does it place on allowing a family to 
remain in their home protected from flooding?
    Response. The costs of providing flood protection for a property 
are determined through an analysis of the projected construction costs 
of an alternative and associated real estate interests required to 
provide a specified level of protection. These costs are then compared 
to the expected benefits of providing that protection.

    Question 31. Did Madeleine Fortin check with the Corps before she 
bought her home in September 1994? What was she told?
    Response. The Corps does not maintain records of inquiries by 
potential property buyers, so I do not know if she contacted the Corps 
or not.

    Question 32. Was the Mod Waters project to start in 1992 with 
completion no later than 1997?
    Response. The 1992 General Design Memorandum projected a completion 
date of June 1997.

    Question 33. Have many of the families in the 8.5 SMA been flooded 
in feet of water for months at a time almost every year since 1994?
    Response. Homes in this area were built outside the flood 
protection levee and canals system and are reported to have experienced 
periodic flooding for many years. However, the depth and duration of 
those flood events are not well documented.

    Question 34. Was the original congressionally approved plan to cost 
$39 million?
    Response. In the 1992 General Design Memorandum, the project cost 
estimate was $85.6 million.

    Question 35. Would the original congressionally approved plan have 
avoided removing families from their homes when families want to stay 
in their homes?
    Response. Alternative 1 required acquisition of property that 
included 1 residential tract.

    Question 36. Did the South Florida Water Management District at one 
time try to get the county to cutoff all electricity to the community?
    Response. The Corps of Engineers has no record of this action.

    Question 37. Were Metro Dade zoning regulations changed in the 
1980's to prohibit new construction on parcels smaller than forty 
acres?
    Response. The Corps does not have any record of this either.

    Question 38. Are many holdings in the 8.5 SMA less than 5 acres?
    Response. The majority of tracts are less than 5 acres. I will 
provide an estimated breakdown of tract acreage to be acquired for 
Alternative 6D for the record.
    [Information provided below:]
    <bullet>  No. of. Tracts with <5.0 acres of land = 570
    <bullet>  No. of Tracts with 5.0 acres of land = 151
    <bullet>  No. of Tracts with >5.0 acres of land = 49

    Question 39. Does the county deny responsibility for the roads in 
the 8.5 SMA, calling them private roads?
    Response. The Corps has no record of the county's position on 
responsibility for the roads.

    Question 40. Does Metro Dade collect property taxes from the 8.5 
SMA residents?
    Response. The Corps has no knowledge of the county's tax collection 
records.

    Question 41. What services does Metro Dade provide?
    Response. The Corps is not familiar with services provided by 
Miami-Dade County.

    Question 42. Has Metro Dade blocked attempts by unincorporated 
areas to incorporate?
    Response. The Corps does not have records on local issues of this 
type.

    Question 43. Have fire trucks been impeded from saving burning 
home(s) by having to travel a very slow mile through 2 feet of water?
    Response. The Corps does not have records on local issues of this 
type.

    Question 44. Have there been more than $1 billion in flood-related 
losses and 14 deaths from preventable flooding throughout the urban and 
agricultural areas of the county?
    Response. The Corps does not have records on flood damages in this 
area.

    Question 45. Has anyone from the Corps or the Water Management 
District been disciplined over the flooding?
    Response. I am not aware of any records of any disciplinary action 
concerning flooding in the Eight-and-One-Half Square Mile Area. Homes 
in the area were built outside the flood protection levee and canal 
system. The Central and Southern Florida Project is not designed to 
prevent flooding in the area. If the Corps were to operate the existing 
system to prevent flooding to the greatest extent possible, the result 
would only serve to further exacerbate environmental degradation that 
Modified Water Deliveries project is supposed to fix.

    Question 46. When approached to have the 8.5 SMA's secondary 
drainage canals connected to the main system, did a SFWMD official 
state, ``I will never give you a permit!''
    Response. The Corps has no record of any such discussion.

    Question 47. Did SFWMD vote to try to acquire the entire community, 
though they did not have the power to condemn land?
    Response. On December 8, 1998, South Florida Water Management 
District requested that the Army Corps of Engineers substitute full 
acquisition of the Eight-and-One-Half Square Mile Area as the locally 
preferred alternative to the mitigation component of the Modified Water 
Deliveries project. However, in April 1999, the District's Governing 
Board departed from their previous position and recommended that the 
Corps develop a full array of alternatives for providing mitigation 
without taking a position on a locally preferred option. It is my 
understanding that South Florida has condemnation authority for some 
projects, but I am not familiar with the limits to their authority.

    Question 48. Was this effort later described as a 
``miscommunication''?
    Response. The Governing Board changed its position, but I am not 
aware of a representation that the Board felt the December 1998 letter 
was a miscommunication.

    Question 49. Did one property owner write, ``I like to inform you 
that we do like to sell our land that in accordance with the 
regulations has become good for nothing?''
    Response. The Corps does not have this documentation in its Eight-
and-One-Half Square Mile Area files.
                                 ______
                                 
 Responses of R.L. Brownlee to Additional Questions from Senator Smith

    Question 1. The law states that the ``overarching objective'' of 
the Comprehensive Everglades Restoration Plan is the restoration, 
preservation, and protection of the South Florida ecosystem.
    Response. I agree.

    Question 2. Where in the programmatic regulations do you implement 
the language, clearly stated in the statute, that says restoration is 
overarching purpose of the Plan?
    Response. There are several places in the proposed rule, which was 
published on August 2, 2002, where we state that the overarching 
objective of the Plan is the restoration, preservation, and protection 
of the South Florida ecosystem. Specifically, this language is found in 
'385.8(b), '385.37(c), and '385.39(a)

    Question 3. How do the regulations protect the Federal interest in 
the project?
    Response. The draft regulations provide a number of interlinked 
processes to ensure that the Federal interest in the Plan is protected. 
First, each Project Implementation Report will identify the appropriate 
quantity, timing, and distribution of water dedicated and managed for 
the natural system and will identify the amount of water to be reserved 
or allocated for the natural system. Except for projects implemented 
under the additional program authority of WRDA 2000 which provided for 
approval by the Secretary of the Army, Project Implementation Reports 
will be submitted to Congress. The draft regulations provide that a 
Project Cooperation Agreement include a finding that the reservation or 
allocation of water for the natural system has been executed under 
State law and that any revision to the reservation or allocation will 
require revision to the Project Cooperation Agreement, including a 
verification that the revised reservation continues to provide the 
appropriate quantity, timing, and distribution of water dedicated and 
managed for the natural system. The draft regulations provide that 
Operating Manuals for the Plan must be consistent with the reservation 
or allocation of water for the natural system. Finally, the proposed 
regulations establish a process for developing interim goals and a 
means by which the restoration success of the Plan may be evaluated 
through the adaptive management program, including identification of 
management actions that may be necessary to improve performance in the 
event that goals are not met or are unlikely to be met.

    Question 4. What happens if a project has dueling alternatives, 
that is, one alternative that provides benefits primarily to the 
natural system and one that provides benefits primarily to the other 
water-related needs of the region? What assurances have you built into 
the regulations that the natural system takes precedence over the other 
water-related needs?
    Response. Alternatives will be selected for their contribution to 
the system-wide goals and purposes of the Plan. WRDA 2000 provides 
clear direction that the overarching objective of the Plan is the 
restoration, preservation, and protection of the natural system, while 
providing for other water related needs of the region. The draft 
programmatic regulations have incorporated this concept, providing that 
a guidance memorandum will be developed which addresses the 
identification of appropriate water quantity, timing, distribution and 
quality needed for the natural system in the Project Implementation 
Reports. This guidance, which requires concurrence of the Secretary of 
the Interior and the State, will be provided to all project delivery 
teams for their use in identifying alternatives to be considered that 
ensure the overarching objective of the Plan are realized.

    Question 5. Can you explain why the independent scientific review 
panel has not been established at this point, particularly considering 
the first report is due in December of this year? Can you give us an 
estimate as to when it will be set up?
    Response. The Department of the Army is consulting with the 
Department of the Interior, the State of Florida, and the South Florida 
Ecosystem Restoration Task Force in determining if using the existing 
Committee on the Restoration of the Greater Everglades Ecosystem, 
established in 1999 by the National Academy of Science, would be the 
best way to implement the requirements of WRDA 2000 for independent 
scientific review or if a new panel should be established. I expect 
that the recommendations of the Task Force will be forthcoming very 
soon, which should facilitate establishment of this panel in the near 
future.

    Question 6. When and where can we expect to see the first signs of 
restoration?
    Response. We are already seeing the first signs of restoration in 
the Kissimmee River area, which is the headwaters of the South Florida 
ecosystem, where approximately 14 miles of river have been restored. 
Although this project is not a part of CERP, it has provided valuable 
information for CERP. The results so far dramatically show how 
hydrologic changes are restoring the Kissimmee River ecosystem.

    Question 7. In your view, what is the greatest impediment to 
restoration at this point in the process? Where lies the greatest 
opportunity to ensure immediate results?
    Response. The greatest challenge I see to expeditious 
implementation of restoration efforts, from the perspective of 
congressional support, is timely clarification of authorizations and 
receipt of appropriations. Continued support of the Congress through 
timely appropriations and authorizations are key to keeping CERP on 
track. From the perspective of stakeholder level interests, the high 
levels of development pressure in many areas in south Florida continue 
to make it increasingly difficult to assure that land interests 
ultimately deemed necessary for the project will be available. In 
addition, I see challenges in maintaining a system-wide perspective by 
all stakeholders and not getting bogged down in maximizing individual 
interests at the project or issue level. I believe that successful 
implementation is dependent upon maintaining the win-win approach that 
was used during the development of the comprehensive plan.
                                 ______
                                 
    Responses of R.L. Brownlee to Additional Questions from Senator 
                               Voinovich

    Question 1. Over the years, the Corps' backlog of construction 
projects and maintenance activities throughout the Nation has grown. 
Furthermore, it is my understanding that the Corps has had to increase 
spending on security measures following the terrorist attacks. How has 
the Corps balanced its many priorities and projects, including the 
demands of the Everglades Restoration Plan, with its inadequate budget 
and funding levels?
    Response. The Corps has been working to prioritize projects and 
activities within the available Civil Works Program funding for a 
number of years. These efforts aim at assuring that those projects and 
maintenance activities that are most critical and meet National 
priorities receive adequate funding and are implemented in a timely 
manner. These efforts have included the identification of lower cost 
alternatives to be undertaken and the development of less expensive 
methods and tools to address priority needs. Lower priority projects 
and activities have been delayed or deferred. In addition, the Nation's 
priorities have changed over time, placing new or different demands on 
limited Federal funds. Such a change is the need to assure the security 
of this Nation from the impacts of terrorist attacks. An example of how 
we are addressing the Nation's priorities within the limited funds that 
are available now and in the foreseeable future for projects and 
activities for which the Corps has been given responsibility is the 
fiscal year 2003 budget request where we fully funded a number of 
projects that are clearly identified as meeting the Nation's highest 
priorities to allow them to move forward on their optimum schedule for 
implementation. This did result in slowing progress on many other 
projects that are needed but work continues on those also. We are 
working with our partners and other entities to identify funding and 
opportunities to integrate all available resources to address the 
identified needs.

    Question 2. Do you agree with some of the witnesses at the hearing 
and stakeholders who argue that interim goals should be developed as 
part of the programmatic regulations?
    Response. The Corps received a number of comments on this issue as 
a result of the public review of the draft rule for the programmatic 
regulations. Some commenters believe that the interim goals should be 
incorporated into the regulations while others believe that they should 
not be included. We are currently analyzing the public comment that was 
received on the proposed rule before we make a final decision on this 
issue. Regardless of whether the interim goals are included or not 
included in the final regulations, the interagency RECOVER team has 
begun working on developing interim goals.

                               __________
    Statement of Thomas Gibson, Associate Administrator for Policy, 
    Economics, and Innovation, U.S. Environmental Protection Agency

Introduction
    Good morning Mr. Chairman and members of the committee. I am Tom 
Gibson, Associate Administrator for Policy, Economics, and Innovation 
at the U.S. Environmental Protection Agency. As EPA's representative on 
the South Florida Ecosystem Restoration Task Force, I am pleased to be 
here on Administrator Whitman's behalf to discuss progress in restoring 
one of the nation's greatest and most unique natural resources--the 
Florida Everglades.
    Two years ago, Congress approved a $7.8 billion Comprehensive 
Everglades Restoration Plan (CERP) and, in doing so, launched what many 
are calling the largest restoration effort ever undertaken in the 
world. This ambitious and forward-looking agenda will enable progress 
toward a more sustainable South Florida and preserve an ecological 
treasure for generations to come.
    EPA is a strong supporter and active participant in making CERP 
work. Our goal is to maximize the environmental benefits of all 68 
strategic components. To that end, we are working with our sister 
agencies in the Federal Government, along with State and local 
governments, Indian Tribes, agriculture, and other stakeholders to 
address water quality, water quantity, and a host of other issues that 
affect ecological conditions. We offer technical, financial, legal and 
regulatory assistance to tackle the many challenges that must be 
overcome if the Everglades are to survive and flourish. We have set up 
a small office in South Florida that enables us to engage more fully 
and consistently on issues than could ever be expected from our 
national and regional locales.
    We also contribute to restoration efforts through ongoing 
responsibilities under the Clean Water Act, the Safe Drinking Water Act 
and other Federal laws. These ongoing tasks are not specifically 
referenced in CERP, but are vital to achieving progress in the 
Everglades and the larger South Florida region.
    I'd like to discuss the progress we are making in the Everglades 
through our work on CERP and our national environmental 
responsibilities. But first I'd like to provide some background on the 
ecological conditions that are driving our work and that of so many 
others.

Conditions in the Everglades
    It has been less than 2 years since CERP was approved. During that 
time we have laid the groundwork for restoration to proceed as 
envisioned. We are working well together and, no doubt, each agency 
could point out signs of progress. But the fact is we are still in the 
very early stages of what will be not just a multi-year, but a multi-
decade effort. Indeed, it took more than fifty years to get to where we 
are today, and it is reasonable to expect that it will take at least a 
similar timeframe to achieve our restoration goals.
    The conditions we observe in the Everglades today can be traced 
back to the middle of the last century. In 1948, the United States 
launched the Central and Southern Florida Project to provide water 
control for an 18,000 square mile area covering 16 counties. The goal 
was a laudable one--providing flood protection and urban and 
agricultural water supplies. That project fundamentally transformed 
South Florida, and created significant economic opportunities. But the 
environmental impacts have been significant.
    Today there are 6 million people living in the region, and the 
combined effects of population growth, water diversions and other 
stressors are severe. Only about half of the original Everglades 
remain. Water flow has dropped by 70 percent, and approximately 1.7 
billion gallons of water are lost to the ocean and gulf daily during 
the rainy season, degrading the estuaries as it passes through. There 
are 69 threatened or endangered species and a 90 percent reduction in 
wading bird populations. Water quality often violates State water 
quality standards, and one million acres of the ecosystem are under 
health advisories for mercury. High levels of nutrients are causing 
changes in the natural vegetation, and 1.5 million acres are infested 
with invasive exotic plants.
EPA Activities in Support of CERP
    EPA had a major role in the development of CERP, and we will 
continue to play an important role in its implementation. One of our 
first responsibilities is to provide input on the Federal regulations 
that will enable implementation to begin. These programmatic 
regulations, as they are known, will ensure that the CERP goals are 
achieved. Developed by the U.S. Army Corps of Engineers (the ``Corps of 
Engineers''), in concurrence with the Department of the Interior and 
the State of Florida, and in consultation with EPA and other Federal 
agencies, they are to be completed by the end of the year and are 
currently undergoing public comment.
    EPA is also a major partner in the development of performance 
targets for two-thirds of the 68 individual CERP components. We are 
assisting in the development of reclaimed water reuse criteria for 
several large wastewater treatment plants in Dade and Palm Beach 
Counties and in the review of individual projects under the National 
Environmental Policy Act.
    In addition, EPA is working with the State on the evaluation and 
permitting of Aquifer Storage and Recovery (ASRs) wells. These wells 
provide underground capacity for water storage, and can help replace 
the natural capacity that has been lost in the Everglades through years 
of draining and ditching. Restoring at least a portion of this storage 
capacity is essential to accommodating the region's water needs. To 
this end, CERP calls for use of more than 300 ASR wells.
    However, there are some issues we have to work through first. One 
relates to Federal requirements under the Safe Drinking Water Act. The 
waters being considered for storage are either surface waters or 
shallow groundwaters, and they may not meet all of the required 
drinking water standards. This is problematic because State 
regulations, consistent with Federal regulations for Underground 
Injection Control, require standards to be met prior to injection. 
Given the volumes of water proposed for storage--1.7 billion gallons a 
day--the treatment potentially required to meet those standards would 
be fairly expensive.
    In light of the potential environmental benefits associated with 
ASR well storage and the high costs of treating the water prior to 
injection, EPA agreed to utilize a ``risk based'' approach to 
permitting ASR wells in South Florida . Consideration is provided if 
the contamination in the waters is limited to coliform and similar 
microorganisms that could be expected to ``die off'' underground and 
not pose a risk to human health. EPA will work with the State to 
demonstrate how this approach meets the ``no endangerment'' language of 
the Safe Drinking Water Act and achieves the goal of the ASR storage 
effort. The Underground Injection Control program in the State, which 
has been approved by EPA, may have to modify its regulations before 
this new permitting approach could be used.
    The Corps of Engineers and the South Florida Water Management 
District are co-sponsoring pilot tests of ASR wells with EPA support. 
These wells are in various stages of development, with some having 
already been constructed. Our co-sponsors have also launched a regional 
study to evaluate the potential widespread impacts that a network of 
ASR wells could have on the region's surface waters, groundwater, and 
aquifers.

Other Contributions to Everglades Restoration
    As a member of the South Florida Ecosystem Restoration Task Force 
and through the normal course of running its national programs, EPA is 
working with its sister agencies and other stakeholders on additional 
issues that will enhance and accelerate restoration.

Phosphorous Reductions
    One priority is reducing phosphorous loads which can overload and 
overwhelm aquatic ecosystems. In compliance with the Florida Everglades 
Forever Act ( the ``EFA'') and a 1992 Consent Decree between the 
Federal Government, the South Florida Water Management District and the 
Florida Department of Environmental Protection (the ``Federal Consent 
Decree''), the State must propose a numeric phosphorus criterion by the 
end of 2003. The proposed criterion must be submitted to EPA for review 
and approval. In order for EPA to grant approval, we must find that the 
proposed criterion will provide adequate protection for Everglades 
waters.
    The Florida Department of Environmental Protection has initiated 
their rulemaking process, proposing a new criterion of 10 parts per 
billion (ppb) to their Environmental Regulation Commission (as required 
by State law) prior to submitting it to EPA. We anticipate this process 
will extend into 2003. EPA's Region IV office in Atlanta is actively 
working with the State to provide support and input regarding Federal 
Clean Water Act requirements for water quality standards adoption and 
approval.
    In addition, EPA is working with the South Florida Water Management 
District and the Corps of Engineers as they build and operate 
approximately 46,000 acres of wetlands, required by the EFA and the 
Federal Consent Decree, that can be used to reduce phosphorus and other 
contaminants from urban and agricultural runoff. The phosphorous 
concentrations from the already completed, but not yet optimized, 
Stormwater Treatment Areas (``STAs''), are in the 20 to 25 ppb range. 
EPA is funding research to find ways to lower those concentrations 
further and to investigate chemical-based treatment technologies.
    Under the Clean Water Act, EPA must review all NPDES permits issued 
by the State of Florida for STAs. While earlier permitting actions have 
been challenged, EPA, the State and many stakeholders have reached 
agreement on language that authorizes the discharges through 2006, and 
since then, challenges have been limited.

Wetlands Protection
    Loss of wetlands remains one of the biggest threats to the 
Everglades. The South Florida region is one of the fastest growing in 
the country, with numerous large residential and commercial 
developments in various phases of planning, permitting and 
construction. Because major portions of the region are composed of 
wetlands and critical habitats for endangered species, wetlands 
permitting has been receiving a great deal of attention by the 
regulatory agencies and other stakeholders.
    Under Clean Water Act Section 404, EPA will be reviewing all 
wetlands permits for Everglades restoration projects as well as for 
development in the South Florida area. EPA has been working with the 
Corps of Engineers on the development of special permitting review 
criteria to be used specifically in the Southwest Florida areas. We 
have also stationed two members of our South Florida office staff in 
Ft. Myers to work exclusively on wetlands issues.
    Having this presence enables us to actively engage with local 
organizations that are working on wetlands protection. For example, the 
Watershed Enhancement and Restoration Coalition is focusing on 
permitting issues, and was formed as a result of community interest in 
addressing cumulative impacts of multiple and large wetlands impacts in 
the region. Our participation is already producing benefits. Lee County 
has expressed a strong desire to work with EPA to add water quality 
treatment and compliance monitoring to their current projects and long 
term master plan.
    EPA is also working closely with the newly formed Southwest Florida 
Watershed Council, a partnership of public organizations and developers 
united to improve local and regional water quality conditions. The 
Council is currently focused on developing community support for a 
storm water utility to reduce the damaging effects of storm water 
discharges to coastal waters.

Mercury
    Another issue that we are working on is mercury contamination. We 
are finding that the highest mercury concentrations occur in remote 
portions of the Everglades, and that the major sources of contamination 
are rainfall and atmospheric dry deposition. The estimated 
contributions from local versus regional and global atmospheric mercury 
sources vary widely.
    To more accurately quantify these contributions and to better 
understand the ecological implications of mercury contamination, EPA is 
participating in a multi-year, Federal-State-private monitoring and 
research study. From 1989 to 1999, our partners contributed about $30 
million. Additional research is still underway. Not only are the 
results providing insight for addressing mercury contamination in South 
Florida, the research is providing valuable information that can help 
with Clean Water Act and Clean Air Act responsibilities nationally.

Florida Bay
    EPA is also actively involved in research that aims to restore 
Florida Bay. About eighty percent of this body of water lies within the 
Everglades National Park, and so restoration decisions made on the 
mainland will affect its condition. Up until the late 1980's, those 
conditions were very good. Characterized by clear waters and lush 
seagrass meadows, Florida Bay served as the principal inshore nursery 
area for Tortugas pink shrimp and provided critical habitat for 
juvenile spiny lobsters and stone crabs. The Bay also supported an 
extensive sport fishery and was home to a vast population of wildlife, 
marine animals, and wading bird populations. But over the past decade, 
numerous biological, chemical and physical changes have occurred that 
threaten the resource and its uses.
    EPA has been one of many Federal agencies supporting scientific 
research to advance our understanding of the ecosystem through the 
Florida Bay Program Management Committee. In 1994, this group developed 
an Interagency Science Plan that focused research efforts around a set 
of key issues. In 2001, a Florida Bay and Florida Keys Feasibility 
Study Team was organized in support of CERP. Its purpose is to 
determine the modifications that are needed to restore water quality 
and ecological conditions of the Bay, while maintaining or improving 
these conditions in the Florida Keys. Our interest is in coordinating 
scientific efforts in Florida Bay with research and monitoring in the 
Florida Keys, and in assuring that restoration efforts maintain or 
improve the Florida Keys ecosystem.

The Florida Keys
    EPA's responsibilities in the Florida Keys stem largely from the 
Florida Keys National Marine Sanctuary and Protection Act of 1990. The 
law requires EPA and the National Oceanic and Atmospheric 
Administration to collaborate on a Water Quality Protection Program for 
the area, which includes the United States' only living barrier reef. 
As required, EPA and the State are now working to implement that plan, 
and most of the monitoring, research, data management, and educational 
initiatives are being funded by EPA.
    Through 2002, EPA has contributed more than $10 million to this 
initiative. Many problems that hinder the Florida Keys are linked to 
significant wastewater treatment problems, and the price of addressing 
them may be quite high. Recognizing the severity of this need, we are 
working with our Federal, State, and local government partners to 
identify funds and other support that can be used to help Monroe County 
address its wastewater and stormwater management needs.

Closing
    In closing, EPA continues to fill a variety of roles to advance the 
cause of the Everglades restoration and protection. Believing that we 
are poised for significant progress, we are committed to working with 
our many partners that share the common vision of a healthy, thriving 
ecosystem. It is our hope that by working together we will see visible 
results in the near term and that our progress will lead other regions 
and governments to undertake ecologically significant restorations of 
their own.

                               __________
Statement of Ann R. Klee, Counselor to the Secretary, Department of the 
                                Interior

    Mr. Chairman, my name is Ann Klee. I am counselor to Secretary of 
the Interior Gale Norton and advise her on a wide range of natural 
resources and environmental issues, including the restoration of the 
Everglades. Additionally, Secretary Norton appointed me to serve as 
Chair of the South Florida Ecosystem Restoration Task Force, an 
interagency and intergovernmental entity established by Congress in the 
Water Resources Development Act of 1996 to coordinate the restoration 
of the south Florida ecosystem among Federal, State, tribal and local 
governments and the public.
    I am pleased to testify before the committee to discuss the 
important progress we are making to restore the Everglades. I would 
like to recognize the committee's leadership in authorizing the 
Comprehensive Everglades Restoration Plan (CERP or Comprehensive Plan) 
in the Water Resources Development Act of 2000 (WRDA 2000). Since that 
time, we have worked diligently to implement the assurances provisions 
of WRDA 2000 and undertake other important on-the-ground work in 
Florida to move us closer to our Everglades restoration goals.
    I want to underscore the Department of the Interior's (Department) 
commitment to Everglades restoration. It is one of our highest 
priorities. The National Park Service, the Fish and Wildlife Service 
and the United States Geological Survey will continue efforts to 
preserve and improve natural habitat; protect and recover endangered 
and threatened species; and obtain the best
    available science to inform our decisionmaking. As steward of 
nearly 50 percent of the remaining Everglades, a successful restoration 
program is an absolute necessity if future generations of Americans are 
to experience the wonder of one of the world's greatest natural 
resources.
    The South Florida Ecosystem Restoration Task Force has defined 
three broad goals for restoration of the Everglades: (1) getting the 
water right: that is, restoring a more natural water flow to the region 
while providing adequate water supplies, water quality and flood 
control; (2) restoring, preserving and protecting natural habitats and 
species; and (3) fostering compatibility of the built and natural 
systems. I would like to discuss how Interior's efforts during the last 
year are contributing to the collective efforts that are necessary to 
achieve these goals.

Implementing the Comprehensive Everglades Restoration Plan
    Since its enactment, we have worked closely with our Federal and 
State partners to begin implementation of the Comprehensive Plan and 
complete the assurances requirements of WRDA 2000. As you know, at the 
beginning of this year, the United States and the State of Florida 
executed a binding and enforceable agreement to ensure that water 
captured by implementation of the Comprehensive Plan will be reserved 
by the State from consumptive use consistent with information developed 
in the Project Implementation Report, indicating appropriate timing, 
distribution, and flow requirements sufficient for the restoration of 
the natural system.
    The agreement, signed by President George Bush and Governor Jeb 
Bush, represents a significant and lasting step toward achieving the 
goals and objectives of the Comprehensive Plan to supply water for the 
environment and other uses. The agreement requires the State to reserve 
water from consumptive use after the Army Corps of Engineers issues 
``Project Implementation Reports'' or ``PIRs.'' These PIRs identify the 
appropriate quantity, timing and distribution of water, on a project 
specific basis, that is necessary to restore the natural system. In 
addition, the State agrees to manage its water resources so that the 
water produced by implementation of the Comprehensive Plan will be 
available to restore the natural environment as promised. Finally, the 
State will monitor and assess the continuing effectiveness of the 
reservations to achieve the goals and objectives of the Comprehensive 
Plan. On the Federal side of the agreement, the Federal Government will 
propose appropriations to implement its share of the Comprehensive 
Plan; initiate authorized project planning and design; and develop 
information to support the adaptive assessment and management process. 
On a parallel track, the Department notes that the South Florida Water 
Management District (District) is moving quickly to develop the 
policies and procedures that are necessary at the State level to 
implement the water reservation and assurances requirements for the 
Comprehensive Plan. We are encouraged by this progress.
    In addition to these important steps, the programmatic regulations 
are well on their way toward completion with the official public 
comment period on the proposed draft ending on October 1. We appreciate 
the Army Corps' efforts to provide for a large amount of public input 
into the development of the draft regulations through a series of 
public meetings, including meetings of the Task Force, and the release 
of an initial draft of the regulations late last year. The Army Corps' 
process reflects, in our view, a successful effort to achieve the 
necessary consultation and communication among all the parties that is 
necessary to achieve the conservation results required by WRDA 2000. As 
Secretary Norton stated earlier this year, long-term collaboration is 
the key to the success of our Everglades restoration efforts. The 
process used to develop the draft programmatic regulations is a good 
start toward the collaborative effort that will be necessary to 
implement the Comprehensive Plan's individual project features.
    As you know, WRDA 2000 requires the Secretary of the Interior and 
the Governor of Florida to concur in the issuance of the final 
programmatic regulations. Generally, we believe the draft regulations 
now undergoing public review are consistent with WRDA 2000 
requirements, which include: (1) providing for the development of 
projects and project related documents to ensure achievement of the 
goals and objectives of the Comprehensive Plan; (2) integrating new 
information into the Comprehensive Plan through principles of adaptive 
management; and (3) ensuring the protection of the natural system.
    Key provisions of the draft programmatic regulations ensure both a 
strong Departmental voice in the restoration process, as well as the 
necessary interagency collaboration. Provisions requiring concurrence 
of the Secretary of the Interior and the Governor include the following 
six Army Corps guidance memoranda: (1) the format and content of 
Project Implementation Reports (PIRs); (2) instructions for Project 
Delivery Team evaluation of PIRs; (3) guidance for system-wide 
evaluation of PIR alternatives; (4) the content of operating manuals; 
(5) directions for RECOVER (interagency scientists) assessment 
activities; and (6) instructions in PIRs to identify the appropriate 
quantity, timing and distribution of water to be dedicated and managed 
for the natural system. Additionally, the Department has a strong role 
supporting interagency science efforts in implementing the 
Comprehensive Plan. The Department serves as a member of the RECOVER 
leadership group and co-chair of 4 of the 6 RECOVER sub-teams that have 
been established to date, and the draft regulations propose that this 
role continue. Overall, the Department's role reflects the partnership 
approach of WRDA 2000 and ensures that our technical expertise will be 
incorporated early in the planning process.
    In addition to having a strong role in developing the guidance 
memoranda, the Department will have a concurring role in developing the 
pre-CERP base line, which will establish the hydrologic conditions in 
the South Florida ecosystem that existed on the date of enactment of 
WRDA 2000. Establishing a pre-CERP baseline will be the basis for 
calculating future project benefits, thereby ensuring achievement of 
restoration objectives. The pre-CERP baseline is also integral to 
implementing WRDA 2000's savings clause requirements, which protect a 
number of different legal sources of water, including legal sources for 
Everglades National Park and fish and wildlife.
    Lastly, to ensure the protection of the natural system, the 
Department, the Army Corps, and the State of Florida will jointly 
establish interim goals. Interim goals are key to monitoring and 
evaluating restoration success. The draft regulations propose a process 
where RECOVER (interagency scientists) will develop interim goals as 
measurable hydrologic targets, anticipated ecological responses and 
water quality improvements. Next, the draft regulations propose that 
the Department, the Army, and the State of Florida execute an interim 
goals agreement to establish an initial suite of interim goals, with 
public notice and comment, by December 2003. This approach ensures the 
most recent and best available science will be used to develop the 
interim goals. We believe it is appropriate for RECOVER to continue its 
update to the performance measures for Everglades restoration and, in 
doing so, consider all available information, including updated 
hydrologic information and models and ecological baseline data.
    Overall, the draft programmatic regulations lay a solid regulatory 
foundation to guide the implementation of the Comprehensive Plan over 
the next four decades. Further, the draft regulations provide measures 
of accountability to safeguard the Federal tax-payer's investment in a 
restored Everglades. The Army Corps has strived to develop regulations 
that provide agencies with the necessary flexibility to adapt to 
changing circumstances and principles of adaptive management embraced 
by the Comprehensive Plan, while at the same time prescribing 
procedures to ensure consistency of restoration objectives among all 
the components of the Comprehensive Plan. Together with the binding 
agreement between the United States and the State of Florida, the 
programmatic regulations represent a complete package of legal 
assurances to achieve a restored Everglades. We look forward to 
continuing our collaboration with the Army Corps through to the final 
issuance of the regulations.

Efforts to preserve and protect natural habitat
    In addition to supporting measures to increase water supplies for 
the environment, the Department is actively implementing other actions 
to preserve and protect Everglades habitat.
    These include acquiring State and Federal lands for habitat 
protection and improvement and eradicating invasive exotics. I am 
pleased to report that we have nearly completed acquiring the lands for 
the East Everglades expansion area of Everglades National Park, an 
effort that began over a decade ago. Once that acquisition is fully 
complete, the park will begin updating its general management plan to 
ensure the permanent protection and preservation of this important 
resource.
    Earlier this year we announced an agreement in principle to acquire 
the mineral rights under Big Cypress National Preserve, Florida Panther 
National Wildlife Refuge, and Ten Thousand Islands National Wildlife 
Refuge from Collier Resources Company. This action will ensure long 
term conservation of the western Everglades and safeguard the $8 
billion taxpayer investment in the Comprehensive Plan by avoiding the 
surface disturbance that would accompany oil and gas development. The 
acres affected by the agreement are home to several endangered and 
threatened species, including the Florida panther, American crocodile, 
red-cockaded woodpecker, and manatee. We are presently working out the 
details of a final acquisition agreement, which we hope to complete 
very soon.
    Equally important to our own efforts is our financial partnership 
with the South Florida Water Management District (District) to acquire 
lands for Everglades restoration purposes. Land is the single biggest 
physical constraint to the implementation of the Comprehensive Plan, as 
the District must acquire about 110,000 acres over the next 5 years at 
an estimated cost of $920 million, or $184 million per year. Since 
1996, the Department has contributed approximately $320 million to the 
District for the purpose of acquiring high priority lands for the 
Comprehensive Plan, including the Talisman and Berry Groves 
acquisitions. Later this month, I expect Secretary Norton to approve 
another $15 million grant to the District for the purchase of high 
priority projects supporting the Comprehensive Plan, including the 
Indian River Lagoon and the East Coast Buffer/Water Preserve Areas. The 
Indian River Lagoon features are intended to reduce the impact of 
watershed runoff to estuaries by reducing the number and frequency of 
high volume discharges from Lake Okeechobee through drainage canals and 
restoring historic flow patterns of the river. Similarly, the East 
Coast Buffer is important to establishing a lineal transition between 
Everglades habitats to the west and urban developed areas to the east.
    Another significant milestone in our ongoing effort to preserve and 
protect habitat was the signing of a new license agreement with the 
District for the A.R.M. Loxahatchee National Wildlife Refuge. The new 
license agreement, which was completed in July, includes additional 
commitments to take aggressive action to reduce infestations of Old 
World climbing fern, melaleuca, and other invasive exotic species. 
Efforts to eradicate invasive exotics on other Interior-managed lands 
continue.

Protection and recovery of threatened and endangered species
    Over the last decade the Fish and Wildlife Service has been 
actively cooperating with other Federal, State, tribal and local 
agencies and expert scientists in ensuring protection for the 69 
threatened and endangered species that make the Everglades their home. 
The Fish and Wildlife Service is employing a landscape-level approach 
to reverse the decline of threatened and endangered species and 
implement the steps necessary to conserve both the species and the 
habitat upon which they depend. This approach is exemplified by a 
comprehensive recovery initiative, called the Multi-Species Recovery 
Plan for the Threatened and Endangered Species of South Florida (MSRP).
    Implementation of the MSRP emphasizes multi-party cooperation and 
the use of the best available science; it has already benefited 
numerous species. For example, in cooperation with the Florida Keys 
community, the Fish and Wildlife Service established the National Key 
Deer Wildlife Refuge to protect habitat for the endangered Key deer. 
Using additional funds supplied by the Department earlier this year, 
the Service will translocate one deer population from the core area on 
Big Pine Key to achieve the MSRP goal of three stable populations. If 
successful, this effort will result in the reclassification of the deer 
from endangered to threatened. In conjunction with this effort, the 
Service is cooperating in the preparation of a Habitat Conservation 
Plan (HCP) for the Key deer which will provide added protection for 
this species and certainty to the residents of the Florida Keys for 
building permits, infrastructure improvements and road construction.
    In another example, the Service has been working in cooperation 
with expert scientists to augment the Keys population of the endangered 
Schaus swallowtail butterfly. This effort includes a captive breeding 
program, habitat preservation initiative, and the use of Safe Harbor 
agreements. These agreements are established in cooperation with 
private land owners to enhance habitat for the species while protecting 
the private landowners from any increase in regulatory burden from 
increased numbers of endangered species on their property.
    Other threatened and endangered species conservation efforts 
include development of large-scale HCPs for the conservation of the 
Florida scrub-jay and three species of sea turtles in cooperation with 
Indian River and Sarasota counties and a landscape approach to 
conservation of the endangered Florida panther utilizing a recognized 
panel of experts. To date, the panel has identified all land in south 
Florida south of the Caloosahatchee River that is essential for the 
continued conservation of panthers in this region, as well as a 
landscape linkage to provide for population expansion. As a result of 
this effort, the Service is working with the State and private partners 
to develop conservation incentives for landowners.

Obtaining the best available science to guide management decisions
    The Department's bureaus have been long-term partners with other 
Federal and State agencies, tribes, and local governments in developing 
water-related, geologic, biologic, land use and mapping studies 
contributing to the long-term viability and restoration of the 
Everglades. As the restoration effort proceeds, we have an obligation 
to ensure that we use the best available science in managing our 
programs and resources. Fiscal accountability also demands that we 
focus our science on the questions that need to be answered to achieve 
Everglades restoration goals. We are taking a number of actions to 
achieve these results. For example, earlier this year the National Park 
Service, Fish and Wildlife Service and the U.S. Geological Survey 
entered into a memorandum of understanding to integrate and facilitate 
coordination of agency science programs to obtain the best available 
research products and monitoring and assessment tools responsive to the 
needs of our land management agencies. To facilitate implementation and 
coordination of our science, the U.S. Geological Survey will be leading 
a multi-agency and tribal Science Coordination Council consisting of 
senior managers from each relevant bureau within the Department, the 
State, and the tribes. The council will be responsible for identifying 
priority science-related management questions and for ensuring science 
coordination with our multiple greater Everglades restoration partners.
    In addition, the U.S. Geological Survey is developing an overall 
science plan supporting restoration of the greater Everglades 
ecosystem. The science plan will improve our ability to manage our 
science program in concert with our Federal and State partners. We 
expect to have a draft of this science plan available for review very 
soon.
    Most importantly, we are committed to implementing the independent 
science provisions of WRDA 2000. Discussions are underway at the 
Federal level and we look forward to working with our State partners 
and the Task Force to set up the independent science review panel 
required by WRDA 2000.

Modified Water Deliveries Project
    As the committee is aware, WRDA 2000 requires completion of the 
Modified Water Deliveries project before construction funds are 
appropriated for certain Comprehensive Plan elements, including the 
Water Conservation Area 3 Decompartmentalization project. As envisioned 
by Congress in the 1989 Everglades National Park Protection and 
Expansion Act, the Modified Water Deliveries Project is crucial to 
restoring more natural water flows for the 110,000 acres of East 
Everglades habitat that were added to Everglades National Park, thereby 
ensuring the ecological integrity and long-term viability of park 
resources. The completion of the Modified Water Deliveries project is 
on hold due to litigation. Completion of that project will safeguard 
the Federal taxpayers' $104 million investment in acquiring the East 
Everglades, as well as the $160 million expended to date to implement 
the Modified Water Deliveries project, and is consistent with future 
actions to be undertaken under the Comprehensive Everglades Restoration 
Plan.

South Florida Ecosystem Restoration Task Force
    Finally, speaking as Chair of the South Florida Ecosystem 
Restoration Task Force, I would like to briefly describe how the Task 
Force is contributing to the restoration effort. This month the Task 
Force will be publishing its revised Strategy for Restoration of the 
South Florida Ecosystem and Biennial Report to Congress, the second of 
such reports. I am pleased to provide the committee with pre-
publication copies of this document, which updates information 
submitted by the Task Force in July 2000 and describes the restoration 
and coordination efforts of the Task Force member entities.
    During the last year, the Task Force provided a constructive forum 
to discuss development of the Army Corps' programmatic regulations. We 
devoted several Task Force meetings in South Florida and Washington, 
DC. to key elements of the regulations, including interim goals and the 
pre-CERP baseline. Future Task Force meetings will focus on the 
independent scientific review required by WRDA 2000, continued 
development of our land acquisition strategy, and flooding issues. The 
Task Force provides an effective forum for candid discussions of 
differing views. It is my hope that the Task Force will continue to 
provide a forum for collaborative decisionmaking and public input on 
Everglades restoration.
    In closing, Mr. Chairman, I believe we have an historic opportunity 
before us to save a national treasure for future generations, while 
also ensuring south Florida's future viability. Certainly, this is an 
environmental project of unprecedented scope and scale. Congress itself 
recognized the uncertainties involved in such an undertaking. The 
Comprehensive Plan envisions the use of new technologies; equally 
significantly, it provide for the application of adaptive management to 
address those uncertainties.
    We will face many challenges over the next several decades as we 
implement the Comprehensive Plan, but we are well positioned to 
succeed. First, we have a high degree of collaboration among the State 
of Florida, the Federal Government, and concerned citizens. We have 
forums, including the Task Force and the South Florida Water Management 
District's Water Resources Advisory Commission, to share ideas, develop 
common and consistent restoration policies, and resolve problems before 
they create insurmountable road blocks to progress. Second, we have 
developed important legal assurances, including the binding assurances 
agreement and the programmatic regulations, to guide our efforts to 
achieve our Everglades restoration goals. Third, the work to implement 
the specific project features authorized by WRDA 2000 is underway. We 
have made progress toward implementing specific project features by 
forming the project delivery teams and acquiring the necessary lands. 
Finally, efforts to improve water quality are underway; habitat is 
being protected and restored; and we are taking action to recover 
species.
    In the last decade alone, the Federal and State governments have 
made significant progress on the road to a renewed Everglades, 
indicating that we have the tools to achieve restoration success. We 
need to encourage and continue the dialog among all the affected 
parties and entities that wish to restore the Everglades. Working 
together, we can and will achieve our Everglades restoration goals. As 
Secretary Norton noted earlier this year, long-term collaboration is 
the key to our success.
    Mr. Chairman, this concludes my statement. Thank you for the 
opportunity to address the committee on this important effort. I am 
pleased to answer any questions you or the other members of the 
committee may have.
   Responses of Ann Klee to Additional Questions From Senator Graham
    Question 1. Can you describe what will happen to the Everglades if 
no action is taken on CERP?
    Response. Based on information contained in the Restudy and ongoing 
scientific assessments in the South Florida, the natural system will 
continue to decline if no action is taken to implement the 
Comprehensive Everglades Restoration Plan (CERP or Plan). The 
degradation of the natural system could contribute to water shortages, 
causing negative effects throughout the South Florida ecosystem, 
including coastal and marine areas. Impacts to the natural system, 
while potentially considerable would be but one result, as local 
economies may be affected, and it could result in inadequate flood 
protection.
    Specific examples of the impacts to wildlife and park resources if 
CERP is not implemented include an inability to improve the quantity, 
timing and distribution of water to Everglades natural areas, many 
coastal estuaries and other areas such as the Florida Keys National 
Marine Sanctuary. This will continue present degraded conditions, which 
continue to result in loss of Everglades and other habitats over wide 
parts of the ecosystem. Additionally, if no action is taken to restore 
natural hydroperiods, then our ability to take action to recover the 68 
threatened and endangered species that reside in the Everglades will be 
diminished.
    In terms of Everglades National Park alone, increased volumes of 
flow into the park are expected to reestablish about 75 percent of 
predrainage volumes of water flows into the park and the downstream 
estuaries. Anticipated ecological responses to increased duration of 
hydroperiods into the Shark River Slough Basin should improve the 
diversity and abundance of fish and macroinvertebrates in the marsh, 
thereby reestablishing population and distribution patterns of wading 
birds, freshwater fish and invertebrates and alligators in freshwater 
wetlands and estuaries. Additionally, increased volumes of water, with 
appropriate timing and distribution, should also assist in restoring 
the ridge and slough patterns in the historic Everglades habitat and 
increase the spatial extent of peat-forming aquatic plant communities 
in Shark Slough while sustaining the number and diversity of tree 
islands.
    Similarly, by reducing the devastating pulses of water to the 
coastal estuaries and capturing water that is presently flushed to 
tide, CERP implementation promises to reestablish seasonal, climate-
based patterns of salinity in coastal estuaries and bays, thereby 
enabling coastal ecosystems to regain their historic role in supporting 
large wildlife and fish populations. This is extremely important for 
federally designated conservation areas including the Florida Keys 
National Marine Sanctuary, Biscayne National Park and Florida Bay, 
which is part of Everglades National Park.
    Lastly, CERP efforts that target seepage management along the L-31 
North levee should improve water deliveries to Everglades National 
Park, thereby restoring wetland hydropatterns and habitat for a variety 
of species. Similarly, if CERP decompartmentalization features to 
reestablish ecological and hydrological connections between Water 
Conservation Area 3A and 3B and Everglades National Park and Big 
Cypress National Preserve are delayed, then the ability to restore 
habitat and recover species will be unrealized.

    Question 2.  What actions does Congress need to take in the near 
and distant future to move the CERP forward?
    Response. To move CERP forward it is important that Congress 
appropriate requested funds to the U.S. Army Corps of Engineers (Corps) 
so that the initial suite of authorized projects may move forward. 
Additionally, it is important that Congress appropriate requested funds 
to the Department of the Interior (Department), the Department of 
Commerce (National Oceanic and Atmospheric Administration), and other 
Federal agencies involved in the CERP effort, including requested funds 
for land acquisition assistance to the State of Florida. Other 
necessary future actions include providing legislative authorization 
for future projects and appropriate congressional oversight.

    Question 3.  Can you describe your view of the role of Interior as 
described in the programmatic regulations?
    Response. The Department's role in the proposed programmatic 
regulations is consistent with the Water Resources Development Act of 
2000 (WRDA 2000). Interior Department agencies will be involved early 
in the planning process and throughout CERP implementation so that the 
restoration goals of the Plan will be realized. As steward of nearly 50 
percent of the remaining historic Everglades, the Department's resource 
agencies -- the National Park Service, Fish and Wildlife Service and 
the U.S. Geological Survey -- are full partners in the restoration 
effort. The role provided Departmental agencies under the programmatic 
regulations will result in the consideration and incorporation of their 
special expertise.
    The Department will also jointly develop and adopt, along with the 
State of Florida and the Department of the Army, interim goals by which 
the restoration success of the Plan may be evaluated. The proposed 
programmatic regulations require interim goals to be expressed as 
hydrologic indicators and anticipated ecological responses and adopted 
in a three party agreement by December 2003, thereby allowing the best 
available science to be used in developing the goals through an 
inclusive public process.
    The Secretary of the Interior (Secretary) is provided a concurrence 
role on six guidance memoranda. These guidance memoranda include: 
general format and content of the Project Implementation Reports (PIR); 
instructions for Project Delivery Team evaluation of alternatives 
developed for PIRs, their cost effectiveness and impacts; guidance for 
system-wide evaluation of PIR alternatives by restoration, 
coordination, and verification (RECOVER); general content of operating 
manuals, general directions for the conduct of the assessment 
activities of RECOVER; and instructions relevant to PIRs for 
identifying the appropriate quantity, timing, and distribution of water 
dedicated and managed for the natural system.
    In addition, the Department will have a concurrence role on the 
proposed pre-CERP baseline, which will describe the hydrologic 
conditions in the South Florida ecosystem that existed on the date of 
enactment of WRDA 2000. The pre-CERP baseline will serve as a benchmark 
upon which progress toward restoration will be evaluated.
    Moreover, the regulations give the Department an important 
consulting role throughout implementation of the program including, 
among other things, participation on Project Development Teams; 
membership on the RECOVER leadership team and consultation on the 
following: development of the Adaptive Management Program; selection 
and revision of hydrologic models; development of Project Management 
Plans; development of Project Implementation reports; development of 
Operating Manuals; development, review and revision of changes to the 
Master Implementation Sequencing Schedule; recommending and developing 
Comprehensive Plan Modification Reports; and developing means for 
monitoring progress toward other water-related needs of the region as 
provided in the Plan. Finally, the role of science has also been 
strengthened and the Department will participate in the establishment 
of an independent scientific review panel to review the Plan's progress 
toward achieving the natural system restoration goals.
    Overall, the Department believes the programmatic regulations meet 
the intent of WRDA 2000 and provide a strong role for the Department 
through every phase of CERP planning, implementation, and evaluation.

    Question 4.  Can you describe the impacts on Interior landholdings 
impacted by Everglades restoration if no action is taken?
    Response. As noted above, based upon information in the Restudy and 
ongoing scientific assessments in South Florida, if no action is taken 
to restore the Everglades, the ecological health of the lands managed 
by Departmental bureaus will likely continue to deteriorate to the 
point where the lands and the resources located there are not 
sustainable for the future. Without action to increase the quantity of 
water, with appropriate timing and distribution, for environmental 
purposes, the habitat and the functional quality of habitat managed by 
the Department will continue to be degraded and native plants and 
species abundance and diversity will continue to decline.

    Question 5.  Can you describe your communication with Corps during 
development of the regulations? Has it been adequate?
    Response. Since the release of an initial draft of the regulations 
on December 28, 2001, the Department has worked closely with the Corps, 
the State of Florida, and other stakeholders to ensure that the 
regulations achieve the primary Federal interest in the Plan: 
restoration of the natural system. We are pleased with the continuing 
cooperation between the Army and the Department, and believe that we 
can successfully work together to achieve the best result in the 
programmatic regulations.

    Question 6.  How do you see the role of the Task Force evolving 
with the heavy dependence on RECOVER during Plan implementation? Is the 
body still needed?
    Response. The Task Force is an important forum to share ideas, 
develop common and consistent restoration policies, and resolve 
problems before they create insurmountable roadblocks to progress. As 
proposed in the programmatic regulations, the Task Force will continue 
to provide a constructive and effective forum for collaborative 
decisionmaking and public input on Everglades restoration.
    As established by Congress, the Task Force is comprised of the 
Departments of Interior, Commerce, Army, Justice, Transportation, and 
Agriculture, and the Environmental Protection Agency, as well as the 
Seminole and Miccosukee Tribes of Florida, the Office of the Governor 
of the State of Florida, the Florida Department of Environmental 
Protection, the South Florida Water Management District, and two 
representatives of local governments. A major aspect of the CERP 
outreach program is seeking input from the public and other 
stakeholders on CERP development and implementation. Throughout the 
duration of CERP implementation, the Task Force and its Florida based 
Working Group will be utilized as a means for RECOVER and the CERP 
Project Delivery Teams to provide information to member entities and 
the public.
    Another important role of the Task Force is to coordinate 
scientific and other research associated with the restoration of the 
South Florida Ecosystem. The Task Force is also addressing the issue of 
scientific uncertainties inherent in the CERP through a strategic 
approach of organization of science staff from cooperating agencies and 
independent peer review of science programs and applications.

    Question 7.  Can you provide for the record a list of the Federal 
holdings involved in Everglades restoration?
    Response. The Federal Government manages a significant portion of 
lands in the South Florida ecosystem that will be affected by 
Everglades restoration efforts. For example, the Department's holdings 
in South Florida include four national parks and 15 national wildlife 
refuges (NWR), including Everglades National Park; Dry Tortugas 
National Park; Biscayne National Park; Big Cypress National Preserve; 
Arthur R. Marshall Loxahatchee NWR; J.N. ``Ding'' Darling NWR; Island 
Bay NWR; Pine Island NWR, Caloosahatchee NWR; Matlacha Pass NWR; 
Florida Panther NWR; Ten Thousand Islands NWR; National Key Deer NWR; 
Great White Heron NWR; Key West NWR; Crocodile Lake NWR; Pelican Island 
NWR; Archie Carr NWR; Lake Wales Ridge NWR; and Hobe Sound NWR.
    Other Federal holdings include Florida Keys National Marine 
Sanctuary, Key Largo National Marine Sanctuary, Looe Key National 
Marine Sanctuary and Rookery Bay National Estuarine Research Reserve.

    Question 8.  What is the status of the independent scientific 
review called for in WRDA 2000?
    Response. The Department is working with the Corps and the State of 
Florida to implement the independent science provisions of WRDA 2000, 
including discussions with the South Florida Ecosystem Restoration Task 
Force.

    Question 9.  According to the Administration's Climate Action 
Report 2002,'' . . . the natural ecosystems of the Arctic, Great Lakes, 
Great Basin, and Southeast, and the prairie potholes of the Great 
Plains appear highly vulnerable to the projected changes in the 
climate.'' In addition, that report says due to a projected rate of sea 
level rise from 4-35 inches over the next century, with mid-range 
values more likely, estuaries, wetlands and shorelines along the 
Atlantic and Gulf coasts are especially vulnerable. What consideration 
has been given in the development of the long-term plan for the 
restoration of the Everglades to the effects of global warming and sea-
level rise?
    Response. During the development of the CERP, the Corps modeled the 
sensitivity of the Central and Southern Florida Project to sea level 
rise resulting from global warming. Analysis showed that sea level rise 
had the most impact on coastal canals and communities, with the loss of 
flood protection and intrusion of salt water being the primary impacts. 
Performance measures for the interior of the South Florida ecosystem 
were less affected.
                                 ______
                                 
  Responses of Ann Klee to an Additional Question from Senator Chafee

    Question.  What is the importance of the pre-CERP baseline to the 
restoration of the Everglades system? What factors are considered in 
the development of the baseline?
    Response. The pre-CERP baseline will allow the agencies to 
implement the savings clause provisions of WRDA 2000, as well as 
provide a benchmark for calculating achievement of project benefits by 
measured increases to the overall water supply. As such, it is an 
important measure of accountability for Federal and State agencies. 
Discussions among Federal and State agencies concerning the pre-CERP 
baseline are now underway. Factors being considered in its development 
include identifying existing legal source basins, quantifying the 
volume of water available to existing legal source basins under 
rainfall conditions, and selecting performance measures.
                                 ______
                                 
   Responses of Ann Klee to Additional Questions from Senator Inhofe

    Question 1.  Could Everglades restoration be accomplished with any 
of the flood protection alternatives for the 8.5 SMA?
    Response. In reevaluating the flood protection alternatives for the 
8.5 SMA, the Army Corps of Engineers evaluated 11 alternatives. All of 
the alternatives that were evaluated by the Corps mitigated for the 
increased water flows associated with the implementation of the 
Modified Water Deliveries Project. However, some alternatives, 
including Alternative 6D, were found to be more consistent than others 
with efforts to restore more natural water flows to Northeast Shark 
River Slough, as well as other future Everglades restoration efforts 
associated with implementing the Comprehensive Everglades Restoration 
Plan.

    Question 2.  What Modified Waters components can go forward without 
completion of the construction of flood protection for the 8.5 SMA?
    Response. None of the remaining Modified Water Deliveries Project 
components can be operated until the completion of the flood protection 
system for the 8.5 SMA.

    Question 3.  Why are the other components dependent upon completion 
of the 8.5 SMA project? Is there any other way in which Everglades 
restoration is meaningfully dependent on completion of flood protection 
for the 8.5 SMA?
    Restoration of a more natural hydroperiod for Northeast Shark River 
Slough within Everglades National Park would be accomplished by 
conveying water from the water conservation areas north of the park 
into the expansion area, or Northeast Shark River Slough. The 8.5 SMA 
is immediately adjacent to the expansion area, but is currently not 
provided any flood protection. An increase in water levels due to the 
conveyance of water into Northeast Shark Slough -- through the 
construction of conveyance features between Water Conservation Area 3A 
and 3B and raising Tamiami Trail -- would aggravate the flooding 
problem in the 8.5 SMA. Therefore, completion of the 8.5 SMA flood 
protection system is required before any additional components are 
completed and additional flows are put into Northeast Shark River 
Slough.
    Additionally, in WRDA 2000, Congress directed the completion of the 
Modified Water Deliveries Project prior to appropriating construction 
funding for a number of key CERP components, including the Water 
Conservation Area decompartmentalization project.

    Question 4.  What is the timeline for completion of these 
components?
    Response. The schedule for completion of the Modified Water 
Deliveries Project, as well as the completion of an operational plan, 
is now uncertain given the recent litigation.

    Question 5.  What was the original timeline for completion of 
Modified Waters?
    Response. When the General Design Memorandum was completed in 1992, 
the construction was scheduled to occur from 1993 through 1997.

    Question 6.  What alternatives for the 8.5 SMA would meet this 
timeline?
    Response. The Corps initiated its Supplemental Environmental Impact 
Statement (SEIS) on this project in 1999. As noted above, the schedule 
for completion of this project is now uncertain given recent 
litigation.

    Question 7.  Rank the alternatives in the July 2000 Final 
Supplement to the Final EIS on the 8.5 SMA (``FEIS'') for constructing 
flood protection for the 8.5 SMA project in terms of time for 
completion?
    Response. Based on the table provided on page C-71, Appendix C, in 
the Final Environmental Impact Statement (FEIS), the following 
alternatives are grouped by their respective construction completion 
dates:


------------------------------------------------------------------------

------------------------------------------------------------------------
Alternative 4 (Landowner's Choice Land Acquisition   December 2002
 Plan).
Alternative 5 (Total Buy-Out Plan).................  December 2002
Alternative 7 (Raise All Roads Plan)...............  September 2003
All other Alternatives (including 1 and 6D)........  December 2003
------------------------------------------------------------------------

    It should be noted that the construction completion dates noted 
above would need to be revised following resolution of legal matters 
associated with the implementation of Alternative 6D, which proposes to 
move the design for the exterior levee and seepage canal eastward 
relative to the original 1992 design, resulting in the public 
acquisition of the about one-third of the westernmost portions of the 
8.5 Square-Mile-Area and flood protection for the remaining 8.5 Square-
Mile-Area lands.

    Question 8.  How much acquisition of land is still required to 
implement each of the alternatives?
    Response. The Department respectfully defers to the Corps with 
regard to this question.

    Question 9.  Explain the reasons for differences in time of 
completion. Assume when ranking these alternatives that Congress 
authorizes each alternative to commence immediately.
    Response. The differences in time of completion are due to two 
components, time for land acquisition and time for construction. 
Therefore, alternatives that involve only land acquisition, 
Alternatives 4 and 5, can be implemented sooner than alternatives 
requiring a combination of land acquisition and construction.

    Question 10.  How many residences, including those that are owner-
occupied and those that are occupied by someone other than the owner, 
would the Corps have to acquire to implement Alternative 6D?
    Response. According to the Corps, seventy-seven (77) residential 
parcels are required for implementation of Alternative 6D, inclusive of 
owner and renter occupied residences. The Corps has estimated that 
about 10 residences would need to be acquired by eminent domain.

    Question 11.  Explain in detail why Alternative 6D relating to the 
8.5 SMA project is called the ``Buffer Plan'' in environmental 
documents?
    Response. The primary hydrologic consequence of implementing the 
original 1992 General Design Memorandum (GDM) plan (Alternative 1) was 
the lowering of restored water levels within Everglades National Park 
due to the close proximity of the canal to the park. By moving the 
canal some distance from the park boundary, the impacts can be reduced 
or eliminated. With this in mind, Alternative 6D relocates the canal 
further eastward, allowing the desired levels of restoration to be 
attained in the park, but preventing the desired level of mitigation 
for some lands in the 8.5 SMA immediately adjacent to the park. Because 
these lands will be not be completely restored or mitigated, they have 
been referred to as ``buffer'' lands. Lands east of the buffer region 
will receive mitigation; lands west of the buffer will be restored. 
Because Alternative 6D utilizes this concept, it has been referred to 
as the Buffer Plan.

    Question 12.  Explain what a ``buffer'' has to do with modifying 
water deliveries to Everglades National Park?
    The buffer concept recognizes that in order to achieve the desired 
hydrologic conditions for both restoration (generally, higher water 
levels) and flood protection (generally, lower water levels), lands are 
needed in order to transition from one land use type to the other. This 
concept is also an integral part of the C-111 Project, which is 
designed in part to restore the Taylor Slough, Rocky Glades, and 
Eastern Panhandle regions of the park, as well as provide flood 
protection for lands to the east.

    Question 13.  If Congress does not enact legislation to authorize 
Alternative 6D or otherwise direct the Corps' resolution of the issue, 
what courses of action can and will the Corps take to complete Modified 
Waters?
    Response. While the Department is aware that the Corps has appealed 
a recent adverse district court decision on this issue, the Department 
respectfully defers to the Corps with regard to this question.

    Question 14.  Of the alternatives considered in the FEIS, what is 
the Corps' second choice after alternative 6D?
    Response. The Department respectfully defers to the Corps with 
regard to this question.

    Question 15.  What is the Corps' third choice?
    Response. The Department respectfully defers to the Corps with 
regard to this question.

    Question 16.  Does the FEIS state that each alternative, including 
Alternatives 1 and 2(b), meets the ecological goals of the Modified 
Waters project?
    Response. The FEIS does not contain that conclusion, but notes that 
each of the project alternatives would meet some of the ecological 
goals of the Modified Water Deliveries Project. The FEIS does conclude, 
however, that Alternative 6D results in greater restoration of more 
natural hydropatterns in Northeast Shark Slough and greater increases 
in wetland function and benefits for endangered species when compared 
to the original plan for these same criteria.

    Question 17.  Is it accurate to say that Alternative 6D will cost 
about $58,000,000 more than Alternatives 1 or 2(b)?
    Response. The Department respectfully defers to the Corps with 
regard to this question.

    Question 18.  Why should the Federal Government force families to 
leave their homes and have taxpayers pay for an incomplete flood 
protection alternative that costs $58 million more than a plan that 
provides full flood protection, meets the ecological goals of Modified 
Waters and forces no one from their homes?
    Response. The decision to select Alternative 6D represents a 
balancing of competing goals, including achieving more natural water 
flows for the East Everglades Addition to Everglades National Park, 
while at the same time providing flood protection to adjacent lands. 
The decision to select Alternative 6D was made after years of State and 
Federal review and represents middle ground from alternative that would 
have resulted in full acquisition of the area to alternatives that 
would restore inadequate flows to Northeast Shark River Slough. The 
recent analysis by the Corps of Engineers supporting the selection of 
Alternative 6D noted that this alternative achieved the greatest degree 
of environmental benefits at about one-half the cost of fully acquiring 
the area, while impacting only 17 percent of the owner occupied 
residences.

    Question 19.  If it is not accurate to say that Alternative 6D will 
cost $58 million more than Alternatives 1, and 2(b), why is that so?
    Response. The Department respectfully defers to the Corps with 
regard to this question.

    Question 20.  What are the cost estimates of these alternatives?
    Response. The Department respectfully defers to the Corps with 
regard to this question.

    Question 21.  If you estimate the cost for Alternative 6D--which 
requires substantial property acquisition--is similar to or greater 
than the costs of the other alternatives--which do not--explain why and 
provide a detailed explanation of the basis for your cost estimates.
    Response. The Department respectfully defers to Corps with regard 
to this question.

    Question 22.  What has the Department of the Interior (``DOI'') 
told the Corps about whether DOI will release funds for the project if 
the Corps pursues Alternatives 1 or 2(b)?
    Response. Since the selection of Alternative 6D, the Corps has not 
requested funding from the Department for the implementation of any 
other alternative. Although the former superintendent of Everglades 
National Park noted several years ago that he could not recommend the 
original design (Alternative 1) for funding, the Department has not 
taken an official position on this matter with the Army Corps. Rather, 
the Department has supported the Army Corps' efforts to reevaluate the 
various project alternatives consistent with the goal of restoring more 
natural water flows to Northeast Shark River Slough while at the same 
time providing for a flood protection system for the 8.5 Square-Mile-
Area.

    Question 23.  What has the DOI told the Corps about whether DOI 
will release funds for any alternative other than Alternative 6D?
    Response. The Department has not discussed funding any other 
alternative with the Army Corps. Since the Corps' selection of 
Alternative 6D, the Department has requested funds from Congress for 
the implementation of Alternative 6D and these funds have been 
appropriated.

    Question 24.  Is one of the reasons that the Corps selected 
Alternative 6D that the Department of the Interior resisted funding 
Alternative 1? What, if any, other obstacles exist to implementation of 
Alternatives 1 or 2(b)?
    Response. The Department respectfully defers to the Corps with 
regard to this question.

    Question 25.  What are the hydrological differences between taking 
no action (no modified water deliveries) on the one hand, and adopting 
Alternative 1, Alternative 2(b), or Alternative 6D on the other hand. 
Specifically address for each alternative:
    Response. Two hydrological performance measures illustrate these 
differences, (a) decreases in Northeast Shark River Slough hydroperiod 
and (b) decreases in Northeast Shark Slough water depth. ``Hydroperiod 
decreases'' are defined as the areal extent within Northeast Shark 
Slough where decreases in the duration of water over the surface of the 
land were found when compared to the ``without project'' condition. 
``Water depth decreases'' are defined as the areal extent within 
Northeast Shark Slough where decreases in water depth were found when 
compared to the ``without project'' condition. In both cases, the lower 
the number, the higher the degree of restoration. Results from 
hydrologic modeling were as follows:


------------------------------------------------------------------------
                                                Alternative
                                  --------------------------------------
       Performance Measure           1 (1992
                                       GDM)          2B           6D
------------------------------------------------------------------------
Decreases in hydroperiod (acres).         1114         1428            0
Decreases in water depth (acres).         2707         2489            0
------------------------------------------------------------------------

    These results indicate that alternative 6D appears superior to both 
alternatives 1 and 2B for these two performance measures because no 
decreases in hydroperiod or water depth are anticipated following 
implementation.

    Question 26.  How much more water will there be and where will that 
water be?
    Response. The primary objective of the Modified Water Deliveries 
Project is to rehydrate the Northeast Shark Slough portion of 
Everglades National Park. While all alternatives meet this objective, 
the alternatives accomplish this with varying degrees of success. Based 
on information presented in the Fish and Wildlife Coordination Act 
Report (included in the FEIS as Appendix G), the total increase in the 
volume of water in Northeast Shark Slough following restoration would 
be 21,519 acre-feet. In order to meet the mitigation requirements of 
the project, Alternative 6D would reduce this restored volume by 
approximately 889 acre-feet. However, this is significantly less than 
the 6,979 acre-feet reduction under implementation of Alternative 1.

    Question 27.  How much of the additional water will be in the Park 
and how much will be outside of the Park?
    Response. With the implementation of Alternative 6D, the additional 
water will be largely confined to the park and portions of the 8.5 SMA 
west of the perimeter levee. Some additional increase in water levels 
will occur during wet periods, but these effects will be mitigated 
either by the other structural features or through the purchase of 
flowage easements.

    Question 28.  What measurable difference will that extra water make 
for plants, wildlife, and other environmental indicators?
    Response. The extra water will likely lead to improvements to 
plants, wildlife, and other indicators as indicated by changes in 
wetland function summarized in the Fish and Wildlife Coordination Act 
Report (FEIS, Appendix G). Wetland functional analysis includes such 
variables as wildlife utilization, wetland overstory/shrub canopy, 
wetland ground cover, wetland hydrology, and water quality. Based on an 
interagency analysis of these variables, the change in wetland 
functional units due to the implementation of Alternative 6D amount to 
an increase of 1,322 functional units above existing conditions. This 
is in marked contrast to Alternative 1, which result in a loss of 2,765 
functional units compared to the existing condition.
    Wetland function was evaluated using wetland functional units, 
which combine wildlife, plant and other wetland values. For Alternative 
6D, a 9.9 percent increase in wetland functional scores is predicted 
relative to existing conditions. This contrasts with Alternative 1, 
which predicted a 20.6 percent decrease in wetland functional units.

    Question 29.  Where exactly will those measurable differences 
occur?
    Response. Measurable differences should occur throughout Northeast 
Shark Slough, and in the transitional lands between Everglades National 
Park and the western perimeter levee within the 8.5 SMA. For 
Alternative 6D, 60 percent of the improvement relative to the old plan 
is predicted to be in Everglades National Park wetlands adjacent to the 
8.5 SMA, with the rest of the wetland improvements contained within the 
8.5 SMA.

    Question 30.  What is the measurable ecological significance of 
those differences?
    Response. Stress from reduced flows in Northeast Shark River Slough 
has converted historic peat soil-forming wetlands, which provide 
crucial dry season refuges for fish and wildlife, to drier marl-soil 
forming conditions. Alternative 6D is predicted to add 1,309 acres of 
peat forming wetlands, nearly a 70 percent increase over existing 
conditions. Alternative 1 would have decreased peat-forming wetlands by 
543 acres, a reduction of 29 percent. Increases in hydoperiods and 
water depths in Northeast Shark River Slough will most likely increase 
the abundance of freshwater fish and macroinvertebrates within the 
marshes of Northeast Shark River Slough. Increases in these species are 
critical to the creation of the prey base needed to support higher 
order organisms such as alligators and wading birds. In addition, other 
ecological differences include the effects on endangered species, 
particularly the endangered Wood Stork and Snail Kite. Significant 
increases in wood stork habitat and snail kite habitat would result 
from the implementation of Alternative 6D. The increases in habitat 
associated with Alternative 6D are only surpassed by alternatives 
requiring additional land acquisition, such as Alternatives 4 and 5.

    Question 31.  Would building the levee and seepage canal another 
mile to the east in the 8.5 SMA change the hydrological results?
    Response. Yes. If the canal were moved one mile to the east, the 
location would correspond to the alignment of the L-31N canal. This 
would be the equivalent of eliminating the interior drainage canal and 
closely correspond to the analyses associated with Alternative 5, or a 
Total Buy-Out. As stated in the Fish and Wildlife Coordination Act 
Report, this alternative provides for full restoration of Northeast 
Shark Slough.

    Question 32.  Would acquiring the entire 8.5 SMA and constructing 
no flood protection change the hydrological results?
    Response. Yes. As stated in the FEIS, the Total Buyout (Alternative 
5) alternative provides the greatest increase in wetland function, 
allows for complete restoration of Northeast Shark River Slough 
consistent with the objectives of the Modified Water Deliveries 
Project, and provides full flood mitigation and flood protection.

    Question 33.  When the corps measures the costs and benefits of 
this project, how does it value hydrological benefits?
    Response. The Department respectfully defers to the Corps with 
regard to this question.

    Question 34.  How does it measure the costs of removing a person or 
family from their home? What value does it place on allowing a family 
to remain in their home protected from flooding?
    Response. The Department respectfully defers to the Corps with 
regard to this question.

    Question 35.  Did Madeleine Fortin check with the Corps before she 
bought her home in September 1994? What was she told?
    Response. The Department respectfully defers to the Corps with 
regard to this question.

    Question 36.  Was the Mod Waters project to start in 1992 with 
completion no later than 1997?
    Response. When the Modified Water Deliveries General Design 
Memorandum was completed in 1992, the Corps estimated project 
completion by the end of 1997. However, considerable improvements in 
hydrologic modeling, as well as the availability of scientific 
information for defining the restoration requirements of the ecosystem, 
have been made available in the intervening years. Advances in these 
areas have provided the Corps with sufficient new information and 
served as the basis for the decision to reevaluate the original plan.

    Question 37.  Have many of the families in the 8.5 SMA been flooded 
in feet of water for months at a time almost every year since 1994?
    Response. The Department respectfully defers to the Corps with 
regard to this question.

    Question 38.  Was the original congressionally approved plan to 
cost $39 million?
    Response. Based on information provided by the Corps, the original 
estimate for construction of the 8.5 SMA component of the Project was 
$31,487,000 in 1991-1992.

    Question 39.  Would the original congressionally approved plan have 
avoided removing families from their homes when families want to stay 
in their homes?
    Response. The Department respectfully defers to the Corps with 
regard to this question.

    Question 40.  Did the South Florida Water Management District at 
one time try to get the county to cutoff all electricity to the 
community?
    Response. The Department respectfully defers to the South Florida 
Water Management District (SFWMD) with regard to this question.

    Question 41.  Were Metro Dade zoning regulations changed in the 
1980's to prohibit new construction on parcels smaller than forty 
acres?
    Response. The Department respectively defers to Miami-Dade County 
with regard to this question.

    Question 42.  Are many holdings in the 8.5 SMA less than 5 acres?
    Response. The Department respectfully defers to the Corps and the 
SFWMD with regard to this question.

    Question 43.  Does the county deny responsibility for the roads in 
the 8.5 SMA, calling them private roads?
    Response. The Department respectfully defers to Miami-Dade County 
with regard to this question.

    Question 44.  Does Metro Dade collect property taxes from the 8.5 
SMA residents? What services does Metro Dade provide?
    Response. The Department respectfully defers to Miami-Dade County 
with regard to this question.

    Question 45.  Has Metro Dade blocked attempts by unincorporated 
areas to incorporate?
    Response. The Department respectfully defers to Miami-Dade County 
with regard to this question.

    Question 46.  Have fire trucks been impeded from saving burning 
home(s) by having to travel a very slow mile through 2 feet of water?
    Response. The Department respectfully defers to Miami-Dade County 
with regard to this question.

    Question 47.  Have there been more than $1 billion in flood-related 
losses and 14 deaths from preventable flooding throughout the urban and 
agricultural areas of the county?
    Response. The Department respectfully defers to Miami-Dade County 
with regard to this question.

    Question 48.  Has anyone from the Corps or the Water Management 
District been disciplined over the flooding?
    Response. The Department respectfully defers to the Corps and the 
SFWMD with regard to this question.

    Question 49.  When approached to have the 8.5 SMA's secondary 
drainage canals to the main system, did a SFWMD official state, ``I 
will never give you a permit!''
    Response. The Department respectfully defers to the SFWMD with 
regard to this question.

    Question 50.  Did SFWMD vote to try to acquire the entire 
community, though they did not have the power to condemn land?
    Response. The Department respectfully defers to the SFWMD with 
regard to this question.

    Question 51.  Was this effort later described as a 
``miscommunication''?
    Response. The Department respectfully defers to the SFWMD with 
regard to this question.

    Question 52.  Did one property owner write, ``I like to inform you 
that we do like to sell our land that in accordance with the 
regulations has become good for nothing?''
    Response. The Department respectfully defers to the Corps or SFWMD 
with regard to this question.
                                 ______
                                 
    Responses of Ann Klee to Additional Questions from Senator Smith

    Question 1.  Are you concerned that the ``targets'' for the other 
water-related needs of the region might be given precedence over 
restoration goals?
    Response. No, the overarching objective of the Plan is the 
restoration, preservation, and protection of the South Florida 
Ecosystem while providing for other water-related needs of the region, 
including water supply and flood protection. Assurances for the natural 
system have been incorporated into the programmatic regulations. The 
targets for other water related needs are reference points for which 
Federal and State managers can measure progress in providing for other 
water related needs of the South Florida Ecosystem, as required by 
Congress.

    Question 2.  When and where can we expect to see the first signs of 
restoration?
    Response. In the short term, implementing rainfall driven 
operations for the Water Conservation Areas and Everglades National 
Park will improve the timing and location of water depths in the park, 
thereby simulating more natural hydroperiods. The hydrologic benefits 
of restoring Northeast Shark Slough will be evident almost immediately. 
The ecological responses to the restored hydrological conditions will 
be much more gradual, with many higher order organisms not showing 
improvements for many years after restoring the hydrologic conditions.
    We anticipate that the St. Lucie River estuary (which is connected 
to the Indian River Lagoon) will also be one of the first areas that 
will be benefited. The Ten Mile Creek Critical Restoration Project is 
beginning construction this year, and this will be the first step in 
providing water storage to counteract discharges of excessive runoff 
into this highly productive estuary. This project should start to 
improve conditions in the North Fork of the St. Lucie River immediately 
upon completion in 2004.
    Another Critical Restoration Project involves construction of a 
treatment wetland at the Grassy Island Ranch north of Lake Okeechobee. 
Construction has started, and as soon as construction is completed and 
water is filtered through the facility, the environmental improvement 
will be measurable through reduction of phosphorus loads to Taylor 
Creek, one of the main sources of excessive nutrient loading to Lake 
Okeechobee.
    Seepage management improvements to control seepage from Everglades 
National Park along the L-31 North levee will improve water deliveries 
to Northeast Shark River Slough and restore wetland hydropatterns into 
the park. Additionally, decompartmentalization features are anticipated 
to reestablish the ecological and hydrological connection between the 
Water Conservation Areas and Everglades National Park and Big Cypress 
National Preserve.

    Question 3.  In your view, what is the greatest impediment to 
restoration at this point in the process? Where lies the greatest 
opportunity to ensure immediate results?
    Response. The lack of resolving the 8.5 SMA component of the 
Modified Water Deliveries Project remains an impediment to restoration. 
Other impediments include loss of Everglades habitat, decline in water 
quality, and incompatible development. Fortunately, many of these 
issues are being addressed constructively at the State, Federal, tribal 
and local level. The greatest opportunity to ensure achievement of our 
Everglades restoration goals is for all of the parties to work 
collaboratively together to implement the CERP and the numerous other 
State, Federal tribal and local programs that are designed to improve 
and restore habitat, improve water quality, recover threatened and 
endangered species and foster compatibility of the built and natural 
systems in South Florida.
                                 ______
                                 
  Responses of Ann Klee to Additional Questions from Senator Voinovich

    Question 1.  What have we learned over the last 2 years in terms of 
potential environmental benefits to be gained by implementation of the 
Everglades Restoration Plan?
    Response. We have identified the need for further development of 
scientifically sound performance measures and alternative evaluation 
tools for the assessment of the individual CERP Projects. While some 
advances have been made in the development of regional performance 
measures and regional hydrologic models, many of the benefits 
associated with each individual CERP project will require much more 
specific project-based performance measures and models.

    Question 2.  What progress has been made over the last 2 years in 
terms of science and technology to address the uncertainties inherent 
in the Everglades Restoration Plan?
    Response. Considerable progress has been made over the last 2 years 
in terms of science and technology to address uncertainties. First, the 
Interagency Modeling Center is being initiated. In order to ``get the 
water right'' and ``preserve, protect and restore the natural system'', 
reliable hydrological and ecological models capable of predicting 
future outcomes of various projects are necessary. To increase the 
utility of the various models in planning and implementing projects, 
internal reviews are being conducted. In addition, to increase the 
reliability of the models, external reviewers are also being utilized. 
The combination of both internal and external reviews will help 
increase the certainty of producing useful predictive models. The 
resulting models will be utilized for a much deeper analysis at the 
project level to go from preliminary design to detailed design.
    Second, the three reports already received from the Committee on 
Restoration of the Greater Everglades Ecosystem (CROGEE) have assisted 
us with scientific questions. CROGEE is comprised of independent 
academic scientists contracted through the National Academies of 
Science to examine and report to the Task Force on the scientific and 
technical underpinnings of matters related to ecosystem restoration. 
The three reports received to date are:

    <bullet>  An assessment of Aquifer Storage and Recovery (ASR) 
technology including feasibility, water quality, and a review of the 
pilot projects;
    <bullet>  A technical review of the Project Management Plan for the 
ASR Regional Study;
    <bullet>  A review of the linkage between upstream components of 
the Comprehensive Restoration Plan (CERP) and the adjacent coastal and 
marine ecosystems.

    The scientific input from these reports has been incorporated into 
our plans. Two reports CROGEE will be compiling in the future include:

    <bullet>  An assessment of the ecological indicators of restoration 
success;
    <bullet>  A review of the hydrological and ecological effects of 
the size and location of the water storage components proposed in the 
CERP.

    Third, the Restoration, Coordination and Verification (RECOVER) 
program has been organized under the CERP. Membership of RECOVER 
includes scientists and resource managers from all the agencies 
involved in restoration. RECOVER's role includes development of a 
monitoring and assessment plan to track responses in both the natural 
and human systems as the CERP projects are implemented. Information 
from this monitoring will be utilized to support the Adaptive 
Management Strategy being developed under CERP.
                               __________
  Statement of Hon. David B. Struhs, Secretary, Florida Department of 
                        Environmental Protection
    I am honored to be here to represent Governor Jeb Bush and the 
State of Florida, your full and equal partner in restoring America's 
Everglades.
    I come bearing news of amazing progress. Only 18-months into a 30-
year project and Florida has:

    <bullet>  Already acquired 75 percent of the land needed to build 
the authorized projects.
    <bullet>  Already secured funding to fully pay our half of the 
multi-billion dollar bill for the first decade.
    <bullet>  Already entered into a legally binding agreement that 
requires Florida to reserve water for the environment before Federal 
dollars are released for projects.
    <bullet>  Already adopted a dispute resolution plan to make sure 
problems are resolved quickly so progress is not interrupted.

    But this hearing is, appropriately, focused more on process than on 
progress. Here again, there is nothing conventional about Everglades 
restoration.
    In Florida, we are learning a whole new way of doing business to 
better fit into established Federal procedures. The Federal Government 
is learning a whole new way of doing business, where no decisions can 
be made without your State partner. It is interesting to say the least.
    At this stage, the Federal Government and Florida are developing 
the customs and writing the rules aimed at ensuring our ``full and 
equal'' partnership is also a practical and sustainable partnership. 
Everyone is trying to anticipate as many future situations as possible, 
with questions such as:
    <bullet>  ``How will the Corps of Engineers actually know when 
Florida legally reserves for the environment water resources made 
available by the restoration project?''
    <bullet>  ``How will the Federal resource agencies be consulted to 
ensure that our combined financial investments are yielding ecological 
restoration?''
    <bullet>  ``How will affected parties be involved in making 
adaptive management decisions?''
    In almost every case, the real answer to these and similar 
questions should be, ``By picking up the phone.'' How do partners in 
business make decisions? By talking to each other.
    Our goal is to ensure that this type of collaboration takes place. 
But we must me mindful of two things:
    First, regulations are not written for the usual scenario where 
everyone agrees. They are written for those exceptions where there is a 
difference of opinion. The corollary to this, of course, is the thorny 
problem of the future is the one we cannot anticipate today and for 
which there will be no rules in place.
    Second, today's efforts to integrate the laws, policies and 
institutional cultures of several different State and Federal agencies 
should not distract us from our shared goal. Never before have so many 
diverse interests been so committed to a common environmental goal.
    Congress deserves high marks on this score. The Water Resource 
Development Act of 2000 clearly lays out the expectation that agencies 
must collaborate in decisionmaking. It also wisely vests ultimate 
responsibility, and accountability, with a single agent for each of the 
partners: the United States and the State of Florida.
    We all recognize, from relevant and recent experience, that to do 
otherwise puts restoration at risk.
    The procedural regulations developed by the U.S. Army Corps of 
Engineers create workable rules for how our partnership will make 
decisions. WRDA clearly did not anticipate some of the additional steps 
the Corps included in the rule. For example, requiring the concurrence 
of two different Federal agencies on six different guidance memoranda, 
and memorializing a predominant role for the Federal resource agencies 
over other interests in the RECOVER program. Yet, we can support the 
rule as proposed.
    However, we urge that the Corps make no additional changes that 
would move the procedural regulations further away from the 
requirements of the carefully balanced and well-considered WRDA 2000 
statute.
    Regarding the historic act signed by President Clinton, some who 
cheered the event are now exhibiting signs of buyer's remorse. Rather 
than look forward, they look backward. In retrospect, they would like 
to ``tweak'' the law, or adopt rules to advance ideas that failed to 
make it into statute. To do so risks unraveling the coalition of 
diverse interests that made the Comprehensive Everglades Restoration 
Plan possible.
    It is important to remember that the old zero-sum game view of the 
world with winners and losers does not apply here. This restoration 
plan is different. It is holistic. It provides water first for nature 
and then for people, and it does so without artificially subsidizing 
water supplies. It is, perhaps, the world's best example of sustainable 
development.
    Consider the fact that the plan one would choose for restoring the 
Everglades would be basically the same as the plan one would choose for 
ensuring a long-term sustainable water supply--and vice versa. In other 
words, there will be plenty of water for both wildlife and people. The 
very same water that rehydrates the Everglades also replenishes the 
wellfields. To ensure that outcome, the plan is built on an enforceable 
legal foundation.
    Here is another way to think about it: While only half of the 
original Everglades ecosystem remains the amount of rain that falls on 
South Florida has not changed. Pushing 100 percent of the water into 50 
percent of the area would permanently drown the Everglades.
    The restoration plan recognizes this. As water that is currently 
flushed out to sea via canals is recaptured, it will be reserved to 
ensure the right quantity, timing and distribution is achieved for the 
ecosystem. Forcing all of the water into the Everglades would be too 
much of a good thing.
    Finally, suggestions that this plan subsidizes water supply and 
prompts growth are wrong at several levels.
    First, the Federal Government was a full partner a generation ago 
in draining the Everglades. The Federal Government must now be a full 
partner in fixing the damage. This is hardly a subsidy.
    Second, Florida has made the unprecedented commitment to fund half 
the project. Through smart money management and without raising taxes, 
Florida has a proven funding plan that allows growth to pay for 
environmental restoration, not the other way around.
    Third, the restoration plan simply captures water now artificially 
lost to the sea and puts it back into the Everglades' watery landscape. 
The plan does not subsidize the infrastructure costs necessary to 
provide water supply service. Those costs will, appropriately, be borne 
by the water consumer.
    The Comprehensive Everglades Restoration Plan passed out of this 
committee will be a defining legacy of our generation. We recognize 
that. And as your full and equal partner, please understand Florida's 
commitment to ensuring that it remains comprehensive, and that it 
remains about restoration. That is our common goal.
                                 ______
                                 
Responses of David B. Struhs to Additional Question from Senator Graham
    Question 1. Can you describe what will happen to the Everglades if 
no action is taken on the CERP?
    Response. If we do not move forward, the evaluation tools used in 
the Restudy indicate that virtually every part of the natural system 
will decline and be further imperiled by the year 2050. Without Plan 
implementation, there will be widespread water shortages throughout the 
entire South Florida region causing negative effects on the natural 
system and the economy of Florida and the Nation.
    Question 2. What actions does Congress need to take in the near and 
distant future to move the CERP forward?
    Response. We are hopeful that Congress will fund the Aquifer 
Storage and Recovery pilot projects and authorize the Indian River 
Lagoon, Water Preserve Areas and Southern Golden Gate Estates project 
components. Additionally, we need the provision language that will 
allow section 902 inflation calculations to be applied to the Critical 
Projects authorized in 1996 and the programmatic authority granted in 
WRDA 2000. We are also hopeful that Congress will fully fund the Corps 
budget for CERP implementation.
    Question 3. Can you describe the State's financial commitment to 
Everglades restoration since WRDA 2000?
    Response. Since the passage of WRDA 2000, the State of Florida has 
appropriated $300 million dollars for Everglades Restoration. This is 
in addition to the over $181 million from ad valorem taxes that the 
South Florida Water Management District has dedicated to the effort.
    The District estimates it will spend approximately $320.4 million 
on CERP in FY03. Of this amount, $245.5 million is projected to be used 
to acquire lands needed to implement CERP.
    This year, Governor Bush signed legislation that provides for the 
bonding of up to $100 million per year for the next 10 years to ensure 
a dedicated source of funds for CERP implementation. The bonds are 
secured with documentary stamp revenues. In addition to this $100 
million, the Florida Forever program contributes $25 million and the 
SFWMD provides $75 million from ad valorem tax revenues for a total of 
$200 million per year.
    Question 4. How much money has been spent on land acquisition? How 
much of the CERP's total land requirement has already been purchased?
    Response. As of August, 23, 2002, $612,057,880 has been spent on 
land acquisition; 183,676 acres (which is 46 percent of the total 
needed) have been purchased.
    Question 5. Does the CERP provide water supply benefits under the 
guise of environmental restoration?
    Response. No. The water needed for restoration of the natural 
system will be reserved first. The President/Governor agreement 
provides legally binding assurance that the water made available by 
each project will not be permitted for consumptive use or otherwise 
made unavailable by the State until such time as sufficient 
reservations of water for the restoration of the natural system are 
made.
    Because the Comprehensive Everglades Restoration Plan is very 
effective in capturing a significant amount of the excess water that is 
currently lost to tide, there will be virtually no competition between 
the natural system and urban and agricultural water needs. In other 
words, there will be plenty of water for both wildlife and people. The 
very same water that rehydrates the Everglades also replenishes the 
wellfields. To ensure that outcome, the plan is built on an enforceable 
legal foundation.
    Question 6. Can you describe the State water reservation process?
    Response. Pursuant to the law that governs water reservations, 
Section 373.223(4), Florida Statutes, reservations are adopted by rule 
to set aside water for the protection of fish and wildlife or public 
health and safety, such as restoration of the Everglades. Water 
reserved for these purposes cannot be allocated to consumptive uses of 
water, such as public water supplies or agricultural uses. Chapter 120 
of the Florida Statutes, the Florida Administrative Procedures Act, 
requires rules to be adopted in accordance with a procedure allowing 
ample opportunity for input from affected persons and policymakers. 
Public rule development workshops and South Florida Water Management 
District (SFWMD) governing board rule hearings are a substantial part 
of this open public process in State rulemaking. Legal rights to 
challenge a proposed reservation are also provided under State law.
    The SFWMD will adopt a water reservation rule, or rule amendment, 
for each CERP project prior to the entry of a Project Cooperation 
Agreement, in accordance with the identification of water to be made 
available for the natural system in the Project Implementation Reports.
    Question 7. I am concerned about the process that will be used to 
modify a reservation once it is part of a congressional authorization. 
Can you describe the circumstances under which a modification could be 
required?
    Response. Pursuant to Section 373.223(4), Florida Statutes, 
reservations are subject to periodic review and amendment based on 
changed conditions. In the context of CERP implementation, reservations 
are projected to be modified based on changing operations and 
implementation of new projects (including CERP projects) that effect 
the water available for the natural system within the Central and 
Southern Florida Project. It is envisioned that the water made 
available by each CERP project will be identified on a system-wide 
basis, consistent with the effect of hydropattern improvement in the 
Everglades. Therefore, as each project is designed, it will consider 
the previous projects in place and the water that they provided to the 
environment. Previous system-wide reservations will then be increased 
(modified) based on the additional environmental water provided by the 
latest project design.
    Guidance and recommendations for amendments to water reservations, 
will also be provided to the State from the CERP process, through 
subsequent project implementation reports and through the monitoring 
and testing of project operations. The need for modification to 
reservations based on these recommendations and changing conditions 
will be considered and made, if necessary, by the governing board of 
the South Florida Water Management District in accordance with the 
State reservations laws and administrative procedures that govern 
rulemaking.
    Question 8. Have you had ample opportunity to communicate with the 
Corps on your views regarding programmatic regulations, project 
execution, and other CERP issues?
    Response. Yes. We continue to work very closely with the Corps in 
all aspects of CERP implementation.
    Question 9. Do you believe that the draft programmatic regulations 
give priority to Everglades restoration--in other words, does the 
proposal reflect the law's requirement that the overarching purpose of 
CERP is the restoration of the ecosystem?
    Response. Yes. The programmatic regulations are part of a 
comprehensive set of assurance that work together to make certain the 
overarching purpose of CERP (to restore, preserve and protect the South 
Florida Ecosystem while providing for other water-related needs of the 
region, including water supply and flood protection) is achieved.
    This set of assurances includes: the President/Governor Agreement; 
the requirement of Project Implementation Reports to identify the water 
needs of the natural system; the requirement of the State to reserve 
the water identified for the natural system in the PIR; the requirement 
for the reservation to be in place before the Corps can enter into a 
Project Cooperation Agreement; the requirement that the operating 
manual be consistent with the water identified in the Project 
Implementation Report for the natural system; the savings clause in 
WRDA 2000 for water supply for Everglades National Park and water 
supply for fish and wildlife; and the programmatic regulations. All of 
these assurances complement each other and work toward making sure the 
restoration effort is successful.
    The State of Florida never contemplated that the programmatic 
regulations would be the only tool in the toolbox that provided 
assurances that the natural system restoration would be achieved. 
Rather, the programmatic regulations are viewed as a key component that 
creates workable rules for how the Federal and State partnership will 
make decisions.
    Question 10. Do you give other water related needs such as 
development and agriculture equal priority with water needed to restore 
the natural system?
    Response. It is important to remember that the old zero-sum game 
view of the world with winners and losers does not apply here. This 
restoration plan is different. It is holistic. It provides water first 
for nature and then for people, and, as noted above, there will be 
plenty of water for both.
    Question 11. According to the Administration's Climate Action 
Report 2002,``. . . the natural ecosystems of the Arctic, Great Lakes, 
Great Basin, and Southeast, and the prairie potholes of the Great 
Plains appear highly vulnerable to the projected changes in climate.'' 
In addition, that report says due to a projected rate of sea level rise 
from 4-35 inches over the next century, with mid-range values more 
likely, estuaries, wetlands and shorelines along the Atlantic and Gulf 
coasts are especially vulnerable. What consideration has been given in 
the development of the long-term plan for restoration of the Everglades 
to the effects of global warming and sea-level rise?
    Response. The Everglades restoration plan focuses appropriately on 
restoring the quality, quantity, timing and distribution of water in 
the ecosystem. It does not have structural improvements designed 
specifically to combat sea level rise. There are features in the 
existing Central & Southern Florida Project as well as operational 
changes proposed in CERP that will be beneficial in arresting salt 
water intrusion that would result from sea level rise.
    If sea level continues to rise over the next century, portions of 
the southern end of the ecosystem, will likely be submerged. However, 
it may not be as dramatic as one might expect because the 
reintroduction of sheet flow across the southern end of the ecosystem 
as a result of implementing CERP may help offset some of the saltwater 
encroachment. Also, the mangrove islands of Florida Bay and the Ten 
Thousand Islands have demonstrated a capacity for depositing sufficient 
organic material to rise in elevation at a rate commensurate with sea 
level rise.
                                 ______
                                 
 Responses of David Struhs to Additional Questions from Senator Inhofe
    Question 1. Could Everglades restoration be accomplished with any 
of the flood protection alternatives for the 8.5 SMA?
    Response. Everglades restoration would be accomplished in varying 
degrees under any of the flood mitigation alternatives for the 8.5 SMA. 
All of the project alternatives examined in the General Reevaluation 
Report and Final Supplemental Environmental Impact Statement (GRR/SEIS) 
dated July 2000 met the mandatory project requirement of mitigating the 
flooding impacts from increased flows due to implementation of the 
Modified Water Deliveries project. Alternative 6D demonstrated better 
environmental performance than other alternatives in this regard with 
the exception of a complete buyout of the 8.5 SMA. The Assistant 
Secretary of the Army determined that Alternative 6D provides a 
significant increase in environmental benefits over the 1992 plan 
(Final Record of Decision, December 2000). The 1992 plan performed 
poorly when compared to Alternative 6D and resulted in a decrease in 
wetland function. Alternative 6D resulted in an increase in over 1300 
acres of wetlands, due in large part to the minimization of drawdown 
effects within Everglades National Park and preservation of wetlands in 
the western portions of the 8.5 SMA while providing improved flood 
mitigation (GRR/SEIS, July 2000).
    Question 2. What Modified Waters components can go forward without 
completion of the construction of flood protection for the 8.5 SMA?
    Response. To clarify, the Modified Water Deliveries project (MWD) 
does not require flood protection for the 8.5 Square Mile Area (SMA). 
Congress required the project to include flood mitigation to offset any 
increase in the frequency of flooding that may result from 
implementation of the project. Therefore, the answer to the question is 
that certain project components that do not affect water levels in the 
8.5 SMA, such as the S-356 structure, can and are going forward. Other 
MWD project components such as the S-355 structures and the raising of 
Tiger Tail Camp have been completed. Until congressional intent is 
clarified, all efforts on the Modified Water Deliveries to Everglades 
National Park project that have a hydrologic effect on the 8.5 SMA have 
been suspended.
    Question 3. Why are the other components dependent upon completion 
of the 8.5 SMA project?
    Response. The remaining components of the Modified Water Deliveries 
project enable additional flows into North East Shark River Slough 
(NESRS). Additional flows into NESRS will elevate surface and 
groundwater levels in the 8.5 SMA making the area more susceptible to 
flooding. Before projects that increase flows into NESRS go forward, 
land acquisition must be completed in the Everglades Expansion Area and 
flood mitigation must be provided to the 8.5 SMA.
    Question 4. Is there any other way in which Everglades restoration 
is meaningfully dependent on completion of flood protection for the 8.5 
SMA?
    Response. Yes. WRDA 2000 requires completion of Modified Water 
Deliveries (MWD) before appropriations to construct certain CERP 
components. MWD requires completion of flood mitigation for the 8.5 
SMA. Planning for CERP components also requires certainty about which 
flood mitigation plan will be in place.
    Question 5. What is the timeline for completion of these 
components?
    Response. Until congressional intent is clarified the timeline is 
uncertain.
    Question 6. What was the original timeline for completion of MWD?
    Response. The 1992 General Design Memorandum projected a completion 
date of June 1997.
    Question 7. What alternatives for the 8.5 SMA would meet this 
timeline?
    Response. None.
    Question 8. Rank the alternatives in the July 2000 Final Supplement 
to the Final EIS on the 8.5 SMA (``FEIS'') for constructing flood 
protection for the 8.5 SMA project in terms of time for completion?
    Response. There is insufficient information to rank the 
alternatives relative to time for completion. The Final Supplement to 
the Final Environmental Impact Statement (EIS) contains no conclusions 
or recommendations as to the performance of the alternatives, or to the 
preference of one over any of the others. The EIS used seven objectives 
for measuring the performance of each alternative in meeting the goals 
of the project. These objectives are listed below:
    1. Evaluate effects on hydropatterns in NESRS.
    2. Evaluate impacts to the landowners and residents of the 8.5 SMA 
resulting from implementation of MWD.
    3. Analyze cost effectiveness.
    4. Analyze effects to ecological functions.
    5. Evaluate effects on conditions favorable to Federal and State 
listed endangered species survival.
    6. Measure the compatibility with CERP and C-111 projects without 
adversely impacting the current level of flood protection east of L-
31N.
    7. Analyze impacts and costs associated with time delays in 
implementation of alternatives.
    Performance measures were developed for each objective including 
the objective analyzing impacts and costs associated with time delays. 
These measures were used to evaluate the ability of each alternative to 
meet the objectives but the evaluation was not intended to rank the 
order of effectiveness.
    Question 9. How much acquisition of land is still required to 
implement each of the alternatives?
    Response. For the plan formulation or comparison of alternatives, 
the following acreage was included in the cost estimate for each 
alternative: (Reference GRR/SEIS 2000, Appendix C.)

Alternative 1--663 ac
Alternative 2--663 ac
Alternative 3--5825 ac
Alternative 4--6413 ac
Alternative 5--6413 ac
Alternative 6B--4346 ac
Alternative 6C--1743 ac
Alternative 6D--2881 ac
Alternative 7--5839 ac
Alternative 8--5803 ac
Alternative 9--663 ac

    Question 10. Explain the reasons for differences in time of 
completion.
    Response. Each alternative faces obstacles for timely 
implementation. There are varying engineering demands, land acquisition 
needs, and construction timelines associated with each alternative.
    Question 11. How many residences, including those that are owner-
occupied and those that are occupied by someone other than the owner, 
would the Corps have to acquire to implement Alternative 6D?
    Response. Seventy-seven residential parcels would be purchased 
under Alternative 6D; 53 are owner occupied and 24 are tenant occupied. 
Of these, we estimate only 10 residences will have to be acquired by 
eminent domain. Some parcels have combinations of owners, tenants and 
businesses resulting in multiple relocations. Total number of 
relocations including owners, tenants and businesses is estimated to be 
96.
    Question 12. Explain in detail why Alternative 6D relating to the 
8.5 SMA project is called the ``Buffer Plan'' in environmental 
documents?
    Response. The levee in the 1992 General Design Memorandum plan has 
been relocated eastward to higher ground elevations. This elevation 
represents the most definable break between short hydroperiod wetlands 
and traditional upland areas. This relocation creates a buffer between 
the short hydroperiod wetlands and the residents that would remain in 
the 8.5 SMA.
    Question 13. Explain what a ``buffer'' has to do with modifying 
water deliveries into Everglades National Park?
    Response. The buffer lessens the frequency of flooding of the 
residents remaining in the 8.5 SMA and it decreases the effects of the 
seepage canal on restoration of natural water levels in the Everglades 
National Park (ENP) by moving the canal further to the east.
    Question 14. If Congress does not enact legislation to authorize 
Alternative 6D, or otherwise direct the Corps' resolution of that 
issue, what courses of action can and will the Corps take to complete 
Modified Waters?
    Response. We respectfully defer to the U.S. Army Corps of Engineers 
to respond to this question.
    Question 15. If Congress does not enact legislation to authorize 
Alternative 6D or otherwise direct the Corps resolution of that issue, 
what course of action can or will the Corps take to construct flood 
protection for the 8.5 SMA?
    Response. We respectfully defer to the U.S. Army Corps of Engineers 
to respond to this question.
    Question 16. Of the alternatives considered in the FEIS, what is 
the Corps second choice after alternative 6D?
    Response. A second alternative was not chosen.
    Question 17. What is the Corps' third choice?
    Response. A third alternative was not chosen.
    Question 18. Does the FEIS state that each alternative, including 
Alternatives 1 and 2b, meets the ecological goals of the Modified 
Waters project?
    Response. All of the alternatives meet the stated project 
requirements. However, Alternative 6D performed better than other 
alternatives in this regard with the exception of a complete buyout of 
the 8.5 SMA.
    The stated project requirements are that the alternative: (1) does 
not negatively impact higher stages in Everglades National Park as 
specified in the Modified Water Deliveries (MWD) project; (2) mitigate 
for increased stages within the 8.5 SMA resulting from implementation 
of the MWD project; (3) develop a solution that can be permitted by 
regulatory interests under current and reasonably foreseeable 
regulations; (4) ensure no significant impact to existing habitat of 
endangered or threatened species; and (5) maintain current levels of 
flood protection for agricultural areas east of the L31N canal.
    Question 19. Is it accurate to say that Alternative 6D will cost 
about $58,000,000 more than Alternatives 1 or 2b?
    Response. Yes. Alternative 6D will cost more than either 
Alternatives 1 or 2B. Alternative 1 costs approximately $57 million 
less than Alternative 6D. Alternative 2B costs approximately $54 
million less than Alternative 6D. (Reference GRR/SEIS 2000, Table ES 1, 
total initial project costs.)
    Question 20. Why should the Federal Government force families to 
leave their homes and have the taxpayers pay for an incomplete flood 
protection alternative that costs $58 million more than a plan that 
provides full flood protection, meets the ecological goals of Modified 
Waters and forces no one from their homes?
    Response. The only full flood protection plan is to remove all 
residents through Alternative 5, which is a total buyout of the 8.5 
SMA. Both Alternatives 1 and 2B, as well as Alternative 6D, will result 
in periodic flooding. However, Alternative 6D performs better than both 
Alternatives 1 and 2B in restoring hydroperiod in northeast Shark River 
Slough and increasing overall wetland acreage in the region.
    Question 21. If it is not accurate to say that Alternative 6D will 
cost $58 million more than Alternatives 1 and 2b, why is that so?
    Response. Please refer to the answer to question number 19.
    Question 22. What are the cost estimates of these alternatives?
    Response. The cost estimates are as follows:

Alternative 1--$31 million
Alternative 2B--$34 million
Alternative 6D--$88 million

    Question 23. If you estimate the cost of Alternative 6D--which 
requires substantial property acquisition--is similar to or greater 
than the costs of the other alternatives--which do not--explain why and 
provide a detailed explanation of the basis for your costs estimates.
    Response. The basis for each alternative's costs estimates included 
comparable operation & maintenance and replacement costs, real estate 
costs, and capital costs using standard U.S. Army Corps of Engineers 
procedures. (Reference GRR/SEIS 2000, Table ES-1, total initial project 
costs and real estate costs of all the alternatives.)
    Question 24. What has the Department of Interior (``DOI'') told the 
Corps about whether DOI will release funds for the project if the Corps 
pursues Alternative 1 or 2b?
    Response. On December 24, 1998, Richard Ring, then Superintendent 
of the Everglades National Park wrote: ``I cannot recommend that the 
Department of the Interior furnish the funding for the current 
mitigation component (the 1992 plan for the 8.5 Square Mile Area) of 
the Modified Water Deliveries Project''. In addition, we have a letter 
of intent dated June 30, 2000 from the U.S. Department of Interior 
(USDOI) which states that ``Alternative 6D provides significant 
environmental benefits beyond what is contained in the present design 
for the 8.5 SMA as reflected in Alternative 1.'' Also, in a letter 
dated October 9, 2001, USDOI stated ``the Army Corps may proceed to 
initiate real estate acquisition activities in the 8.5 SMA, including 
the filing of condemnation actions if necessary.''
    Question 25. What has the DOI told the Corps about whether DOI will 
release funds for any alternative other than Alternative 6D?
    Response. Please refer to the answer to question 24.
    Question 26. Is one of the reasons that the Corps selected 
Alternative 6d that the Department of the Interior resisted funding 
Alternative 1?
    Response. The fact that the U.S. Department of Interior resisted 
funding Alternative 1 was just one of the reasons that the U.S. Army 
Corps of Engineers prepared a General Reevaluation Report and Final 
Supplemental Environmental Impact Statement (GRR/SEIS) which led to the 
selection of Alternative 6D. Among other reasons, the South Florida 
Water Management District also withdrew support from Alternative 1 and 
requested that the Corps evaluate a full array of alternatives. After 
the full array of alternatives were evaluated, the Assistant Secretary 
of the Army determined that Alternative 6D provides a significant 
increase in environmental benefits over the 1992 plan (Final Record of 
Decision, December 2000). The 1992 plan performed poorly when compared 
to Alternative 6D and resulted in a decrease in wetland function. 
Alternative 6D resulted in an increase in over 1300 acres of wetlands, 
due in large part to the minimization of drawdown effects within 
Everglades National Park and preservation of wetlands in the western 
portions of the 8.5 SMA while providing improved flood mitigation (GRR/
SEIS, July 2000).
    Question 27. What, if any, other obstacles exist to implementation 
of Alternatives 1 or 2b?
    Response. To our knowledge, there are no funds appropriated to 
implement Alternatives 1 or 2B without express congressional intent 
given to the Secretary of the Interior. We respectful defer to the U.S. 
Army Corps of Engineers and the U.S. Department of Interior to respond 
to this question.
    Question 28. What are the hydrological differences between taking 
no action (no modified water deliveries) on the one hand, and adopting 
Alternative 1, Alternative 2b, or Alternative 6D on the other hand. 
Specifically address for each alternative:
    a. How much more water will there be and where will that water be?
    b. How much of the additional water will be in the Park and how 
much will be outside of the Park?
    c. What measurable difference will that extra water make for 
plants, wildlife, and other environmental indicators?
    d. Where exactly will those measurable differences occur?
    e. What is the measurable ecological significance of those 
differences?
    Response. See attached Table ES-1 from the General Reevaluation 
Report and Final Supplemental Environmental Impact Statement (2000).
    Question 29. Would building the levee and seepage canal another 
mile to the east in 8.5 SMA change the hydrological results?
    Response. This is unknown. A levee and seepage canal another mile 
to the east was not one of the alternatives evaluated. We have no 
modeling results on this alternative, thus any answer would be 
speculative.
    Question 30. Would acquiring the entire 8.5 SMA and constructing no 
flood protection change the hydrological results?
    Response. Yes. Acquiring the entire 8.5 SMA produced better wetland 
and hydroperiod restoration than all other alternatives. However, 
Alternative 6D provides almost the same environmental benefits while 
still providing flood mitigation for 83 percent of the residences.
    Question 31. When the Corps measures the costs and benefits of this 
project, how does it value hydrological benefits?
    Response. Please refer to the answer to question number 28.
    Question 32. How does it measure the costs of removing a person or 
family from their home?
    Response. These costs are included in the attached table (Table ES-
1, GRR/SEIS 2000) which quantifies flood mitigation damages, flood 
protection damages, impacts to business, impacts to residences, impacts 
to agricultural lands and unwilling sellers.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Question 33. What value does it place on allowing a family to 
remain in their home protected from flooding?
    Response. The analysis in the GRR/SEIS 2000 optimized environmental 
benefits while minimizing social impacts. Alternative 6D produces the 
greatest environmental benefits per dollar of investment. It also 
impacts less than 13 percent of the households and preserves 92 percent 
of agricultural productivity.
    Question 34. Did Madeline Fortin check with the Corps before she 
bought her home in September 1994?
    Response. We respectfully defer to the U.S. Army Corps of Engineers 
to respond to this question.
    Question 35. What was she told?
    Response. We respectfully defer to the U.S. Army Corps of Engineers 
to respond to this question.
    Question 36. Was the Mod Waters project to start in 1992 with 
completion no later than 1997?
    Response. The 1992 General Design Memorandum projected a completion 
date of June 1997.
    Question 37. Have many of the families in the 8.5 SMA been flooded 
in feet of water for months at a time almost every year since 1994?
    Response. There have been reports of flooded homes in the area, 
however, the depth and duration are not well documented.
    Question 38. Was the original congressional approve plan to cost 
$39 million?
    Response. In the 1992 General Design Memorandum, the project cost 
estimate was $85.6 million.
    Question 39. Would the original congressionally approved plan have 
avoided removing families from their homes when families want to stay 
in their homes?
    Response. Alternative 1 required the acquisition of property and 
included 1 residential tract. Alternative 6D requires acquisition of 
additional property and 77 residential tracts.
    Question 40. Did the South Florida Water Management District at one 
time try to get the county to cutoff all electricity to the community?
    Response. The South Florida Water Management District has at no 
time requested that electrical services to any community be turned off. 
Electrical utility issues are not within the responsibilities of the 
water management district as defined under State law.
    Question 41. Were Metro Dade zoning regulations changed in the 
1980's to prohibit new construction on parcels smaller than forty 
acres?
    Response. We respectfully defer to Metro Dade to respond to this 
question.
    Question 42. Are many holdings in the 8.5 SMA less than 5 acres?
    Response. The majority of tracts in the 8.5 SMA are less than 5 
acres. The following is an estimated breakdown of tract acreage being 
acquired for Alternative 6D:

    <bullet>  No. of Tracts with <5.0 acres of land = 570
    <bullet>  No. of Tracts with 5.0 acres of land = 151
    <bullet>  No. of Tracts with >5.0 acres of land = 49

    Question 43. Does the county deny responsibility for the roads in 
the 8.5 SMA, calling them private roads?
    Response. We respectfully defer to Miami-Dade County to respond to 
this question.
    Question 44. Does Metro Dade collect property taxes from the 8.5 
SMA residents?
    Response. We respectfully defer to Metro Dade to respond to this 
question.
    Question 45. What services does Metro Dade provide?
    Response. We respectfully defer to Metro Dade to respond to this 
question.
    Question 46. Has Metro Dade blocked attempts by unincorporated 
areas to incorporate?
    Response. We respectfully defer to Metro Dade to respond to this 
question.
    Question 47. Have fire trucks been impeded from saving burning 
home(s) by having to travel a very slow mile through 2 feet of water?
    Response. We respectfully defer to Metro Dade to respond to this 
question. Please note, however, that the Everglades Protection and 
Expansion Act only authorizes mitigation of the additional water levels 
in the 8.5 SMA which will result from implementation of the Modified 
Water Deliveries (MWD) project. It does not authorize protection of 
property in the 8.5 SMA from the water levels which are generated by 
Central & Southern Florida projects in absence of the MWD 
modifications. The Everglades Protection and Expansion Act does not 
authorize protection of the 8.5 SMA from current ``flooding'' and it 
does not authorize expenditure of Federal funds to prevent standing 
water in the area.
    Question 48. Have there been more than $1 billion in flood-related 
losses and 14 deaths from preventable flooding throughout the urban and 
agricultural areas of the county?
    Response. We respectfully defer to Miami-Dade County to respond to 
this question.
    Question 49. Has anyone from the in the Corps or the Water 
Management District been disciplined over the flooding?
    Response. The South Florida Water Management District has not 
disciplined any of its employees over flooding issues. We respectfully 
defer to the U.S. Army Corps of Engineers to respond to the question as 
it relates to their employees.
    Flooding is always a potential in South Florida. Our annual 
rainfall amounts often exceed 55 inches and nearly 75 percent of this 
rainfall occurs during the summer months. We have recorded rainfall 
amounts of more than 11 inches in a 24 hour period in Miami-Dade 
County. The Central and Southern Florida (C&SF) Flood Control System is 
the primary flood control system for South Florida and was designed by 
the US Corps of Engineers based on the technologies available in the 
1960's and 1970's while taking into consideration the future projected 
population growth and land uses. The primary flood control system was 
not designed to protect against all potential flooding events but was 
designed to provide a level of protection from moderately strong storm 
events (frequently referred to as the design storm event). 
Unfortunately, urban and agricultural development has occurred at a 
higher density and rate than anticipated in some areas. Consequently, 
the drainage needs in some of these areas are not adequate based on 
current standards. The South Florida Water Management District (SFWMD) 
has recently implemented several enhancements by installing additional 
pump stations that are designed to respond to local flooding events. 
The U.S. Army Corps of Engineers is additionally initiating several 
flood control studies to determine what, if any, additional drainage 
improvements can be implemented in geographic regions where drainage is 
below the current standards. The SFMWD and the Corps of Engineers have 
operated the C&SF project and has managed water in relation to the 8.5 
SMA in accordance with all applicable laws and regulations.
    Question 50. When approached to have the 8.5 SMA's secondary 
drainage canals to the main system, did a SFWMD official state ``I will 
never give you a permit.''
    Response. Without further information, we are unable to verify the 
accuracy of this statement.
    Question 51. Did SFWMD vote to try to acquire the entire community, 
though they did not have the power to condemn land?
    Response. On December 8, 1998, the South Florida Water Management 
District (SFWMD) requested that the Army Corps of Engineers substitute 
full acquisition of the 8.5 SMA as the locally preferred alternative to 
the mitigation component of the Modified Water Deliveries project. In 
April 1999, the SFWMD Governing Board recommended that the Corps 
develop a full array of alternatives for providing mitigation without 
taking a position on a locally preferred option. The SFWMD later agreed 
with Alternative 6D as the federally recommended plan, but it did not 
request Alternative 6D as a locally preferred option. Naming 
Alternative 6D as a locally preferred option would have entailed local 
responsibility for any additional costs above the 1992 General Design 
Memorandum plan.
    The SFWMD has condemnation authority for flood protection and water 
storage projects, but may be limited to voluntary acquisition for 
environmental restoration projects unless specific Legislative 
authority for condemnation for restoration projects has been granted. 
Since the South Florida Water Management District is not the agency 
responsible for land acquisition for MWD, a determination of whether 
the mitigation component for 8.5 SMA fall within Florida's statutory 
definition of ``flood protection `` or ``environmental restoration'' 
for purposes of the SFWMD's condemnation authority is inappropriate at 
this time.
    Question 52. Was this effort later described as a 
``miscommunication''?
    Response. No.
    Question 53. Did one property owner write, ``I like to inform you 
that we do like to sell our land that in accordance with the 
regulations has become good for nothing?``
    Response. The State of Florida is unaware of any such letter. We 
respectful defer to the U.S. Army Corps of Engineers to respond to this 
question.
                                 ______
                                 
  Responses of David Struhs to Additional Questions from Senator Smith
    Question 1. Do you support restoration as the overarching objective 
of the Plan?
    Response. We are in full support of the overarching purposes of the 
plan as stated in WRDA 2000:

  ``The overarching objective of the Plan is the restoration, 
    preservation, and protection of the South Florida Ecosystem while 
    providing for other water-related needs of the region, including 
    water supply and flood protection.''

    Question 2. In your view, what is the greatest impediment to 
restoration at this point in the process?
    Response. In order for restoration to be successful, the State of 
Florida must be recognized as a full and equal partner. There are ample 
assurances in place in the authorizing law to guarantee that water 
needed for restoration will be made available for the natural system. 
What appears to be lacking is a recognition that the State of Florida 
has the same restoration objectives.
    Question 3. Where lies the greatest opportunity to ensure immediate 
results?
    Response. The most immediate opportunities are moving forward with 
the initial ten authorized projects. Another tremendous opportunity for 
early success is Southern Golden Gate Estates. Fifty-five thousand 
acres of wetlands will be restored and sheetflow reintroduced across an 
18 mile stretch of the Ten Thousand Islands and the western panhandle 
of Everglades National Park.
    Question 4. How can Congress be of assistance in maximizing 
potential for success?
    Response. We are hopeful that Congress will fund the Aquifer 
Storage and Recovery pilot projects and authorize the Indian River 
Lagoon, Water Preserve Areas and Southern Golden Gate Estates project 
components. Additionally, we need language that will allow the section 
902 inflation calculations to be applied to the Critical Projects 
authorized in 1996 and the programmatic authority granted in WRDA 2000. 
We are also hopeful that Congress will fully fund the Corps budget for 
CERP implementation.
    Question 5. Do you support an independent science panel that is 
free to review all aspects of the Plan that it deems important to 
providing independent review, or does the State believe that the panel 
should be guided by some government entity, like the Task Force?
    Response. Yes. WRDA 2000 requires the Secretary, the Secretary of 
the Interior, and the Governor, in consultation with the South Florida 
Ecosystem Restoration Task Force, to establish an independent 
scientific review panel to review the Plan's progress toward achieving 
the natural system restoration goals of the Plan. The panel, according 
to Congress, should provide independent scientific review under the 
direction of the Secretary, the Secretary of the Interior, and the 
Governor, in consultation with the South Florida Ecosystem Restoration 
Task Force.
    Question 6. What if there is a conflict between achieving CERP's 
restoration goals and its water supply targets? Should there be a 
priority to meet the restoration goals?
    Response. The overarching object of the Plan is the restoration, 
preservation, and protection of the South Florida Ecosystem while 
providing for other water-related needs of the region, including water 
supply and flood protection. These needs are not competing. The Project 
Implementation Report process will identify water needed for the 
natural system. After the State of Florida has reserved the water 
needed for the natural system , the excess water will be available for 
consumptive use permitting.
    There is ample water to restore the Everglades and meet the other 
water related needs of the region. While only half of the original 
Everglades ecosystem remains the amount of rain that falls on South 
Florida has not changed. The restoration plan recognizes this. As water 
that is currently flushed out to sea via canals is recaptured, it will 
be reserved to ensure the right quantity, timing and distribution is 
achieved for the ecosystem. Forcing all of the water into the 
Everglades would be too much of a good thing.
                                 ______
                                 
    Responses of David Struhs to Additional Questions from Senator 
                               Voinovich

    Question 1. While I am glad that the programmatic regulations deal 
with the use of water and how it will be used to restore the 
Everglades, I am concerned from a very provincial point of view that 
Federal funds may be used to take care of the water supply needs of a 
growing and expanding Florida. As I asked during the hearing, what laws 
are in place at the local, county and State level to encourage 
responsible land-use planning?
    Response. In 1985, the State of Florida adopted Florida's Growth 
Management Act (the ``Act'') (Chapter 163, Part II, Florida Statutes, 
The Local Government Comprehensive Planning and Land Development 
Regulation Act) which requires all of Florida's 67 counties and 476 
municipalities to adopt Local Government Comprehensive Plans that guide 
future growth and development. Comprehensive plans contain chapters or 
``elements'' that address future land use, housing, transportation, 
infrastructure, coastal management, conservation, recreation and open 
space, intergovernmental coordination, and capital improvements. A key 
component of the Act is its concurrency provision that requires 
facilities and services to be available concurrent with the impacts of 
development.
    In 2001, the State amended the Act to integrate land use and water 
supply planning. The amendment requires local governments to consider 
the applicable water management district's regional water supply plan 
in their potable water element and other elements of the local 
government comprehensive plan. Additionally, the amendment requires 
local governments to include in their potable water element a 10-year 
work plan for building water supply facilities that are considered 
necessary to serve existing and new development and for which the local 
government is responsible.
    The Florida Department of Community Affairs (FDCA) reviews 
comprehensive plans and plan amendments for compliance with the Act. 
Other various State agencies including the Department of Environmental 
Protection and the water management districts also review comprehensive 
plans and amendments and may issue recommended objections to FDCA.
    We respectfully defer to Miami-Dade County for a description of 
local and county regulations that encourage responsible land-use 
planning.
                               __________
 Statement of Billy Cypress, Chairman, Miccosukee Tribe of Indians of 
                                Florida

    My name is Billy Cypress, Chairman of the Miccosukee Tribe of 
Indians of Florida. I've testified to this committee before and my 
written testimony contains a full description of the Miccosukee Tribe's 
place in the Everglades and its role in Everglades restoration, so I 
will not explain that now, except to point out that we are the only 
people to live in the Everglades, that much of the Everglades is tribal 
land, and that the Tribe has adopted EPA approved water quality 
standards for the Everglades under the Clean Water Act.
    Thank you for the opportunity to testify on the status of 
Everglades restoration since the passage of the Water resources 
Development Act of 2000. WRDA 2000 was a positive step on which this 
committee spent much productive labor. But agency actions since its 
passage leave much to be desired--and in some cases the agencies are 
retrogressing, actually taking steps quite harmful to restoration.
      the importance of restoration and failures in implementation
    Two points are important. First, that Everglades restoration, no 
matter what the status of its implementation, continues to be of great 
national importance and is well worth the effort. As I said to the 
Florida Legislature in 1994, the Everglades is the Mother of the 
Miccosukee Tribe, and she is dying. She is in the care of others, who 
do not seem to care.
    Second, implementation of Everglades restoration is in serious 
trouble due to misplaced priorities, subordination of fundamental 
democratic values, Federal intransigence, and bureaucratic arrogance 
and incompetence. While we all have hope for the future, Everglades 
restoration is clouded at present by a past of discrimination and 
failure.

                           THE RECORD IN 2002

    Consider, for example, that just this year Federal courts in South 
Florida have found government action relating to the Everglades to be 
in violation of Federal law four times in four different cases.

                       RESTORATION AND THE COURTS

    (1) In February 2002, a Federal district trial court found that the 
Corps of Engineers had acted arbitrarily and capriciously in adopting 
an Interim Operating Plan for the Cape Sable Seaside Sparrow (the U.S. 
did not appeal).
    (2) Just this month (September 2002), the Eleventh Circuit Court of 
Appeals found unanimously that the Federal Government had used improper 
procedures in developing restoration policy by establishing an advisory 
committee with the State of Florida without meeting public notice and 
meeting requirements of the Federal Advisory Committee Act (FACA). 
These cases were both brought by the Tribe.
    (3) In July 2002, a Federal district court found that the Corps 
acted unlawfully in attempting to condemn homes in the long-delayed 
Modified Water Deliveries Project. This case was brought by the 
homeowners.
    (4) In February 2002, the Eleventh Circuit Court of Appeals upheld 
a trial court finding that the State of Florida (Water Management 
District) was violating the Clean Water Act by discharging pollution 
into the Everglades in Broward County. This case was brought by the 
Tribe.
    Each of the cases involved serious (not just technical) matters of 
Everglades policy and policymaking. But, it seems, that nothing bad 
ever happens to governments when they are found to be in violation of 
the law. They just go on like nothing happened. In fact, the senate 
just rewarded the unlawful behavior of the Corps in the Modified Water 
Deliveries Project by passing an amendment to the Interior 
Appropriations Bill which legitimizes its unlawful behavior. How can 
any citizen or Indian Tribe trust the law when agencies can ignore the 
law for years and then, when a court finds the action to be indeed 
unlawful, Congress just changes the law. The ``rule of law'' does not 
mean that you just change the law to fit whatever an agency does; it 
means that the agency conforms its behavior to the pre-existing law. So 
far, Everglades restoration is a case study of trashing the rule of 
law, legal promises made by Congress but broken at a whim, phony 
guarantees of protection to citizens and the Tribe which mean nothing 
when the time comes to rely on them.

  WATER QUANTITY (HYDROPERIOD RESTORATION): MOVING FURTHER AWAY FROM 
        NATURAL LEVELS AND REJECTION OF THE NATURAL SYSTEM MODEL

    Several Federal agencies (Department of the Interior and the Corps) 
have decided that hydroperiod restoration is not the priority goal, 
notwithstanding the CERP priority on such restoration. The 1999 CERP 
Plan provided that ``getting the water right'' (hydroperiod and 
pollution; i.e., water quantity and quantity) was the means and goal of 
Everglades restoration. This is the Tribe's position. If we achieve 
water quantity and quality, other biological elements will follow. But 
the Federal agencies now object to this approach, because hydroperiod 
restoration will have a temporary negative impact on any non-natural 
conditions which some animals and plants (i.e., some species) like 
better than natural conditions. These agencies are not willing to 
restore the Everglades if the natural Everglades is not the best 
condition for their client species which like the non-natural 
Everglades better!
    This is illustrated by the actions of the Corps and Fish and 
Wildlife Service in connection with the Cape Sable seaside Sparrow, 
which move further away from natural water levels in the western 
Everglades than even the C&SF project had caused. In the western 
Everglades (tribal areas), the C&SF project caused waters north of 
Tamiami Trail to be higher than natural; and C&SF caused waters south 
of the trail to be lower than natural. Believe it or not, actions being 
taken now are causing water north of the Trail to be even more 
unnatural, even higher than C&SF levels (which we are supposed to be 
fixing). Likewise, waters south of the Trail are being forced even more 
unnatural, lower even than C&SF levels.
    This absurdity has resulted in Fish and Wildlife Service claims 
that we cannot rely on the Natural System Model (NSM), whenever FWS 
doesn't like the model. Even though the validity of NSM was central to 
the whole idea of CERP, FWS now picks and chooses when it will rely on 
NSM and when it just decides that NSM is no good--essentially, 
disregarding this scientific model whenever it doesn't produce the 
results FWS wants.
    This is outrageous, just like Alice-in-Wonderland. And its 
destroying tribal lands north of the Trail. In March 2002, the Amended 
Biological Opinion finally acknowledged that 88,300 acres of Everglades 
north of the Trail (tribal lands) will be degraded by this action.
    The Tribe's statement on this critical issue, with graphs proving 
the facts, is contained in a special section of the Report of the South 
Florida Ecosystem Task Force (and it is attached to my written 
testimony).

                  WATER QUALITY (POLLUTION ABATEMENT)

    Most water quality improvements are considered to be pre-CERP under 
State programs. These State programs are behind schedule and no method 
of achieving final water quality standards by the 2006 deadline has 
been selected. The Federal district court overseeing the Federal 
consent decree on water quality has expressed interest in the apparent 
problems in this area and has scheduled an extensive hearing for next 
week.

        A SUMMARY OF CRITICAL ASPECTS OF EVERGLADES RESTORATION

    There are several critical aspects of Everglades restoration which 
are not well understood at the highest levels of Federal and State 
administration (due to inevitable time constraints and reliance on pre-
existing bureaucracy) and which are exploited to achieve distortion by 
intermediate levels of bureaucracy (to achieve narrow agendas tied to 
client or constituent groups, such as environmental group ties within 
the National Park Service). These critical aspects include:
1. Destruction of Non-Federal Everglades (State and Tribal Everglades)
    There is more freshwater Everglades to be saved outside of 
Everglades National Park and the Loxahatchee National Wildlife Refuge 
than within the Park and the Refuge, but Federal agencies discriminate 
against the State and tribal Everglades, sacrificing the largest part 
of the remaining freshwater Everglades in favor of the smaller Federal 
Everglades in the Park and the National Wildlife Refuge.
    <bullet>  The remaining ``River of Grass'' to the north of the Park 
and to the south of the Refuge (outside of Federal control), in the 
Florida Water Conservation Areas and Miccosukee Indian Country, is much 
larger than the Park and the Wildlife Refuge.
    <bullet>  Everglades National Park itself is less than half of the 
remaining freshwater Everglades.
    <bullet>  The Federal agencies (DOI, Park, etc) always seek their 
own aggrandizement at the expense of the rest of the Everglades
    <bullet>  The Department of the Interior seeks to sacrifice the 
larger Everglades in State and Tribal control to serve a sub-optimal, 
selfish goal of absolutely perfect treatment of their lands.
    <bullet>  The Federal Government always gives priority first-class 
status to Federal land, while giving equally important State, Tribal, 
or private lands only second-class status or no status at all.

                            RECOMMENDATIONS

    (A) Direct that all of the remaining Everglades be treated equally 
(all Everglades within the official Everglades Protection Area), with 
no preference for Federal lands over State or Tribal lands (an ``equal 
protection'' concept).
    (B) Review Department of Justice litigation positions to provide 
full protection and equal treatment of all remaining Everglades, 
including tribal Everglades.

2. Endangered Species Act Distortions
    The Department of the Interior in the prior Administration used the 
ESA to try to wrest control of the entire ``Central and South Florida 
Project for Flood Control and Other Purposes'' from the Corps of 
Engineers, posing a serious threat to balanced restoration and to 
Tribal Everglades, as well as to policy control of the process.
    <bullet>  DOI has tried to gain control of all water delivery 
schedules throughout the South Florida region through the Endangered 
Species Act, both directly (through ``Biological Opinions'', etc) and 
indirectly (through illicit coordination with client environmental 
groups to induce agency-supported lawsuits).
    <bullet>  DOI control of the Project, which is a congressionally 
authorized Corps of Engineers project, would be a disaster for South 
Florida residents (reduced flood protection and water supply).
    <bullet>  DOI control of the Project also would be a disaster for 
the Administration, because DOI bureaucrats would constantly constrain 
the administration's options, ``setting up'' the Administration for 
criticism and hostile (agency-induced) litigation from client 
environmental groups.

                            RECOMMENDATIONS

    (A) Review the use of the ESA in the Everglades at the DOI 
Secretary level, with input from outside the agency staff channels.
    (B) Gain control of Department of Justice litigation strategies 
(which have been previously in the hands of attorneys tied politically 
to the prior Administration's views).
3. Diminished Flood Protection and Destruction of Tribal Lands and 
        Private Property
    Everglades restoration as implemented has resulted in tragic and 
unnecessary flooding of residential homes and destruction of private 
property.
    <bullet>  The Comprehensive Plan of the Corps of Engineers, as 
approved by Congress, demonstrates that Everglades restoration need not 
diminish flood protection and destroy tribal lands and other private 
property rights
    <bullet>  The Department of the Interior (especially National Park 
Service and Fish & Wildlife Service) have used restoration to 
deliberately establish park ``buffer zones'' (which Congress has 
refused to authorize) and priority for Park lands, and to condemn and 
flood private property (which Congress has specifically protected in 
Everglades legislation), by raising canal water levels without 
providing the congressionally mandated collateral flood protections.
    <bullet>  Unnecessary flooding of homes (including the city of 
Sweetwater) and tribal lands in the last 3 years was caused by Park 
Service intransigence, Administration-coordinated environmental group 
pressure, and CEQ interference, all aimed to distort the work of the 
Corps of Engineers.

                            RECOMMENDATIONS

    (A) Instruct the Corps of Engineers to achieve the flood protection 
goals of the Central and South Florida Project, including flood 
protection of tribal lands, as well as the environmental goals.
    (B) Instruct the Department of the Interior to cease urging the 
flooding and condemnation of homeowners.
    (C) Instruct Corps and DOI to treat tribal Everglades equal to 
Federal Everglades, without discrimination.

                               CONCLUSION

    Everglades restoration programs since the enactment of WRDA 2000 
are in a crisis because Federal and State agencies have not taken 
seriously their duties to follow the law and to restore proper water 
flow and water quality. Each agency has its own narrow procedures and 
goals, and none has committed fully to ``getting the water right''; 
that is, none has committed fully to re-establishing natural water 
levels and water quality. No one suffers more from this failure of 
vision, from this failure of commitment, than the Miccosukee Tribe of 
Indians which has called the Everglades home for centuries

                              Attachment 1

                 THE MICCOSUKEE TRIBE IN THE EVERGLADES

    I have served as Chairman of the Miccosukee Tribe of Indians of 
Florida for more than 12 years and as a tribal elected official for 
more than 20 years. At the outset, I want to provide some interesting 
information about the Miccosukee Tribe of Indians of Florida and the 
Tribe's role in the Everglades:

    <bullet>  The Miccosukee Tribe is a federally recognized Indian 
Tribe.
    <bullet>  Miccosukee Indian Country is within the Everglades (Water 
Conservation Area 3-A and Everglades National Park, within the 
Everglades Protection Area).
    <bullet>  The only Tribe with lands within the Everglades 
(Miccosukee Indian Country, consisting of Indian Reservation lands, 
congressionally recognized Perpetual Lease lands, congressionally 
established Miccosukee Reserved Area lands, and Miccosukee Dependent 
Indian Community lands within the Everglades Protection Area).
    <bullet>  Its members are the only people to live within the 
Everglades (Indian and non-Indian in Everglades Protection Area).
    <bullet>  The Tribe is approved with State status under the Clean 
Water Act.
    <bullet>  The Tribe has set federally approved water quality 
standards for the Everglades (including phosphorus).
    <bullet>  The Tribe's members are guaranteed by Congress the right 
to live traditionally within Everglades National Park and Big Cypress 
National Preserve.
                                 ______
                                 
                              Attachment 2

  CONFLICTING PRIORITIES IN HYDROPERIOD RESTORATION AND THE LACK OF A 
                    VISION IN EVERGLADES RESTORATION

 (By Dexter Lehtinen, Member, South Florida Ecosystem Restoration Task 
                        Force, August 26, 2002)
            (Reprinted from the Task Force Report for 2002)

    The Task Force Report, while admirable in many respects, fails to 
address one of the central problems in Everglades restoration--that is, 
the inherent and continuing conflict between agency programs or 
missions (including statutes) and the central goals of restoration 
(hyroperiod and water quality restoration). If these conflicts are not 
resolved in favor of hydroperiod and water quality restoration, and 
narrower agency advocacy of divergent goals is not eliminated, then 
Everglades restoration will fail. The Task Force Report's ambiguous 
reference to ``short-term or interim management actions which are not 
immediately consistent with long-term goals'' (pages 5 and 22) has been 
explained as (and should be properly understood as) referring to 
temporary adverse consequences of initial steps in implementing 
restoration projects. But it could be improperly twisted to justify 
adverse consequences of agency action which is not in any way an 
initial step or part of hydroperiod or water quality restoration. That 
is, some agencies directly damage hydroperiod and water quality for 
their own narrow goals (based on pre-existing agency missions or their 
interpretation of existing law).
    When individual agency programs or missions conflict with broad 
restoration goals, the broad goals should prevail if restoration is to 
be achieved. This is a truth which neither agencies nor the Task Force 
are yet willing to face. In fact, the substitution of agency programs 
or missions over broad restoration goals is precisely the problem which 
restoration has unsuccessfully faced for many years and which has 
contributed to restoration delays and continued degradation.
    Despite the apparent priority of hydroperiod (water levels) 
restoration to natural levels and water quality improvements, there are 
different agency goals or legal interpretations which conflict with or 
inhibit natural hydroperiod restoration. As a logical matter, it is 
clear that species which favor the current degraded and disturbed 
conditions of the Everglades will be adversely affected, in an 
immediate short-term sense, by natural hydroperiod restoration. It must 
be remembered that the current disturbed and degraded condition of the 
Everglades is ``unnatural'' because it differs from the historic 
natural conditions, which means that the Everglades is a ``degraded 
habitat'' when measured against historic natural conditions. The 
historic conditions were not favorable to species other than those 
species which thrived in such historic natural conditions.
    It both logically possible and factually demonstrable that certain 
species find the ``degraded'' habitat to be better for them than the 
natural habitat. Therefore, when restoration occurs, the movement from 
poor or ``degraded'' conditions toward ``better'' or natural 
conditions, is considered positive and progressive when measured 
against natural restoration standards. But this same positive movement 
instead constitutes a movement from good conditions toward poor 
conditions for any single species which currently favors the degraded 
conditions. Therefore, ``habitat improvement'' for the natural 
Everglades is instead ``habitat degradation'' for a single invasive 
species.
    Natural restoration can occur only if natural restoration is given 
the priority over protection of the degraded habitat which a single 
species may favor. The long-term benefits of restoration must be 
accepted as superior to the short-term benefits of maintaining degraded 
conditions for the benefit of single species.
    An outstanding example of such a problem is the current urging of 
the U.S. Fish and Wildlife Service (through Biological Opinions under 
the Endangered Species Act) to maintain unnaturally low water levels 
below Tamiami Trail (in Everglades National Park, south of the S-12 
structures) in favor of the Cape Sable Seaside Sparrow, which favors 
such an unnatural habitat. This action has the secondary effect of 
maintaining unnaturally high water levels north of Tamiami Trail (in 
Water Conservation Areas and Miccosukee Tribal lands).
    Charts 1 and 2 show that, under the actions sought by USFWS and 
proposed by the Corps of Engineers for 2002, water levels below Tamiami 
Trail will be lower than the Natural System Model shows would be 
natural conditions (the goal for restoration), while water levels north 
of Tamiami trail would be higher than the NSM shows would be natural 
conditions. The charts also show that the C&SF Project regulation 
schedule, the water management regime normally in effect prior to 
interim actions proposed for the sparrow, were likewise the cause of 
unnaturally low water south of Tamiami Trail and unnaturally high water 
north of the Trail--but that the current sparrow actions are worse than 
the regulation schedule, that the sparrow actions aggravate the 
unnatural conditions. That is, these actions, proposed and adopted 
subsequent to the establishment of restoration goals, move away from 
restoration rather than toward restoration.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    This regression away from restoration highlights the common myths 
of Everglades restoration: (1) The Myth of a Restoration as the 
Priority (the false belief that everyone seeks restoration as a common 
priority); (2) The Myth of Progress (the assumption that at least we're 
making progress toward restoration, that what we're doing is helping); 
(3) The Myth of Money (the common claim that the main impediment to 
restoration is money); (4) The Myth of the General Federal Interest 
(the assumption that the Federal Government represents a general 
interest in overall restoration, rather than a narrow special interest; 
also the Myth of the Park, the Federal working premise that 
``Everglades'' means just ``Everglades National Park'', not the larger 
Florida Everglades to the north); and (5) The Myth of a Shared Vision 
(the assumption that everyone seeks a return to natural conditions, 
rather than new conditions favorable to their special interest). Until 
these myths become reality, Everglades restoration will not and cannot 
be achieved.

                               __________
 Statement of Patricia A. Power, Consultant, Seminole Tribe of Florida

Introduction
    The Seminole Tribe welcomes the opportunity to share our views on 
the progress toward implementing the Comprehensive Everglades 
Restoration Plan (CERP) authorized by the Water Resources and 
Development Act (WRDA) of 2000. For many years now, the Seminole Tribe 
of Florida has been an active participant in the multi-faceted efforts 
to restore the South Florida Ecosystem. As such, we have seen the value 
of our participation to the Tribe in being able to educate policymakers 
about the Tribe's concerns and needs. We have also found value in 
working with other stakeholders to formulate and refine policy 
positions and program options. We applaud the committee for bringing 
together today a representative group of stakeholders to update you on 
the progress made toward achieving ecosystem restoration in South 
Florida. A program developed and implemented though consensus has an 
improved prospect for successful restoration of the natural system 
while maintaining stability in flood control and water supply for South 
Floridians.
    Our leading comment to this Committee on the Restudy, and later on 
the proposed WRDA 2000 legislation, was that a balanced approach is 
critical to the success of the grand restoration effort of which CERP 
is a central component. Now back before you, we wish to reiterate that 
a balanced approach throughout the implementation of CERP remains 
critical.
    This testimony briefly introduces the Seminole Tribe of Florida 
before discussing the reasons the Tribe is highly committed to 
Everglades restoration. Next, this testimony outlines the status of the 
Tribe's Critical Restoration Project on the Big Cypress Reservation. 
The testimony also discusses the Tribe's major issues related to CERP 
implementation, and more specifically, comments on the proposed 
Programmatic Regulations as proposed by the Corps of Engineers (Corps) 
in early August.

The Seminole Tribe of Florida
    The Seminole Tribe lives in the South Florida ecosystem. The Tribe 
relies on all aspects of a healthy ecosystem, including the Everglades, 
which provide many of our tribal members with their livelihood. Our 
traditional Seminole cultural, religious, and recreational activities, 
as well as commercial endeavors, are dependent on a healthy South 
Florida ecosystem. In fact, the Tribe's identity is so closely linked 
to the land that Tribal members believe that if the land dies, so will 
the Tribe.
    During the Seminole Wars of the 19th Century, the Tribe found 
protection in the hostile Everglades and Big Cypress Swamp. But for 
this harsh environment filled with sawgrass and alligators, the 
Seminole Tribe of Florida would not exist today. Once in the Everglades 
and Big Cypress, tribal members learned how to use the natural system 
for support without doing harm to the environment that sustained them. 
For example, the Seminole native dwelling, the chickee, is made of 
cypress logs and palmetto fronds. It protects its inhabitants from sun 
and rain, while allowing maximum circulation for cooling. When a 
chickee has outlived its useful life, the cypress and palmetto return 
to the earth to nourish the soil.
    In response to social challenges within the Tribe, tribal leaders 
looked to the tribal elders for guidance. Our elders taught us to look 
to the land, for when the land was ill, the Tribe would soon be ill as 
well. When we looked at the land, we saw the Everglades and supporting 
ecosystem in decline. We recognized that we had to help mitigate the 
impacts of man on this natural system. At the same time, we 
acknowledged that this land must sustain our people, and thereby our 
culture. The clear message we heard from our elders and the land was 
that we must design a way of life to preserve the land and the Tribe. 
Tribal members must be able to work and sustain themselves. We need to 
protect our tribal farmers and ranchers. Any plan to address 
restoration needed to address that balance.

Why Everglades Restoration? Why CERP?
    At the Critical Project groundbreaking ceremony on the Big Cypress 
Reservation this past January, Tribal leadership expressed their 
concerns about the current condition of the land and water on the 
reservations, especially as compared to what they recalled from 
childhood. They spoke of the cypress and sawgrass, rains and fires, and 
wide-open skies. They also spoke of the hardships caused by the 
flooding and unreliable water supply. While acknowledging the 
tradeoffs, they cautioned against losing anymore of their environmental 
culture and applauded restoration activities. Their observations echoed 
those of the children of the Ahfachkee School who shared their growing 
awareness of their unique cultural values including a healthy Big 
Cypress Reservation ecosystem.
    Moses Jumper, Jr., resident poet of the Big Cypress Reservation, 
shared his poetic insights into the unique imagery and values of the 
Everglades throughout the groundbreaking ceremony. The following 
illustrates Mr. Jumper's keen observations and heartfelt concerns about 
the declining health of the ecosystem.
                                 ______
                                 
                             River of Peace
                         (By Moses Jumper, Jr.)

In my early years as a young boy,
I climbed the willow trees that covered
The river's edge.

I would watch the squirrels play in the
Mighty oaks and I would laugh as they
Dropped acorns into the gentle river below.

King Fisher, O-pa, snake bird and hawk,
They would all sit high in the cypress
Tree as they peered down ready to scoop up
An unsuspecting meal.

The river gently flowed, going nowhere,
Yet, bringing life to the glades. The
River was peaceful and so was I . . .

    It was a good time to be alive . . .

Then one day they came. They surveyed
The land and said ``This river goes no
Where and is useless.'' We will dig a
Larger canal and will let it run to the sea.

The oaks went down as did the cypress and
Willow tree.

Soon the land became dry and parched.

O-pa was gone as well as King fisher,
Snake bird and hawk . . .

I cried, for what the giver of breath
Had given, we destroyed and I knew they would
Be no more . . .

    Without CERP, as modified through the adaptive management process 
over the years, the Tribe believes that the ecosystem will not be able 
to support either the natural system or the built system, the heading 
the urban, suburban, and agricultural areas are now collected under. 
The Tribe views the natural and built systems as intricately linked. As 
CERP projects are built and become operational, the pressure from the 
built system on the natural system will be reduced. But without CERP, 
the willow and oaks and King Fisher and O-pa (the Creek word for 
``owl'') are unlikely to come back.
Seminole Everglades Restoration Project Update
    Recognizing the needs of our land and our people, the Tribe has 
developed a Water Conservation Plan to mitigate the harm to the land 
and water systems within our Reservations while ensuring a sustainable 
future for the Seminole Tribe of Florida. The Big Cypress Reservation 
is the first of our Reservations for which such a plan has been 
implemented. The Tribe is in the early stages of developing a plan with 
similar goals on the Brighton Reservation.
    On Big Cypress, this restoration plan will allow Tribal members to 
continue ongoing farming and ranching activities while improving water 
quality and restoring a natural hydroperiod to large portions of the 
native lands on the Reservation and ultimately, positively affecting 
flora and fauna of the Big Cypress National Preserve and Everglades 
National Park. Portions of the WCP, including a conveyance canal that 
will bring water from the east side of the Reservation to the water 
quality and supply components on the western side of the Reservation 
have been identified as a ``Critical Project'' under section 528 of 
WRDA 1996. As you are aware, Critical Restoration Projects are projects 
that were determined to provide independent, immediate, and substantial 
restoration, preservation, and protection benefits to the South Florida 
Ecosystem. In addition, the Tribe is working closely with the National 
Resource Conservation Service to identify appropriate programs to 
complete construction of the water quality and supply components on the 
eastern side of the Reservation. The Tribe in conjunction with the NRCS 
has also completed a project to restore wetlands on the Reservation 
under the Wetland Reserve Program, and another such project is 
currently underway.
    The Big Cypress Critical Restoration Project is in the construction 
phase and is moving forward smoothly at this time. The goals of this 
project include improved water quality and hydrology in a natural area 
on the Reservation known as the Native Area, and improve water quality 
and hydrology in the Big Cypress National Preserve as water flows off 
the Reservation. The Project will also offer enhanced water storage and 
flood control for the Reservation. The first phase of the project, the 
East Conveyance Canal has two purposes: first, it is the backbone of 
the water storage and treatment elements in the four western basins of 
the Reservation; and, second, it will convey water the Tribe has been 
entitled to receive from the South Florida Water Management District as 
a result of the Tribe's transfer of the land and water rights to a part 
of the historic Big Cypress State reservation to the State of Florida 
to be managed for Everglades restoration. [See the Seminole Land Claims 
Settlement Act of 1987.] This first phase is scheduled to be completed 
by the end of this year.
    The second phase of the project, construction of water treatment 
and storage areas on the western side of the Reservation, is currently 
in the design and planning phase. Phase 2 construction is anticipated 
to begin in August2003 and be completed in 2006.
    The Big Cypress Critical Restoration Project is a large and 
complicated project to which the Tribe has made a substantial and long-
termed financial and cultural commitment. This project is the only 
CERP-related project scheduled to be constructed in the Big Cypress 
Basin until 2015. This project will reconnect historic sheetflow of 
good quality water to stunning old-growth cypress swamps on the 
Reservation and into the Big Cypress National Preserve. The restoration 
benefits, balanced with addressing the related water needs of the Tribe 
on the Big Cypress Reservation, clearly justify the joint investment by 
the Tribe and the Federal Government.
General Comments on CERP Implementation
    As indicated previously, the Tribe's over-riding principle applied 
to our analysis of the development of CERP applies to the 
implementation of CERP as well--and that is balance. Lack of balance is 
the cause of the problems CERP is directed to correct. The 
environmental crisis in South Florida was brought about by the Central 
& Southern Florida (C&SF) Project so efficiently achieving its 
congressionally mandated goals of providing flood protection and water 
supply to the farms and families of Florida, without fully appreciating 
the resulting impacts on the natural system. As the damage to the 
natural environment became evident, all entities began to recognize the 
interdependence of the natural system and the ``built'' environment. 
CERP acknowledges that while restoration of the environment is 
paramount, the other related water needs of the region, as addressed by 
the C&SF Project, must be provided for as well. The Tribe supports CERP 
implementation providing protection to the natural systems, the people, 
and the agricultural communities that share the South Florida 
Ecosystem.
    The success of CERP authorization and implementation to date 
results from the emphasis on obtaining input from a wide array of 
stakeholders and recognizing the importance of addressing natural and 
human water needs in a balanced way. Keeping all stakeholders committed 
to CERP will require careful project sequencing to guarantee that the 
benefits of the projects are equitably distributed over time and space, 
while ensure that measurable benefits are produced in a reasonable 
period of time.
    Careful scientific analysis completed through adaptive assessment 
will need to support well-informed policy decisions to accomplish 
productive adaptive management--all of which requires active 
participation by a broad cross-section of stakeholders. Modeling 
efforts, as the basis for both prospective planning and retrospective 
monitoring and analysis, must reflect that all components of the 
ecosystem-the natural system and the built environment-are 
interdependent.
    The pace of both Federal and State funding (along with the Tribe's 
funding of the Big Cypress critical project), the execution of the 
historic President-Governor agreement guaranteeing benefits to the 
natural system, and the proposed Programmatic Regulations all indicate 
good progress toward the end goals of CERP.
Comments on the Proposed Programmatic Regulations
    The Tribe notes the Corps' exemplary outreach efforts applied to 
the development of the proposed rule on the Programmatic Regulations 
(Regulations). The Corps, along with the Task Force and the Department 
of Interior, worked hard to ensure that the Tribe had ample notice and 
opportunity to review, discuss, and comment on the Regulations. Many of 
the Tribe's concerns expressed regarding the December 2001 draft were 
addressed by the Corps' proposed rule. While the Tribe will provide 
formal comment on the current draft of the proposed rule, our comments 
on the Regulation are positive overall.
    The Tribe believes that it is critically important to clearly 
define policy verses technical decisions, and to clearly assign 
responsibility and accountability for each. It is crucial that the 
policy-level consensus building be conducted in public with input from 
the public. For example, the project management team, with the 
assistance of RECOVER, will formulate project alternatives prior to the 
selection of the alternative to undergo the analysis necessary to 
complete a Project Implementation Report (PIR). The tribe believes that 
selecting the final alternative is a policy level decision; therefore, 
the Tribe recommends that the Task Force review the alternatives and 
make an alternative recommendation to the project's managers. The 
policy-level consensus building conducted in public with input from the 
public is crucial for 2 purposes--namely, building support for the 
selected alternative, and flushing out serious problems prior to heavy 
investment in developing the documentation necessary for a PIR. Another 
example is in the operation and application of the recommendations of 
RECOVER. The roles of the leadership team and the individual research 
groups need to be clearly delineated.
    The Tribe further believes that the Programmatic Regulations must 
address the issue of source switching as mandated by WRDA 2000. This 
requirement is unique to CERP and there is no historic counterpart in 
Florida law to guide how this process will occur. As a result, this 
issue has the potential to become a roadblock to CERP implementation 
without clear guiding principles for developing how and when source 
switching will take place. While it may be too early in CERP 
implementation to define this process in this version of the 
Regulations, at a minimum the Regulations need to provide a framework 
for determining what constitutes an existing legal source. The Tribe is 
working on language to be submitted to the Corps on this issue.
    Finally, the Tribe supports the Corps setting up interim goals in 
the Regulation for restoration benefits and targets for other related 
water goals. We urge that these measures while analyzed separately, be 
done so with similar procedures and weight. This is crucial if we are 
to maintain the balance that is so important to successful CERP 
implementation.
Conclusion
    The Seminole Tribe is unconquered. Our ancestors refused to be 
forced out of Florida. They fought over a period of 44 years in the 
three Seminole wars to maintain our freedom, to keep control of our 
destiny, and to remain in Florida. The Everglades provided our 
ancestors protection from repeated attacks.
    Now, in 2002, the Seminole Tribe contributes to the protection of 
the Everglades ecosystem. Our people are willing participants in this 
massive restoration undertaking. The Big Cypress Critical Restoration 
Project is an integral part of the overall ecosystem restoration. We 
look forward to our neighbors and all stakeholders continuing to make 
the necessary commitment to restoring the South Florida ecosystem 
through CERP implementation and other programs. Without such a 
commitment, restoration will not be achieved.
                                 ______
                                 
Responses by Patricia Power to Additional Questions from Senator Graham

    Question 1. Can you describe what will happen to the Everglades if 
no action is taken on CERP?
    Response. Without CERP, as modified through the adaptive management 
process over the years, the Tribe believes that the ecosystem will not 
be able to support either the natural system or the built system, the 
heading the urban, suburban, and agricultural areas are now collected 
under. The Tribe views the natural and built systems as intricately 
linked. As CERP projects are built and become operational, the pressure 
from the built system on the natural system will be reduced. But 
without CERP, restoration of flora and fauna are highly unlikely, and 
the natural system's ability to continue to provide water supply and 
flood control support for the built system will continue to diminish.

    Question 2. What actions does Congress need to take in the near and 
distant future to move the CERP forward?
    Response. Congress will need to pass annual appropriation bills to 
adequately fund the Corps and other Federal agencies participating in 
CERP implementation. Inadequate funding will impede the pace of on-the-
ground progress. Funding needs will span from scientific research to 
support adaptive management and maximize effective project design to 
project design, construction, and operation. The appropriations process 
may create an annual opportunity for Congress to evaluate the progress 
of CERP implementation.
    Recurring congressional actions also include the required review 
and approval of the PIRs when they are in order and of the recommended 
project design. Congress, the Senate Environment and Public Works and 
House Transportation and Infrastructure Committees in particular, can 
use this process to monitor the adherence to the broad goals authorized 
in CERP and the application of adaptive management principles to ensure 
the most effective outcomes.

    Question 3. Have you had ample opportunity to communicate with the 
Corps on your views regarding programmatic regulations, project 
execution, and other CERP issues?
    Response. The Tribe notes the Corps' exemplary outreach efforts 
applied to the development of the proposed rule on the Programmatic 
Regulations (Regulations). The Corps, along with the Task Force and the 
Department of Interior, worked hard to ensure that the Tribe had ample 
notice and opportunity to review, discuss, and comment on the 
Regulations. Many of the Tribe's concerns expressed regarding the 
December 2001 draft were addressed by the Corps' proposed rule. The 
Tribe provided formal comment on the current draft of the proposed 
rule; our comments on the Regulation are positive overall.
    While the Tribe maintains positions on various committees that 
provide CERP policy direction and or oversight (the South Florida 
Ecosystem Restoration Task Force and its Working Group, RECOVER, the 
WRAC) and thereby has access to briefings on CERP issues, we are 
concerned about our ability to effectively monitor ongoing and future 
CERP technical and policy decisionmaking processes with current 
resources. It is important that the process drive, not impede, progress 
toward restoration. The process needs to be efficiently established to 
allow stakeholders to actually monitor program and project development. 
Technology must be used to enhance access to technical and policy 
information. The current meeting schedules are daunting. The creation 
of new committees to address new implementation issues are they arise 
will exacerbate the meeting and information flow burden.
    As we discussed in our testimony, it is critical that all 
stakeholders remain involved in CERP implementation. Effective 
involvement is dependent on access to information in formats that allow 
review and understanding of the complex plan. The burden to maximize 
access to CERP implementation information will fall to the implementing 
agencies. Complex studies and project reports should be summarized in a 
way to allow the general public to review and understand the 
information. In addition, the implementing agencies should create 
opportunities to present information to and collect input from 
stakeholders collectively to foster mutual support and ease the burden 
of remaining involved.

    Question 4. Can you give us a status update on your project being 
completed under the critical projects authority?
    Recognizing the needs of our land and our people, the Tribe has 
developed a Water Conservation Plan to mitigate the harm to the land 
and water systems within our Reservations while ensuring a sustainable 
future for the Seminole Tribe of Florida. The Big Cypress Reservation 
is the first of our Reservations for which such a plan has been 
implemented. The Tribe is in the early stages of developing a plan with 
similar goals on the Brighton Reservation.
    On Big Cypress, this restoration plan will allow Tribal members to 
continue ongoing farming and ranching activities while improving water 
quality and restoring a natural hydroperiod to large portions of the 
native lands on the Reservation and ultimately, positively affecting 
flora and fauna of the Big Cypress National Preserve and Everglades 
National Park. Portions of the WCP, including a conveyance canal that 
will bring water from the east side of the Reservation to the water 
quality and supply components on the western side of the Reservation 
have been identified as a ``Critical Project'' under section 528 of 
WRDA 1996. As you are aware, Critical Restoration Projects are projects 
that were determined to provide independent, immediate, and substantial 
restoration, preservation, and protection benefits to the South Florida 
Ecosystem. In addition, the Tribe is working closely with the National 
Resource Conservation Service to identify appropriate programs to 
complete construction of the water quality and supply components on the 
eastern side of the Reservation. The Tribe in conjunction with the NRCS 
has also completed a project to restore wetlands on the Reservation 
under the Wetland Reserve Program, and another such project is 
currently underway.
    The Big Cypress Critical Restoration Project is in the construction 
phase and is moving forward smoothly at this time. The goals of this 
project include improved water quality and hydrology in a natural area 
on the Reservation known as the Native Area, and improve water quality 
and hydrology in the Big Cypress National Preserve as water flows off 
the Reservation. The Project will also offer enhanced water storage and 
flood control for the Reservation. The first phase of the project, the 
East Conveyance Canal has two purposes: first, it is the backbone of 
the water storage and treatment elements in the four western basins of 
the Reservation; and, second, it will convey water the Tribe has been 
entitled to receive from the South Florida Water Management District as 
a result of the Tribe's transfer of the land and water rights to a part 
of the historic Big Cypress State reservation to the State of Florida 
to be managed for Everglades restoration. [See the Seminole Land Claims 
Settlement Act of 1987.] This first phase is scheduled to be completed 
by the end of this year.
    The second phase of the project, construction of water treatment 
and storage areas on the western side of the Reservation, is currently 
in the design and planning phase. Phase 2 construction is anticipated 
to begin in August 2003 and be completed in 2006.
    The Big Cypress Critical Restoration Project is a large and 
complicated project to which the Tribe has made a substantial and long-
termed financial and cultural commitment. This project is the only 
CERP-related project scheduled to be constructed in the Big Cypress 
Basin until 2015. This project will reconnect historic sheetflow of 
good quality water to stunning old-growth cypress swamps on the 
Reservation and into the Big Cypress National Preserve. The restoration 
benefits, balanced with addressing the related water needs of the Tribe 
on the Big Cypress Reservation, clearly justify the joint investment by 
the Tribe and the Federal Government.

                               __________
 Statement of Roman Gastesi, Miami-Dade County Water Resources Manager

    Chairman Jeffords, Ranking Member Smith, and members of the 
committee, thank you for the opportunity to comment on the 
Comprehensive Everglades Restoration Plan (CERP). I am particularly 
gratified to be testifying in the presence of Florida Senator Graham, 
whose diligence and passionate work on Everglades Restoration has 
helped make the CERP a reality. Miami-Dade County would also like to 
recognize the efforts of this Senate Committee on Environment and 
Public Works in moving this historic restoration effort along. Thank 
you.
    My name is Roman Gastesi, and I am the Water Resources Manager for 
Miami-Dade County (County) and a member of the South Florida Ecosystem 
Restoration Working Group.
    Miami-Dade County is strongly committed to the Comprehensive 
Everglades Restoration Plan (CERP); so committed, that Mayor Alex 
Penelas and County Manager Steve Shiver established the Office of Water 
Management to ensure the County's active participation and dedication 
of resources to the Plan's implementation.
    The County recognizes that preserving the delicate balance between 
our environment, urban areas, and agriculture is critical to all of 
South Florida. The long-term success of the CERP relies on all 
interested parties working together within a comprehensive and 
inclusive process. The region consists of 16 counties, 150 
municipalities, two Indian Tribes, a multitude of State and Federal 
agencies, public and private utilities, and agricultural and 
environmental interests. The County acknowledges the need to work 
together, coordinate efforts, and come to a reasonable compromise to 
ensure that this vitally important project becomes a reality.
    Today, South Florida is home to 6.5 million people, and the 
population is expected to double by 2050. The region also receives more 
than 37 million tourists annually. The quality of life in South Florida 
and the region's $200 billion economy depend on the health and vitality 
of the Everglades, Lake Okeechobee, and the entire South Florida 
ecosystem. It's important to recognize that the coral reefs, estuaries, 
and shallow waters of areas like the Florida Keys, Biscayne Bay and 
Florida Bay, along with offshore waters, support populations of 
recreational and commercial fisheries that can only benefit from our 
efforts to work together on restoration. Likewise, our region's wetland 
and upland areas provide us with invaluable benefits such as wildlife 
habitat, recreational opportunities, drinking water supply, water 
filtration, and stormwater retention--all of which benefit our 
residents and visitors alike. Continued cooperation among interested 
parties in the restoration process will serve to enhance these benefits 
for all parties. Agriculture in Miami-Dade County is an important 
component of the regional economy and way of life. Working together 
with all stakeholders, the County will ensure that CERP will provide 
healthy water supplies for the natural system as well as urban and 
agricultural interests.
    Our policy body, the Miami-Dade County Board of County 
Commissioners, has consistently expressed its commitment to Everglades 
Restoration. For example, on November 20, 2001, the Miami-Dade County 
Board of County Commissioners approved Resolution No. R-1311-01 
recognizing that protecting and restoring the ``valuable, unique, 
irreplaceable resource of the Everglades'' is in the best interest of 
the County, and reaffirmed Miami-Dade County's commitment to work in 
partnership with the Federal Government, the State of Florida, and 
other public and private interests.
    The County supports the fundamental concept of ``adaptive 
management'' which has been adopted for the implementation of this Plan 
as part of the effort to achieve a balance of benefits as restoration 
progresses. Finding the ``balance'' while implementing this Plan is the 
biggest challenge. Some of the restoration efforts, including increased 
canal and groundwater levels, have the potential to negatively impact 
flood protection. Conversely, some flood mitigation projects, including 
lowering canal and groundwater levels, have the potential to negatively 
impact the health of natural systems. Using the ``adaptive management'' 
approach will allow for continuous refinements as the CERP progresses.
    We are encouraged by the progress made in recent years. For 
example:

    <bullet>  Teams of scientists and other technical experts are 
working together to establish the performance measures and monitoring 
systems that will make it possible to systematically track the progress 
of this Plan.
    <bullet>  The evolution of a transparent process that, on a 
project-by-project basis, strives to involve the public, in addition to 
the Federal, State, local and Tribal agency interests following CERP 
activities.
    <bullet>  The binding agreement between the Governor of Florida and 
the President of the United States regarding the implementation of the 
Everglades Restoration Plan that reads ``the State shall ensure, by 
regulation or other appropriate means, that water made available by 
each project in the Plan shall not be permitted for consumptive use or 
otherwise made unavailable by the State until such time as sufficient 
reservations of water for the preservation of the natural system are 
made under State law''.
    <bullet>  The work of the Army Corps of Engineers (Corps) and the 
South Florida Water Management District staff in providing early 
outlines and an initial draft of the Programmatic Regulations to ensure 
stakeholder participation and understanding of this critical step in 
the process. As the comment period for the proposed regulations draws 
to a close, the Corps continues to provide presentations on the subject 
at numerous meetings. While we continue to evaluate the proposed rule, 
the effort to address stakeholder concerns is obvious in the latest 
product.
    <bullet>  The decision to advance the initiation of the Biscayne 
Bay Coastal Wetlands project component to provide the Bay with early 
benefits.
    <bullet>  A comprehensive Project Delivery Team meeting held 
earlier this year that brought hundreds of CERP participants together 
to coordinate efforts and help expedite the Plan's implementation.
    <bullet>  Three authorized Pilot Projects within Miami-Dade County, 
L-3 1 Seepage Management, Wastewater Reuse, and Inground Reservoir 
Technology, that continue to move forward in an effort to resolve major 
uncertainties and answer questions critical to the Plan's success
    <bullet>  The formation of a new Project Delivery Team to explore 
the possibility of providing additional clean water to both Everglades 
National Park and Biscayne Bay.

    Miami-Dade County will continue to do its part to protect and 
restore the South Florida ecosystem. Protection of the Everglades and 
Biscayne Bay has been County policy for almost a generation, beginning 
with the 323 square mile East Everglades Moratorium Area Study in 1974, 
adoption of the Comprehensive Development Master Plan in 1975 and 
subsequent amendments, and development and implementation of the 
Biscayne Bay Management Plan in 1981. County interests in protecting 
the Everglades and wetlands from inappropriate urban development and 
associated need for drainage derive from the County's long-term 
requirements for municipal water supply for the growing urban 
population, urban economic expansion, commercial and sport fisheries, 
tourism, agriculture, and prevention of public health and safety 
hazards.
    Miami-Dade County has demonstrated leadership in protecting State 
and Federal interests in the Everglades and natural systems. Miami-Dade 
County is not approving zoning for suburban development in the 
Everglades or proposed Water Preserve Areas; has not programmed or 
constructed urban infrastructure or services for such areas and has 
resisted such proposals by others. In 1990, the citizens of Miami-Dade 
voted to tax themselves to provide funding for the acquisition and 
management of environmentally endangered lands. Since that time, and in 
partnership with the State of Florida and non-government agencies, more 
than 10,000 acres of wetlands and forest have been protected through 
acquisition. Miami-Dade County is also a leader in promoting infill and 
revitalization of currently developed urban areas, and in protecting 
ground and surface water quality through environmental monitoring, 
regulation and educational programs.
    In addition, Miami-Dade County is currently embarking on a landmark 
watershed plan that will utilize innovative land use tools in the final 
undeveloped frontier of South Miami-Dade County to ensure successful 
implementation of water management operations and capital improvements 
to be carried out through CERP.
    In conclusion, although some critics may focus on uncertainties and 
delays, we do not believe these are reasons to abandon our commitment 
to preserving and restoring this national treasure. We must not succumb 
to the will of the naysayers; nobody said it was going to be easy. 
Instead of dwelling on problems, we must maintain patience and courage 
to work through the challenges and come up with solutions. The 
consequences of not moving forward are great. We simply must continue 
to work together and move forward. The health of the natural system is 
directly linked to the health of the people and economy of Florida and 
the Nation.

                               __________
    Statement of Shannon Estenoz, National Co-Chair, The Everglades 
    Coalition, and Director, World Wildlife Fund, Everglades Program

    On behalf of the 41 environmental, civic, and recreational 
organizations that comprise the Everglades Coalition, which 
collectively represent nearly 6 million members and supporters, and on 
behalf of the Everglades Foundation and the Everglades Trust I want to 
thank the committee for the opportunity to submit testimony regarding 
the status and progress of the Comprehensive Everglades Restoration 
Plan (CERP). I want to thank committee Chairman Jeffords for his 
continued support of this important national mission. The committee has 
played a critical role in moving Everglades restoration forward, and 
was specifically the legislative ``cradle'' in 2000 for the CERP 
authorizing legislation. I also want to express gratitude for the 
leadership and support of Senators Bob Graham and Bob Smith, and other 
members of the committee who have taken a keen interest in this unique 
and wonderful ecosystem and have dedicated so much time and effort to 
its restoration.

                            I. INTRODUCTION

    The Comprehensive Everglades Restoration Plan (CERP) is a massive 
and complex plan to change the landscape of south Florida. It is a menu 
of modifications, additions to and subtractions from the Central and 
Southern Florida Flood Control Project (C&SF Project), the massive 
drainage system originally authorized in 1947 by the 88th Congress. 
CERP exists because the C&SF Project performed its water supply and 
flood protection purposes beyond expectations but had unintended and 
devastating consequences for the Everglades ecosystem. The CERP comes 
at the 11th hour for the Everglades, and has the potential to rescue 
this ecosystem from water management practices that have devastated its 
ecology.
    We thank Congress for providing the opportunity to undertake this 
unique mission, which will set important precedents for ecosystem 
restoration the world over. The task at hand is to lay groundwork that 
ensures that the mission will be a success. The Coalition's views on 
how to do this are the focus of our testimony today. First, we turn to 
two themes about which there has been much discussion over the past 2 
years, and likely today as well.
Confronting Various Types of Uncertainty
    The Everglades series published in the Washington Post this summer 
focused attention on various types of uncertainty associated with CERP. 
The Coalition firmly believes that most of the issues raised in that 
series can be confronted and overcome successfully using the Plan 
itself and the statutory direction and tools provided by Congress. When 
thinking about the uncertainties associated with CERP, it is helpful to 
distinguish between those that are scientific or technical in nature, 
and those that are political.
    Although there is still much to learn about the complex ecology of 
the Everglades, the technical uncertainties associated with CERP are 
due less to our lack of ecological understanding, and more to the 
problem of restoring what remains of the ecosystem within the confines 
of what has been impacted by development and agriculture.
    The 1999 Plan employs technologies like Aquifer Storage and 
Recovery (ASR) and deep reservoir storage that present us with areas of 
technical uncertainty including expected level of performance, water 
quality issues and issues of aquifer protection. But as we have seen 
with the recently completed Indian River Lagoon (IRL) Feasibility 
Study, when specific projects are formulated we may find alternative 
approaches that present reduced implementation risk and are potentially 
more ecologically beneficial. The IRL plan employs large-scale wetland 
restoration, (relying on the natural system to store water) and has 
garnered broad and enthusiastic stakeholder support. The Coalition is 
confident that if given clear program goals, and implementation 
flexibility, the Corps will find many more opportunities to improve 
upon the approaches laid out in the 1999 Plan.
    Another key aspect of technical uncertainty that can and must be 
confronted as the plan moves forward is the extent to which the Plan 
delivers restoration benefits to the central and southern Everglades 
early in the program. Plan formulators understood that the 1999 plan 
would have to be improved if we are to expect significant restoration 
benefits in this part of the system during the first half of the 
implementation period. Fortunately, the Corps has itself done analysis 
that shows that significant restoration benefits can be provided within 
this timeframe and budget. This gives the Coalition confidence in the 
overall potential for success of the project, but it also requires that 
good interim goals be established to guide the development of the 
project, and that excessive legal commitments to the secondary goals of 
CERP not be allowed to constrain the program.
    In addition to technical uncertainties, there is political 
uncertainty associated with CERP implementation. Not only does the Plan 
face the unavoidable flux of multiple election cycles and of shifting 
national economic conditions, but it also faces the politics of growth, 
development, and agriculture in Florida. The CERP cannot be implemented 
in a political and economic vacuum, nor can it be implemented fast 
enough to escape the ``real-time'' pressures of population growth. The 
demands on the Everglades grow every day while the needs of the 
Everglades remain unmet. While the Water Resources Development Act of 
2000 (WRDA 2000) respects the jurisdictional authority of the State of 
Florida over particular aspects of Everglades restoration and 
management, the Act recognizes that the Federal investment in 
restoration must be protected. The best way to protect that investment 
from political uncertainty is to establish an appropriate regulatory 
framework for CERP implementation that seeks to ensure that restoration 
benefits are delivered to the Everglades. Political uncertainty 
obviously cannot be eliminated, but we can lay a foundation for CERP 
that makes the implementation process less vulnerable than it otherwise 
would be.
    WRDA 2000 reflects the recognition that CERP faces many challenges 
in the coming decades. Congress understood that Everglades restoration 
is a new type of mission for this Nation, one that has some inherent 
and unavoidable uncertainties, but that those uncertainties need not 
prevent us from moving forward to save the Everglades. Restoring the 
Everglades with CERP doesn't require miracles, it requires leadership 
and clarity of purpose. Fortunately this committee provided much 
leadership and clarity when it crafted the Restoring the Everglades, An 
American Legacy Act (REAL). The REAL gave the implementing agencies 
virtually all the tools necessary to overcome uncertainty and restore 
the Everglades. It is now incumbent upon those agencies to implement 
those tools.

What Constitutes a Full and Fair Partnership Between the State and 
        Federal Government?
    The Coalition appreciates the importance of the State-Federal 
partnership in CERP implementation, and holds that to be ``full and 
fair,'' the nature of the partnership should reflect the realities 
facing the Everglades, and be shaped in a way that has the best chance 
of achieving the goals and purposes of CERP. The debate about the 
State-Federal partnership thus far has been based, in our view, largely 
on the State of Florida's notions of what constitutes ``full and 
fair''. The Coalition holds that the influence of this perspective in 
the development of the draft programmatic regulations, for example, has 
resulted in a draft that gives the State of Florida a disproportionate 
and utterly inappropriate role in various aspects of CERP that we 
believe will jeopardize the ability of CERP to achieve its restoration 
goals.
    In crafting and contemplating what constitutes a full and fair 
State-Federal partnership, it is important that the Federal Government 
not lose sight of the fact that that there are matters of public 
policy, which will have a decisive impact on the success of CERP and 
which already lie exclusively within the purview of State and local 
government. Reservations of water under State law is the most obvious 
example. Land use decisionmaking that generates increased demands for 
water supply and flood protection is another extremely significant 
example. Indeed, the two most important factors in the restoration and 
management of the Everglades are the amount of land and water available 
to do so, and the State of Florida argues that it has sole sovereign 
authority over both of those factors.
    And when we speak of fairness to the Federal taxpayer, which is of 
concern to this committee, we must consider the pressures and 
obligations under which State agencies must implement these and other 
relevant laws, and candidly consider the track record to date. That 
track record is reflective of the relatively strong protections that 
water supply and flood control interests enjoy under State law, and the 
lack of corresponding protections for natural systems like the 
Everglades. While the State has some discretion to consider restoration 
needs in its planning and permitting decisions, restoration has 
standing only as one of several competing factors, and does not enjoy a 
position of priority under State law. Indeed in every recent example, 
the State's regulatory action has favored the issuance of the permit or 
the planning approval for private development over the preservation of 
restoration options. Just 4 months ago, in fact, the political 
appointees who comprise the South Florida Water Management District 
Governing Board chose not to exercise their authority to protect the 
integrity of CERP, and granted a permit to one of the region's largest 
developers for a 500-acre development proposed to be constructed in the 
footprint of an important CERP project.
    The most apt, and troubling, examples of how competing State 
missions can influence restoration efforts can be found in two 
important federally authorized restoration projects that predate WRDA 
2000. The C-111 Project, along with a component of the Modified Water 
Deliveries Project, were recently modified at the behest of the South 
Florida Water Management District, which had in turn been pressured by 
local county commissioners coping with urban sprawl and agribusiness on 
the border of Everglades, to provide significant and previously 
unplanned-for drainage benefits. It is now uncertain when, and even 
whether, these components will provide their authorized restoration 
benefits. The Coalition points to the precedents, not in the interest 
of assigning blame or questioning the commitment of individuals to the 
Everglades, but simply to draw attention to what is critical this 
committee recognize: that the State and its agencies--as a matter of 
both law and politics--will always be subject to intense pressures from 
local constituencies that may conflict with the Federal interest.
    These realities exist and threaten to undermine CERP even as the 
State argues for an increased leadership role in the Federal legal 
framework of CERP implementation, a role that is not contemplated by 
WRDA 2000. This committee should be fully aware that the State of 
Florida is not in a position to protect the Federal investment in CERP. 
In the Coalition's opinion, there is far more work to be done at this 
point by the Federal Government to create a role for itself 
commensurate with the financial investment it is making in CERP 
implementation, not visa-versa. And as we explain below, WRDA 2000 of 
course provides precisely the direction and authority to Federal 
agencies to craft that role.

                     ON THE IMPLEMENTATION OF CERP

    The body of the Coalition's testimony is divided into two general 
parts, both of which address issues we believe are integral to a CERP 
implementation process that will ultimately restore the Everglades. 
First, the Coalition believes that the assurance provisions of WRDA 
2000 must be implemented, as we believe Congress intended, and 
consistent in every way with the spirit of the law. One of the most 
fundamental purposes of CERP and its authorizing legislation is to 
level the playing field for the Everglades, and WRDA 2000 compelled 
changes to the regulatory regime to provide for this. The CERP cannot 
be implemented successfully under current modes of agency action and 
under the current regulatory umbrella, unless the assurances provisions 
are fully implemented. Furthermore, unless the regulatory playing field 
is leveled, the Everglades cannot possibly compete with water supply 
and flood control interests for water resources under conditions of 
scarcity and competition in the near future and throughout the 
implementation period. The Everglades must be provided adequate 
regulatory protection and status to vie with the comparatively strong 
legal protections already afforded water users and recipients of flood 
protection.
    The Coalition is particularly concerned about the programmatic 
regulations, the cornerstone of the WRDA 2000 assurances provisions, 
which the U.S. Army Corps of Engineers will promulgate by the end of 
the year. Fundamental changes must be made to the draft regulations if 
they are to establish a new regulatory structure sufficient to protect 
the Everglades from the politics and legal realities of growth and the 
uncertainties of science and engineering. The Coalition seeks this 
committee's assistance in encouraging significant revision of the draft 
regulations.
    Second, it is critically important that the individual CERP 
projects be implemented expeditiously due to encroaching urban 
development, escalating costs of delay, and impending estuarine 
collapse. In response to growth pressures in south Florida, land values 
escalate continuously, and like any prospective land buyer, government 
must move quickly to maximize cost savings on land acquisition. Land 
acquisition and individual restoration projects must move forward 
expeditiously if we are to forestall continued degradation of the 
Everglades and achieve expected restoration benefits.

                                 PART 1

  a. assurances that restoration benefits will be achieved by the plan
    In its deliberations in 2000, Congress recognized quite well that 
the politics and legal realities of water, development, agriculture and 
growth in Florida could easily sidetrack CERP. The concern was that, as 
had occurred in the past, the water supply and flood protection 
benefits woven into the project might be maximized at the cost of 
restoration benefits, thereby jeopardizing the Federal investment in 
Everglades restoration. Although the CERP was designed to meet all 
predicted needs, ecosystem and built system alike, conflicts are 
certain, given the realities of funding, engineering and scientific 
uncertainties, and political expediencies.
    Moreover, Congress recognized that CERP as presented to it in 1999 
was a conceptual ``framework'' with many uncertainties and 
opportunities for improvement. Indeed, the committee emphasized the 
need for ``adaptive management'' partly in response to significant 
questions raised about aspects of the original plan by the Department 
of Interior, independent scientists, and the environmental community.
    Accordingly, WRDA 2000 enacted a system of ``assurances'' to ensure 
that the goals and purposes of the Plan, in particular those related to 
restoration, are achieved. The programmatic regulations are at the 
center of this system of assurances. WRDA 2000 requires that

  ``the Secretary shall, after notice and opportunity for public 
    comment, with the concurrence of the Governor and the Secretary of 
    the Interior, and in consultation with the Seminole Tribe of 
    Florida, the Miccosukee Tribe of Indians of Florida, the 
    Administrator of the Environmental Protection Agency, the Secretary 
    of Commerce, and other Federal, State, and local agencies, 
    promulgate programmatic regulations to ensure that the goals and 
    purposes of the Plan are achieved'' 601(h)(3)(A)

    Like most regulations, the programmatic regulations are to bridge 
the gap between the generalities of statutory direction and the 
specificity of agency action, ensuring that congressional intent is 
reflected in the details of CERP implementation. But these regulations 
are more than simply implementing regulations--they have a singular 
role to assure the Federal interest in this project is satisfied, in 
the face of inherent conflicting priorities, engineering and scientific 
uncertainties, and the need for restoration performance improvement. In 
short, the letter and spirit of the assurances required by WRDA 2000 
must be reflected in the programmatic regulations. See 601(h)(3)(C)(i) 
(The programmatic regulations are to ``establish a process to . . . 
(III) ensure the protection of the natural system consistent with the 
goals and purposes of the Plan, including the establishment of interim 
goals . . . )
    The Coalition has identified a few general principles that we 
believe must be embodied in the implementation of the WRDA 2000 
assurances provisions, including programmatic regulations. 
Unfortunately, as we discuss below, the current draft programmatic 
regulations, published in the Federal Register on August 2, 2002, fail 
in this essential task.

General Principle 1: The programmatic regulations must establish 
        ecosystem restoration as the primary and overarching purpose of 
        the CERP, and must preclude the achievement of water supply and 
        flood protection goals at the expense of restoration goals.
    WRDA 2000 states ``The overarching objective of the Plan is the 
restoration, preservation, and protection of the South Florida 
Ecosystem while providing for other water-related needs of the region, 
including water supply and flood protection. The Plan shall be 
implemented to ensure the protection of water quality in, the reduction 
of the loss of fresh water from, the improvement of the environment of 
the South Florida Ecosystem and to achieve and maintain the benefits to 
the natural system and human environment described in the Plan, and 
required pursuant to this section, for as long as the project is 
authorized.'' Section 601(h)(1)
    Thus, the CERP must accomplish three broad goals.
    First, it must alter the hydrology in the remaining Everglades so 
that the system can recover from the damage it has sustained over the 
past five decades. In doing so it must establish the physical, 
regulatory and operational conditions necessary to protect a restored 
Everglades from future degradation. Second, it must continue to serve 
its originally authorized purposes for the population that existed in 
the region on December 11, 2000 (a population more than triple that for 
which the project was originally designed). Third, it must provide 
certain water supply and flood control benefits without compromising 
the achievement of interim and final restoration goals.
    If the Plan is reasonably successful, its components will capture 
and store enough water to restore the Everglades and provide for some 
portion (perhaps most or all) of the projected population growth of the 
next 50 years. The Everglades Coalition supports this win-win scenario. 
The assurances provisions of WRDA 2000, however, were not created to 
address such a ``best case scenario.'' They were prudently crafted to 
cope with ``worse and worst case scenarios.'' In the event that CERP 
components do not perform as well as expected, the Coalition strongly 
objects to a corresponding lose-lose approach to parceling out 
benefits. In other words, the argument that under such scenarios there 
should be a ``balancing'' of available benefits between the Everglades 
and water for growth is completely unacceptable. The Coalition cannot 
support a CERP implementation process that employs such an approach. 
While there are numerous opportunities for addressing the needs of 
south Florida's growing population, including the CERP projects, the 
CERP is the Everglades' last hope.
    Moreover, even if conflicts between expected benefits were never to 
appear, the political pressure to satisfy additional water supply and 
flood protection needs over the natural system will be applied 
continuously. Such pressures will be present in a myriad of agency 
decisions, down to some of the smallest design decisions. It is 
accordingly critical that a priority for ecosystem restoration be 
embedded in the programmatic regulations to help withstand such 
pressures and serve as protection--the only protection--for the Federal 
interest in Everglades restoration.
    Fundamentally, CERP is a remedial program that makes no demand on 
existing human users to cease and desist the activities that have 
harmed and continue to harm the Everglades. The Plan in fact very 
specifically sets out to rescue the Everglades while accommodating 
those activities, and WRDA 2000 actually holds those activities 
harmless from CERP implementation. However, water supply and flood 
protection benefits for additional growth must not be achieved at the 
expense of achieving interim and final remedial goals in the 
Everglades.

The Draft Programmatic Regulations
    The draft regulations do not establish--in any matter of form or 
substance--restoration of the Everglades as the primary and overarching 
objective of the Plan. On the contrary, throughout the draft 
regulations equal priority is consistently placed on restoration, water 
supply and flood protection goals.
    Particularly significant is how the draft regulations treat interim 
restoration goals. Even though WRDA 2000 only mentions such goals for 
restoration performance, the draft regulations contain a new set of 
goals, called water supply ``targets.'' Most alarmingly, the draft 
regulations do not prioritize achievement of interim restoration goals 
over interim water supply ``targets'' in the event that these two come 
into conflict with each other. While the Coalition does not object to 
such targets, it must be made clear that they cannot compromise efforts 
to achieve restoration performance goals.
General Principle 2: CERP must be governed by a regulatory framework 
        that includes interim restoration goals and planning to achieve 
        such goals
    Congress recognized the importance of interim restoration goals and 
recognized that the programmatic regulations were the appropriate 
vehicle for ``establishing'' those goals.\1\ We believe the 
congressional intent is clear on these points and for good reason. 
Absent interim goals and a close nexus between them and the planning 
and implementation of individual projects, CERP is far more subject to 
localized political and bureaucratic pressures to serve water supply 
and flood protection goals rather than restoration goals. It is 
unacceptable to the Coalition--and we hope to Congress--to not know 
what we are getting, at least in broad strokes. The stakes are too 
high, and the conflicts too compelling.
---------------------------------------------------------------------------
     \1\Senate Report 106-363: ``In developing the programmatic 
regulations, the Federal and State partners should establish interim 
goals--expressed in terms of restorations standards--to provide a means 
by which the restoration success of the plan may be evaluated through 
the implementation process. The restoration standards should be 
quantitative and measurable at specific points in the Plan 
implementation.''(emphasis added)
---------------------------------------------------------------------------
    It is also critical that the interim goals be the cornerstone of 
the planning and implementation process. Each separate project must 
show it makes the necessary contribution to achievement of relevant 
interim goals.

The Draft Regulations
    The draft regulations fail to incorporate interim restoration 
goals. Instead, they call only for a future process to develop interim 
restoration goals that will then be incorporated into memoranda of 
agreement, which have far less legal significance than regulations. We 
believe the legislation is clear that interim goals are to be included 
in the programmatic regulations themselves. They are a part of the 
process for ensuring restoration benefits are met. Federal regulations 
are a well-tested vehicle for regulatory tools of the import of interim 
goals, and their flexible use in this case per the principles of 
adaptive management is enhanced by the WRDA 2000 requirement that the 
programmatic regulations be reviewed and revised every 5 years or more 
frequently if necessary.

General Principle 3: The April 1999 CERP is a starting point to be 
        continually improved upon in a formalized process
    The Everglades Coalition views CERP as a conceptual document with 
recognized uncertainties and opportunities for improvement. For 
example, the modeling provided in the April 1999 plan documents showed 
strong and early performance on the water supply front, but delayed 
restoration benefits, particularly to the southern Everglades. 
Moreover, it did not adequately restore connectivity and flow through 
the system, as was characteristic of the natural Everglades. There was 
also significant reliance upon uncertain and even destructive 
engineering solutions. The components that comprise the ``Lakebelt'' 
are prime examples--the Corps recently permitted an initial phase of 
rockmining activities in over 20,000 acres of critical Everglades 
wetlands, a project that has been partially rationalized on the grounds 
that some of the mining pits might be used several decades down the 
line, if they could be made to store water, to provide water flows to 
Everglades National Park.
    The Corps demonstrated significant ability to improve the 
performance of the Plan even before the original plan was delivered to 
Congress in July 1999. The Corps conducted additional modeling in May 
and June 1999 that demonstrated that the performance of CERP could be 
improved quite readily. In 2001, the Corps developed a much-improved 
plan for restoring the Indian River Lagoon thus proving again that 
adaptive management can work. The Coalition believes that improving the 
model runs and the implementation schedule of individual projects will 
achieve the goals and purposes of the CERP more quickly and with better 
ecological results. Adaptive management is the process by which these 
changes are mandated, and the changes should be incorporated into the 
regulations as the Corps approves them, with concurrence from the 
Department of Interior and the State.
    These outstanding technical concerns notwithstanding, the Corps 
made one significant promise about the performance of CERP that was 
accepted enthusiastically by all. As the committee discussed in its 
report: ``According to the Army Corps, 80 percent of the water 
generated by the Plan is needed for the natural system in order to 
attain restoration goals, and 20 percent of the water generated for use 
in the human environment. . . . Subject to future authorizations by 
Congress, the committee fully expects that the water necessary for 
restoration, currently estimated at 80 percent of the water generated 
by the Plan, will be reserved or allocated for the benefit of the 
natural system.'' (Senate 2d Session 106 363, Report to accompany S. 
2797 Section 1(b))

The Draft Programmatic Regulations
    Despite the history discussed above, and all the progress that has 
been made over the last several years, the draft regulations generally 
tie long-term performance of CERP to the April 1999 ``yellow book'' 
performance. The draft regulations do set forth processes for improved 
performance. But not only are there no mandates or timelines to make 
such improvements, but the regulations prioritize changes based upon 
monitoring results--which will not emerge for years.
    Perhaps the most immediate and significant specific problem is that 
the initial set of interim goals (and targets for water supply) are 
explicitly tied to the April 1999 ``modeling output.'' This 
specifically commits the Corps (unless it changes the programmatic 
regulations in the future) to develop interim goals that provide 
inadequate benefits to the central and southern Everglades--even $4 
billion into the project. We are very concerned that the regulations 
ignore the improvements that the Corps itself demonstrated were 
feasible in May and June 1999, and believe that it is critical that at 
least this level of improvement be incorporated into the interim an 
final restoration goals.
    As for its promise that CERP will provide 80 percent of the water 
it produces to the Everglades, the Corps retracts this commitment in 
the draft programmatic regulations. It explains simply that these 
estimates were ``initial'' and somehow no longer applicable, and that 
water will be allocated on a project-specific basis in greater or 
lesser amounts than the 80/20 ratio. In light of the public reliance 
upon this figure in 2000, neither explanation is sufficient to support 
rejection of the 80/20 ratio as a generalized planning goal. The Corps 
has not provided any technical explanation to support any change in the 
promised performance of CERP. Moreover, while of course individual 
projects may not provide water supply in exactly such proportions 
(indeed, some projects are not intended to produce any water storage), 
there is no reason to reject the 80/20 ratio as a planning guide for 
aggregates of projects, working in conjunction with operations of the 
entire C&SF project.
    The Coalition believes this committee should require adherence to 
the 80/20 performance goal as a planning guide for CERP implementation.

General Principle 4: Government must organize itself in a way that 
        maximizes the chances that the goals of the Plan will be 
        achieved.
    The Congress recognized that the overarching goal of the CERP, 
namely Everglades restoration, is unlike that of traditional Corps 
projects. Even as its mission is reshaped and experience grows, the 
Corps is not a recognized expert in the ecological and biological 
scientific underpinnings of this historic enterprise. Moreover, the 
historic relationships between the Corps and client entities for the 
secondary purposes of CERP, namely flood protection and water supply, 
remain strong and, an institutional interest in providing such 
deliverables frequently predominates.
    Accordingly, in WRDA 2000, Congress established a unique 
relationship between the implementing Federal agency, the Corps, and 
the Federal steward of and scientific expert in the lands intended to 
receive the benefits of CERP implementation, the Department of 
Interior. While the Corps is clearly the lead implementing agency, 
maintaining sole Federal jurisdiction over the implementation of 
individual projects, Congress established a special leadership and 
accountability role for the Department of Interior. It specifically 
gave the Department of Interior concurring authority over the 
programmatic regulations, in order to provide Interior with a 
leadership role in programmatic decisionmaking. In other words, where 
the traditional relationship between these two agencies regarding water 
resource projects typically relegates Interior to a ``participating'' 
or ``commenting'' role, WRDA 2000 establishes a new and important 
leadership role for Interior, equal to that of the Corps (and the 
State) on key programmatic implementation issues. For its part, the 
South Florida Water Management District (SFWMD) is to partner with the 
Corps in the development of project-specific documents and is provided 
a consultation role in several other places, such as the reports to 
Congress on the progress of CERP.
    The Coalition strongly believes that the Department of Interior 
must be granted this concurring authority over all aspects of CERP 
implementation described in Section 601 (h)(3). To the extent that new 
instruments such as guidance memoranda and pre-CERP baselines are 
created, introduced or referenced by the regulations as a means of 
meeting the requirements of 601 (h)(3), these must be subject to the 
concurrence structure created by WRDA 2000.

The Draft Programmatic Regulations
    The draft regulations do not implement the concurrence role created 
for the Department of Interior by WRDA 2000. Rather, for a handful of 
specific programmatic actions and processes, such as guidance 
memoranda, Interior is given a role that is referred to as 
``concurrency.'' But the draft regulations state that the Corps (and 
the SFWMD) need only give ``good faith'' consideration to Interior's 
statement of ``concurrency'' or ``non-concurrency.'' This amounts to 
simply consultation by a different name, which the agency already has 
pursuant to the Endangered Species Act, Fish and Wildlife Coordination 
Act and other laws.
    For a number of critical programmatic decisions, Interior is not 
even provided the afore-mentioned ``good faith consideration'' 
authority. These decisions include the adaptive management program, the 
master implementation schedule, and the system operational manual, any 
one of which will be instrumental in determining whether the Everglades 
is restored. In addition, a large number of science-based programmatic 
decisions are handed off to the Restoration Coordination and 
Verification Team (RECOVER), rather than being included in the 
programmatic regulations. RECOVER, however, is controlled by the Corps 
and the SFWMD, not by the tri-partite arrangement (i.e., Corps, 
Interior, and the State) Congress required for programmatic 
decisionmaking. (Section 601 (h)(3)(A)
    While diminishing the authority of the Department of Interior, the 
draft regulations actually inflate the role of the SFWMD over and above 
what was provided for in WRDA 2000. For example, the SFWMD is given an 
equal role with the Corps in the development of guidance memoranda, 
even as the Corps proposes to defer to these documents much of what 
Congress intended to be contained in the programmatic regulations. In 
addition, the SFWMD is given authority, with the Corps, to weigh 
statements of concurrence or non-concurrence by Interior on 
programmatic matters referenced in 601(h)(3). This is not consistent 
with the requirements of WRDA 2000, which clearly sets the State of 
Florida and the Department of Interior on equal footing on such 
matters.
    Generally, the draft Federal regulations provide that the Corps and 
SFWMD carry out all the mandated responsibilities and tasks under the 
regulations together, with each having an apparent veto over the other. 
When considered together with the SFWMD's sole authority over water 
allocation and land use, the draft regulations position the SFWMD as 
the most powerful agency in implementation of CERP. If the draft 
regulations become final, the SFWMD will essentially be developing and 
implementing Federal rules intended to protect the sole Federal 
interest in this project--Everglades restoration.

General Principle 5: Independent scientific review must be given high 
        priority in the CERP implementation process.
    Independent scientific review is critical to ensuring an open, 
science driven decisionmaking process that separates the ``auditors'' 
from the ``managers'' of Everglades restoration. Congress recognized 
this and accordingly in WRDA 2000 required that
    ``The Secretary, the Secretary of the Interior, and the Governor, 
in consultation with the South Florida Ecosystem Restoration Task 
Force, shall establish an independent scientific review panel convened 
by a body, such as the National Academy of Sciences, to review the 
Plan's progress toward achieving the natural system restoration goals 
of the Plan. 601(j)(1)
    To make this independent science review process effective and to 
sustain its integrity, it is critical that it operate independently of 
the U.S. Army Corps of Engineers, the State, and the Department of the 
Interior, have access to all pertinent information generated by the 
implementation of CERP, and be adequately funded. The programmatic 
regulations should specifically discuss how separate agencies and the 
inter-agency RECOVER team shall work with the independent science 
panel, including a role for dispute resolution on scientific matters 
and within the process for adaptive management and assessment.

The Draft Programmatic Regulations
    The draft regulations do little more than reference the statute on 
the question of independent scientific review, and we have seen no 
significant independent effort to implement the statutory provisions on 
this issue. The draft regulations certainly do not implement the 
independent science body, or even set a date by which it will be 
implemented. We are very troubled by this failure to act because the 
independent panel's first report is due in December 2002. Indeed, the 
implementing agencies have seemed more concerned about the extent to 
which independent scientific review can or should be circumscribed than 
with establishing it.

General Principle 6: The definition of ``restoration'' must be 
        expressed in terms of hydrologic and ecological targets
    The CERP, like many restoration projects before it, was created as 
a response to the degraded and unsustainable condition of the greater 
Everglades ecosystem caused by human alteration of the environment. 
Restoration, therefore, must always be defined as achieving sustainable 
natural areas that possess the essential ecological characteristics of 
the pre-drainage Everglades over the maximum spatial extent possible.
    The underlying principle within the CERP is that hydrological 
restoration of natural areas will foster biological restoration in 
those areas. Therefore, the first requirement for restoration is to 
return proper water quality, quantity, timing, and distribution 
throughout the system. To the degree hydrological restoration is 
successful, biological restoration should follow--with various 
communities responding at different points in time.

The Draft Regulations
    The draft regulations inappropriately define restoration as the 
level of recovery and protection to the South Florida ecosystem as 
described in CERP, with such modifications as Congress may provide for 
in the future. However, the ``yellow book'' provides only a framework 
for achieving restoration and does not clearly describe the essential 
ecological characteristics of a sustainable, restored Everglades. 
Instead, the Plan consists of a series of projects whose resulting 
hydrological improvements are anticipated to achieve the desired 
biological benefits. It is important to keep the definition of 
restoration, the main goal of the CERP, based on ecological necessity 
and not anticipated performance. This structure is necessary for the 
adaptive management process to be successful in making meaningful 
improvements to the plan.

                                 PART 2
ENSURING THAT CERP IS IMPLEMENTED EXPEDITIOUSLY TO FORESTALL CONTINUED 
         DEGRADATION AND ACHIEVE EXPECTED RESTORATION BENEFITS

Introduction
    If we are to save the Everglades, we must act while there is still 
time to do so. The CERP will be implemented over the course of 30 
years, but there are activities and projects, which can and should be 
implemented immediately, both to protect the integrity of the CERP and 
to achieve desperately needed early restoration benefits. In its 
deliberations in 2000, the committee expressed the desire to see 
greater restoration benefits earlier in the implementation process. 
(Senate 2d Session 106 363, Report to accompany S. 2797 Section 1(b)) 
Not only are these early benefits important to the Everglades itself, 
but achieving measurable benefits in the ecosystem will serve to raise 
the level of public confidence in the CERP, and toward proving that it 
is indeed possible to restore this ecosystem.

2002 CERP Project Authorizations
    Everglades restoration will repair much of the damage from drainage 
and development, bringing back the wading birds that once filled the 
south Florida landscape and helping hundreds of thousands of acres of 
wetlands and estuarine habitat recover. Restoration projects will 
benefit National and Florida Parks totaling nearly 3.5 million acres 
and contribute to South Florida's ecosystem-based economy.
    Three crucial projects must be authorized at the first opportunity 
and implemented expeditiously due to immediate threats from encroaching 
urban development, escalating costs of delay, impending estuarine 
collapse and the continued degradation of the entire Everglades system. 
Thus, these projects, Indian River Lagoon, Southern Golden Gate 
Estates, and Water Preserve Areas (including the Bird Drive Recharge 
Area and the Southern Compartment of the Hillsboro Impoundment), are 
very vulnerable to implementation delays. At the same time, they have 
the most potential to immediately enlarge the spatial extent of the 
remaining Everglades. These projects must be completed by aggressive 
land acquisition and accelerated engineering and construction plans. 
These projects require prompt congressional approval for Everglades 
restoration to move forward on schedule.
    The vital areas within these three projects contain more than half 
of the total land area in the restoration plan, and will provide 
impressive ecological benefits well before 2010, including:
    <bullet>  270 square miles (?172,000 acres) of restored and 
protected wetlands and uplands,
    <bullet>  restored habitat for more than 2,200 species, at least 35 
of which are threatened or endangered (including the manatee, snail 
kite, wood stork, red-cockaded woodpecker, scrub jay, crested caracara, 
whooping crane, bald eagle, indigo snake, eastern loggerhead turtle, 
Atlantic green turtle, leatherback turtle, Atlantic hawksbill, and 
Atlantic Ridley turtle),
    <bullet>  potential 10fold increase in area wading bird 
populations,
    <bullet>  tens of millions of dollars in associated economic and 
quality of life benefits annually, and
    <bullet>  improved water quality for the Everglades, Florida Bay, 
10,000 Islands, St. Lucie Estuary, and Lake Okeechobee.
Three Projects:
    1. The Indian River Lagoon Project will reverse the deterioration 
of and restore a nationally significant and unique system and one of 
the most diverse estuaries in North America, as well as help to restore 
Lake Okeechobee. The project restores more than 145 square miles 
(92,000 acres) of habitat, utilizing these areas for water storage, 
water quality treatment, and green space. Restoring, cleaning up and 
enhancing the area's wetlands and waterways simultaneously increases 
the extent of natural storage and limits the dumping of harmful 
stormwater into Lake Okeechobee, the Indian River Lagoon and the St. 
Lucie Estuary. These water bodies will benefit enormously from land 
acquisitions, improvements for stormwater retention and water storage, 
and by changing the current project's drainage patterns.
    Specifically, restoring wetlands and retaining flows now harming 
the Indian River Lagoon will:
    <bullet>  re-create more than 90,000 acres (145 square miles and 1/
5 of the watershed) of healthy upland/wetland habitat,
    <bullet>  stop more than 65 tons of phosphorus from entering the 
waterways annually,
    <bullet>  establish corridors connecting habitats to the north and 
south of the study area,
    <bullet>  store, clean, and re-route water, which today enters the 
middle of the estuary at the wrong time and in the wrong amounts 
(killing seagrass and oysters, creating fish lesions), to the ends of 
the estuary where water can flow into the estuary in a healthy manner,
    <bullet>  remove 5.5 million cubic yards of muck, covering 2,650 
acres of estuary bottom to restore sand-bottomed communities conducive 
to seagrass growth and healthy oyster populations,
    <bullet>  help provide an estimated $731 million annual regional 
economic contribution from tourism, fishing, and real estate,
    <bullet>  help prevent fish kills like the 1 million dead fish in 
C-24 in June 2002,
    <bullet>  redirect excess water to irrigation for farms,
    <bullet>  keep urban development away from wetland areas essential 
to the ecosystem, and
    <bullet>  restore fresh water aquifers to near pre-drainage levels.
    2. The Southern Golden Gate Estates Hydrologic Restoration Project 
will restore 113 square miles (72,320 acres) of Southwest Florida. 
Harmful and uncontrolled urban growth is moving east from Naples toward 
the Everglades. At the edge of the natural areas in the Big Cypress and 
Fakahatchee Strand sits the ``Southern Golden Gate Estates'' 
subdivision platted by long-defunct land development schemes. The 
roadways and canals that make up part of this area constitute an ideal 
location to re-establish natural sheet flow toward the estuaries. 
Efforts to restore this area's unique ecology of cypress, wet prairie, 
pine, hardwood hammock and swamp have been underway for decades. The 
project is connected to the Florida Panther National Wildlife Refuge, 
the Belle Meade State Conservation and Recreation Lands Project Area, 
the Fakahatchee Strand State Preserve, and will restore flows to the 
Ten Thousand Island Estuaries and Aquatic Preserve through sheetflow 
and flowways rerouting approximately 185,000 acre-feet of water 
currently discharged as point source to the Ten Thousand Islands (part 
of Everglades National Park). The restoration benefits of this project 
are too long overdue and critically needed.
    Specifically, creation of a restored flow-way will have the 
following benefits:
    <bullet>  provide improved food, spawning areas, and nurseries for 
the 80 percent of coastal species that depend on wetlands,
    <bullet>  provide essential breeding, nesting, feeding, escape and 
shelter habitat for birds, reptiles, mammals, and amphibians,
    <bullet>  filter runoff, naturally improving the quality of water 
reaching Florida Bay,
    <bullet>  increase the quality and opportunity for ecotourism in 
southwest Florida,
    <bullet>  reduce the invasion of exotic species into the previously 
disturbed areas,
    <bullet>  reduce damaging large freshwater shocks to the Ten 
Thousand Islands estuary from canal discharges,
    <bullet>  prevent future development from encroaching in this part 
of the Everglades,
    <bullet>  replace flows from a polluting canal, which upset the 
timing of the freshwater flows and the balance of saltwater and 
freshwater in the Ten Thousand Islands and the northwest reaches of 
Everglades National Park with a more natural sheet flow of water that 
is compatible with the estuary, and
    <bullet>  retain water in shallow aquifers now being lost through 
over-drainage by poorly controlled canals to the Gulf of Mexico.
    3. The Water Preserve Areas (WPAs) Project, (including Bird Drive 
Recharge Area and the Southern Compartment of the Hillsboro 
Impoundment), an integral part of the Everglades restoration plan, is 
located within Palm Beach, Broward, and Miami-Dade Counties east of the 
Everglades and west of existing development, creating an 18,139acre 
buffer area. Eight WPA project components are currently authorized 
under WRDA 2000. Two original WPA project components, the Bird Drive 
Recharge Area and the Southern Compartment of the Hillsboro 
Impoundment, are immediately threatened by development pressures and 
must be authorized in 2002. The WPAs are designed to protect the 
spatial extent of wetlands, improve habitat in the Everglades 
Protection Area, and enhance the Loxahatchee National Wildlife Refuge, 
as well as store water, and safeguard wellfields. WPAs provide a 
critical source of water storage for restoration by reducing 
undesirable losses from the natural system through seepage and 
providing a means of capturing stormwater runoff that was previously 
wasted to tide. Further, development continues to encroach on the 
remaining natural areas adjacent to the Everglades. These remaining 
wetlands serve a critical role in the restoration of the Everglades by 
maintaining wetland spatial extent. The WPAs also provide a mechanism 
for increased aquifer recharge and surface water storage capacity to 
enhance regional water supplies for the lower east coast urban areas, 
thereby reducing demands on an already degraded natural system.
    While land purchases to complete this 18,139-acre restoration area 
have already begun, both land acquisition and the design of projects 
for water storage, water quality improvement, and wetlands restoration 
features must be approved expeditiously or these projects will be 
irreparably compromised. The WPAs are the restoration features most 
threatened with immediate loss to development pressures because of 
their location between the urban developed areas of south Florida and 
the remnant Everglades ecosystem. For example the Strazzulla wetlands, 
adjacent to the Loxahatchee National Wildlife Refuge, is over 3,300 
acres in size and one of the lower east coasts' last remaining intact 
Cypress stands. It will be protected and hydrologically enhanced.
    When completed, the WPA system has the potential to provide the 
following benefits:
    <bullet>  increase water storage by ?33,000 acre-feet and reduce 
discharges to the ocean by directing water now wasted to tide into 
reservoirs and impoundments for restoration and potentially for urban 
uses
    <bullet>  increase water supplies by providing more places to store 
water.
    <bullet>  clean and re-release water back into the Everglades, when 
the wetlands need the water, through water storage reservoirs and 
treatment marshes,
    <bullet>  enhance urban water supply, thus reducing the reliance of 
utilities on water from the Everglades and Lake Okeechobee,
    <bullet>  allow more natural water levels in the Everglades by 
controlling seepage of 64,000 acre-feet of water from the Water 
Conservation Areas into developed areas
    <bullet>  create a barrier to the impacts of development between 
urban areas and the Everglades,
    <bullet>  restore sheetflow in the remnant Everglades by providing 
alternate conveyance canals necessary for future projects,
    <bullet>  help provide for more natural timing, distribution, and 
volume of water to Florida Bay, and
    <bullet>  protect the spatial extent of wetlands.
    Appropriate Implementation of Previously Authorized Projects and 
On-going Initiatives
    Restoration in the southern end of the system--where all the 
Federal Everglades are--depends on the implementation of the Modified 
Water Deliveries project, which was authorized in 1989 and 1994. This 
project will restore flows to Everglades National Park and, coupled 
with the C-111 project, authorized during the same time period, will 
help restore water flows through the East Everglades to Florida Bay. 
The project will reverse the damage to Everglades National Park and 
Florida Bay from previous and current water management practices.
    The Modified Water Deliveries project is comprised of a number of 
components, including modifications to the Tamiami Trail and a 
mitigation feature for the 8.5 Square Mile Area. Because of the lack of 
leadership to implement an environmentally acceptable alternative for 
the 8.5 Square Mile Area component, the entire project has come to a 
grinding halt. A compromise solution, Alternative 6D, had previously 
been developed in partnership between the South Florida Water 
Management District and the Army Corps of Engineers. This has been the 
only alternative developed to date that has provided benefits to 
Everglades National Park, wetlands in the area and to the landowners of 
the 8.5 SMA. By acquiring only a portion of the 8.5 SMA, all of these 
benefits can be achieved. The residents of the 8.5 SMA will be able to 
retain their sense of community and the rural character of the area 
they so desire.
    In WRDA 2000, southern end CERP projects, such as 
decompartmentalization of the central Everglades, were tied to the 
completion of the Modified Water Deliveries project. Section 
601(b)(D)(iv). ``Decomp'', as it is known, is one of the most critical 
southern end CERP projects, designed to restore original Everglades 
sheetflow by reconnecting the River of Grass. This project cannot be 
implemented until Modified Water Deliveries is completed.
    As we have already mentioned, water management in the East 
Everglades is likely the most disturbing aspect of current restoration 
efforts in the southern end of the system. Using large canals and pumps 
adjacent to Everglades National Park in an effort to satisfy escalating 
stormwater control demands from adjacent agriculture and urban sprawl, 
while minimizing the ancillary effects of such benefits on the water 
quality and water flows of the eastern part of the Park and northeast 
Florida Bay is no doubt a daunting task. The history of the East 
Everglades, culminating most recently in the sidetracking of the C-111 
Project, is a long tale of ``emergency'' or ``temporary'' operations to 
help out a new need, be it tropical fruit tree planting in South Dade 
or subdivision development in west Dade, that--despite harmful impacts 
on the Everglades--are never changed.
    The inability to move forward and build the projects that would 
provide greater opportunities to balance competing interests, such as 
the Modified Water Deliveries project, discussed above, makes it nearly 
impossible to even try to resolve such conflicts. So does an 
unwillingness to try to resolve these problems without broadening the 
base of solutions. Once these authorized projects are constructed, 
flexibility will be built into the system that will provide areas to 
store water, thus reducing harmful water quality impacts to Everglades 
National Park and Florida Bay. Canal elevations can--and must--be 
restored to levels that will not over drain the east Everglades and 
allow water to be sent to Florida Bay with appropriate timing, 
distribution and quality. Once CERP projects and previously authorized 
projects are constructed, the needs of the Everglades, agricultural and 
urban flood control can be better met, IF combined with a willingness 
of these communities to plan development differently and not simply 
expect Federal projects--particularly Federal Everglades restoration 
projects--to take care of all needs. In addition, year-to-year 
operations that continuously change are not supported by any 
constituency with an interest in southern Miami-Dade County, including 
local government, agriculture or environmental stakeholders. Only 
through the completion of the Modified Water Deliveries project and the 
C-111 projects, as originally designed and authorized, can we move to 
this permanent solution that will provide certainty to all interests in 
South Dade.

Land Acquisition
    The integrity of the Comprehensive Everglades Restoration Plan 
(CERP) rests in very large part on the ability to acquire the land 
necessary to implement project components. CERP cannot be successfully 
implemented without an expedited and fully funded land acquisition 
strategy. The State of Florida has committed to providing roughly $1 
billion over a decade for Everglades restoration lands. But this is not 
enough to keep up with extreme development pressure in South Florida. 
It is critical that all land acquisition efforts be accelerated. The 
South Florida Water Management District needs about $1 billion over the 
next 5 years for Everglades lands. Therefore, the Federal Government 
must step forward and assist the State of Florida in fully funding 
accelerated land acquisition for Everglades Restoration. While Congress 
has provided $15 million to the State of Florida for land acquisition 
in Fiscal Year 2002, this fell over $60 million short of what the State 
was prepared to match, resulting in lost opportunities to acquire 
critical real estate within the CERP footprint. Federal land 
acquisition assistance to the State of Florida should be increased to 
at least an additional $25 million each if we are to acquire the most 
critical lands expeditiously. The State of Florida relies on this 
source of Federal funds for opportunistic acquisitions of land that 
suddenly become available. Without the flexibility that Federal 
assistance provides the State to react quickly to acquire property, 
lands that are critical to Everglades restoration will fall into the 
hands of developers lost to development which will preclude restoration 
of those lands and, due to increased land values, dramatically increase 
the overall cost of restoration for both State and Federal taxpayers.
    Without the flexibility that Federal assistance provides for the 
State to react quickly to acquire property, lands that are critical to 
Everglades restoration will fall into the hands of developers, which 
will in turn dramatically increase the overall cost of restoration for 
both State and Federal taxpayers.
    For example, the Water Preserve Areas (WPAs) are some of the most 
significant projects of the CERP. The WPA project creates a buffer 
between the developed and natural areas of Palm Beach, Broward and 
Miami-Dade Counties. Land in the western areas of these counties is 
exponentially increasing in value and all opportunities to acquire 
available, non-developed land must be utilized. There is a race against 
development to purchase these lands and not lose their irreplaceable 
benefits. While significant progress has been made, the pressures of 
price escalation and development increase every day. This is 
illustrated by the following examples:
    <bullet>  WPAs Shrinking Due to Rising Land Costs--As a result of 
the escalation of land costs and funding constraints, Bird Drive 
Recharge Area, Acme Basin B, and the southern compartment of Hillsboro 
Impoundment project components, totaling more than 6,000 acres, have 
already been removed from the WPA Feasibility Study and the current 
implementation schedule for the WPA project. These examples are areas 
that illustrate a trend of price escalation and competition for lands 
necessary for Everglades restoration.
    <bullet>  Allapattah Ranch in Martin County--Just last week the 
final land purchase for this 22,500 ranch was completed, providing a 
significant amount of needed water storage and wetland enhancement in 
one parcel. An opportunity existed to expedite this purchase, and 
because funding was available, it was not lost to development.
    On average, land values in South Florida double every 8 years. 
Development pressures in Palm Beach, Broward, Miami-Dade, and Martin 
Counties stand to jeopardize CERP implementation. Project footprints 
are already being compromised--the Water Preserve Areas are shrinking. 
Water storage and water quality treatment options are being foreclosed. 
The State of Florida needs Federal assistance to fully fund accelerated 
land acquisition for Everglades restoration. By providing additional 
funding for lands now, the Federal Government could actually reduce the 
cost of restoration overall and increase benefits to the Everglades at 
the same time.

                                                                 Land Acquisition Needs
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                Total Expended to        Acres Already      Acres Remaining to be      Remaining Cost
                CERP                   Total Acres Needed       DateCost Estimate           Acquired               Acquired               Estimate
--------------------------------------------------------------------------------------------------------------------------------------------------------
By 2007............................  180,567...............  $1,239,163,000........  75,669.53............  110,000*.............  $ 920,000,000*
By 2010............................  N/A...................  N/A...................  N/A..................  149,000..............  $1,604,000,000**
Total..............................  309,011272,318........  $547,660,216..........  137,917 (45 percent).  215,102..............  $1,685,984,234
                                                             2,221,914,000.........  95,330.53............  176,987.47...........  787,093,000
--------------------------------------------------------------------------------------------------------------------------------------------------------
Source: CERP and SFWMD. 8/23/02
* South Florida Water Management District, CERP Progress Report to the Governing Board (April 10, 2002).
** South Florida Water Management District, CERP Real Estate Expenditures 2001-2010--Detail (August 2001).

    In addition, additional lands in the Everglades Agricultural Area 
must be added to the CERP land acquisition needs. As sugar cane and 
vegetable fields come out of production because of soil subsidence or 
other reasons, funds must be made available to purchase those lands to 
be returned to their original function as natural water storage and to 
prevent urban development of the area, which is in the heart of the 
Everglades.
                               CONCLUSION

    Everglades restoration presents us with an opportunity to undo the 
damage that we ourselves wrought on one of the world's most fragile and 
important ecosystems, and to do so at an unprecedented scale. To 
succeed in this historic effort would stand as one of this nation's 
great achievements. Like all complex endeavors, both the devil and the 
promise lie in the details. The key initial decisions concerning the 
implementation of CERP will establish the balance between urban and 
ecosystem considerations. The care with which these decisions are made 
and the comprehensiveness of the considerations undertaken in them will 
ultimately determine the success or failure of the venture.
    Like any other difficult but important national mission, Everglades 
restoration must be approached boldly and with resolve. The 
construction of highways, dams, and harbors is rarely delayed by 
political uncertainty, bureaucratic hesitancy, and continuous 
reevaluation of goals and objectives. The Everglades cannot afford the 
kind of protracted implementation delays that we have seen on 
previously authorized restoration projects such as the Modified Water 
Deliveries and C-111 projects. Government must move forward with 
confidence and competence, addressing stakeholder concerns head-on in 
an open, honest, and goal-oriented way, allowing the authorized project 
objectives to guide its actions. With leadership and resolve, the 
implementation of CERP could be a model for environmental restoration 
across the Nation, where the needs of people and the environment are 
approached together. Some worry that the project is too ambitious and 
its goals too amorphous to be successful. What better way to make that 
view a self-fulfilling prophecy than to fail to set clear goals and to 
fail to approach CERP as the ambitious national mission it is?
    Restoration of the Everglades deserves the kind of American ``Can 
Do!'' spirit that has defined this nation since its beginnings. As 
America invests in the Everglades, it invests in its future, 
demonstrating to the world that we can act to save the natural systems 
that sustain us, allowing human beings and ecosystems to thrive side by 
side for generations to come.

                               __________
       Statement of Mary Ann Gosa, Florida Farm Bureau Federation

    Mr. Chairman, members of the committee, I am Mary Ann Gosa, 
Assistant Director of Governmental and Community Affairs for the 
Florida Farm Bureau Federation. The 146,000 member families of the 
Federation deeply appreciate the opportunity to present their 
perspectives on the progress being made in implementing the 
Comprehensive Everglades Restoration Project, commonly known as CERP. 
As we are a general farm membership organization, our membership 
reflects the full spectrum of Florida Agriculture, and many of our 
South Florida members are impacted directly by the CERP. We applaud the 
interest of the committee in ensuring that this path-breaking 
restoration effort stays on the course laid out by Title VI of the 
Water Resources Development Act (WRDA) of 2000.

Background
    Title VI of WRDA 2000 was largely the product of the careful work 
of the Environment and Public Works Committee. During its 
deliberations, the committee considered the counsel provided by all of 
the groups interested in the CERP as well as the expert opinion and 
recommendations of the concerned Federal and State of Florida agencies. 
The result is a well-crafted charter and framework for future project 
planning and implementation of a plan that would ensure the 
environmental and economic health of South Florida for the next half 
century. Success of the CERP is essential to the Everglades and to 
South Florida's agriculture and its millions of residents. CERP is also 
a model for all those interested in successful ecological restoration 
worldwide.
    A fundamental requirement in the CERP authorization is that the 
planning of future project components is to address ecological and 
economic water uses in the region in a balanced way. For the plan to 
continue to enjoy the broad political support that was essential to its 
authorization, this principle must be honored as implementation 
proceeds.

Present situation
    Having had the opportunity to work with the Corps of Engineers and 
other agencies for almost 2 years within the legislative framework of 
WRDA 2000, we wish to affirm its soundness and implementability. We 
continue to support Title VI as strongly now as we did in 2000.
    Our support of the authorizing legislation should not be viewed as 
a lack of concern about the implementation of CERP. Implementation of 
the conceptual plan is much more complex than what most of its 
advocates and developers anticipated. In the last 2 years, many lessons 
have been learned, and process of developing the programmatic 
regulations has been an important learning experience for all. The 
Corps of Engineers and its partner, the South Florida Management 
District, are clearly committed to implementing the CERP within the 
congressionally directed guidance provided in Title VI of WRDA 2000.
    One lesson has become especially clear to us. It is absolutely 
essential that the Corps of Engineers and the South Florida Water 
Management District follow the Federal Government's procedures and meet 
all of the Federal requirements for project feasibility studies. The 
scientific and technological uncertainties inherent in the CERP require 
that CERP projects meet the same standards as required for other Civil 
Works projects nation-wide. Congress made all major CERP project 
implementation subject to the completion of feasibility level studies 
and gave specific direction regarding project justification and the 
need for cost-effectiveness in Title VI. Such guidance was prescient in 
anticipating the problems that would be encountered by the Corps in 
going from the broad conceptual plan of its 1999 Restudy of the Central 
and Southern Florida Project to actual project design and 
implementation.
    South Florida farmers, as well as all Floridians, have much at 
stake. For farmers, it is their land, their water and their financial 
resources. Without the additional water provided by CERP projects, 
ecosystems will continue to be unstable and degraded, water for 
domestic purposes will become increasingly inadequate, and agriculture 
will be unable to grow.
    Late last year the Corps released two draft reports, the Indian 
River Lagoon-South Feasibility Study and the Central Southern Florida 
Project Water Preserve Areas Feasibility Study. These two studies, 
which had been underway since 1996, are integral components of 
implementing major elements of the CERP. The Water Preserve Areas study 
is at the center of CERP and contains several CERP components. Review 
of these studies during the public comment period that is required by 
the National Environmental Policy Act provided valuable insights in the 
CERP's implementation challenges. These reports demonstrated the 
difficulty of developing cost-effective, immediately productive project 
components that have to fit into the larger CERP framework. We know 
that the Corps is working to remedy the problems with these major 
projects, which are important to the overall success of the plan as 
well as to the users of the built environment. These planning reports 
have been important learning experiences that, no doubt, have been 
invaluable in helping the Corps to develop important sections of the 
Programmatic Regulations required by Title VI.

The Programmatic Regulations
    One major milestone in the implementation of CERP will be the 
publication of the Programmatic Regulations by the Secretary of the 
Army. The Army and the Corps has worked diligently with the Federal 
Agencies, the State of Florida, the Tribes and the various stakeholder 
groups to develop these regulations. We in the agriculture community 
commend the Corps on its work to date and we look forward to having the 
final regulations in place by next December's deadline. We, of course, 
have specific concerns with the proposed regulations, which we will 
address in our comments to the Corps as provided for in the public 
comment process. Today I will touch upon six broad areas that are 
appropriate for this hearing.

Scope and detail
    One key issue that was addressed during the passage of WRDA was the 
question of the content of these ``new'' programmatic regulations. 
Congress, wisely in our view, clearly and explicitly limited them to 
process matters. The Corps has properly followed Congress's intent in 
this regard and has outlined processes for each of the areas called for 
by the law. Detailing these processes has been more complex than 
anticipated, and many specific steps have yet to be developed and 
articulated. Without the details to be addressed in future guidance 
memorandums, major uncertainties in the implementation process will 
remain. As a group impacted by CERP, we are vitally interested in those 
details and are pleased that the six guidance memorandums, which will 
contain further detail, will be subject to the full public and 
executive branch review process before they become final.
    The most important process, in our view, is the one that will guide 
plan formulation for CERP components. Success of the CERP depends upon 
a systematic planning process that will ensure that each component in 
CERP is cost-effective and produces benefits as it is completed. This 
requirement will ensure that interim performance results are achieved 
and that each investment will be a productive use of public funds 
regardless of how the plan evolves during its several decade-long 
implementation cycle. The Corps proposed process, although lacking in 
the detail that is necessary to give us complete confidence, contains 
all the necessary elements to achieve this result. The process outlined 
in the proposed regulations advances well beyond the Corps initial 
concepts articulated last December and is a reflection of the steep 
slope of the learning curve associated with such a large and complex 
project as CERP.

Interim goals
    The matter of how interim goals should be addressed has been a 
contentious one. There is a great deal of interest of establishing 
restoration performance measures for the plan over time. We share that 
interest and appreciate the fact the proposed processes establishing 
interim goals provide for performance measures for both the natural 
system and the built environment. We would note however that the 
process laid out in the proposed regulation is extremely thin. This 
suggests that developing a reasonable process for interim goals 
requires much additional thought. We believe that interim goals should 
flow from the plan formulation process. Interim goals should represent 
the cumulative impact of successive projects as anticipated in 
individual project implementation reports (PIRs). We are concerned that 
any process that attempts to establish interim goals in advance of 
feasibility studies will be arbitrary and may drive the formulation of 
project components that are not cost-effective. Goals and timetables 
that are not based on an integrated consideration of engineering and 
economic information as well as hydrological and ecological data should 
be avoided. Therefore, a 6-month timeframe to define interim goals in 
terms of water allocations appears to be premature.

Targets for other water-related needs of the region
    The proposed programmatic regulations appropriately outline a 
process for establishing targets for evaluating progress toward 
achieving other water-related needs of the region throughout the 
implementation process. Such targets are important to ensure that the 
balanced purposes of the plan are met and to assure full accountability 
during implementation. They provide all stakeholders with the assurance 
that the overarching objective of the Plan, which is ``the restoration, 
preservation, and protection of the South Florida ecosystem while 
providing for other water-related needs of the region, including water 
supply and flood protection'' will be achieved. We commend the Corps 
for responding to our concerns in this area.

The role of Restoration Coordination and Verification (RECOVER)
    RECOVER is an interdisciplinary, interagency scientific and 
technical team that serves several functions in plan implementation, 
evaluation and adaptation of the CERP. These include ensuring that a 
system-wide perspective is applied and the best available scientific 
and technical information will be used throughout the duration of the 
plan. The proposed regulations attempt to assure the public that 
``Documents prepared by RECOVER are not self-executing and must be 
reviewed, discussed, revised and/or approved by responsible management 
officials . . . as appropriate prior to implementation of management 
responses based on the results and findings therein.'' However, we 
remain concerned that the RECOVER process will lead to decisions that 
do not properly integrate cost effectiveness information and will lead 
to wasteful resource allocation decisions.

Unrealistic deadlines
    The proposed regulations lay out specific deadlines for several 
important follow-on actions. These include the deadlines for interim 
goals, guidance memorandums and the baseline water allocation. Given 
the time required to develop the level of detail in the proposed 
programmatic regulations, we seriously question whether these deadlines 
are realistic. We are very much concerned that these deadlines will 
lead to ill-conceived, arbitrary outcomes or unfair complaints about 
agency commitment to the project as a result of missed deadlines. 
Fundamentally, we are concerned that implementation is carried out in a 
credible matter that will retain the confidence of the public and the 
Congress. Already, There have been unfair criticisms of the agencies 
for taking too long and for ``delaying'' benefits. We hope the agencies 
will not continue to invite such criticisms or drive themselves to bad 
decisions by imposing unworkable timelines.

Role of the Department of the Interior
    The Proposed Regulations give the Department of the Interior a 
concurrence role in the development of the guidance memorandums and in 
the establishment of the pre-CERP baseline water allocation. As the 
committee may be aware, some advocacy groups have argued for an even 
greater role for the Department in CERP implementation. Florida 
agriculture supported the CERP as a project to be implemented under the 
Civil Works program of the Department of the Army. Authority and 
responsibility for all aspects of its implementation must rest with the 
Secretary of the Army and its non-Federal partner, the South Florida 
Water Management District. We believe that any diffusion of that 
responsibility will weaken accountability and create the potential for 
indecision and delay.

Summary
    Title VI of WRDA 2000 is well-constructed legislation that provides 
the framework for responsible implementation of the Comprehensive 
Everglades Restoration Plan. We believe the Corps and the State of 
Florida have shown impressive and effective leadership in project 
implementation. No legislative adjustments are necessary or appropriate 
at this time. The agencies should continue to proceed with the WRDA 
2000 charter, which is guiding the project so effectively. We pledge 
our continued support for the CERP and affirm our willingness to work 
with all stakeholders to ensure that all of South Florida's water 
demands are addressed in a timely and cost-effective manner.
    Mr. Chairman I will be happy to answer any questions you or other 
members of the committee may have.
                                 ______
                                 
 Responses of Maryann Gosa to Additional Questions from Senator Graham

    Question 1.  Can you describe what will happen to the Everglades if 
no action is taken on the CERP?
    Response. Although the Federal Government and the State of Florida 
have several efforts underway outside of CERP that are expected to 
produce significant improvements for the Everglades, CERP is necessary 
to provide restoration of the broader ecosystem.
    The following is a brief description of some of the Everglades 
restoration plans that are currently underway:

    <bullet>  The 1994 Everglades Forever Act (EFA), is primarily a 
water quality improvement plan that puts into place a comprehensive 
approach to improving the quality of water entering the Everglades 
Protection Area. The Act instituted the Everglades Construction Project 
that creates over 42,000 acres of article marshes (Stormwater Treatment 
Areas) designed to cleanse stormwater entering the Everglades. Four of 
the seven Stormwater Treatment Areas are already in operation and the 
final two, totaling almost 20,000 acres, will begin operation next 
year.
    The EFA also requires a Best Management Program for farms in the 
Everglades Agricultural Area that has led to tremendous improvement in 
the quality of stormwater leaving the farms. Although the law required 
a 25 percent reduction in phosphorus in agricultural runoff, the 
growers have been able to attain a reduction in excess of 50 percent. 
This has produced a significant reduction in phosphorus flow to the 
Everglades before any of the stormwater treatment areas were in 
operation. By improving the quality of the water flowing into the 
treatment areas the performance of those projects has been much better 
than expected, leading to major water quality improvement for the 
Everglades.
    At the southern end of the system the Modified Water Delivery and 
the C-111 Projects will correct serious problems facing Everglades 
National Park. These projects have already been authorized and funded 
by Congress, and are expected to correct the most glaring hydrologic 
problems facing the Park, namely the impediments to flow in Shark River 
Slough and the excessive seepage losses from the eastern boundary of 
the Park.
    It is important to note that the consensus of government scientists 
involved in CERP is that these projects, despite their magnitude and 
important benefits, will not achieve the degree of restoration 
necessary for large-scale ecological stability in South Florida. CERP 
will build on these efforts and continue to improve the hydrology 
(timing, distribution, quantity and flow of water) of large areas of 
the Everglades, including a significant increase in the amount of water 
for Everglades National Park and further improvements to the re-
establishment of sheetflow throughout the system. It will also address 
problems with Lake Okeechobee and several coastal estuaries that do not 
presently have sufficient restoration activities in place.

    Question 2.  What actions does Congress need to take in the near 
and distant future to move the CERP forward?
    Response. Congress should provide the full Federal share of the 
funds needed for the pilot projects, which will remove many of the 
project's uncertainties and allow project components that are tied to 
the uncertain technologies to move through the design process. Congress 
should also fund the Federal share of CERP implementation at the rate 
the Corps can productively expend the funds being jointly provided by 
the State of Florida and the Federal Government. Congress should 
authorize projects only as they emerge from the executive branch's 
report development and review process. Premature authorizations deny 
Congress the benefits of full Administration review and may make it 
difficult for such projects to effectively compete for Presidential 
budgetary support. We believe this project is too important not to be 
planned, authorized, funded and implemented in an orderly way.

    Question 3.  Have you had ample opportunity to communicate with the 
Corps on your views regarding programmatic regulations, project 
execution, and other CERP issues?
    Response. The Corps implementation process has been very open. We 
have taken full advantage of the opportunities the Corps has provided 
us to share both our concerns and our technical knowledge and 
experience. We believe the Corps and the South Florida Water Management 
District have benefited from this open process and that a better 
project will result.

    Question 4.  Can you describe your perspective on the inclusion of 
``other-water related needs'' as a project purpose for the CERP? How do 
you envision the balance between this and ecosystem restoration working 
throughout CERP execution?
    Response. Congress approved CERP as a framework for modifying the 
Central and Southern Florida Project to ``restore, preserve, and 
protect the South Florida ecosystem while providing for other water-
related needs of the region including water supply and flood 
protection.'' From Florida agriculture's perspective, this means that 
the project is to provide for all water-related needs in the region 
(water supply and flood protection) and to do so in a timely and cost-
effective manner. The concept of ``balance'' is made operational in the 
Project Implementation Report development process. Each report must 
identify the economic and ecological benefits that will result from the 
project and provide a rationale for the particular mix of benefits to 
be provided. This is why we have placed such emphasis on the plan 
formulation and evaluation process. Congress will then affirm or modify 
that balance as it acts on the executive branch's recommendations. 
Ultimately, the balance of water allocations between ecological and 
other uses that is proposed though the analytical process must be 
affirmed though the political process.

    Question 5.  Here is Ms. Klee's statement with regard to the role 
of the Department of Interior. Can you tell me if you feel the role of 
Interior as articulated by Ms. Klee here is adequate?
    Response. With respect to the role of Interior, we also work very 
closely with Corps to ensure that we would have the ability to ensure 
accountability for the natural resources in south Florida. We are a key 
player on RECOVER. We are a co-chair of in fact four of the sub-teams 
and we are on the leadership team as well.
    We have developed a very good collaborative relationship with the 
State, the district and the Corps and feel that we will be able to play 
a very meaningful role there. Again, as Mr. Brownlee mentioned, we also 
have a concurrence role on the six guidance documents that will be 
developed to establish the more detailed framework for implementation 
of the CERP.
    So we think again on that issue that we will continue to play a 
very important role in implementing CERP down the road.
    We value the expertise within the Department of the Interior and 
the contributions the Department has made in implementing CERP. 
However, responsibility and accountability must ultimately rest with 
the Department of the Army and the non-Federal project sponsor, the 
South Florida Water Management District. We have a serious concern with 
the Department of the Interior's role as outlined in the programmatic 
regulations, which goes well beyond the role indicated by Ms. Klee. The 
proposed regulations expand the concurrence role to the establishment 
of the pre-CERP baseline and propose a new agreement between the 
Secretary of the Army, the Secretary of the Interior and the Governor 
establishing interim performance goals. These two provisions appear to 
circumvent the intent of WRDA and should not be included in the final 
regulations. WRDA states specifically (paragraph 601 (h)(3)(C)(ii) and 
cited in section 385.4 of the draft regulations) that the programmatic 
regulations shall expressly prohibit the requirement for concurrence by 
the Secretary of Interior or the Governor on documents relating to the 
development, implementation, and management of individual features of 
the Plan. The definition of the pre-CERP baseline and Interim Goals are 
so integral to the ``development, implementation, and management of 
individual features of the plan'' that requiring concurrence by DOI and 
the Governor would be inconsistent with the Act.

    Question 6.  According to the Administration's Climate Action 
Report 2002,``. . . the natural ecosystems of the Arctic, Great Lakes, 
Great Basin, and Southeast, and the prairie potholes of the Great 
Plains appear highly vulnerable to the projected changes in climate.'' 
In addition, that report says due to a projected rate of sea level rise 
from 4-35 inches over the next century, with mid-range values more 
likely, estuaries, wetlands and shorelines along the Atlantic and Gulf 
coasts are especially vulnerable. What consideration has been given in 
the development of the long-term plan for restoration of the Everglades 
to the effects of global warming and sea-level rise?
    Response. CERP is a plan to restore the hydrology of a major 
portion of the historic Everglades. Climate change and rising sea 
levels are additional elements of uncertainty in a vision of a restored 
ecosystem and are briefly discussed in the 1999 Integrated Feasibility 
Report. With the restored water quantity, quality, timing and 
distribution, a more stable ecosystem is expected. Climate change and 
rising sea levels may change the character of that system over time, 
however those changes will occur in the context of a hydrologic regime 
that is closer to the predevelopment one that is presently the case.
                                 ______
                                 
Responses of Maryann Gosa to an Additional Question from Senator Inhofe
    Question 1.  Numerous questions concerning the 8.5 Square Mile 
Area, which is a feature of the Project for Modified Water Deliveries 
to Everglades National Park.
    Response. Many of these questions require specific information that 
is not available to the Farm Bureau. Other questions, such as how one 
plan or another would affect Everglades restoration, raise subjects 
that we have historically viewed as being outside the normal purview of 
our organization. However, the Modified Water Delivery Project (MWDP), 
of which the 8.5 Square Mile Area (8.5 SMA) is one component, is of 
great interest to the large and economically important agricultural 
economy of southern Miami-Dade County for one very important reason: it 
was designed to be the cornerstone of the solution to the persistent 
flooding problems that have plagued the area.
    One of the serious problems that the MWDP is designed to correct is 
the uncontrolled seepage of water out of Everglades National Park and 
into the canal system that serves the agricultural area in south Miami-
Dade. This problem was created in the 1970's with the construction of 
the South Dade Conveyance System by the Corps of Engineers in an 
attempt to fix what they, and Congress, then thought was a problem for 
the Park. Unfortunately the fix turned out to be worse than the 
problem, not only for private property outside the Park, but especially 
for the Park itself.
    In the 1980's, the farmers participated, along with all other 
agency and public interest groups, in several public, government 
sponsored efforts to identify and correct the problems. The result was 
the ENP Expansion Act of 1989, which directed the Corps to construct 
the MWDP. Farmers have been waiting for the construction of the 
project, patiently at first, but now with growing frustration. The 
Department of Interior has steadfastly refused to release the funding 
for the project that Congress approved, and DOI endorsed, in 1989. Last 
year a new design for the 8.5 SMA was chosen, Alternative 6D, which the 
Federal court has determined that the Corps does not have the legal 
authority to construct.
    On a personal basis most of our members sympathize with the 
property owners in the 8.5 SMA who have suffered serious hardship for 
the last 20 years, only to have what they thought would be their 
salvation, the MWDP, be at first delayed and then redesigned in a way 
that shrinks and disrupts their community. On a practical basis the 
growers in south Dade are desperate for improved flood protection and 
fear that they are looking at another decade of gridlock. We are also 
concerned that Alternative 6D may not provide the protection from 
downstream flooding that was promised by the MDWP. The water collected 
from the 8.5 SMA, which was pumped back into the Park under the 
original plan will now be pumped south to an impoundment adjacent to 
our most important flood protection canal. We are concerned that the 
seepage problem has only been relocated, not resolved.
    The Corps has yet to publish the design and operational details 
showing how the Alternative 6D plan will affect the downstream areas 
that will now receive the water. If they can produce a technically 
sound, operationally reliable plan that will not be subject to constant 
change, as has been our recent history, we are prepared to move 
forward. We are very reluctant to endorse the construction of 
Alternative 6D until we have assurances that this can be done.

                                 <all>

</pre></body></html>
